<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                   LEGISLATIVE BRANCH APPROPRIATIONS
                                FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                ________

                   SUBCOMMITTEE ON LEGISLATIVE BRANCH
                DEBBIE WASSERMAN SCHULTZ, Florida, Chair
 MICHAEL HONDA, California                ROBERT B. ADERHOLT, Alabama
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland   STEVEN C. LaTOURETTE, Ohio
 CIRO RODRIGUEZ, Texas                    TOM COLE, Oklahoma
 LINCOLN DAVIS, Tennessee                 
 PATRICK J. MURPHY, Pennsylvania    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                     Shalanda Young and Shawn Choy,
                            Staff Assistants

                                ________

                                 PART 2

                   FISCAL YEAR 2011 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ________

         Printed for the use of the Committee on Appropriations





                   LEGISLATIVE BRANCH APPROPRIATIONS
                                FOR 2011
_______________________________________________________________________

                                HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION


                                ________

                   SUBCOMMITTEE ON LEGISLATIVE BRANCH
                DEBBIE WASSERMAN SCHULTZ, Florida, Chair
 MICHAEL HONDA, California                ROBERT B. ADERHOLT, Alabama
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland   STEVEN C. LaTOURETTE, Ohio
 CIRO RODRIGUEZ, Texas                    TOM COLE, Oklahoma
 LINCOLN DAVIS, Tennessee                 
 PATRICK J. MURPHY, Pennsylvania    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                     Shalanda Young and Shawn Choy,
                            Staff Assistants

                                ________

                                 PART 2

                   FISCAL YEAR 2011 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-678                     WASHINGTON : 2010





                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington             JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia         C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                      HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana             FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                 JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York               RODNEY P. FRELINGHUYSEN, New   
 ROSA L. DeLAURO, Connecticut            Jersey
 JAMES P. MORAN, Virginia                TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts            ZACH WAMP, Tennessee
 ED PASTOR, Arizona                      TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina          ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                     JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island        KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York            MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California       JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                    MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois         ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan         DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                     JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania              RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey           KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia         JO BONNER, Alabama
 MARION BERRY, Arkansas                  STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California                 TOM COLE, Oklahoma
 ADAM SCHIFF, California                 
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 PATRICK J. MURPHY, Pennsylvania    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page
Testimony of Members of Congress and Other Interested Individuals 
  and Organizations..............................................     1

U.S. House of Representatives....................................   117

Fiscal Year 2011 Budgets of the Government Accountability Office, 
  the Congressional Budget Office, and the Office of Compliance..   189

Fiscal Year 2011 Budget of the Architect of the Capitol and 
  Infrastructure Needs...........................................   261

U.S. Capitol Police Fiscal Year 2011 Budget Request..............   307

Library of Congress..............................................   372

Open World Leadership Center.....................................   423

U.S. Government Printing Office..................................   443

                                 (iii)

 
               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2011


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                             

                                      Wednesday, February 24, 2010.

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Good morning. If I could call the 
first hearing of the Legislative Branch Subcommittee of the 
House Committee on Appropriations for the 2011 fiscal year to 
order. It is a pleasure to be back and starting the 
appropriations season once again.
    Before we start, I want to just do a little bit of 
housekeeping.
    At the end of the last appropriations cycle, I am not sure 
that we actually got to acknowledge Mike Stephens and his 
retirement on his way out. But Mike Stephens has started his 
well-earned retirement; and, as a result, we have a new clerk 
who was already with the subcommittee, Shalanda Young. She has 
already proven very capable and is doing a fantastic job and 
has got us well on our way to having a productive 
appropriations season.
    So welcome, Shalanda, we look forward to continuing to work 
with you.
    I also want to introduce Shawn Choy, who comes to the 
Committee from OMB and has done a stint with the House in the 
past and is now back as a member of the Committee staff.
    And in addition to that, I want to welcome back Matt 
Glassman, who is again on loan to us from CRS, a glutton for 
punishment. I guess we didn't torture him too much last year, 
so he decided to do another stint. So thank you very much, 
Matt.
    It has really always bothered me in the last couple of 
appropriation cycles that we were hearing from the public 
witnesses, from the employees essentially of the legislative 
branch agencies at the end of the hearing process and when I 
really felt like our hands were pretty tied when it came to 
incorporating any of the input that you would provide. So, 
essentially, when the budget was just about to bed, then we 
were hearing from you. And it just seemed very token, and I 
don't want this hearing or your input to be considered in a 
token way. So I thought we should start the hearing process 
with the public witness hearing so that we can incorporate your 
comments and concerns into the end product--as well as the 
Members' concerns into the legislative branch budget as we 
dealt with it. I know that it has compressed the time in which 
a lot of you usually expect to have to get your testimony 
ready. So I appreciate the accommodation, but know that it was 
done in your interest.
    I also appreciate the Members who have joined us this 
morning and their interest in giving the Subcommittee some 
input.
    In addition to Congressman Holt and Congressman Heller, the 
public witnesses today will be Dr. Ronald La Due Lake, 
President of GAO's Employees Organization; Dr. Francesca Grifo, 
the Director of Scientific Integrity Programs in the Union of 
Concerned Scientists; Ms. Mary Alice Baish, a veteran of the 
public witness hearing, the Director of Government Relations 
Office and the American Association of Law Libraries; Mr. 
Dennis Roth, the President of the Congressional Research 
Employees Association; Mr. Carl Saperstein, Guild of 
Professional Tour Guides of Washington, D.C.; Alvin Hardwick 
with the GPO Police Labor Committee; Jesse Hartle with the 
National Federation of the Blind; Saul Schniderman, President 
of the Library of Congress Professional Guild; and Mr. Jim 
Konczos, Chairman of the Fraternal Order of Police Labor 
Committee.
    In a moment, we will begin with Mr. Holt, but I would ask 
each of the individuals testifying in front of the subcommittee 
to limit your remarks to 5 minutes and provide a summary of 
your statement. Your statements will all be entered into the 
record without objection.
    As you can see, we have a line for the first time in my 
experience with this committee. It is not that we don't love 
spending time with you, but after you are done testifying, 
since we are in a relatively small room, if you could depart 
the room so that another person can take your seat, that would 
be incredibly helpful.
    With that, I look forward to hearing from everyone; and I 
yield to Mr. Aderholt for his remarks.

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. Thank you, Madam Chair.
    I just want to say I am looking forward again this year to 
working closely on this legislative branch appropriation bill. 
This will be a little bit different from last year because last 
year was my first year on the committee and first year as 
ranking member. So I have got a little bit of training now, so 
I am ready to hit the ground running. I am looking forward to 
working with the 2011 budget in a bipartisan way. I want to try 
to make sure that we get our bill passed, get it to the floor 
and get it to the President's desk. So thank you very much.
    Ms. Wasserman Schultz. Great.
    Do any other members have any opening remarks? No.
    With that, Congressman Holt, you are welcome to summarize 
your 5-minute statement.
                                      Wednesday, February 24, 2010.

                 OFFICE OF TECHNOLOGY ASSESSMENT (OTA)


                                WITNESS

HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY

  Testimony of Rep. Holt on Re-establishing the Office of Technology 
                               Assessment

    Mr. Holt. Thank you, Madam Chairwoman and members of the 
committee. I appreciate the opportunity to come before you 
again to express my strong support for the refunding of the 
Congressional Office of Technology Assessment, formally and 
popularly known as OTA.
    I have shared my views with you in the past, as have 
others, and I would like to try to put my thoughts in the 
context of some of our recent work. I don't intend to repeat 
how OTA was organized and funded.
    I do call your attention to--I notice a witness today, 
Francesca Grifo, will be talking about some of the nuts and 
bolts of the Office of Technology Assessment.
    I would like you to consider some of the issues that have 
come before Congress recently: health IT, clean coal, carbon 
sequestration, climate monitoring, cybersecurity, financial 
derivatives and whether they distribute or concentrate risk, 
ultrafast securities trading, nuclear proliferation, 
bioterrorism, including anthrax, transportation safety, the 
reliability of voting procedures, pharmaceutical contamination 
of drinking water, screening of meat for contamination, plant 
security, the role of technology and job creation, remote 
sensing, drone surveillance and security of no-fly databases. 
And the list could go on all day. Each of these issues and 
almost every other that comes before Congress has scientific 
and technological components.
    A point I want to make is that often I hear people say, 
``OTA, oh, yes, that dealt with science issues.'' What we need 
in this Congress is help not so much dealing with the issues 
that are referred to the Science Committee or even to the 
Committee on Energy and Commerce but the myriad of other issues 
that come before us that have scientific and technological 
components. Each deserves careful scrutiny for Congress to take 
action; our challenge is to find ways to gauge the validity, 
credibility, usefulness of the overwhelming amount of 
information we already receive.
    OTA did that. We need it badly. OTA didn't make legislation 
or provide the wisdom to make legislation. The political wisdom 
comes from you, from us, from the people whom we represent. OTA 
illuminated and informed the legislating.
    Now, consider a few of the ways that OTA contributed to the 
business of Congress during its existence:
    A report called Losing a Million Minds became essential in 
development of Alzheimer's policy in America. That was not 
considered a ``science-y'' topic.
    An early report on genetics in the workplace sowed the 
seeds for the Genetic Nondiscrimination Act. Again, that is 
workplace protection.
    A report on life after the Cold War was used to shape the 
Defense Authorization and Appropriation Acts for several years 
in the mid 1990s.
    A report on electronic delivery of Federal services 
contributed to the Food Stamp Fraud Reduction Act.
    That OTA almost certainly was a cost saver is well 
documented:
    A report on the Advanced Liquid Metal Reactor was 
explicitly cited by the Appropriation Committee's decision to 
discontinue funding.
    The House Appropriations Committee cited findings in the 
OTA report that led to changes and upgrades in the computer 
systems of the Social Security Administration, resulting in 
savings of $360 million. That would pay for OTA for quite a 
while.
    Studies on the Synthetic Fuels Corporation raised important 
questions, and the subsequent abolishment of a program that was 
not yet ready for prime time saved billions of dollars.
    Also consider the enduring relevance of some of the studies 
that OTA produced before it was shuttered more than a decade 
and a half ago, I guess:
    In the area of health care, OTA provided at least 11 
reports on cancer, 14 on HIV/AIDS, 6 on women's health. There 
were reports about bringing health care on line--remember, this 
was before 1995--financing hospitals, drug bioequivalence, the 
impacts of antibiotic resistant bacteria.
    Now, in every case, did it lead to wise legislation? No. 
But in many cases it did, and in many cases it would.
    In the energy arena, a 1995 report entitled Renewing our 
Energy Future included assessments of fuel sources, including 
corn ethanol and other biofuels. Most Members of Congress 
hadn't heard of these things until a decade later. There was an 
entire report dedicated to potential environmental impacts of 
bioenergy crop production. Our debate with Cash for Clunkers 
would have been informed by a likely update we would have had, 
if OTA had been in existence more recently of a 1992 report on 
saving gasoline and reducing emissions by retiring old cars.
    Similarly, our efforts to boost our economic 
competitiveness might benefit from a re-reading of OTA's report 
entitled Innovation and Commercialization of Emerging 
Technologies.
    In light of our current work, perhaps some other titles 
will interest you: The Effectiveness of Research and 
Experimentation Tax Credits; Information Security and Privacy 
in Network Environments; Testing in America's Schools: Asking 
the Right Questions; Selected Technology Uses in U.S. 
Aquaculture; Making Government Work: Electronic Delivery of 
Federal Services; Export Controls and Nonproliferation Policy; 
and Electronic Surveillance.
    OTA helped keep Congress a little bit ahead of where it 
would be otherwise. And over the last 15 years, we have not 
been ahead of the game. I would remind you that each of these 
reports was written prior to 1995. One of OTA's greatest 
strengths was that it helped provide long-term, forward-looking 
perspective to an institution that so often must focus almost 
exclusively on the here and now. Wireless Technologies and the 
National Information Infrastructure, a report prepared before 
you owned Blackberries.
    Madam Chairwoman, members of the Committee, you stated in 
last year's appropriations bill that you were providing a 
``got-to-have'', not ``nice-to-have'' appropriation. Like you, 
I appreciate our current economic situation and the budget 
constraints. Yet I also know that in OTA's absence in this 
institution of the House of Representatives and the U.S. 
Senate--because OTA was a creature of Congress--the 
institution's need for its work has only grown more acute. In 
recent times, we, legislators, have not brought great credit to 
ourselves in our ability to deal with science and technology 
issues or to recognize emerging trends or implications of 
technology. Our constituents understand that the work done here 
involves subtlety and complexity. They know it is 
consequential.
    I think we have all heard their concerns about our capacity 
to deal with the great challenges. It is time that we try to 
put the public's faith back in our work and our ability to 
represent them. It has been clearly shaken. We have an 
opportunity to restore some of the American people's confidence 
that we have the information to make informed, well-reasoned 
decisions in a complex world. OTA is in the got-to-have 
category.
    Thank you.
    [Representative Holt's prepared statement follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           OTA AUTHORIZATION

    Ms. Wasserman Schultz. Thank you very much.
    Congressman Holt, the only thing--and we talked about this 
yesterday, but I wanted to make sure I said it on the record as 
well. I think it would be really helpful if as a member of the 
Science Committee you encouraged the chairman to take a look at 
the underlying authorizing law which is still on the books. It 
established OTA, and we simply don't fund OTA at this point 
because it probably needs to be updated and refreshed for the 
21st century.
    And I think that would add--as you know, I totally agree 
with you and believe that we should begin to ramp up OTA again 
and it would be incredibly helpful. We do have arguably a 
paltry amount of $2.5 million in GAO for the current studies 
that you are talking about, but I know it is dramatically 
different than the way OTA used to handle them. This being 
difficult economic times, it is hard for me to characterize OTA 
at the level that it was in its heyday, $20 million, as a got-
to-have. I would like there to be some momentum behind it so 
that I can have other members be also saying that it is a got-
to-have, and then I think we will have some wind at our backs 
and more impetus to be able to include a ramp-up of OTA in our 
budget and future budgets.
    So if you could do that and take that up with Chairman 
Gordon, that would be incredibly helpful.
    Mr. Holt. I will take this up with every Member of Congress 
who is willing to listen.
    Ms. Wasserman Schultz. And I am happy to talk to Chairman 
Gordon as well.
    Mr. Aderholt.

                     BASIS FOR OTA'S ESTABLISHMENT

    Mr. Aderholt. I was just wondering--you may have mentioned 
this before, but I have forgotten. It was 1972 is when the 
office was first implemented?
    Mr. Holt. That is right.
    Mr. Aderholt. What sparked the inception at that time of 
the office of OTA?
    Mr. Holt. There have been several things written about it. 
I don't have the references here right now.
    It was a general recognition that, as I was trying to lay 
out in my remarks, that almost everything we did here in 
Congress was affected by or had facets of technology; and we 
did not have, partly by the typical background of legislators 
and partly by the organization of the House and Senate that had 
grown up over centuries, the ability to really assess the 
technological components of these issues before us. And it was 
designed to do really what it did.
    So partly in answer to the Chairman's remarks, I would say 
the authorized structure of OTA worked remarkably well to 
accomplish what it was intended to do.
    Mr. Aderholt. Okay. Well, thank you.
    Ms. Wasserman Schultz. Mr. Cole.

                       BUDGETARY OFFSETS FOR OTA

    Mr. Cole. Thank you, Madam Chairman.
    Convincing case as always. But one question, and I don't 
mean to be contrary because I do think you make a very 
convincing case. But we are going to have one tough budget 
decision after another at every level on all of these 
committees; and so, if we were to refund this program, where 
would you suggest the things that we do now that you would 
reduce money so we could fund it?
    Because I think we are going to run into this again and 
again, and I know I will be putting this question--I think all 
the members will--if anybody is coming to ask for more money, 
where would you cut so we can get you more money, redeploy the 
resources, as opposed to going back for an increase that would 
be hard to get?
    Mr. Holt. A couple of times in the past when we have tried 
to find funding at the time of floor consideration we just kind 
of sort of grabbed at funding that, well, has made some people 
sore; and that was because it was not built in at the beginning 
as the appropriations bill was put together, as is always the 
case when you try to do something on the floor.
    I think there is no one place that I see that is a 
tradeoff, where I would say, well, if only we put a few million 
dollars in OTA instead of this we would be able to make up for 
all the work that would have been done in that other category. 
So my recommendation is a more general reduction in a variety 
of areas, but that is the committee's challenge.
    Mr. Cole. I think it will be Congress's challenge as we go 
forward really across the board. And it doesn't mean to me if 
you were to pick something that it would be a waste of money 
here. It is just a question of competing values in many of 
these cases and tough choices. So I will give it some thought, 
because it is always easy to say we will just cut everything 
else by a quarter of a percent or something.
    Mr. Holt. We are talking about a very small fraction of the 
allocation to this subcommittee.
    Mr. Cole. But if you said that, then you could say that it 
should be very easy for you to find something.
    Mr. Holt. I also do want to make the point that I made in 
passing, that there are demonstrated savings in the past that 
are directly attributable to the work of OTA in the hundreds of 
millions of dollars at least.
    Ms. Wasserman Schultz. Would the gentleman yield?
    Mr. Cole. I certainly will.
    Ms. Wasserman Schultz. Mr. Cole, if there was interest--
first of all, I would actually ask that all the Subcommittee 
members, if there is interest in trying to begin to ramp up 
OTA--we can't do $20 million overnight.
    Mr. Holt. If I may interject. You wouldn't want to. You 
wouldn't want to do it overnight.
    Ms. Wasserman Schultz. We would need to gradually do it. 
But I would ask you to help examine our budget and see where we 
might. Because I think there is value and we have been talking 
about it since the subcommittee was reconstituted.
    I have some ideas on where we might make reductions. And if 
you want to help scrub the budget, that would be great. That 
would be incredibly helpful.
    Thank you so much. As always, you are a passionate advocate 
on this issue--and unrelenting, I might add.
    Mr. Cole. Persistence.
    Ms. Wasserman Schultz. Thank you.
                              ----------                              --
--------

                                      Wednesday, February 24, 2010.

         THE REDUCTION OF IRRESPONSIBLE MRA OR TRIM GROWTH ACT


                                WITNESS

HON. DEAN HELLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEVADA
    Ms. Wasserman Schultz. Mr. Heller.
    Mr. Heller. Thank you.
    Ms. Wasserman Schultz. You may proceed with your 5-minute 
statement, and your statement will be entered into the record.
    Mr. Heller. Thank you. Maybe I can help solve some of the 
problems here.

     Testimony of Rep. Heller on Member Representational Allowances

    I want to thank you, Madam Chairwoman, for having me here 
today at the committee. Ranking member, thanks for your time 
and allowing me to spend a few minutes with you.
    As mentioned, I am Dean Heller from the Second District of 
Nevada; and I don't have to tell this Committee how families 
are struggling financially across this country. I have a 
district right now that some of the counties are at 16 percent 
unemployment; and that is pure unemployment, not the 
underemployed. You start looking at some of the underemployment 
numbers, we are probably at around 18 to 20 percent. Some of my 
counties, the statewide number is hovering at 13 percent, well 
above the national average which is at 9.7; and the current 
unemployment rate is the highest joblessness rate since we 
began keeping records in 1976.
    It is tough out there. And, again, I don't have to tell 
this Committee how rough it is out there. But for those who 
know Las Vegas and the rest of the State of Nevada, 
foreclosures have hit us pretty hard. I think we are the number 
one State in foreclosures right now.
    So I guess my point is that those who are lucky enough to 
have a job are having to make some pretty tough decisions. 
Across the country, moms and dads are sitting across the 
kitchen table now trying to make the necessary decisions with 
their current budget restraints to figure out how to pay their 
own bills; and, meanwhile, our Nation as a whole is facing a 
debt of more than $12 trillion. If you take this budget that 
came from the White House, we are going to increase that by 
$1.6 trillion. So closer to a $14 trillion debt.
    I don't believe that these financial challenges that we 
have can be solved in one day or with one appropriations bill 
or even one presidency, but I do believe that we as individual 
Members of Congress must lead by example and demonstrate fiscal 
responsibility just like those families that have to make these 
tough decisions at the kitchen table. Until this Congress 
addresses the fundamental challenges facing our economy, I 
believe we need to start feeling the same pain as the American 
people.
    When it comes to our own office budgets, Congress has spent 
without regard for our constituents' hardships. For example, 
our MRA, Members Representational Allowances, have increased 49 
percent since 2000 for a total of $202 million in the recent 
decade. $202 million doesn't sound like a lot of money when we 
talk trillions in these halls. But to give you an example, 
Nevada went into a special session yesterday to fill in an $800 
million hole in their budget, and obviously the 202 would be 25 
percent of the problem. So for what may not be a lot of problem 
for Congress, it is certainly a lot of money for the State of 
Nevada.
    I can tell you that my office could easily use an MRA 
increase. My district is 105,000 square miles. It takes me 15 
hours to drive from one end of my district to the other. I have 
about 95 percent of the entire State, including portions of Las 
Vegas. Traveling my largely rural district, staying in touch 
with my constituents takes a significant amount of MRA funds. 
But many of my constituents, and many of yours, are making do 
with less than they had last year; and as public servants I 
think we have a responsibility to do the same. For this reason, 
I strongly urge the subcommittee to maintain level MRA funding 
for fiscal year 2011.
    I also would like Congress to consider legislation that I 
introduced, the Reduction of Irresponsible MRA or the TRIM 
Growth Act, to prevent the MRA from increasing during times of 
high unemployment or public debt. The TRIM Growth Act would 
prevent the MRA from increasing unless national unemployment is 
6 percent or less for at least 6 months, consistent with the 
unemployment levels of the 1990s, or Congress reduces the 
national debt to less than $5.5 trillion, which was a reduction 
of 20 percent at the time this bill was drafted.
    Madam Chairwoman and members of the subcommittee, I hope 
that you will consider the economic realities of this country 
that we are facing as you craft the fiscal year 2011 
legislative branch appropriations bill. Give this Congress a 
chance to lead by example with commonsense fiscal 
responsibility. Let us tell those Americans who are figuring 
out their family budgets at the kitchen table today, let us 
tell them that they are not alone.
    I thank the subcommittee for its time and the opportunity 
to speak on behalf of my constituents. Thank you.
    [Representative Heller's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Wasserman Schultz. Thank you very much.
    Mr. Heller. You are welcome.
    Ms. Wasserman Schultz. Do any members have any questions? I 
don't have any questions.
    Mr. Aderholt. Thank you for your testimony.
    Ms. Wasserman Schultz. Thank you very much.
    Mr. Heller. You are welcome.
    Ms. Wasserman Schultz. We appreciate your dedication.
    Mr. Heller. You are welcome.
    Ms. Wasserman Schultz. Now that concludes Panel 1.
                              ----------                              --
--------

                                      Wednesday, February 24, 2010.

                       GAO EMPLOYEES ORGANIZATION


                                WITNESS

RONALD LA DUE LAKE, PRESIDENT, GAO EMPLOYEES ORGANIZATION
    Ms. Wasserman Schultz. We will begin with the public 
witnesses from Panel 2; and Dr. Ronald La Due Lake, who is the 
President of the GAO Employees Organization, will be first.
    I know you have to get back to the negotiating table, so we 
appreciate your accommodating our schedule. You can proceed 
with a summary of your 5-minute statement, and your statement 
will be entered into the record. Welcome back to the 
Subcommittee.

                  Testimony of Dr. Ronald La Due Lake

    Mr. La Due Lake. Thank you. Thank you very much. It is a 
pleasure to be here.
    I am Ronald La Due Lake. I am a methodologist in GAO's 
applied research and methods team. I am also the President of 
the GAO Employees Organization, IFPTE Local 1921. I am pleased 
to have the opportunity to appear here before the Subcommittee. 
Thank you, Madam Chair Wasserman Schultz, for your genuine 
support of Federal employees.
    This has been a demanding year for GAO employees. GAO has 
been charged by Congress with oversight of the Troubled Assets 
Relief Program, as well as of the American Recovery and 
Reinvestment Act. Employees at GAO have not only met the vast 
demands of this oversight work but have nimbly adapted to 
conduct their regular work to meet the needs of Congress. I am 
very proud to be representing them here today.
    We are very grateful for the generous support provided to 
GAO in the fiscal year 2010 budget. We are very sensitive to 
the fact that this committee and the Congress will be faced 
with extremely difficult decisions regarding the 2011 Federal 
budget. We ask that as the Subcommittee moves through the 
appropriations process that GAO receive sufficient resources to 
continue the important work for Congress and for employees to 
be paid comparable to their colleagues in other Federal 
agencies.
    Our first master contract negotiations at GAO are currently 
under way. As you mentioned, we took a break this morning so I 
could be here today. We are pleased that the agency agreed to 
our proposal to use an alternative interest-based process in 
these negotiations, where we share our interests with each 
other and work collaboratively to develop solutions that meet 
the needs of both parties.
    GAO management has repeatedly expressed satisfaction with 
the tenor of the negotiation and the value of having a 
facilitator assist with the process. We hope to continue with 
this facilitator for the time necessary to complete the 
contract.
    Not all negotiations have gone as well. The GAO Human 
Capital Reform Act of 2004 delinked GAO pay from the General 
Schedule and provided the Comptroller General the authority to 
set pay. As a result, since the union was established, pay is a 
matter for collective bargaining.
    We are concerned that recent pay negotiations have been 
decidedly one-sided. In the case of the negotiation over this 
year's merit pay for employees, after a few hours at the 
bargaining table it seemed to us that management had made its 
final offer and was not interested in continuing and in the 
subsequent weeks of negotiation and even in mediation refused 
to offer any concessions.
    We believe that we have made every effort to be proactive, 
reasonable, and willing to listen to GAO management's concerns. 
We have demonstrated this by having made significant 
concessions in our original proposals in an effort to reach 
agreement.
    It appears to us that GAO management has not engaged us as 
an equal partner during these pay negotiations. Both parties 
have agreed that this year's pay negotiations are at an 
impasse, and it is now before the Personnel Appeals Board. The 
Personnel Appeals Board, or the PAB, is the independent entity 
that is charged with handling negotiation impasses and matters 
of negotiability for GAO management and the union. We are 
concerned about the PAB process for handling the impasse in 
merit pay negotiations.
    The PAB has yet to establish the rules or processes for 
conducting impasse or negotiability procedures for the parties. 
This is of particular concern to us because the impasse process 
for other Federal employees at the Federal Service Impasses 
Panel is well established, well tested, it is predictable, and 
it may be accomplished in a timely manner.
    What should be a routine and predictable process is now, 
for GAO employees, a highly uncertain one. This matter to go to 
the PAB is a critical one. It is the first one that has gone to 
the PAB, and GAO employees in the bargaining unit are anxiously 
waiting for this issue to be finalized so they can see their 
merit pay increase reflected in their paychecks.
    In closing, I would like to reiterate our appreciation for 
the opportunity to testify today. All of my colleagues at GAO 
are very appreciative of the recognition and support by this 
Subcommittee. I would be pleased to answer any questions that 
you or other members may have.
    [Mr. La Due Lake's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                     MERIT PAY NEGOTIATION IMPASSE

    Ms. Wasserman Schultz. Thank you, Dr. La Due Lake.
    You are saying the PAB hasn't even established procedures 
for which they are going to consider the impasse?
    Mr. La Due Lake. There is an order, the equivalent of a 
regulation, that lays out a general policy for how impasse will 
be handled. So we have a general framework that is spelled out 
in an order that was developed in the early 1990s, but there 
are no specific procedures or regulations for what the steps 
will be in going through that process. So, for instance, how 
people are notified, when they are notified, whether there are 
opportunities to request extensions and time to provide 
information, how a committee might be assembled, when it will 
meet.
    Ms. Wasserman Schultz. When are they planning to establish 
those procedures?
    Mr. La Due Lake. It appears to us they are developing these 
as they go.
    We first sent a joint e-mail--management and the union sent 
a joint e-mail to the PAB the end of January, I believe January 
29th, saying the parties believe we are in impasse and we 
should begin this process. A month later, we have been asked to 
submit names for a committee that will work with the PAB in 
determining whether there is impasse and making decisions about 
moving forward. We have been asked to provide some basic 
information about the matters at impasse and----
    Ms. Wasserman Schultz. Is management as concerned about the 
fact that there aren't procedures in place?
    Mr. La Due Lake. I cannot speak for them. I think so. 
Absolutely.
    Ms. Wasserman Schultz. How can we help the process along?
    Mr. La Due Lake. That is a difficult one. The PAB is very 
concerned about moving carefully since we have not gone through 
this process before. However, there is well-established 
processes for this that are very routine for other Federal 
employees.
    Ms. Wasserman Schultz. Okay. And then I am glad that the 
contract negotiations are going well. But what is the holdup on 
the pay raise? That is a long time without----
    Mr. La Due Lake. It is a long time. Now, remember, there 
are two types of pay that we receive at GAO. We receive an 
across-the-board and then we receive merit pay, which we call 
performance-based compensation. The across-the-board is also 
negotiated, and this year we agreed that it would be the 
equivalent to the GS across-the-board raise by locality. That 
has been implemented in the first pay period.
    The performance-based compensation we did not reach 
agreement. It seems to us that from the beginning GAO--and this 
may not be unusual when we consider other kinds of 
negotiations--GAO had a target number in mind. We certainly did 
as well. And we went into this with room for a lot of movement 
to reach agreement.
    It has worked well the last 2 years, the first 2 years, 
actually, that we had negotiated pay. We have been able to 
reach an agreement that we felt was reasonable, appropriate, 
met everybody's need, et cetera.
    But in this instance, after a very short time at the table, 
GAO said we think we are at impasse, we don't think it makes 
sense to meet any further; and they took the unusual step, 
based on our last 2 years of experience, of saying, as a matter 
of fact, we are going to make a determination and pay all of 
the employees not in the bargaining unit the 1st of January. 
And they went ahead and did that and also let the other 
employees know that if there is a different agreement as a 
result of this negotiation process they process their--any 
additional corrections to their pay retroactively.
    So that step was a very new one but definitely in our view 
was a strong message to us that this is not a matter we 
consider negotiable this year.
    Ms. Wasserman Schultz. The retroactive piece?
    Mr. La Due Lake. The fact they went ahead and made a 
determination for the amount of merit pay other employees would 
receive without reaching an agreement with us.
    Ms. Wasserman Schultz. And just why is this you are so 
different when the previous 2 years you have been able to--are 
they proposing something dramatically different from the way 
merit pay has been treated in the past?
    Mr. La Due Lake. They are proposing something that is 
significantly lower than the last couple of years. That has 
been surprising to us considering the generous appropriation 
for 2010 for GAO and particularly since, as a result of the GAO 
Act of 2008, the agency receives increased income through 
reimbursement of certain audits. So this has been very 
surprising to us. It was a significant appropriation last year, 
and it is almost the lowest raise for performance-based pay 
that has been offered in the last 6 years.
    Ms. Wasserman Schultz. Okay.
    Mr. La Due Lake. So to us it seems out of whack with the 
budget reality, and we have not been able to understand it.
    Ms. Wasserman Schultz. I am sorry.
    Just one more question. And have they explained to you why 
they are proposing such----
    Mr. La Due Lake. They certainly explained concerns about 
the overall economic conditions that the U.S. faces today. 
Beyond that, we have not understood that.
    Ms. Wasserman Schultz. But internally they got a 
significant increase? So their economics hasn't suffered so 
much.
    Mr. La Due Lake. We understand that.
    Ms. Wasserman Schultz. Okay. Mr. Aderholt.
    Mr. Aderholt. When did you say the impasse came to a head?
    Mr. La Due Lake. Well, we met through the beginning of 
January. We jointly agreed to bring in a mediator. Through that 
process, we made large concessions to reach agreement. GAO did 
not. They remained firm with the position that they had prior 
to the holidays on December 22nd. Later in January, we jointly 
agreed to bring in a mediator. We did that the last week in 
January and--but, again, there was no concession or movement on 
the part of GAO. We then agreed to go to the PAB for impasse, 
and I believe that was January 29th that we approached them. It 
was that last week.
    Mr. Aderholt. It has been that way ever since?
    Mr. La Due Lake. We are in this holding pattern while the 
PAB determines how we move forward. It is in their ballpark.
    Mr. Aderholt. Thank you. That is all I have.
    Ms. Wasserman Schultz. Mr. Cole.
    Mr. Cole. Just a couple of things.
    First of all, just thank you for what you do. I mean, I 
think GAO is unbelievably effective, and I voted for the 
appropriations last year because I thought it was merited. And 
you continue to do good work, and we certainly ask lots of 
tough questions.

                   GAO PRODUCTIVITY AND EFFECTIVENESS

    I don't want to be drawn into the case. I don't know that 
much about it. But I am curious either in your capacity 
representing the employees, what suggestions would you direct 
to management and would you direct to our committee in terms of 
where efficiencies could be made?
    I think, again, we are going to have this issue across the 
board. Nobody in America got a Social Security COLA. I am sure 
everybody here got hundreds of letters. So it is going to be 
really tough even in areas where we need increases to justify 
without some sort of offsetting efficiency or what have you. So 
do you have any things that we ought to be looking at that 
would make you even better at what you do?
    Mr. La Due Lake. That is an interesting question. We very 
much appreciated over the last couple of years the 
appropriations that have allowed us to increase our FTEs, to 
increase our staff size in order to help address and keep up 
with meeting the work of the Congress. And that is very 
important to us.
    We also have a relatively younger workforce where we--I 
believe in the last few years this has significantly changed, 
where over half of our workforce has been at GAO I think fewer 
than 5 to 6 years, which is very unusual. So people are earlier 
in their salary structure than they might be if they had been 
in a Federal career longer.
    We are really aware of the challenges certainly because of 
the work we do as well as the overall environment of the 
challenges moving forward with the current budget limitations 
that we are facing.
    I guess the way we are thinking of it and the way we 
thought of it this year is that the across-the-board, the 
annual pay increase is an appropriate place to reflect economic 
conditions and budget realities. I mean, obviously, for all 
Federal employees, this was a very different year than recent 
years, but it makes sense and we understand that.
    The thing that has been very difficult and troubling for us 
is that, as important to the agency as pay-for-performance is, 
to have a rather remarkable and difficult like our year this 
year and then have an appropriation that could accommodate pay-
for-performance in an appropriate way, there seems to be a 
disconnect. It has been very difficult for us.

                       RECRUITMENT AND RETENTION

    Mr. Cole. Just one additional question. Thinking about 
going forward, in terms of the quality of the workforce, you 
haven't mentioned there has been a great deal--or some turnover 
and a younger workforce coming in. Are you comfortable that you 
are able to attract and hold the people you have?
    I mean, one of the upsides of a down economy is, obviously, 
people are pretty conservative about moving. But, again, you 
need very skilled people that will stay for a considerable 
period of time for us to get the information we need. Are you 
comfortable right now that you are able to hold the people you 
need right now and attract the types of people you need?
    Mr. La Due Lake. There doesn't seem to be any question that 
in most cases we can attract the people that we need. Retention 
is a different question, and that is something that we are 
looking into. We requested data--actually, after last year's 
hearing, we requested data and have received some of that data 
last month that will allow to us look at that over a period of 
time, that question of retention and whether there are issues 
that come into play in terms of retention, perhaps related to 
diversity and what I talked about last year, the potential for 
disparity and ratings based on ethnic background. So that is 
something we are concerned about.
    We don't have the evidence that we would like to know 
exactly, but we have some concerns about some of our midlevel 
people who have developed the experience that we need to 
retain. They have learned our work, they have learned how to do 
our work, and they--it appears that there are other 
opportunities where we can lose them for a variety of reasons. 
We don't have a handle on that exact evidence, but it is 
something we are very concerned about and looking into.
    Mr. Cole. Let me see it as you develop it.
    But thank you, Madam Chairwoman.
    Ms. Wasserman Schultz. Thank you.
    Mr. La Due Lake. Thanks for your time.
    Ms. Wasserman Schultz. Good luck.
                              ----------                              --
--------

                                      Wednesday, February 24, 2010.

                 OFFICE OF TECHNOLOGY ASSESSMENT (OTA)


                                WITNESS

FRANCESCA GRIFO, DIRECTOR OF SCIENTIFIC INTEGRITY PROGRAM, UNION OF 
    CONCERNED SCIENTISTS
    Ms. Wasserman Schultz. Dr. Francesca Grifo, welcome to the 
subcommittee. Your full statement will be entered into the 
record and you can proceed for 5 minutes.
    Ms. Grifo. Great. Thank you so much, Madam Chair and 
members of the Subcommittee. I appreciate the opportunity to 
testify today.
    As Congressman Holt so eloquently stated, Congress must 
have a source of credible advice in science and technology in 
order to responsibly manage the taxpayers' money and enact laws 
that keep our Nation safe and healthy; and the best agency for 
the job I think is the Office of Technology Assessment.
    From 1972 to 1995, OTA helped Congress assess complex 
issues and make wiser legislative choices. OTA reports 
addressed issues before almost every Congressional committee. 
The analyses produced by OTA set boundaries for debate, ruled 
out scientifically incorrect arguments, and helped to frame 
political decisions in technically defensible ways.
    The OTA model honed over 23 years was incredibly 
successful. What is more, the 1972 Technology Assessment Act is 
a flexible document and any needed modernizations could be 
achieved within its scope.
    We are currently engaging the best thinkers on OTA to 
develop a commonsense proposal for restarting OTA that takes 
into account fiscal realities. We plan to submit a detailed 
fiscal year 2011 funding proposal within the next 2 weeks. 
Renewing OTA is a multiyear project, and we do not believe the 
taxpayers and American families should wait any longer.
    I am here as a mother and a daughter, as much as I am here 
as a scientist, to tell you that OTA, while designed to serve 
the needs of Congress, also in reality served the needs of our 
Nation. Members of Congress do not lack for input, but in many 
situations they do lack credible and nonpartisan information 
that is structured in a way they can easily use.
    OTA was uniquely positioned to provide accurate information 
in the following areas: unnecessary expenditure of taxpayer 
money on unproven technologies or other scientifically 
indefensible policies, early identification and analysis of 
technological issues before they became national crises, and 
evaluation of executive branch initiatives to aid Congress in 
its oversight role.
    OTA more than earned its keep by identifying ineffective, 
wasteful programs and suggesting improvements to others. The 
savings from just two OTA studies, one on Alzheimer's disease 
and one that exposed the flaws in the Social Security 
Administration computer system, would have nearly paid for OTA 
for the last 15 years, just two studies.
    What is more, policies based on OTA studies saved lives and 
reduced the need for future medical intervention. A 1988 study 
pointed out the vulnerability of low birth weight infants to 
physical and mental disability. The study then helped change 
Medicaid eligibility rules by expanding access to prenatal care 
to millions of women in poverty.
    A 1987 study predicted that Medicare coverage of mammograms 
for senior women could cut breast cancer deaths.
    A 1990 study concluded that older women undergoing routine 
PAP smears were much less likely to develop cervical cancer 
than unscreened women.
    A number of OTA reports also proved to be years ahead of 
their time on many of the critical issues that Congress is 
debating today, and Congressman Holt I think gave you a great 
list of those.
    Finally, in recent years, Congress has approved a number of 
expensive yet troubled programs that could have been identified 
and averted by a timely OTA assessment.
    The Department of Homeland Security spent nearly 3 years 
pushing for a costly radiation detection system for smuggled 
nuclear material that did not work as promised, while 
neglecting to upgrade existing equipment that could have 
improved security.
    The GAO, the National Academies, and the Congressional 
Research Service are all very good at what they do; and they 
should continue to do it. But none of them can fill OTA's 
shoes. OTA studies were technically accurate, analytically 
sound, and balanced. In its reports, OTA made no policy 
recommendations but presented a range of policy options that 
were consistent with its technical findings. OTA also 
informally aided Members and their staff in how to think about 
an issue by inquiring into the foundations of claims made by 
technology and paying close attention to its consequences.
    The world has changed since the OTA was authorized 40 years 
ago, and undoubtedly the OTA that might open in 2011 would need 
to be modernized. A revitalized OTA in the 21st century would 
take full advantage of electronic communication to boost its 
educational capacity, be more responsive to both parties, and 
establish strong working relationships within similar agencies.
    Today, for example, OTA could assess technologies designed 
to protect our children from lead poisoning, evaluate 
technologies designed to help seniors and the disabled stay in 
their homes longer, and assist Congress to make accurate links 
among investments in various technologies and their potential 
to create jobs.
    I bring with me today a letter signed by 41 diverse 
organizations supporting the revival of OTA, and I hope this is 
the beginning of a dialogue that will lead to the restoration 
of this important agency.
    [Dr. Grifo's prepared statement and support letter for OTA 
follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Wasserman Schultz. Thank you very much for your 
commitment, Dr. Grifo; and we will take that letter and shall 
enter it into the record. Thank you very much.
    [The information provided for the record follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Wasserman Schultz. Any questions?

                           RATIONALE FOR OTA

    Mr. Aderholt. Going back to 1972, do you know what sparked 
the inception of the OTA?
    Ms. Grifo. I was not in Washington at that time. I was in 
high school. But the historical accounts discuss that we were 
coming out of a very strong executive branch era, namely the 
Nixon administration, and that there was a thought on the part 
of Congress that indeed more technical information in this 
branch would allow you to more carefully evaluate executive 
branch initiatives.
    Mr. Aderholt. Okay.
    Ms. Grifo. Always a good thing.
    Mr. Aderholt. Okay. That answers my question. Thank you 
very much.
    Mr. Cole. Just one quick question. First of all, I wish I 
had been in high school in 1972.
    But I am going to ask a similar sort of historical type 
question. I am just curious, the range of studies that are 
cited by you and the Congressman really is impressive in terms 
of the how much money you are talking about saving. How were 
decisions made as to what topics would be chosen, what the 
focus of the resources would be, which is congressionally 
driven by Member request? Was there a strategic overview? These 
are areas that clearly Congress is going to be dealing with.
    Ms. Grifo. There was a bicameral, bipartisan group of 
Senators and Congressmen that were managing the day-to-day 
operations along with an executive director. So there were 
topics that would come in from committee chairs. Typically, 
they also had a ranking member on them, not always. It was not 
a requirement. But typically they did.
    Those topics would come in and then that bicameral, 
bipartisan board would discuss them and they would help OTA to 
make those decisions about which things to go ahead on.
    Mr. Cole. Are you comfortable that would be the mechanism, 
assuming that it would continue to work that way?
    Ms. Grifo. It worked really well.
    Ms. Wasserman Schultz. If the gentleman would yield, one of 
the criticisms I heard about the way it operated at the time 
and that I think would be important in terms of an update was 
that it was too exclusively controlled by chairs and ranking 
members and that rank-and-file members who had an interest in 
having studies done by OTA were essentially shut out and that, 
even further, it was more specifically controlled--there is a 
board for OTA, a certain number of members. So that if we did 
consider this it would I think need to be reconstituted in such 
a way that it would be accessible to more members and there 
would be a broader array of studies with a broader array of 
input.
    Ms. Grifo. If I could just address that. I think there are 
different size OTA reports. There are smaller and bigger. And I 
think extending the very large, long-term reports to every 
Member of Congress might be difficult. But there are certainly 
smaller ones that could be done that would lead to larger ones.
    The other thing that happened in the past was the director 
of OTA was frequently contacted by other Members and had a 
director's kind of discretionary set of reports that they could 
do. So they tried to respond. But I agree. More responsiveness 
would be definitely a modernization that we need.
    Mr. Cole. Thank you. I yield back.
    Ms. Wasserman Schultz. Thank you very much.
    Mr. Aderholt. I have one more question. You mentioned the 
OTA board. Who makes up the OTA board or who made up the OTA 
board?
    Ms. Grifo. It was Members of both Houses. It was, I think--
what was it--three or four from each--six. Sorry. Thank you. 
Six from each House. Three of each party from each House.
    Mr. Aderholt. House and Senate.
    Ms. Grifo. Uh-huh. And there was also a technical advisory 
committee that was outside people, and that could be 
constituted in many different ways of experts.
    Ms. Wasserman Schultz. Thank you very much, Dr. Grifo.
                              ----------                              --
--------

                                      Wednesday, February 24, 2010.

                 AMERICAN ASSOCIATION OF LAW LIBRARIES


                                WITNESS

MARY ALICE BAISH, DIRECTOR OF GOVERNMENT RELATIONS OFFICE, AMERICAN 
    ASSOCIATION OF LAW LIBRARIES
    Ms. Wasserman Schultz. Next, we will hear from Mary Alice 
Baish, the Director of Government Relations to the American 
Association of Law Libraries.
    You can proceed with a summary of your statement, and your 
statement will be entered into the record.

                  Opening Statement--Mary Alice Baish

    Ms. Baish. Thank you so much. It is great to be back.
    Yes, I am indeed a veteran, Madam Chairwoman Wasserman 
Schultz, Ranking Member Aderholt, and Mr. Cole.
    I just wanted to point out before I begin my statement that 
I am one of the 42 signatories of the letter in support of the 
OTA. I don't want you to take money out of the Public Printer's 
budget for fiscal year 2011, but I did want--I was very 
impressed with the laundry list of important reports.
    I just wanted to say they did a groundbreaking report in 
1988 or 1989 called Informing the Nation, and it was all about 
moving to new technologies to improve access to government 
information and how the government should do their IT. So I 
think it really helped the government move forward.
    So, good morning, again. On behalf of AALL, I want to 
applaud you, Madam Chair, for changing the order of these 
hearings. I was initially stunned when I received the call to 
testify. But in thinking about what it did is it gave me an 
opportunity to talk about--to members of AALL and other 
depository librarians.
    First of all, we urge you to fully support the 
congressional printing and binding fund for Congressional print 
materials, because we do believe that depository libraries 
should have the option of receiving your records of 
congressional action in print.
    It was reported to me over the summer that the Library of 
Congress accepts only paper or microfiche as the only 
recognized archival formats. And while the Library of Congress 
through AMVETS is making some excellent progress in 
collaborative research on how to preserve the vast amounts of 
electronic information, there is really no guarantee today that 
today's government information available only electronically 
will be preserved and available in 5, 10, 50 or 100 years.
    Second, we strongly supported the first release of GPO's 
FDsys of public data about a year ago. We are delighted with 
the improved search capabilities and additional collections 
that have been added since then.
    We believe that the complete migration of the GPO access 
system into the FDsys, must be a top priority for the 
Government Printing Office. We are especially anxious to have 
the entire electronic code of Federal regulations, which 
unfortunately is available through GPO access to be migrated 
into the FDsys because it is an important title for legal 
researchers in the public. They are asking, the Public Printer 
is asking, for $8 million for FDsys in fiscal year 2011, and we 
strongly urge you to approve that number.
    We also urge you to provide funding for GPO to replace old 
legacy systems with new technologies for the 21st Century. 
There was a very unfortunate incident in late August when GPO's 
PURL server had a significant failure. It took many weeks for 
GPO to restore the hardware, the system configuration and URL 
resolutions. Fortunately, none of the data was permanently 
lost, but during those several weeks, depository library 
patrons were unable to access thousands of electronic 
documents, which they had linked to in their library catalogue 
because the titles had not been made available to them in 
print.
    My purpose in mentioning this incident is to urge you to 
make sure that GPO has in place a mirror site, a high security 
backup system or other scheme so that we know that the entire 
content of information available through the FDsys will be 
permanently available to the public.
    Third, that the digitization of historic government 
information for no fee permanent public government access is a 
very important initiative. We are pleased to see that GPO is 
becoming more active in encouraging depository libraries to 
partner with them to digitize to historic materials.
    Ideally if the files meet GPO's high preservation 
standards, they could be ingested in that FDsys. We believe 
that also as the Legislative Branch Appropriations Subcommittee 
it would be a great deal for you to urge the Government 
Printing Office to partner with the Library of Congress on a 
number of--into a formal MOU to digitize, print Congressional 
materials. The Law Library is already digitizing entire 
content, for example, of the U.S. Statutes-at-Large and other 
titles. If GPO would create the necessary metadata for these 
files, they could be ingested into the FDsys as well as made 
available through LOC's Thomas system. We think this is a great 
deal for the American public.
    GPO and LC are already collaborating on digitizing the pre 
1994 Congressional Record. GPO donating some of the print, 
missing copies that the library doesn't have and LC is doing 
the digital scanning. We would like to see this important 
partnership between two legislative branch agencies formalized 
by an MOU and expanded.
    Fourth, as part of their mission to provide access to 
current government information we would like GPO to begin to 
capture content from agency Web sites to be ingested into the 
FDsys. It is a fact today that agency-born digital materials 
are those that are most at risk of disappearing and being lost 
forever. We believe that capturing agency content that is 
within the scope of the Federal Depository Library Program is, 
in fact, the digital equivalent of the GPO's print, publishing 
role since the agency was established in 1860.
    Thank you so much for the invitation to appear before you 
today. I will be happy to answer any questions and I will be 
submitting a longer statement.
    Ms. Wasserman Schultz. Thank you very much.
    [Ms. Baish's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                  DISCUSSIONS WITH THE LIBRARY AND GPO

    Ms. Wasserman Schultz. On the Memorandum of Understanding 
that you are encouraging, are there any ongoing discussions 
between the Library and GPO toward that goal?
    Ms. Baish. There absolutely are, my sense is that the 
Library of Congress is most anxious to enter into these formal 
partnerships and that we haven't gotten as timely a response 
from the Government Printing Office as we would like.
    Ms. Wasserman Schultz. Well, see that is why we are doing 
these at the beginning.
    Ms. Baish. I applaud you for that.
    Ms. Wasserman Schultz. I will be able to help encourage 
that process along.
    Ms. Baish. Thank you so much.
    Ms. Wasserman Schultz. You are welcome. And thank you for 
your passion.
    Mr. Aderholt.

                                 FDSYS

    Mr. Aderholt. You mention the FDsys in your comments. Just 
briefly explain to the committee here how that system operates. 
In the last year it has been put online?
    Ms. Baish. Correct.
    I will be happy to. Congress enacted the GPO Access Act in 
1993 which really was a mandate for the Government Printing 
Office to move into the electronic world. And they began it in 
the text of the Act it gave GPO the authority to provide 
electronic access to the Federal Register, the Congressional 
Record, the core documents of Congress. In fact, it was this 
committee, and I brought along a copy of the report because I 
had many letters of support and one of the appendices, but this 
subcommittee had asked for a study for a GPO accomplished in 
1996 to identify how to move strongly into the electronic world 
as they had been the historic publisher for the Federal 
Government.
    The former Public Printer Bruce James had a vision to 
update the technology, the old technology of GPO Access, again, 
which was created back in 1994 to bring it up to date with 21st 
Century's technology. Fortunately, your Subcommittee and 
Congress funded the development on the Federal digital system.
    The plan is for GPO to migrate all of the old content off 
WAIS server, which was not quite state-of-the-art back in 1994 
into a 21st Century technology, so a beta test which was 
finally launched about a year ago, about a year behind 
schedule, but it was worth waiting for is actually the new 
system that GPO has developed. And they have already migrated 
all of the Congressional materials, the Federal Register, the 
Code of Federal Registration Regulations, the Presidential 
compilation into FDsys. The searchability is excellent.
    What GPO is also doing through the system is authenticating 
digitally signing bills from the House and the Senate. So they 
are doing a level of authentication. They also, as this article 
from July in Government Computer News says, FDsys stays 
current, it aims for permanent. I think that aims for permanent 
is exactly the point I was trying to make earlier, that we 
really do not have the solution for digital preservation. GPO 
aims to provide permanent public access, and we hope that the 
technology will be there for them to make it permanent. So if 
you haven't taken a look at it, I just urge you to google FDsys 
and I think you will be very pleased as we are with the 
improvements.
    Mr. Aderholt. Thank you for your insight.
    Ms. Wasserman Schultz. Do you have any questions?
    Mr. Ruppersberger. No, I do not.
    Ms. Wasserman Schultz. Mr. Cole.

                         NEED FOR PAPER COPIES

    Mr. Cole. Thank you for the emphasis on the placing of core 
documents in published form in libraries. As an old historian, 
I love all this electronic stuff, it is great but there is 
nothing like real documents in your fingers and the 
accessibility is really important.
    Ms. Baish. Well, I appreciate it. In my longer statement, I 
get into how AALL has become an international leader on the 
need to retain print primary law for the reasons I mentioned 
about the inability to ensure permanent public access and 
preserve them. I actually brought this report that was at the 
request of the Subcommittee, it was published in June of 1996 
under the attachments you will see the wonderful AALL logo. We 
have copies of this print report in every depository library 
around the country, and I have multiple copies in my office. I 
wrote the letters that are in the appendices way back in the 
spring of 1996 on my work computer, on my old laptop and 
remember these? How many of you can put this into your office 
PC and get content? I can't.
    Fortunately I received that old laptop that I purchased in 
1995. I can read the content if the file hasn't been corrupted 
which it may have had, but fortunately my home laptop in 1995 
only had that old clunky dial-up access, do you remember that 
and how slow that would be. So really even if I could read the 
letters in this print publication on my laptop, I really 
wouldn't have a way because now we save everything to these 
flash drives, and my old laptop can't read anything from this 
flash drive. So that is just an example why. And thank you so 
much, Mr. Cole, for your comments. Print is very important, we 
know it will be here in 50 to 100 years. We are really pressing 
the government and the National Archives is ticking a roll and 
really the Library of Congress, GPO and NARA must work all 
together in resolving, or at least making progress to guarantee 
the preservation. I know that is an important issue for you.
    Ms. Wasserman Schultz. It is, most definitely. Thank you 
very much.
    Ms. Baish. You are so welcome.
    Ms. Wasserman Schultz. Next, we have Mr. Dennis Roth. 
President of the Congressional Research Employees Association. 
Welcome, you can proceed with a 5-minute summary. Your full 
statement will be entered into the record.
                                      Wednesday, February 24, 2010.

              CONGRESSIONAL RESEARCH EMPLOYEES ASSOCIATION


                                WITNESS

DENNIS ROTH, PRESIDENT, CONGRESSIONAL RESEARCH EMPLOYEES ASSOCIATION

                      Opening Remarks of Mr. Roth

    Mr. Roth. Good morning Chairman Wasserman Schultz, Ranking 
Member Aderholt and members of the Subcommittee. I am Dennis 
Roth, president of the Congressional Research Employees 
Association, the union representative of over 525 employees of 
the Congressional Research Service. I must begin by thanking 
the Subcommittee for its support of telework in CRS. We have 
been meeting with CRS management since October 2009 trying to 
negotiate a system that meets the needs of the Congress and CRS 
staff, and fulfills the needs of the Congress and CRS staff. 
Resolution has been difficult because CRS management took the 
Library's existing system and made it unacceptably restrictive 
and inflexible.
    In order to address additional issues within my time limit, 
I will be happy to give more specifics during the question-and-
answer period.
    Last year, the Subcommittee also requested a formal 
evaluation of how well CRS's current staffing modules and 
procedures meet user needs. CREA learned last week that the 
contract of the evaluation had just been awarded. The success 
of the survey rests heavily on Congressional participation. We 
urge the members of this Subcommittee and its staff to 
encourage its counterparts in the House and Senate to 
participate fully when the survey gets implemented.
    Two years ago, we also brought to the Subcommittee the 
tension about the dismantling of the Office of Workforce 
Diversity, including the Equal Employment Opportunity 
Complaints Office and the Dispute Resolution Center. The 
situation has improved only marginally. The replacement Office 
of Opportunity, Inclusiveness, and Compliance remains woefully 
understaffed, and we do not find any monies to support the 
Office in the 2011 budget submission. At current staffing 
level, the Library's demonstrating this lack of support for 
equal employment opportunity, diversity and dispute resolution.
    The OIC suffers from other major deficiencies, while the 
librarian states that the Library will follow the EEOC 
management directive 715 which is the policy guidance governing 
equal employment opportunity in executive branch, the Library 
continues not yet to do so. Major MD 715 deficiencies include 
the failure to elevate the OIC director's position to a direct 
report to the Librarian, which disregards the position's 
authority. It allows participation of the Office of General 
Counsel in the complaint process, which negates neutrality and 
introduces conflict of interest, and it lacks management 
support for alternative dispute resolution to resolve cases.
    Furthermore, while the OIC has been given their 
responsibility for fielding complaints regarding reasonable 
accommodation issues of library patrons, it has no authority to 
address them. In light of the recent removal of Morris Davis, 
the assistant director of foreign affairs in trade division, 
CREA had to reassure our staff of their right to engage in 
outside speaking and writing.
    That was attached to my prepared testimony. As with the 
issuance of the 2004 director statement on outside speaking and 
writing, the termination of Colonel Davis has had an 
intimidating and chilling effect.
    CRS employees want to be able to continue participating in 
their fields of expertise outside of CRS, but now they are 
uncertain about possible negative consequences. This is 
unfortunate because outside speaking and writing are a 
necessary, obligatory part of their duties, i.e., it is a 
promotion criterion.
    The Library has also requested slightly over $1 million for 
student loan repayment support and tuition support. We have 
been requesting funding for several years in this area and 
support this request wholeheartedly.
    CREA also supports the Library request for 2 FTE career 
planning specialists. We feel this indicates a commitment to 
career development within the Library. In 2009 identify the 
needs for the Library to complete its Library-wide succession 
plan, it is still unfinished. The need to fill positions 
continues and staff are available to be trained; bridges must 
be built to connect the two.
    We ask again that the Library, including CRS, develop an 
internal selection policy so they will be ready to fill 
positions identified in succession plan with within.
    The Director has requested funding for an additional 17 
FTEs in fiscal year 2011 and another 17 FTEs in 2012. Because 
we have not been briefed on how this was determined, we will 
neither support nor oppose this request. However, all FTEs 
requested are for analyst positions. CRS needs to include more 
than analysts and attorneys. We have staff librarians, library 
technicians, editors, bill digesters, technology staff, 
programming congressional relations specialist, support staff 
and so forth. Evaluate the needs for the service as a whole 
before it can make any endorsements. In the event the 
Subcommittee does fund these positions, we would raise two 
considerations; the first is the commitment to diversity and 
the second is a commitment to making CRS's workplace policies 
more flexible and family friendly.
    In December 2009, President Obama signed Executive Order 
13522--creating labor management forums to include delivery in 
government services, which is attached to the testimony. Its 
intent was to create a non-adversarial forum by which managers 
and employees and union representatives could discuss 
government operations. Management was instructed to discuss 
workplace challenges and problems with labor and to attempt to 
solve them jointly rather than advising the union on 
predetermined solutions to problems.
    Implementation procedures were also included. We would like 
to have the Congress instruct the Library and other support 
agencies that have unions to create similar forums as soon as 
possible. CREA will be a happy to assist the Subcommittee in 
developing implementation ideas for strategy. This concludes 
the testimony and I would be happy to answer any questions.
    [Mr. Roth's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                                TELEWORK

    Ms. Wasserman Schultz. Thank you, Mr. Roth. I am concerned 
about your inability to get an agreement on a appropriate 
telework policy, especially since this committee directed CRS 
to establish one based on the Library of Congress's policy. You 
alluded to being specific about the restrictive nature of their 
proposal. Can you elaborate, please.
    Mr. Roth. I can give you some of the areas where we have 
differences.
    Ms. Wasserman Schultz. Please.
    Mr. Roth. One major difference is that we currently have a 
flexible work schedule in past work weeks. In order to do 
telework CRS management would like to cut back on that policy 
by binding the number of days it wants to be on a compressed 
workweek schedule.
    Ms. Wasserman Schultz. They want to limit your number of 
days you can be----
    Mr. Roth. Currently, on a compressed workweek schedule, you 
work eight 9-hour days and one 8-hour day. So you still put 80 
hours in, but in 9 workdays as opposed to 10 workdays. In order 
to get telework, they would like to cut back on that ability to 
take that compressed workweek day. Initially it was not offered 
and then there has been proposals back and forth to which 
management considers as compromises but they have it in what we 
consider reasonable compromise.
    Ms. Wasserman Schultz. So are they saying you can't have a 
flexible schedule if you are going to telework or more 
restrictive about the number of days.
    Mr. Roth. Right now more restrictive.
    Ms. Wasserman Schultz. So instead of 9 days----
    Mr. Roth. The Library allows both, in its Library of 
Congress regulation; in the union agreements with different 
parts of the Library, there is no restriction.
    Ms. Wasserman Schultz. Okay.
    Mr. Roth. Just CRS wants to have restriction. I think this 
goes back to the initial concern I raised before you reacted 
last year that I think the Director still thinks he needs to be 
on campus in order to serve the Congress. That has shifted from 
not giving us telework to trying to limit the time that we 
might be off.
    Ms. Wasserman Schultz. What else besides that?
    Mr. Roth. There is a concern that they want to do one-size-
fits-all. As I mentioned earlier in my testimony, CRS is made 
up of all different types of occupations, and certain types 
should not be restricted to--1 day would be per pay period, per 
week per pay period for analysts, which makes sense. But 
somebody who is in the technology office who can do most of 
their stuff remote from home, we are saying why don't we give 
them an additional day to see if it works out. They don't like 
that, they want to have one size.
    Ms. Wasserman Schultz. They want everybody to pick 1 day.
    Mr. Roth. One day.
    Ms. Wasserman Schultz. Are they saying it always needs to 
be the same day?
    Mr. Roth. Yes, they want it to be a fixed day.
    Ms. Wasserman Schultz. Fixed day. So let's say you have an 
emergency, your child is home sick, if that happens on a day 
that is not your day to telework, you couldn't do that?
    Mr. Roth. No. We had proposed that on an ad hoc basis.
    Ms. Wasserman Schultz. That sort of defeats the purpose of 
telework, doesn't it?
    Mr. Roth. They don't consider that telework, but work off 
site.
    Ms. Wasserman Schultz. Okay. During the blizzard, obviously 
employees weren't able to get to work. I assume there was not 
an established telework policy in place.
    Mr. Roth. There is not.
    Ms. Wasserman Schultz. Were CRS employees able to access 
their work from home during that period?
    Mr. Roth. Certain things they couldn't. I mean, I have 
talked to one employee who says they actually got a call 
because they are working on an issue that is very topical in 
the Congress, and they could not access material so they told 
me what they would normally do in probably 15 minutes to do to 
respond to the request, it took them the full day.
    Ms. Wasserman Schultz. Okay, we are at a year since we 
directed this agency to establish a telework policy with the 
employees.
    Mr. Roth. It was June when the report came out. Maybe you--
the report came out in June.
    Ms. Wasserman Schultz. Approximately a year, close enough.
    We are long past the amount of time that I think it should 
have been to work something out.
    Mr. Roth. We didn't get their first proposal until October 
of last year.

                           OIC RESTRUCTURING

    Ms. Wasserman Schultz. Again, that is another reason I 
wanted to have this hearing at the beginning so that I could 
address the concerns as we go through each legislative branch 
agency hearing. You mentioned also you are concerned about the 
OIC's restructuring and you brought that to our attention 2 
years ago as you mentioned. They are going to testify here in a 
minute, but The Guild for the Library of Congress actually 
seems pleased with the direction it has gone in. So what is it 
that is a pretty significant difference of opinions.
    Mr. Roth. I am not saying we are not happy with the 
direction, but with only three professional people that is not 
enough to handle the workload and to do what they need to do.
    Ms. Wasserman Schultz. So you are saying----
    Mr. Roth. I think the new Director's real concern is moving 
in the right direction, but can't accomplish what needs to be 
done by not having the staff to do it.
    Ms. Wasserman Schultz. Is that all the office plans to have 
is three staff?
    Mr. Roth. I think they might be allowed to have six based 
on last year's budget. We expected to see funding in this 
year's submission, and there is no----
    Ms. Wasserman Schultz. And they didn't add funding?
    Mr. Roth. No.
    Ms. Wasserman Schultz. Okay. Well, we can take that up with 
the Library when we hear from them.
    Mr. Aderholt.
    Mr. Aderholt. I think you addressed it. Thank for your 
testimony.
    Ms. Wasserman Schultz. Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you, no.
    Ms. Wasserman Schultz. Thank you for your dedication. And 
please send our appreciation to your fellow employees.
    Mr. Roth. Will do.
    Ms. Wasserman Schultz. Mr. Carl Saperstein, Guild of 
Professional Tour Guides of Washington, D.C. A 5-minute summary 
of your statement and your full statement will be entered into 
the record.
                              ----------                              

                                      Wednesday, February 24, 2010.

    UNFAIR AND UNNECESSARY RESTRICTION OF TOUR BUSES ON CAPITOL HILL


                               WITNESSES

CARL SAPERSTEIN, GUILD OF PROFESSIONAL TOUR GUIDES OF WASHINGTON, D.C.

                    Opening Remarks--Mr. Saperstein

    Mr. Saperstein. Thank you, Madam Chair, members of the 
Subcommittee, my name is Carl Saperstein, and I represent the 
Guild Professional Tour Guides, a group of more than 450 
members of the tourism industry. My topic is the unfair and 
unnecessary restriction of tour buses on Capitol Hill, which 
discriminates against a large group of American citizens. It is 
important to remember that not all visitors have time to take a 
tour of Capitol buildings and walk around the Hill. They are 
here for a short period of time, perhaps some business or some 
limited vacation. They take a tour bus to see some of the 
sights of the Nation's Capitol. After 9/11, security was 
necessarily tightened, until June 2007, this was not a problem. 
Tour buses could still take visitors to the east front of the 
Capitol to show them the beautiful Supreme Court building, 
which houses a branch of government. They could also point out 
the east front of the Capitol with the stature of freedom on 
top, the Library of Congress.
    As we approach the part of the Hill, the tour guides 
typically pointed out where the senators and representatives 
had their offices. It was exciting to visitors to feel that 
where the action is, they were very satisfied.
    Today the only thing we can point out to visitors is the 
far west side of the Capitol from the bottom of the hill. It is 
not fair to your constituents who come to Washington, D.C. We 
estimate that in 2009, there are approximately 240,000 visitors 
denied that drive around Capitol Hill buildings. We assert that 
this restriction is completely unnecessary.
    Our second area of concern is the drop off of visitors to 
the Capitol, the Garfield Circle, because tour buses can't go 
up the hill to the east front. They are required to drop their 
passengers at the bottom of the hill. They then must climb to 
the top of the hill, walk over to the entrance the Capitol 
Visitors Center. This is a major concern because so many of our 
visitors are veterans, senior citizens and persons with 
mobility problems.
    The current inadequate solution is to parts transport them 
up the hill. This drop off at the bottom of the hill is 
awkward, time-consuming and splits groups into walking and 
those riding and it irritates them. A special concern for the 
many veterans who visit the Nation's Capitol. I believe you are 
aware of Honor Flights, World War II Vets in their 80s and 90s 
who were coming to see the World War II Memorial and other 
sites. Last year, about 800 Honor Flights that visited 
Washington with 40,000 vets with their guardians, medical 
personnel.
    We know that most of these groups do not visit the Capitol 
because of the bus restrictions. They can't even do a drive 
around the east front of the Capitol because of bus 
restrictions. The hassle of trying to offload at the Garfield 
statute, wheelchairs, walkers, canes, canisters and the 
accompanying medical personnel into electric carts is 
impractical for large groups of veterans and their sponsors.
    We propose all tour buses that come into Capitol Hill drive 
up Constitution Avenue, stop at the existing Capitol Police 
checkpoint, the police will then do their inspection and the 
buses will then be free to drive up Constitution Avenue, turn 
right on 1st and drive past east front of the Capitol, turn 
right Independence Avenue and then exit Capitol Hill. This is 
one of the routes that was followed for years by motor coaches 
that toured the Capitol.
    I would equate this required bus inspection to the 
inspection the Capitol Police routinely do for the thousands of 
visitors entering any of the Capitol buildings each day. In 
this case, it is for a drive around Capitol Hill. The drop-off 
at the Garfield Statue is also unnecessary. The minute they 
drop off their passengers at the entrance of the Capitol 
Visitors Center on East First Street, they can easily walk the 
short distance to the CVC entrance which is completely 
handicapped accessible. Of course, we are not proposing the 
tour buses remain on First Street, just they be allowed to drop 
off and pick up as it was a practice for years and years.
    Somehow tour buses have become the bogeyman, but of course, 
it just depends on the tour bus. Tour buses that bring 
commuters in the morning and pick them up in the afternoon are 
permitted to go up Capitol Hill. After they drop their 
passengers, these same tour buses, same driver, once they leave 
the Hill and pick up tourists, are now forbidden to go up the 
Hill. They have the same bus, same driver, the difference is 
the tourist.
    The Guild strongly recommends the motor coach loading its 
compartment inspection procedures be returned to those 
considered sufficient from 9/11 to June 2007 and that tour 
buses for your constituents be permitted on Capitol Hill. We 
are not aware of any incident that caused the police to 
recommend this ban, but it was a question of resources. And we 
recommend the subcommittee address this also. Thank you and I 
am glad to answer any questions.
    Ms. Wasserman Schultz. Thank you, Mr. Saperstein.
    [Mr. Saperstein's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                            TOUR BUS ACCESS

    Ms. Wasserman Schultz. We have been dealing with this issue 
for a number of years, and I can appreciate your concern. We 
have repeatedly tried to address the concern and that is why as 
a result of direct pressure from the subcommittee last August 
28th, the CVC received six brand new shuttles that are 
specifically designed to address the concern that you have of 
transporting disabled, as well as elderly, and frail 
individuals who have trouble walking up that hill. As someone 
who represents a district in South Florida, which has a 
disproportionate amount of senior citizens, many of whom visit 
our Nation's Capitol, I obviously have a particular sensitivity 
to that.
    But with all due respect, the train has left the station on 
whether or not we are going to be able to have drop off in 
front of the CVC. That is not going to happen, that has been 
decided, it is done, we have examined it. We have had the 
Capitol Police chief here in front of our subcommittee. We have 
had many committees go over it back and forth, there have been 
internal discussions and that has been decided.
    So I appreciate your concern, but it is just not something 
that security in this day and age is going to allow us to 
change because the risk outweighs our preference for being able 
to drive in front of the east front. There are solutions to 
that, we have endeavored to come up with workable solutions.
    My question for you is are you aware that the six shuttles 
that we have now have a combined capacity to move 180 
passengers and 36 wheelchair passengers per hour, and that 
includes the time it takes to load and unload the passengers 
and round trip travel time.

                     AVAILABILITY OF SHUTTLE BUSES

    Mr. Saperstein. We are aware that all six are available.
    Ms. Wasserman Schultz. Well, all six are going to be 
available, they are brand new. There is not reason why they 
shouldn't be available. Why wouldn't that be sufficient in 
meeting the needs of the elderly and disabled individuals who 
have trouble walking up the hill?
    Mr. Saperstein. When we get these Honor Flights and there 
are maybe 3, 4, 5 buses in addition to the city buses, there 
could well be 10 or 15 buses requiring service at the same time 
with tight appointments on the CVC necessary. It breaks the 
groups up, they get up there, they may be there for their 
appointments----

                   ADVANCE COORDINATION WITH THE CVC

    Ms. Wasserman Schultz. But Mr. Saperstein, you do have the 
ability to, in advance, coordinate with the CVC in order to be 
able to make sure that those break-ups and the large group can 
be accommodated, don't you? I know you do because we have had 
the CVC director here and she said that that is possible. You 
just have to make the extra effort to make the arrangements in 
advance.
    Mr. Saperstein. That is correct, except if we make the 
arrangements in advance and another bus comes and it takes 
precedent over ours. They don't reserve these for us. So even 
though we do make arrangements----
    Ms. Wasserman Schultz. They don't reserve the slots?
    Mr. Saperstein. They do not reserve the carts, the mobility 
carts, golf carts or whatever. If another bus or another 
several buses show up, even though----
    Ms. Wasserman Schultz. If you have made arrangements in 
advance, why wouldn't they reserve them or hold them for you if 
you are showing up at a specific time and you they are going to 
know--have you tried?
    Mr. Saperstein. Yes.
    Ms. Wasserman Schultz. You couldn't have tried because we 
have just begun to use them, we are not even in the season.
    Mr. Saperstein. We have had arrangements in advance, we 
have asked the question and they have told us specifically. I 
am basing this on what they have told us, we will not hold 
those carts for you, it is first come, first served.
    Ms. Wasserman Schultz. Okay.
    Mr. Saperstein. I am just quoting what they are saying.
    Ms. Wasserman Schultz. Well, what I would ask is that 
through this next tourist season, because this will be the 
first full tour season that we will have the carts and it seems 
like they have the capacity, a pretty good capacity to move 
people both frail and disabled individuals up and down the hill 
to the CVC entrance. If we get to the end of the season and it 
is still a significant burden--we have discussed in the 
subcommittee whether or not we would need to possibly purchase 
larger vehicles that would shuttle more individuals, but I 
would strongly suggest that you examine other means of 
addressing your concerns, because the drop-off at the CVC is 
just not going to happen. Mr. Aderholt.

                          RESERVATION OF BUSES

    Mr. Aderholt. Thank you for your testimony. I have a lot of 
groups who come up to Washington as well. I am also especially 
sensitive to those on our Honor Flights. I try to meet with 
them while they are in town. I guess we are caught between a 
rock and a hard place because of security concerns that have 
been mentioned or been discussed by the Capitol Police, and 
also the concern that people have access to the Capitol. You 
want people to have access to the Capitol.
    When Madam Chair was asking you some questions you 
mentioned the buses being reserved and you get there and a bus 
gets there before you. If that could be resolved where you 
could make arrangements where if your bus is supposed to be 
there at 2:30 in the afternoon and one gets there at 2:15 and 
takes your slot, if those could be reserved in advance, and 
held so that they wouldn't be for the first person that comes 
up. Would that be something that would be of help?
    Mr. Saperstein. It would be a great help if, indeed, we 
could reserve these in advance and have them there, but we have 
been strictly told that it is first come first serve.
    Mr. Aderholt. Okay. Let me say--would that be the CVC?
    Ms. Wasserman Schultz. It would be the CVC. You can check 
with Ms. Rouse.
    Mr. Aderholt. We can check with the CVC and find out if 
that is something that could be accommodated. I think it goes 
back to what the Chair is concerned about and that is the 
security of the people here at the Capitol and other visitors. 
Certainly, I think, we want to try to accommodate the elderly 
or anyone who is disabled. You know, maybe there is something 
we could work out as far as doing a reservation on these.
    Ms. Wasserman Schultz. When we have them come in front of 
us for their hearing, we will be happy to discuss it with them.
    Mr. Saperstein. Appreciate it very much. Thank you very 
much.
    [Clerk's note.--Additional information from the Guild of 
Professional Tour Guides follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Wasserman Schultz. Mr. Ruppersberger.
    Mr. Ruppersberger. You did a good job.
    Ms. Wasserman Schultz. Thank you very much.
    Mr. Alvin Hardwick with the GPO police labor committee.
                              ----------                              --
--------

                                      Wednesday, February 24, 2010.

                       GPO POLICE LABOR COMMITTEE


                                WITNESS

ALVIN HARDWICK, GPO POLICE LABOR COMMITTEE

                    Opening Statement--Mr. Hardwick

    Mr. Hardwick. Morning Madam Chairwoman and Ranking Member 
Aderholt and distinguished members of the Subcommittee. My name 
is Alvin Hardwick and I am here as the immediate former 
chairman of the Government Printing Office Police Labor 
Committee for the Fraternal Order of Police of DC Lodge 1. The 
GPO police force is now comprised of 26 rank and file officers 
who protect the GPO buildings in Washington and Maryland. We 
have done a fine job protecting the vital and sensitive 
documents at these locations which are needed for this country 
to function. They are also charged with the safeguarding HAZMAT 
vehicles that are stored at the GPO building by the U.S. 
Capitol Police in case of emergency. The mission of the GPO 
police force is crucial to the security of Washington, D.C.
    Last May I testified before the Subcommittee about the 
extraordinary gaps in security at the GPO in Washington, D.C. 
Unfortunately these concerns have largely been unaddressed. For 
example, the area where the Capitol Police stores a number of 
HAZMAT vehicles in the GPO building in case of an emergency, 
there are still no GPO police officers present to provide a 
modicum of security there.
    In some cases, it seems that the GPO management is 
attempting to roll back recent measures which greatly increase 
security at the GPO. Currently, the passport building in 
Washington D.C. is protected by sworn Federal police officers 
in compliance with the Public Law 110-161 which prohibits the 
use of contract security guards in the building.
    The Public Printer held a meeting with our union in attempt 
to negotiate and allow the use of contract security to protect 
the passport building. In doing so, in attempting to replace 
the sworn Federal officers with contract security guards flies 
in the face of GPO's management claim that they wish to turn 
the GPO force into a traditional police department. As a matter 
of fact, the actions of management over the past few years 
seems to imply a desire to phase out the GPO police completely. 
It should be noted that at the meeting mentioned above by the 
Public Printer made several comments to the officers that they 
were overpaid. This is quite remarkable when the salary of the 
GPO police officers are compared to those of Capitol Police. As 
you can imagine, management's attitude has not been good for 
the officer morale. Training security guards to do the job of 
Federally trained officers doesn't save money and weakens 
security considerably.
    The security aides do not have the training or the 
experience or wherewithal to protect that building. They cannot 
assist law enforcement agencies in the case of an emergency and 
have no authority to protect the perimeter GPO complex. The 
ramifications of this are considerable. There have been 
attempted rapes and murders outside the complex which GPO 
officers have assisted in preventing. Furthermore, if there was 
an attack on an installation within a few blocks of GPO such as 
the Capitol and Union Station or in a myriad of buildings 
within a few blocks the GPO, there would be few GPO officers 
and no security aides to assist.
    Officer morale is further lowered by the significant lack 
of staffing at the GPO. The current number of 26 rank-and-file 
officers is too low, especially considering the urgings of this 
Subcommittee in the past to hire more officers. Officers 
continue to get work back-to-back shifts on any given day 
without notice. The repeated practice is creating a burnout 
situation.
    The GPO police officers are dedicated to the security of 
GPO and to personnel. During the recent blizzards officers 
volunteered to stay on site for days, some even resorted to 
sleeping in chairs when there were no cots available. GPO 
officers are willing to extend themselves beyond the call of 
duty by repeatedly working double shifts. Lack of staffing 
creates many problems which threatens both security and officer 
safety. The GPO would need to hire about 17 new officers as it 
was directed by the Subcommittee in 2007.
    This will fill the security gaps when six officers were 
hired but 7 have since left. There have been at least 400 
applicants since 2007, so there is no security for management 
not to hire more officers. The GPO police force has not 
received its full financial support the officers deserved in 
the past few years. The Public Printers have completely ignored 
your requests and have repeatedly sought to undermine the 
agency. It is important that the subcommittee provide the funds 
for the GPO to hire enough officers to fully carry out their 
missions. Furthermore, the Subcommittee must end the 
privatization of security at the GPO complex by reducing the 
amount of funds that are available for contract security 
guards.
    Finally, it is important that the Subcommittee earmark 
funds for the police department separately for the general 
funding of GPO. Currently, GPO police budget is part of the 
entire GPO funding and they are at the whim of whatever the 
Public Printer seeks to earmark them for. The GPO police budget 
should be separate from the main GPO budget if we are to ensure 
proper funding for these officers. Thank you for allowing me to 
testify.
    Ms. Wasserman Schultz. Thank you.
    [Mr. Hardwick's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
               USE OF CONTRACT SECURITY AT GPO FACILITIES

    Ms. Wasserman Schultz. Mr. Hardwick, if you recall the 
reason that there is a law that says the passport facility 
can't be guarded by security officers is because this committee 
insisted that that not happen any longer, and it was from your 
testimony of this public witness hearing. What additional 
facilities has GPO proposed swapping Federal officers for 
contract security officers?
    Mr. Hardwick. Just recently in the past 10 days in the main 
passport facility here that the public printer proposed.
    Ms. Wasserman Schultz. But they can't have security 
officers.
    Mr. Hardwick. I understand that. That didn't stop them from 
having a meeting and putting on the table before the officers 
to sign an agreement which they wanted to be presented to this 
committee as if the union proposed it----
    Ms. Wasserman Schultz. Oh, I see.
    Mr. Hardwick. To have the contract security take over the 
passport facility.
    Ms. Wasserman Schultz. Any other facilities besides that 
one?
    Mr. Hardwick. Other than that one, the one facility in 
Mississippi still has contract security there.

                    FUNDING FOR ADDITIONAL OFFICERS

    Ms. Wasserman Schultz. Right, that is not part of the law. 
Are you saying that we funded 17 additional officers for GPO's 
police force and GPO didn't hire?
    Mr. Hardwick. They dragged their feet, they have created 
situations where it has become harder and harder to hire 
officers.
    Ms. Wasserman Schultz. How so?
    Mr. Hardwick. They raised the bar well beyond what we would 
consider people would be hired for Capitol Police, Secret 
Service, deputy marshals or air marshals.
    Ms. Wasserman Schultz. In terms of qualifications?
    Mr. Hardwick. Yes.
    Ms. Wasserman Schultz. Aren't the qualifications that they 
are asking for just the standard----
    Mr. Hardwick. No, they are well above what we require or 
what anybody else requires compared to any of the other 
agencies.
    Ms. Wasserman Schultz. What are they looking for, officers 
that have previous experience or----
    Mr. Hardwick. We have requested that they look at officers 
with previous experience working currently with other agencies 
or new recruits.
    Ms. Wasserman Schultz. And what are they insisting on?
    Mr. Hardwick. They insist that there is always an issue 
with background or an issue with work ethic. We think they have 
instituted this specialized PT program which requires that 
officers must take it every year and pass it. If not, they will 
be terminated. No other agency requires such an action to take 
a PT to get the job, but you certainly don't have it every year 
to keep your job. We have talked to officers from other 
agencies----
    Ms. Wasserman Schultz. Is that in your contract?
    Mr. Hardwick. That is not in our contract, that is in their 
proposed issue with new hires. We have spoken with people 
interested in working but they say they were discouraged by 
GPO's new mandate.

                       POTENTIAL MERGER WITH USCP

    Ms. Wasserman Schultz. Why shouldn't we just absorb GPO's 
police into the Capitol Police?
    Mr. Hardwick. We think you should.
    Ms. Wasserman Schultz. Okay. Has that ever been proposed 
previously?
    Mr. Hardwick. There is currently some talk about it now 
recently. There was some paperwork--there were some articles in 
the paper in reference to that by Mr. Brady from Pennsylvania.
    Ms. Wasserman Schultz. Okay.
    Mr. Hardwick. So we are in the middle of trying to 
formulate, sit down and find out where that is. We think that a 
merger would be good for the department. It would eliminate 
irregularities and the security gaps, everything would be 
uniform as it is now. Currently we have some Capitol assets at 
GPO, HAZMAT stuff and equipment, we have internal affairs, a 
whole supply.
    Ms. Wasserman Schultz. It seems to me now we now have 
absorbed the Library of Congress's police force and they are 
all Capitol Police, and this is the only other police agency in 
the legislative branch, and I am just not sure why we shouldn't 
have the Capitol Police covering all the legislative branch 
agencies where there is a police force necessary.
    Mr. Hardwick. Currently you have a blueprint for that 
library merger.

                      SWORN VS. CONTRACT OFFICERS

    Ms. Wasserman Schultz. We certainly do. The only other 
question I have is I don't want to knock contract security 
officers, because I am sure they do a good job and are well 
intentioned and well qualified, but where there are contract 
officers or security officers there instead of sworn officers, 
what risk--what problems have there been that are addressed by 
the difference between having a sworn officer guard a 
particular facility at GPO versus----
    Mr. Hardwick. In recent past?
    Ms. Wasserman Schultz. Recent.
    Mr. Hardwick. Recent past we have had some officers, some 
of the security officers have been involved with government 
service, parking on the parking lots for free, parking here in 
the government area.
    Ms. Wasserman Schultz. The security officers themselves?
    Mr. Hardwick. Yes, to include the project manager. We have 
issues with their backgrounds.
    Ms. Wasserman Schultz. Their own backgrounds?
    Mr. Hardwick. Yes.
    Ms. Wasserman Schultz. But have there been any crimes? You 
made reference to attempted rapes and murders.
    Mr. Hardwick. Those were perpetrated by citizens in the 
street.
    Ms. Wasserman Schultz. Were sworn officers too far away 
from security officers?
    Mr. Hardwick. The security officers couldn't respond to it, 
but our GPO officers----
    Ms. Wasserman Schultz. Are they armed?
    Mr. Hardwick. Yes, but they can't go in public space. We 
had recent issues where one of the security guards was involved 
in a theft, theft of a visitor's property coming through the 
Visitor's Center.
    Ms. Wasserman Schultz. Has there been any jeopardy to the 
GPO property as a result of security officers?
    Mr. Hardwick. Not this year.
    Ms. Wasserman Schultz. How long ago?
    Mr. Hardwick. I would say 3 years ago.
    Ms. Wasserman Schultz. And what was that?
    Mr. Hardwick. That is where they had lost their weapons in 
bathrooms and whatnot. We had one of them involved with drug 
dealing outside the agency and they worked at GPO as well as 
contract security.
    Ms. Wasserman Schultz. Okay. Mr. Aderholt.

                              NEW OFFICERS

    Mr. Aderholt. Your proposal would be for 17 new officers?
    Mr. Hardwick. Well, the Subcommittee proposed that they 
hire 17 people, and it is now close to 3 years and 17 people 
have not been hired. That is a clear indication to us that they 
have been dragging their feet. And I think because they were 
not given a deadline to hire those people, they felt that they 
could do that when they wanted to. If they were asked questions 
they could say we are in the process of doing it.
    Mr. Aderholt. But 17 would still be sufficient?
    Mr. Hardwick. Well, right now, no, it would only replace 
the people we have lost by retirement or attrition to other 
agencies.
    Mr. Aderholt. Thank you.

                    STANDARD FOR USCP AND GPO POLICE

    Mr. Ruppersberger. Is there a standards issue between the 
two police departments? Is there a standard for the Capitol 
Police than the others, is that why----
    Mr. Hardwick. The standard is pretty much the same, we 
attend the same schools in the same classrooms. The standard is 
no different. GPO, the new management has implemented a new 
standard where the officers are required to be better 
qualified. We have even had some officers who wanted to leave 
Capitol and transfer over to GPO and they were told that they 
were not eligible to apply, and that is because of retirement 
issues. And we think that it is on purpose.
    Mr. Ruppersberger. To save money?
    Mr. Hardwick. To either save money or not hire. If you look 
every day, you have more security personnel on the list than 
you have police officers.
    Ms. Wasserman Schultz. Mr. Cole.
    Mr. Cole. No questions.
    Ms. Wasserman Schultz. Thank you very much, Mr. Hardwick, 
we will spend some time addressing your concerns and at this 
point, we have a couple of minutes to vote and there are three 
votes on the floor so with that, the Subcommittee stands in 
recess subject to the call of the Chair.
    [Recess.]
    Ms. Wasserman Schultz. I call the Subcommittee back to 
order. At this time, I would like to recognize Jesse Hartle 
with the National Federation of the Blind. You can proceed with 
a 5-minute summary of your statement and your full statement 
will be entered into the record. Welcome.
                              ----------                              --
--------

                                      Wednesday, February 24, 2010.

                    NATIONAL FEDERATION OF THE BLIND


                                WITNESS

JESSE HARTLE, NATIONAL FEDERATION OF THE BLIND

                      Opening Remarks--Mr. Hartle

    Mr. Hartle. Thank you, Madam Chair. My name is Jesse Hartle 
and I work in the Department of Governmental Affairs at the 
National Federation of the Blind. And I am a patron of the 
National Library Service for the Blind and Physically 
Handicapped. I want to thank you and the Ranking Member and 
other members of the Subcommittee for two things: first, for 
allowing me to testify today concerning the importance of the 
Digital Talking Book Program of the National Library Service 
for the Blind and Physically Handicapped and for the work that 
you have done to ensure that this transition occurs without 
interrupting the service of the Talking Books Program for the 
800,000 patrons who rely on this service as their primary 
source of reading material.
    One of the greatest problems facing blind Americans today 
is not the blindness itself, but it is the misunderstanding of 
the capabilities of blind people which lead to low expectations 
by society for us to participate on terms of equality with our 
sighted counterparts. The Digital Talking Book Program helps to 
level of playing field by providing access to information for 
blind people. If you were reading a book in print, on the 
American Revolution, and I was reading the same book by using 
audio we would both find that Lord Cornwallis surrendered at 
Yorktown. The information contained in books is the same 
regardless of whether it is in print or on audio. The NLS has 
done a remarkable job of providing a wide variety of materials 
for use by its patrons. I have come across blind people who are 
reading books on many topics from best practices of barbecuing, 
the latest science fiction bestsellers, information on famous 
air battles of World War II and books on parenting.
    Because blind people are a cross section of society, our 
library needs to be able to provide a diverse collection of 
materials. Part of the digital transition has allowed the 
patrons of the NLS program in several pilot States to download 
books onto blank cartridges, which they would use in their 
digital Talking Book player. This allows blind patrons on-
demand access to information making our Library even more 
effective. The rollout of the new digital Talking Book players 
continues as 20,000 new machines are produced each month.
    And currently over 85,000 new machines are now being used 
by library patrons. On behalf of America's blind, I want to 
take this opportunity to thank you and this Committee for all 
of the work you have done to make sure that this transition is 
adequately funded. We believe that knowledge is power. And your 
work on this project is protecting the right of blind Americans 
to access that power. I also want to take the opportunity to 
commend the Librarian of Congress, Dr. James Billington and the 
director of the NLS program, Frank Kurt Cylke, for their hard 
work and commitment to providing quality digital talking books 
to NLS patrons and for bringing this transition to fruition so 
that the viability of this program is assured throughout the 
21st century. All that is needed for the transition to be 
completed on schedule in 2013 is for the fiscal year 2011 
appropriation of 12.5 million to be included, as I said, in 
fiscal year 2011, 2012 and 2013. On behalf of blind Americans 
served by this critically important program, I urge this 
subcommittee to make sure that this happens so that there will 
be no disruption in service for any NLS patron. Thank you very 
much.
    Ms. Wasserman Schultz. Thank you very much, Mr. Hartle.
    [Mr. Hartle's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                    CONVERSION OF NON-NLS MATERIALS

    Ms. Wasserman Schultz. This entire Subcommittee appreciates 
your testimony and also appreciates the efforts of your 
organization. They would be hard pressed to find an 
organization with more passionate advocates than those of the 
National Federation of the Blind, and you always make sure that 
we understand the issues that are important to blind Americans. 
And I can assure you that over the next 2 fiscal years, as long 
as I chair the subcommittee, that we will be focused on making 
sure that we can complete our commitment to making sure that we 
can fully fund the transition for digital books for the blind.
    I do have one question, though. And that is, it has come to 
my attention recently that not all reading material is--that 
there are materials that serve blind Americans that are not 
covered by the NLS. And I am wondering if the Federation has a 
plan for ensuring that those materials are accounted for in the 
conversion?
    Mr. Hartle. And the----
    Ms. Wasserman Schultz. For example, there are Jewish--there 
are Jewish documents that are not part of the NLS that I am 
concerned are not going to make the transition.
    Mr. Hartle. The National Federation of the Blind has also 
run into this problem as far as providing materials. We, like 
many other organizations, piggy-backed on the cassette 
technology that was used by NLS because the idea was that this 
technology has been used for the past 43 years for the Talking 
Books Program, cassette technology. So the belief was that if 
you want to get information to blind people, most blind people 
have cassette players and so you kind of use the same 
technology. And now that that has come to an end, we have had 
to adapt our delivery system to--we have moved to kind of a 
downloadable format from the Internet. You can also--some of 
the things we have also done are e-mailed audio files. For 
Braille materials that are in hardback, or even--as technology 
has advanced, it is possible, and I don't know the technical 
parameters of how they do this, but the NLS does have a format 
in which you can get a Braille file in an electronic format 
which is called a BRF file. And a user could download that to a 
note taker and it would be up here on a refreshable Braille 
display so they could still have the material in Braille, but 
that PDA type device would also be able to read it in an 
electronic synthesized voice.
    So this is another way that we are working to ensure that 
materials are still being provided and that nothing is left 
behind. And the National Federation of the Blind would be happy 
to work with any organization to work out ways of providing 
that information.
    Ms. Wasserman Schultz. I would like to help encourage that 
and make sure that while we are trying to--because the whole 
goal is to get all of these materials converted. And if we 
leave some folks behind, then obviously they are not going to 
have access to those materials and may never. This is our one 
shot. So I just want to make sure that we get those, that 
everything is coordinated. Mr. Aderholt.

                          DIGITAL TALKING BOOK

    Mr. Aderholt. In doing this transition, is the latest 
version what is called the Talking Book?
    Mr. Hartle. The book would be on a cartridge which then 
goes into the player. So we are replacing the old format which 
was the book on a cassette tape and now it is on a cartridge. 
There are two things that can happen. One, you would contact 
your local library for the blind, physically handicapped and 
request the book and it would still be sent to you through the 
mail as was done in the old Talking Book program. But you could 
also receive a blank cartridge which then you could download 
the book through your computer onto that cartridge. You would 
have that book on that blank cartridge. Then when you finished 
that book and wanted another book, you could go download it to 
that cartridge and the new book would take the place of the 
old.
    Mr. Aderholt. It would be erased?
    Mr. Hartle. Yes.

                           USE OF AUDIO BOOKS

    Mr. Aderholt. Of course, I know now it is very common for 
people who actually have 20/20 vision to use audio books. Has 
there been a discussion of a way to try to provide audio books 
for the blind that could serve both purposes?
    Mr. Hartle. Some commercial audio books are part of the 
Talking Book program, not--certainly not all. And I am not sure 
how those decisions are made of which comes into the program 
and which is not.
    Mr. Aderholt. I just wondered--because like I said, it is 
very popular now to do audio books for people who can see 20/
20. So I just wondered if there was a way that would even be a 
way to produce even more. Like I said, I don't know how that 
works either, but that may be something to look into as far as 
actually checking with the Library of Congress when they come 
to testify before us. Thank you for your testimony today.
    Mr. Hartle. Thank you.
    Ms. Wasserman Schultz. Thank you very much, Mr. Hartle. 
Thank you. You did a great job. Next, Mr. Saul Schniderman, 
President of the Library of Congress Professional Guild. You 
can proceed with a summary of your statement and your full 
statement will be entered into the record. Welcome.
                              ----------                              --
--------

                                      Wednesday, February 24, 2010.

                 LIBRARY OF CONGRESS PROFESSIONAL GUILD


                                WITNESS

SAUL SCHNIDERMAN, PRESIDENT, LIBRARY OF CONGRESS PROFESSIONAL GUILD

                    Opening Remarks--Mr. Schniderman

    Mr. Schniderman. Thank you, Chairwoman Wasserman Schultz 
and Ranking Member Aderholt and Members of the Subcommittee, my 
name is Saul Schniderman, and I am President of the Library of 
Congress Professional Guild, AFSCME Local 2910. And I am 
testifying this morning on behalf of over 1,500 professionals 
at the Library of Congress, excluding CRS who thank you for 
your support of the Library and of their work to help make the 
Library of Congress a great institution. I am here this morning 
with our chief steward, Nan Ernst, who is an archivist at the 
Library, and our chief negotiator, Ken Dunlap, who is an 
attorney advisor in the Copyright Office.
    Last May when I testified before you, I reported that the 
EEO and the dispute resolution program at the Library was in 
administrative turmoil. Today I am pleased to report that the 
OIC, the Office of Opportunity and Inclusiveness and Compliance 
is being restructured. And to date, we are pleased with the 
results. Last summer a new director of OIC was appointed and we 
can attest that she is committed to fairness, diversity and 
resolution of disputes and EEO complaints. She has hired 
competent contract mediators, she has met with the Deaf and 
Hard of Hearing Staff and has initiated a series of educational 
brown bag teaching sessions.
    I want to make it clear that the OIC is in a rebuilding 
phase right now and its programs--the success of its programs 
is dependent upon the level of institutional support needed to 
address discrimination in the workplace. We think it is 
important that the OIC succeeds and we ask that this 
subcommittee also take a look at it and urge it in the right 
direction. And here is why.
    EEO at the Library of Congress is different from almost 
anywhere else in the Federal Government. It is peculiar because 
at the Library, employees are not subject to the jurisdiction 
of the EEOC, the Equal Employment Opportunity Commission. For 
most Federal agencies, the EEOC is responsible for enforcing 
the EEO laws. This makes sense as it would be foolish for an 
agency to enforce EEO laws against itself, but this is exactly 
the case at the Library of Congress where the Librarian is both 
the employer respondent and the administrative official charged 
with making the final decision on an EEO complaint against the 
Library. In short, its roles are in conflict. For the very same 
reason, the Library's EEO process is neither impartial nor fair 
because the Librarian rarely, if ever, rules in the employee's 
favor.
    Regarding EEO, we at the Library always try to contrast 
ourselves with our colleagues in the legislative branch who 
come under the Congressional Accountability Act and have the 
right to counseling and mediation and procedures that are 
administered by the Office of Compliance, which is independent 
of those leg branch agencies.
    We would like to see the law changed and we would like to 
have those same rights of independent review that our 
colleagues in the legislative branch have. Madam Chairwoman and 
Mr. Aderholt, we only recently were able to review the budget, 
Dr. Billington's fiscal year 2011 budget, and we have not yet 
been provided with a briefing on that. But we are generally 
supportive of his request, except for one in particular and 
that is the establishment of a more centralized workforce 
performance management program in human resources, particularly 
the 2 FTEs which the library's human resources office has 
requested to manage staff performance. And the reason why we 
don't support this, we believe that maintaining high 
performance for professionals at the Library of Congress begins 
and ends on the shop floor where the work is done, not on the 
sixth floor of the Madison Building.
    Ms. Young asked me what do I mean by the sixth floor. Here 
we refer to that as being the sixth floor. That is where all 
the top management has their offices in the Madison building. 
On that shop floor where we work, if the supervision is good, 
performance tends to be excellent. If it is poor, performance 
tends to be spotty. And now my colleague and fellow President, 
Dennis Roth, made mention of these 2 FTEs in his testimony, so 
I wanted to be clear. If these FTEs are designed for career 
development or staff development or supervisory training, that 
is terrific and we can support it. But if it is only to lead to 
a greater bureaucracy centralized on the sixth floor with 
somebody pushing paper from here to there, we are not 
supportive of it.
    I want to very quickly comment on the crisis in the 
Copyright Office. To management's credit, a more realistic view 
has been emerging regarding the shortcoming of the electronic 
system which was implemented in August of 2007. Currently, the 
Copyright Office has approximately 500,000 claims waiting for 
processing and this is down from approximately 545,000 a couple 
of months ago. These reductions stem from the temporary 
reassignment of supernumerary staff rather than a clear 
improvement in the system.
    In December of 2009, 20 staffers were detailed to the 
registration program of the Copyright Office. And in January, 
50 additional employees were detailed for a 2-month period. 
These additional workers have increased registrations a few 
thousand per week. And for the first time since implementation 
of the new system, the backlog is declining, but it remains to 
be seen whether this progress can continue once the 70 workers 
return to their normal duties.
    And finally, I would like to just end my testimony with two 
other matters which we believe merit support from the 
Subcommittee. If you remember, the guild has testified in the 
past--we were in favor of the recently completed merger of the 
LOC and the Capitol Police to better coordinate campus-wide 
security. But staffing shortages are causing delays for Library 
employees coming to work, especially at the C Street entrance 
to the Madison Building where long lines on the sidewalk are 
all too common.
    So more police are needed to provide access to Library 
buildings. And also, as I am sure you are aware, the Library 
has run out of space for its collections on Capitol Hill. We 
support funding for Collection Storage Module 5 at Fort Meade, 
because there is, frankly, no place for hundreds of thousands 
of books that are on the floor today and we feel that number 
will grow. This ends my testimony. I do hope to be able to 
submit something in write later on. I thank you for this 
opportunity.
    [Mr. Schniderman's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                     COPYRIGHT REGISTRATION BACKLOG

    Ms. Wasserman Schultz. Thank you very much. Mr. 
Schniderman. The progress that has been made in the Copyright 
Office, I am pretty happy about it as well. We, as you know, 
pushed for there to be a very specific commitment on the part 
of the Library to address the backlog. I get a weekly report 
now on their progress, making sure that we hold their feet to 
the fire so that we can get that backlog cleared out is 
important, and I think it is part of the reason that they have 
now shifted those 50 employees, is to get that job done. I did 
not hear in your testimony, which you did complain about last 
year, about the electronic processing process. Are you still 
uncomfortable with that process? Or have those concerns 
subsided?
    Mr. Schniderman. No, we are still uncomfortable with it.
    Ms. Wasserman Schultz. But it is what it is.
    Mr. Schniderman. It is what it is. We are going to have 
this problem in the Copyright Office for the next few years. 
The electronic system which they purchased again was designed 
to help the workers do a more efficient job and there have been 
some small improvements, but when you have a backlog this size 
it is going to be a long time before it is worked out.
    Ms. Wasserman Schultz. What is the Guild's estimate as to 
how long realistically it would take to clear the backlog?
    Mr. Schniderman. We are not experts in that, but it is 
going to be years. But we do know to put a human face on this, 
these are American citizens who are registering their works 
with the Copyright Office and sometimes have to wait up to 2 
years in order to get a certificate. Our support for the 
Copyright Office is to support the copyright industries and 
small authors. So you can imagine the frustration that is out 
there in the land. I think we are going to be living with this 
crisis for quite a while, Ms. Wasserman Schultz.

                               EEO ISSUES

    Ms. Wasserman Schultz. This is on the EEO issues. Do you 
have the same concerns that your colleagues at CRS have about 
the small number of employees in the office and their inability 
to address the EEO problems with that small of a shop?
    Mr. Schniderman. That office was basically abolished last 
year and it is now in a state of reconstruction. So in that 
process, there are bound to be different experiences. And I 
want to say that we actually have had to file grievances in 
order to make sure that mediation services were provided. We 
are pleased with the director and I understand they have 
recently hired a GS-15 on staff. But we have not yet met her. 
So we have the same concerns. The story isn't over yet.
    Ms. Wasserman Schultz. But you are willing to give it a 
little more time?
    Mr. Schniderman. Yeah, in the sense it is going through a 
reconstruction phase. And I hope you will look into this and 
prod them in the right direction.
    Ms. Wasserman Schultz. Thank you. Mr. Aderholt.

                           LIBRARY ENTRANCES

    Mr. Aderholt. The interesting thing that you mentioned as 
far as the long lines out on the sidewalk in your testimony--
has there been such discussions about in the mornings to--well 
first, is it basically in the mornings where this is the 
problem?
    Mr. Schniderman. Yes.
    Mr. Aderholt. Have there been discussions about opening up 
alternative doors?
    Mr. Schniderman. Yes. On our part. Yes, there have been.
    Mr. Aderholt. What has been the----
    Mr. Schniderman. In fact, we met with an official from the 
police, Inspector Morse, 2 weeks ago about this. As you know 
for the Madison Building, there are only 2 entrances. There is 
the C Street entrance and the Independence Avenue entrance. And 
we have spoken over the last couple of years and convinced the 
Library to open up a door on the First Street side of the 
Madison building for staff only, only in the morning and at 
lunchtime on the Second Street door, which some people call the 
Pete door, because it is right across from Pete's, if you know 
that little shop there. Again, for staff. Because what happens 
is--this is an access issue for us. You have the staff and the 
public trying to get into the building at the same time, 
especially off the subway.
    So we have been trying--and he has responded. But it is 
iffy. Sometimes it is open and sometimes it is not. But that is 
the key to the solution is to open up the two side doors just 
for staff.
    Mr. Aderholt. For staff only. So what is the current 
feedback did you get when you----
    Mr. Schniderman. Here is the feedback. They put a sign--if 
it is closed, specifically for people to come down out of 
Capitol South so they can look up the Hill and see whether it 
is open. Today it was open. Yesterday it was open. But tomorrow 
it might be closed. What has happened is it depends on the 
supply of officers because now that we have merged--now that 
the police have merged with the Capitol Police, those staffing 
problems have gotten larger. So he is aware of our concerns and 
it has to do with exactly the matter you brought up, the side 
door.
    Mr. Aderholt. Okay. Thank you. Thank you for your 
testimony.
    Ms. Wasserman Schultz. Thank you very much. And again, 
please, also send our thanks to your fellow employees for all 
the work they do.
    Mr. Schniderman. I will certainly do that.
    Ms. Wasserman Schultz. Last but not least, Mr. Jim Konczos, 
chairman of the Fraternal Order of the Police Labor Committee. 
Welcome to the Committee and you can proceed with a 5-minute 
summary of your statement and your full statement will be 
entered into the record.
                                      Wednesday, February 24, 2010.

              UNITED STATES CAPITOL POLICE LABOR COMMITTEE


                                WITNESS

JAMES KONCZOS, FRATERNAL ORDER OF POLICE LABOR COMMITTEE

                     Opening Statement--Mr. Konczos

    Mr. Konczos. Good afternoon. I want to thank the 
distinguished members of this Committee for allowing me this 
opportunity. My name is James Konczos and I represent the 
United States Capitol Police Labor Committee and I serve as the 
chairman. Our union represents the men and women of the Capitol 
Police. These are the officers you see on a daily basis who 
provide a safe environment in which the legislative branch can 
function without interruption. On behalf of these officers, I 
am here to discuss our current retirement system. As most 
Federal employees, we are covered under the Federal Employees 
Retirement System known as FERS.
    FERS is a three-tiered system based on a government 
pension, Thrift Savings Plan, and Social Security. This system 
would allow an officer to retire after 25 years of covered 
service at any age. This officer would be eligible for 39 
percent pension based on the average of his 3 highest years of 
his basic pay. This system also subjects an officer to 
mandatory retirement at age 57, as long as they have completed 
their 20 years of covered service. If an officer can only 
complete 20 years of service due to age, they would receive 
approximately 34 percent of their salary as pension. Again, 
based on the formula, the 3 highest years of basic pay.
    You start to see the effects of this system regarding 
pension. Officers who are now eligible to retire choose not to 
because the pension percentage is so low. And it has come to 
the union's attention that at least one officer forced to 
retire at age 57, because of his low pension percentages, has 
submitted for unemployment benefits and has been approved. The 
Thrift Savings Plan, while a good idea, also has its drawbacks. 
Many of our new officers begin their career with outstanding 
student loans which prevents them from contributing the maximum 
amount into the system. Other officers are coming to terms with 
their first mortgage and school-aged children. They face the 
same dilemma.
    At what time can you contribute the maximum to Thrift 
Savings? For most the answer is never. While Social Security 
under FERS is designed to bridge the gap from the time you 
separate from the agency, you receive your full Social Security 
benefits at age 62. Because of the low pension percentages and 
the Thrift Savings uncertainty, it is not meeting its intended 
goals. While we are aware that the pensions were designed to be 
less than individual's annual compensation when they retire, we 
have officers retiring at age 57 needing full-time employment 
at an age when most employers want a younger workforce. I know 
my time is limited here today, so if possible, I would like for 
my executive board and myself to meet at a future date and 
discuss some options.
    [Mr. Konczos' prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                           RETIREMENT SYSTEM

    Ms. Wasserman Schultz. Absolutely. We would be glad to do 
that. And we thank you for your testimony. The concerns you 
expressed over the retirement system, I mean, it is designed so 
that police officers who obviously face a particularly 
gruelling job and particularly gruelling job conditions have an 
opportunity to retire when physically they may be 
deteriorating, differently than someone who isn't working in 
law enforcement. Is there a model in the Federal Government 
that--a model retirement system that you think is more 
appropriate?
    Mr. Konczos. Basically, two of the options we have looked 
at is either have the officers contribute more on our end and 
maybe have the department add a little bit more. We have----
    Ms. Wasserman Schultz. More contribution from the officers 
and more----
    Mr. Konczos. Yes. We have also had a meeting with Terry 
Gainer this morning and we discussed maybe the possibility of 
compressing our pay scale. At its current rate right now, at 
year 21 and 26 we get a substantial increase. But if this pay 
scale can be compressed, say just off of the top to, say, 15 to 
20, this would give officers more time to invest in the Thrift 
Savings Plan and other options they may have. And there are 
other current retirement systems called the LEAP, which is Law 
Enforcement Availability Pay. And with that, 25 percent of our 
basic salary is added in their retirement. It reduces overtime 
and that 25 percent is actually included in the retirement.
    Ms. Wasserman Schultz. Thank you. Chief Morse is going to 
testify in front of the Subcommittee in the next 2 weeks. Are 
there any issues that you think from a workforce perspective 
are important for us to raise with him?
    Mr. Konczos. We have had a few wishes which we believe that 
the department might not be using the resources to the best 
advantage.
    Ms. Wasserman Schultz. And those are issues that you prefer 
to raise----
    Mr. Konczos. I would rather raise them privately because 
they deal with security issues.

                   LIBRARY OF CONGRESS POLICE MERGES

    Ms. Wasserman Schultz. No problem. We can do that. And just 
lastly, how does your union and your fellow officers assess the 
transition of the Library of Congress officers and----
    Mr. Konczos. For the most part, I have gotten positive 
feedback.
    Ms. Wasserman Schultz. From the Capitol Police officers?
    Mr. Konczos. Yes.
    Ms. Wasserman Schultz. And the former LOC officers as well?
    Mr. Konczos. Yes, except for the ones that were forced out 
due to age limitation restrictions.
    Ms. Wasserman Schultz. Right, right. Obviously they 
wouldn't be very happy.
    Mr. Konczos. No. And one of the things too, the gentleman 
that testified before me raised the issue of manpower, and we 
have been addressing that over at the Library of Congress and 
we have hit a stalemate with that too.
    Ms. Wasserman Schultz. Okay. Well, I look forward to 
spending some time with you on those issues. Maybe we can even 
do that with Mr. Aderholt together so we can try to--Mr. 
Aderholt?

                          RETIREMENT BENEFITS

    Mr. Aderholt. You mention in your testimony about the 
Thrift Savings Plan and some drawbacks on that and you 
mentioned in your testimony about the fact that a lot of 
people, or a lot of the officers coming in have student loans. 
What is it about the Thrift Savings Plan that you would like to 
see changed? I need to clearly understand what the problem is.
    Mr. Konczos. I believe the problem is if I was hired under 
the civil service plan, I would be putting--I believe it is 
7\1/2\ percent of my retirement. New employees under FERS only 
put in 1.7. So I don't believe that there is enough funds being 
contributed by the employers and the employees.
    Mr. Aderholt. Under the current----
    Mr. Konczos. Under the current system.
    Mr. Aderholt. Does this apply just to you all or does this 
pretty much----
    Mr. Konczos. I believe it is most Federal agencies. Like I 
said, we did invite the officer to come here today just to 
stand witness to this, but we have one of the officers who 
apparently has applied for employment benefits and they won't 
accept it because he was forced out at age 57 and had a drop in 
his salary.
    Mr. Aderholt. That is all I have.
    Ms. Wasserman Schultz. Well, thank you very much. And thank 
your fellow officers for your service to the Congress and to 
the American people. Thank you very much.
    Mr. Konczos. Thanks for your time.
    Ms. Wasserman Schultz. With that, we don't have any 
additional witnesses to testify. And the Subcommittee stands 
adjourned.
    [Clerk's note.--The following statement was submitted for 
the record by the American Bar Association:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                         Wednesday, March 10, 2010.

                     U.S. HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. LORRAINE C. MILLER, CLERK OF THE HOUSE
HON. DANIEL P. BEARD, CHIEF ADMINISTRATIVE OFFICER
HON. WILSON S. LIVINGOOD, SERGEANT AT ARMS

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Okay, good morning. I would like to 
call the meeting of the Legislative Branch Subcommittee of the 
House Committee on Appropriations, which is a really long name.
    This is our hearing on the House of Representatives, and 
each of the officers will read an opening statement. And this 
is our opportunity to review each of your proposed budgets for 
this year for the House of Representatives.
    I appreciate the effort, given the tight economic situation 
that we are facing and the difficult fiscal year, that, at 
least in most cases, there was an effort to rein in the budgets 
and even not ask for as much as there was last year. So that is 
really incredibly helpful.
    We will have a number of questions for you after your 
statements. We are, you know, yet again facing a tight year, 
and we always face a tight year, particularly in the 
Legislative Branch because this is a gotta-have type budget as 
opposed to a nice-to-have. And, you know, I have consistently 
been focused on trying to make sure that we deal with the life 
safety and security issues; that we make sure, in the case of 
your budgets, that we take care of our staff, who are our most 
important assets.
    So we look forward to hearing from you this morning, and 
your full statements will be entered into the record. And after 
Mr. Aderholt, you can proceed with a 5-minute summary.
    Mr. Aderholt.

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. Thank you. Thank you, Madam Chair. Once 
again, it is an honor and a pleasure to be with you here this 
morning for this hearing. I look forward to continue working in 
a bipartisan manner with this subcommittee, with you and the 
other members, to make sure we get the work of the House done.
    We certainly have our work cut out this year for us. As we 
go through this hearing process and begin to mark up the House 
bill, we will have challenges. And that will be, of course, 
very difficult as we try to fit all of the needs that are 
demanded by the House of Representatives and by the budget. But 
we will work through that.
    That being said, I would like to join you in welcoming the 
officers of the House this morning. I look forward to hearing 
the progress that has been made over the past year since our 
hearing a year ago about their plans for the up and coming 
fiscal year.
    So, again, thanks for calling this hearing this morning, 
and we look forward to hearing our guests.
    Ms. Wasserman Schultz. Thank you.
    And just to give a couple brief highlights: The Office of 
the Clerk is requesting $29.2 million, which is 2.26 percent 
below fiscal year 2010. The Chief Administrative Officer is 
requesting $133 million, which is 1.9 percent above fiscal year 
2010. And the Sergeant at Arms is requesting $19.6 million, 
which is a $10 million increase above fiscal year 2010, but 
that is reflective of the fact that the Office of Emergency 
Planning, Preparedness, and Operations is finally being moved 
over to the Office of the Sergeant at Arms, where it is more 
appropriately housed. And so $4.5 million of Mr. Livingood's 
budget request is due to the absorption of that office.
    So, Ms. Miller, welcome. You can proceed with a 5-minute 
summary of your statement.

                   Opening Statement--Lorraine Miller

    Ms. Miller. Madam Chair, Ranking Member Aderholt, and 
Subcommittee Member Mr. Honda, it is always a pleasure to come 
before you to give you an overview of our cumulative 
legislative work of the House and to give the subcommittee our 
justification for the fiscal year 2011 budget request.
    We have some ongoing and upcoming projects that I want to 
report on. For the 111th Congress, as of March 5th, 
legislatively we held 2,190 hearings. We had 991 roll call 
votes. In the second session of the 111th, we had 255 hearings 
so far, with 91 roll call votes. We have in the 111th bills and 
resolutions that were introduced, 6,254; bills that were passed 
in the 111th, 1,085. And public laws, we have 145 bills that 
were enacted into law; 103 of those bills were initiated by the 
House. So the Office of the Clerk supports your legislative 
activities.
    As to the fiscal year 2011 budget request, our budget 
reflects the growing demand of the services provided by the 
Office of the Clerk. For fiscal year 2011, the Office of the 
Clerk is requesting a total of $29,299,000, a 6.6 percent 
increase over our fiscal year 2010 operational budget.
    On the personnel side, we are requesting $23,284,000, which 
is a 5.4 percent increase over our fiscal year 2010 budget 
request. This includes a request for two new FTEs, which will 
be software development specialists that will help bring our 
FTE total to 263.
    On the non-personnel side, our request is $6,015,000, a 2.5 
increase over last year. This will support some of our ongoing 
projects, which will include the electronic voting system, 
lobbying disclosure, record storage, and the House Library.
    As to our electronic voting system, I would like to thank 
the subcommittee for your generous support of our electronic 
voting system, EVS, upgrade project. As you will remember, in 
August of 2009 our summary board displays were replaced with a 
denser, higher-resolution LED technology. We are moving forward 
with the replacement of the main display using the same vendor 
that installed the new summary boards. We anticipate the 
installation to take place later this year, contingent upon the 
House schedule. And we will continue to work with the 
subcommittee and the staff on the logistics and details of the 
installation.
    As to lobbying disclosure and electronic records, as a 
result of the Honest Leadership and Open Government Act, the 
Office of the Clerk implemented a new disclosure system. There 
are approximately 5,000 lobbying registrant entities 
representing some 20,000 clients currently registered with the 
Office of the Clerk. Furthermore, there are about 15,000 
individual lobbyists now registered in the Office of the 
Clerk's new lobbying contribution system.
    The new law requires that each lobbying registrant, as well 
as each individual lobbyist, file a quarterly report with the 
Office of the Clerk disclosing certain contributions. In the 
second half of 2009, we received over 50,000 electronically 
filed forms submitted to our contribution and reporting system. 
As a result, our office has added, with the subcommittee's 
support, additional servers and one additional FTE to manage 
these additional responsibilities.
    Secondly, we are consulting with the Committee on Standards 
and hope to implement full electronic reporting of financial 
disclosure and gift travel reporting during the 112th Congress.
    Records of the House: In 2009, the archival staff processed 
3,150,400 official House records. In addition, the first large-
scale transfer of electronic records was completed in 2009, and 
we had a committee that transferred all of those records of the 
110th Congress, some 19.7 gigabytes, electronically.
    The Office of the Clerk is working with the AOC to find a 
suitable space for a full and functioning library reading room. 
When the space is acquired, it will need to be retrofitted in 
order to function as a state-of-the-art digital library.
    Our new projects: The Clerk's Office has three new projects 
in fiscal year 2011 we would like to bring to the 
subcommittee's attention: HouseLive; Document Room shelving; 
and our Legislative Computer Systems server farm improvements.
    HouseLive is a new service the Office of the Clerk will be 
offering to the House community and general public. This new 
Web streaming video service will offer an online realtime video 
of the sessions of the House of Representatives. We started 
purchasing the equipment and software in fiscal year 2009, and 
the live service will begin as a beta project.
    Document Room shelving: During fiscal year 2011, the first 
of a two-phase project is planned to purchase and install a 
high-density mobile shelving system for the House Document 
Room. This new shelving is needed to help us increase existing 
storage capacity in the House Document Room, and the new 
shelving will help us provide additional space to accommodate 
the increased materials in the House Library. The first phase 
will cost approximately $260,000.
    As to our Legislative Computer Systems server farm 
improvements, the funds will be used to purchase additional 
hardware and software to meet the increased demands on the 
Clerk's server farm. More than ever, people rely upon the 
Clerk's Web site for legislative information and updates. Our 
Web site currently averages between 300,000 to 500,000 hits per 
week, depending on the legislative schedule. This number will 
certainly increase. And with that increased traffic and 
expanded information of the new services we are making 
available, we must work to ensure that our hardware and 
software meet the sufficient need.
    In closing, although our expenses have increased 
marginally, we continue to work diligently to contain the costs 
and to be wise stewards of the taxpayers' dollars. We make 
every possible effort to negotiate the best price for the 
services and contracts by combining services and, when 
possible, looking inside, in-house to control our costs. And 
please be assured that we will be vigorous in our efforts to 
control spending.
    In conclusion, I want to offer the Clerk's semiannual 
report for your review of our entire operation. I thank the 
subcommittee for allowing me to testify and welcome your 
questions.
    [Ms. Miller's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Wasserman Schultz. Thank you very much, Ms. Miller. And 
really, all the Members thank you for your commitment to the 
institution, as well as the individual Members and staff.
    Mr. Beard, you can proceed with a 5-minute summary of your 
statement.

                      Opening Statement--Dan Beard

    Mr. Beard. Thank you.
    Madam Chair, Mr. Aderholt, Mr. Honda, I am pleased to 
appear before you to discuss the budget for the Office of the 
CAO.
    As the Chair mentioned, the budget request for the CAO for 
next year is $133 million, which is a 1.9 percent increase over 
last year. We are not asking for any increase in employee 
positions. Our budget reflects a commitment to enhancing 
information technology applications in security, increasing 
transparency, and a commitment to improving services to the 
Members.
    I would like to go through some of the highlights for you. 
First and foremost is in the area of information technology. We 
are requesting $4.2 million to undertake a series of 
improvements in our information systems security efforts, as 
directed by the Speaker and the Republican leader. These 
improvements include enhancing our centralized patch management 
and improving laptop and data encryption. We are now scanning 
devices before and after international travel. And we have 
blocked peer-to-peer software intrusions into the system.
    In addition, the joint leadership will direct us to 
undertake a series of actions to tighten cybersecurity 
protections over House public Web sites. We will be briefing 
the subcommittee next week on the actions that we will be 
taking as a result of the directive.
    On November 30, 2009, we posted the third-quarter statement 
of disbursements by the House, which is a document that 
consists of three volumes on house.gov. Subsequent copies, on a 
quarterly basis, of the statement of disbursements will also be 
put up on the Web. This action was taken to increase 
transparency of House activities and also to reduce the number 
of printed copies that we make of this document.
    The government contributions account for the House provides 
the funding for the House's portion of current employees 
benefits, as well as benefit enhancement. In 2011, our request 
will fund programs for the student loan repayment program, 
child care affordability assistance, and the tuition and 
professional dues reimbursement programs. The last two, we are 
working with CHA now to work out the final regulations for 
implementing these programs.
    We are requesting $2.5 million for the Speaker's Wounded 
Warrior program. To date, the House Members have hired 30 
wounded veterans. There are currently 50 funded fellowships, 
and 28 are filled and 22 are in process. The success of the 
program can be pointed out by two fellows who have moved on 
from the program. Scott MacDonald was hired originally by 
former Congressman Chris Shays in Bridgeport, Connecticut, and 
then subsequently rehired by Jim Himes. He has now found a 
position with the Department of Veterans Affairs. And Ismael 
Vazquez, with Congressman Ciro Rodriguez, left the fellowship 
program in January to accept a position with the Department of 
Defense.
    We are requesting $5.5 million to continue the next phase 
of House committee room upgrades for audio and videotape 
capabilities. To date, we have done 15 committee hearing rooms. 
The five remaining are currently in the design phase, with 
installation dates determined by the Chairs of the committees 
and by the availability of funds.
    Our request for business continuity and disaster recovery 
includes $1.8 million--and I wanted to highlight--to purchase 
software and hardware required to meet the directives of the 
joint leadership to improve the reliability of our IT systems. 
These funds will allow us to replace some aging equipment in 
our alternate computing center.
    Along with the Architect of the Capitol, we have been 
working to implement the Speaker's Green the Capitol program. 
The program seeks to reduce our energy consumption by 50 
percent over 10 years. This is an aggressive goal, but we are 
pleased to report we have exceeded our 5 percent annual 
reduction in energy consumption each year for the past 3 years.
    We also have under way a House-wide effort to consolidate 
computer servers that has dramatically altered our main data 
center by consolidating 300 CAO servers into 30 high-capacity 
servers. Energy consumption has been dramatically reduced in 
the data center. These energy savings have enabled us to 
provide a new computer server hosting program for 162 Member 
offices.
    In the past year, my staff, along with the Architect of the 
Capitol, has conducted more than 225 My Green Office 
consultations on the House campus and 130 district office 
consultations across the country. The goal of these 
consultations is to have every office commit by the end of this 
Congress to implement 15 recommended best practices to save 
energy, water, and promote reuse.
    We have moved forward with our demonstration project effort 
in cooperation with the Architect of the Capitol, Lawrence 
Berkeley National Lab, and the Department of Energy. We have 
reviewed and ranked 40 proposals to demonstrate innovative 
energy efficiency and conservation technologies on the House 
campus. We are now awaiting authorizing legislation. No year 
funding provided during FY 2010 will cover the majority of the 
anticipated costs for fiscal year 2011.
    The budget request for 2011 will ensure we remain committed 
to our mission of providing sustainable solutions and maintain 
a level of commitment to providing Members with the quality 
service support and business continuity that they deserve.
    I would be happy to answer any questions at the appropriate 
point.
    [Mr. Beard's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                   Opening Statement--Bill Livingood

    Ms. Wasserman Schultz. Thank you, Mr. Beard.
    Sergeant Livingood.
    Mr. Livingood. Good morning, Madam Chairman, Mr. Aderholt, 
Mr. Honda, and Mr. Ruppersberger. It is an honor to be here 
this morning to appear before you to present the Sergeant at 
Arms budget request for fiscal year 2011.
    Before I can begin my statement, I would like to begin, as 
I have the last year or 2, by expressing my sincere gratitude 
to each member of this committee and the Members of the House 
for their past and continued support throughout the year. Your 
support and assistance enable us to provide a safer, more 
secure environment for Congress, staff, constituents and all 
the visitors we have here and world leaders.
    Events in 2009 remind us of the real threat from terrorism 
which we face in today's world. It is still here; it has not 
changed. As the chief law enforcement officer of the House of 
Representatives, I continue to focus constantly on all aspects 
of security and life safety. My office reviews emergency plans, 
schedules evacuation drills for the Capitol and the House 
office buildings. We coordinate ongoing security enhancements 
as necessary and work on a daily basis with the U.S. Capitol 
Police in order to ensure that the safety of Members, staff, 
and visitors remains at the highest possible level.
    Total funding for the Sergeant at Arms Office in fiscal 
year 2011 is $19,623,000. This includes $9,800,000 for 
personnel expenses and $9,823,000 for non-personnel items. This 
amount also takes into account funding for the additional 
duties that the Sergeant at Arms Office will require to operate 
its new Office of Emergency Management, formally known as 
OEPPO, which was transferred to the Sergeant at Arms Office on 
February 1st, 2010.
    This is an overall increase of $5,669,000, or 40 percent, 
from fiscal year 2010, including OEM's budget. Excluding the 
OEM budget, the Sergeant at Arms overall budget request is 
$2,000 less than fiscal year 2010.
    Personnel funding in 2011 is requested for salaries of 131 
current employees as well as for expenses related to the 
request for three new FTEs. Of these three new FTEs, two will 
serve as Chamber support service staff, and they will be used 
in the CVC for visitors going to the Gallery; they will be used 
up in the Gallery; and they will replace some of the Senate 
people who have been helping us in the past in our House 
elevators that travel up to the Gallery, because they offered 
to help us as we didn't have enough people to put there. So 
that would relieve that situation. Then the other FTE is in the 
Office of House Services, and that will be used to enhance 
communication with Member offices on their classified 
materials.
    I mentioned that OEPPO was transferred to us as the Office 
of Emergency Management on the 1st of February. And I just want 
to tell you that I welcome this opportunity and challenge and 
assure you that I intend to aggressively pursue the goal of 
assuring the continuity of operations of the House and safety 
of Members, staff, employees, and visitors to be a full-time 
job and will pay particular professional attention to that.
    And I particularly welcome the opportunity to work with the 
three House officers and the three of us working together, with 
the Senate and other entities in the House and Senate 
operations.
    In closing, I would just like to thank all members of the 
committee for the opportunity to present our budget for fiscal 
year 2011. And I remain vigilant and committed to ensure the 
safety and security of the Capitol complex and its occupants, 
while maintaining fiscal responsibility during these difficult 
economic times. As always, I will continue to keep the 
committee aware of my activities.
    At this time, I am happy to answer any questions about the 
budget or any other questions you may have.
    [Mr. Livingood's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Wasserman Schultz. Thank you very much.
    I have a question for all of you, but we will start with 
Mr. Beard.

                       COST OF FOOD IN CAFETERIAS

    Mr. Beard, we discussed at the hearing last year the really 
huge uptick in prices in the cafeterias. Restaurant Associates 
charges about 30 percent more for food than the previous 
vendor. And we had language in our bill--I don't remember 
whether it was in the 2009 bill or the 2010 bill--yeah, in last 
year's bill, we discussed it at the hearing--so that you could 
take steps to make sure that affordable options were available 
for staff and for visitors to our cafeterias.
    And I know that value meals were instituted subsequent to 
our hearing and subsequent to that language being in the 
Legislative Branch Appropriations bill. But the way the value 
meals have been instituted, it is one meal per day for the 
whole cafeteria. There are about 10 or 11 different stations.
    In order to make sure that there isn't only one affordable 
option if that is not something that a staff person or a 
visitor likes or is interested in eating that day, I still 
think that there needs to be a push on Restaurant Associates to 
provide a larger variety of affordable options. Maybe a value 
meal at every station, maybe a value meal at a number of 
stations each day.
    But I don't think they have gone far enough. And especially 
in these difficult economic times, and our staff already earn a 
deflated salary compared to if they were working in the private 
sector, what steps do you think can be taken to address that?
    Mr. Beard. Well, we have not looked at the possibility of 
offering value meals at each station. We would be happy to do 
so. The most important thing for you to understand is----
    Ms. Wasserman Schultz. And the reason I am asking is 
because I am still getting--we get a lot of complaints from 
staff.
    Mr. Beard. I get them, as well.
    Well, first of all, Restaurant Associates hasn't increased 
their prices since October of 2008. And they ask on almost a 
monthly basis. We have monthly discussions, and they have been 
denied requests to increase their prices since 2008.
    Ms. Wasserman Schultz. Good.
    Mr. Beard. But in the meantime, they have provided a 40-
cent-per-hour wage increase to their employees under the union 
contract in December of last year and the year before. And it 
isn't as if costs are going down.
    We are to the point now, it seems to me, where we have to 
look at some other options, and we have to look at some of 
those seriously. For example, our hours of operation, are they 
too long? That is a great expense too--and should we reduce 
those? My guess is people won't want to do that. But whether or 
not we ought to reduce the number of menu items. You know, in 
Longworth, we provide eight or 10 different stations. The 
question is, should we specialize and have only five or four?
    As we move down the road to consider other options, there 
is pain involved with each one of those options. And----
    Ms. Wasserman Schultz. But I find it hard to believe that 
adding a few more affordable options for our staff than the one 
affordable option that is available now in the whole cafeteria 
is an either/or proposition: Either we do something like that 
or we condense from 12 to five stations or we cut the hours 
back. That is--and, I mean, to be honest with you, last year 
you said you didn't really know what could be done to address 
the expense of food in the Capitol. And when we put language in 
the bill, you were able to come up with something.
    So I don't want to have to put language in the bill again 
to make sure that something is done. And I certainly don't 
think it is appropriate to suggest that we cut back on hours or 
reduce the choices. It seems very simple that there are some 
steps that we can take.
    I would be glad to sit down with Restaurant Associates and 
talk to them about it, if you don't think it is something that 
you are able to address with them in any other way except 
reducing hours. But something has to give. They aren't 
providing enough affordable options.
    Mr. Beard. Okay. Be happy to do that.
    [Clerk's note.-- A further explanation by the House CAO 
follows:]

    In response to the Committee's direction to develop specific 
proposals for reducing food service costs, the CAO directed Restaurant 
Associates (RA) to develop new concepts focused on creating more 
affordable options for the House community. There are 3 basic concepts 
in the program.
    MEAL DEALS--This program is designed to offer a variety of simple 
prepackaged sandwiches, side salads and desserts/snacks at very 
affordable prices. These items will be available in all House buildings 
and in the Capitol. On a daily basis RA will offer 5 sandwiches, 6 side 
items including a yogurt parfait and fresh fruit and 5 small simple 
side dishes such as potato salad and macaroni salad. Pricing for these 
items will be as follows:

Sandwiches........................................................ $3.00
Complex Side Salads/Desserts...................................... $2.00
Small Side Salads................................................. $1.00

    $4.95 SUB PROGRAM--This program will be offered in the Rayburn Deli 
and Cannon Cafe. The central item in this concept is an affordable 
$4.95 sub. RA is proposing a menu consisting of 6 standard subs offered 
daily along with a rotating daily hot sub. Each sub is $4.95. There is 
also a $6 Value Meal which includes a fountain beverage or milk. The 
focus of this program is to offer a favorite Hill menu item at a great 
price.
    ``RED TAG GREAT DEALS''--This program revolves around 
reinvigorating and rebranding the meal package program RA has offered 
in the past. Although RA has offered meal packages in the past, it has 
been very difficult for customers to identify the meal deals at each 
station. The new program will feature an aggressive outreach program 
including new signage and props to support the new tagline ``Red Tag 
Great Deals''. This branding will also be used to convey any limited 
time value offerings throughout the dining outlets. All ``Red Tag Great 
Deals'' will focus on bundling a primary menu item with a beverage.
    The CAO asked RA to implement a variety of other programmatic 
changes that provide value for customers while enhancing the overall 
food program. These changes include:
    <bullet> Cannon Cafe will offer a $6 meal package every day that 
includes either a hamburger or cheeseburger along with French fries and 
a choice of milk or a fountain soda. The burger served at Cannon is 
reputed to be the best burger on the Hill. RA has developed a package 
price to further enhance the appealing nature and value of the burgers 
served in Cannon.
    <bullet> RA will be modifying the Value Meal station so that its 
offerings change daily rather than weekly as in the past. RA feels this 
change will offer more value-driven options each week.
    <bullet> In Longworth, RA will be revamping the wrap station menus 
to add some fresh new wrap choices to this already popular program.
    <bullet> As the local growing season approaches, RA will again 
bring in local farmers to Longworth to sell their produce directly to 
the House community.
    To support this program RA has committed to launch an extensive 
marketing program that will include new taglines, signage, advertising, 
media releases and visual presentations. Additionally, they are 
developing a customer outreach program that will include focus groups 
and a strong emphasis on soliciting customer feedback on these new 
programs.

                      HOUSE STAFFING AND DIVERSITY

    Ms. Wasserman Schultz. Thank you.
    In terms of the House compensation study, you know, the 
results were pretty disturbing. We are at, like, 7 percent 
African American chiefs of staff, 7.5 percent African American 
chiefs of staff; 7 percent, legislative directors; 12 percent, 
office managers; about 6 percent of legislative assistants are 
African American. And then if you look at Hispanics, the 
numbers are much worse, 2 to 3 percent, 4 percent, 6.8 percent.
    What steps do you think need to be taken to, number one, 
educate the potential staffing pool, both inside the House and 
beyond, about the opportunities that are available here so 
that--because I assume a lot of it is that there aren't enough 
applicants. But beyond the applicants, what do we need to do to 
increase the diversity in the leadership of the staff of the 
House and in the lower levels? Because we all know that that is 
a pipeline to staff leadership.
    Mr. Beard. Well, I think the first thing is to recognize 
that the House is a very decentralized institution. We have 504 
separate employing entities, and each one hires according to 
its own set of rules and procedures.
    The House compensation study was done to try to provide the 
data and the background. We have some of the groups, such as 
the group that Mr. Honda has been involved with, that have been 
trying to reach out to those. Congressman Becerra has offered 
up the idea of an Office of Diversity and has been working with 
the leadership to try to put together a series of efforts.
    The Speaker has charged the Committee on House 
Administration to come up with a series of steps that can be 
undertaken to try to address diversity issues in employment and 
hiring in the House. So, the main charge is going to be led by 
the Committee on House Administration.
    Ms. Wasserman Schultz. Okay. Thank you. My time has 
expired.
    Mr. Aderholt.

                     ENERGY DEMONSTRATION PROJECTS

    Mr. Aderholt. Thank you, Mr. Beard. Thanks for your 
testimony this morning.
    Last year, when we had this hearing, your written statement 
indicated that you have sought proposals for energy 
demonstration projects, which were funded last year. And I 
understand by this year's written statement that around 40 
proposals have been accepted. Is that correct?
    Mr. Beard. Were evaluated. Forty were evaluated. We have 
tentatively selected three.
    Mr. Aderholt. Okay. Tentatively. We were under the 
impression that the program was tied to the Lofgren-Wamp bill, 
which is pending in the House. Is that what it is tied to?
    Mr. Beard. It is.
    Mr. Aderholt. Okay. What authority do you have to move 
forward with the request? Because I understand that legislation 
has not been approved.
    Mr. Beard. Funding was made available subject to 
authorization, and so we have been waiting for the 
authorization bill to pass. The short answer to your question 
is: What authority do I have? We don't have authority to award 
the funds and proceed until we get the authorization 
legislation passed.
    So these were no-year funds, and they will carry over to 
the next year if the legislation is delayed, however long the 
legislation is delayed.

                  DISTRICT OFFICE ENERGY CONSULTATIONS

    Mr. Aderholt. In your written testimony, it indicated that 
the staff had provided consultation for over 130 district 
offices across the country over this past year regarding the 
greening issue. And it is your hope to provide consultations to 
at least one district office in each of the 441 districts. Your 
testimony indicates there have been savings of at least $50,000 
in reduced electricity and procurement costs, and the savings 
continue to grow.
    What is the cost-benefit analysis of the associated staff 
and travel costs projected with the savings of these district 
visits? And could you provide some analysis of that, or have 
you all looked at that? And then if you haven't, could you have 
those records brought to us so we can take a look at them?
    Mr. Beard. Sure. We would be more than happy to provide 
that to you.
    We undertake district office consultations on two subjects. 
One is on Internet and IT security. We have a staff who have 
regularly gone out to district offices to advise them on how to 
improve the security of their IT systems. We have simply joined 
up those two, and we send out usually one individual, and try 
to hold group meetings. In other words, we went to the San 
Francisco Bay area and we had 12 offices meet. We set up 
meetings in Dallas and Ft. Worth and had about 10 offices 
there. And what we try to do is meet with them as a group.
    We are also using videoconferencing. There is a quarterly 
meeting that the Library of Congress holds for district 
offices. And we are now on their agenda and providing that 
information there.
    But I would be more than happy to go back and do the 
calculations for you as to----
    Mr. Aderholt. Yeah. Well, if you could provide the 
committee with the costs, including travel expenses, staffing, 
associated with these visits, just so we could take a look at 
it.
    I will go ahead and refer now to the other side of the 
aisle.
    [Clerk's note.-- A further explanation by the House CAO 
follows:]

    The one-time cost to date (through April, 2010) to visit 155 
District Offices is $73,855. The potential savings for the 15 greening 
business practices discussed in the consultation and what the office 
agrees to implement is estimated at $140,760 annually for reduced 
electricity and procurement costs (assumes 100% participation). These 
savings are calculated based on the 15 greening business practices that 
the District Offices agree to complete. Additionally, there are savings 
in electricity of approximately 534,060 kWh, waste reduction of 
approximately 323,610 pounds, and CO2 emissions (carbon dioxide 
equivalent) of 1,292,370 pounds. Each succeeding year will have similar 
savings with minimal annual costs associated with the District Office 
outreach program.
    The Green the Capitol office is continuing to refine the best 
available way to complete the District Office consultations. To date we 
have used four different approaches to reach District Offices:
          <bullet> Regional workshop consultation
          <bullet> District Office consultation
          <bullet> Video consultation
          <bullet> Quarterly Congressional Research Service District 
        Management Institute presentation.
    To get each District Office started in the program it is important 
to meet with District Office staff that will be responsible for 
continued monitoring of the green business practices. The objective is 
to make one greening consultation to a staff representative from each 
District Office prior to the end of the 111th Congress. If this is 
achieved, the estimated savings, if all offices achieve at least the 
minimum of 15 greening business practices, would amount to $267,240 
(assumes 100% participation), while the cost through December, 2010 is 
projected to be $136,274 (using average for real costs through April 
2010).

    Ms. Wasserman Schultz. Okay.
    Mr. Honda.
    Mr. Aderholt. And then I may come back later for some 
questions.

                        PASSWORDS ON BLACKBERRYS

    Mr. Honda. Thank you.
    A couple of quick questions, Mr. Beard. Recently we have 
just been required to have passwords on our BlackBerrys. And I 
assume that that is because of security and folks breaking into 
our security system.
    The question I had was, those folks that were contracted, 
aren't they required to have and keep up with the technology 
and coming up with--what do they call that--a program, 
programming, so that things can be done more securely so that 
we don't have to keep inputting our passwords every time you 
pick up a BlackBerry?
    I don't want to seem lazy, but it is pretty irritating that 
every time I have to input my password in order to access my 
BlackBerry. Are you guys working with our vendors to have them 
come up with a program where we can get around that?
    Mr. Beard. I do not know of any efforts to currently do 
that.
    The recommendation to implement passwords on BlackBerrys 
came as a result of the intrusion that occurred last August. 
The Speaker and Republican leader asked for our recommendations 
as to how we could improve security. We sent recommendations 
up, and one of the directives that they provided to us was to 
implement passwords on BlackBerrys.
    Mr. Honda. I am sorry, who?
    Mr. Beard. The Speaker and the Republican leader.
    It was thoroughly debated with them that this was not going 
to be the most popular recommendation that would come out. But 
the feeling on their part and our part, as well, is that if you 
just leave your BlackBerry somewhere and somebody picks it up, 
they have all of your contact information, all of your personal 
information on that BlackBerry. And that is a risk to everybody 
here in the House of Representatives.
    Our system is only as safe as its weakest link. You know, 
we have had intrusions. A lot of our intrusions come as a 
result of through district offices. And it is a very diverse, 
decentralized system that we have, from Pago Pago and Guam and 
the Northern Mariana Islands and Puerto Rico and all the 50 
States. So it is a challenge to keep that security level high.
    The intrusion that we had in August, and the one we had in 
January as well, point out the costs that are associated with 
these vulnerabilities.
    Mr. Honda. So we didn't task our vendors to come up with a 
program to provide the security that we need, in spite of the 
fact that we have some folks who forget their BlackBerrys?
    Mr. Beard. We have tried every possible way to put the 
controls on at the enterprise level so that the individual 
doesn't have to do it. For example, the peer-to-peer software, 
which was the reason why some documents were divulged from the 
Ethics Committee, was added to a machine a staff person. We now 
block that at the enterprise level, and it can't be used by 
people on our system.
    We try wherever we can to block--to put controls at the 
enterprise level so that it doesn't make an effort for you.
    Mr. Honda. Peer-to-peer, using a PIN? Is that what you are 
saying?
    Mr. Beard. Peer-to-peer is a swapping for records and for 
music and other documents.
    Mr. Honda. On a BlackBerry?
    Mr. Beard. On a BlackBerry or on a computer, yes. And it is 
very common--you and I are too old. All the younger people in 
this room know exactly what it is. And it opens up your 
computer to access by just about anybody anywhere. And so the 
contents of your computer can be sent out to the Internet. That 
is what happened in August with the individual that----
    Mr. Honda. This is not a closed issue yet, though?
    Mr. Beard. Oh, no. It is not a closed issue.
    [Clerk's note.--A further explanation by the House CAO 
follows:]

    Just like a desktop computer is a tool for processing information, 
a BlackBerry is a device for processing email. The makers of these 
devices, along with third-party vendors, can and have created a suite 
of protections such as encryption to assist in securing the information 
stored on the devices. As advanced as the devices have become, they 
cannot tell if the person who is using them is actually authorized to 
do so. The only way to ensure that the person using the device is in 
fact the correct individual is to enable a protection known only by 
that person, such as a password. Using a password protects the device 
from a malicious or just a casual user from accessing information he or 
she should not have.

                       EMERGENCY EVACUATION PLAN

    Mr. Honda. Mr. Livingood, I want to thank you for having 
put the staff together to discuss more fully the emergency 
evacuation plan and bringing in a speaker from the Pentagon.
    The Pentagon is a little bit different building, but the 
issues are the same: being able to make sure that our staff are 
safe, our visitors are safe, and that we find a way where we 
can guide people in and out of the building safely, choosing 
routes that are safe in real time, two-way communications.
    I look forward to further reports on this. It is something 
that we should be doing as we look at renovating all of our 
buildings and are doing one thing after the other.
    Ms. Wasserman Schultz. You and Ms. McCollum have been real 
leaders on that issue. And I look forward to----
    Mr. Livingood. And we are going to be presenting a plan, 
too, on each of these items we talked about, the four or so 
items, or five, and then keep looking at others too, not just 
stop with those.
    Mr. Honda. Somewhere along the line, Madam Chair, the 
leadership, at least at this end, should be brought up to speed 
so that they understand that this building also needs to be 
thought about in terms of safe evacuation procedures while 
folks are here. And it seems like we have a problem with the 
Senate side in terms of cooperation and coordination. But be 
that as it may, I am most concerned about our staff and our 
visitors.
    Mr. Livingood. And we are going to continue working on 
that, sir. And I will bring it to leadership, as you and I 
talked also.
    Ms. Wasserman Schultz. Yes. Thank you very much.
    Mr. Aderholt.
    Oh, I am sorry. Why don't we go through all the Members 
that haven't asked, and then I will come back to you.
    Mr. Aderholt. Yes, let's do that. Fine.
    Ms. Wasserman Schultz. Mr. Ruppersberger.

                         FOOD SERVICE CONTRACTS

    Mr. Ruppersberger. First, most of my questions will be to 
you, Dan. Because I think you all do a good job at what you are 
doing. I think the police department does a great job, they are 
very professional, and it continues to get better and better 
each year.
    And, Lorraine, you are not allowed to say----
    Ms. Miller. Thank you. I appreciate that.
    Mr. Ruppersberger. I am going to give you a compliment. 
Since you have been in your position, I think that you have 
really focused on service. And your style is you get things 
done, you get good people and hold people who aren't doing 
their job accountable. And I think you have made a lot of good 
decisions in a lot of different areas, in our office management 
and the things that you deal with.
    The two areas I want to get into, Dan, and I keep bringing 
it up when I see you on the street, and that is the issue of 
food. And why I bring it up, because I like food.
    The key issue is, you know, we are only as good as our team 
and our staff. And we have good staff. And when our staff, that 
we can't pay what we would like to pay--but they are working 
and they are dedicated employees, and they just can't afford to 
eat every day downstairs.
    Now, I know there are issues of contracts and how long you 
have a contract and the other side has to make money. But I 
have known a lot of people in the food business, and there are 
some that do well and some that don't. And I think you probably 
can't do it pursuant to a contract, but we should probably have 
just one vendor like a Subway, as an example. Five-dollar foot-
long, whatever. But that is important, because when you have 
that it gives options. I mean, they have passed the nutrition 
test, I think. But that gives options on where we need to go. 
So a lot of our people are either going out someplace else or 
they are brown-bagging every day.
    And I don't know if you have a responsibility for this, but 
I think it is outrageous what is going on in the Capitol 
Visitor Center for these families that come in and get a $9 
sandwich. Now, maybe if that is not a part of your contract, we 
should pull it all together. Maybe more volume would be less 
cost. I don't know.
    But I think that has become a public relations issue. This 
is the Nation's Capitol. We want our students from all over the 
country to come here. And----
    Ms. Wasserman Schultz. Will the gentleman yield?
    Just to follow up on the issue of the cafeteria in the 
Capitol Visitor Center, I was told when I inquired about the 
prices way back when the Visitor Center first opened why they 
were set so high, I was told it was because we were trying to 
discourage--they didn't want staff eating at the Capitol 
Visitor Center cafeteria, that they wanted to reserve it for 
visitors, and that if they set--they set the prices higher 
deliberately so the staff would stay away, as if the distance 
of walking there wasn't enough of a hassle to start with. I 
thought that would be a deterrent, without the bread crumbs, 
you know, leading you back to where you came from.
    But beyond that, they also--let's say a staff person 
decides, okay, I am going to pay the higher prices, the food 
happens to be better in the cafeteria in the CVC than it is--
and that is a matter of opinion. But from my own anecdotal 
survey, the food choices seem to be better and tastier in the 
CVC cafeteria than the ones we have in the rest of the complex. 
They won't give a carryout container unless you show that you 
have a staff ID. So if you want to bring food out--now, the 
argument is that they don't want visitors eating in other parts 
of the Capitol Visitor Center. That seems easy enough to 
enforce without requiring a staff ID for a carryout container.
    But, you know, just the whole idea that we aren't being 
staff-friendly when it comes to the care and feeding of our 
employees is really obnoxious.
    Mr. Ruppersberger. I agree. That is the issue, that more 
than anything else. We have to deal with that. We are seeing 
it. And I don't know--how long is your contract with this food 
service company right now?
    Mr. Beard. It is a 7-year contract.
    Mr. Ruppersberger. So what year are we in now?
    Mr. Beard. Third year.
    Mr. Ruppersberger. Any modifications in there?
    Mr. Beard. Sure. We can modify it as we go forward with 
them, and we don't have to wait 7 years, if there is something 
in particular. We modify the contract several times a year for 
minor issues that we deal with.
    Mr. Ruppersberger. It is almost like you go on a train, it 
costs more money. So we would just say this. You can't solve it 
here at the table. We are going to ask you to look at it. Try 
to get a Subway or someone that has the ability to be able to 
give the prices that we need, and then you have competition, 
and then you have other areas.
    I think also having a value meal--the value meals cost a 
lot, too, when you fill it up. I mean, you are spending over 
$10, $12, $15 for lunch when you get your potato chips and your 
Coke or whatever you are going to get.
    Mr. Beard. Right. Right.
    Mr. Ruppersberger. We are finished with food now, okay? Do 
you get our message?
    Mr. Beard. Well, I get the message. The message comes 
through loud and clear. I do want to----
    Mr. Ruppersberger. This is for employees, believe me.
    Mr. Beard. No, I know that. But I do want to supplement 
something the Chair said. Look, this contract was negotiated 
before I got here. But it is not my understanding----
    Mr. Ruppersberger. Okay.
    Mr. Beard. What? Oh, okay. No, you know, we have the 
ability to change it, should we so desire. But the pricing 
model for the CVC was not based on trying to discourage--as far 
as I know, not trying to discourage staff. It was based on, the 
pricing there would be the same as the pricing for any of the 
Smithsonian Institutions.
    Ms. Wasserman Schultz. But it is actually much more 
expensive than the Smithsonian Institution, because we have 
checked.
    Mr. Ruppersberger. Look at a Five Guys hamburger versus a 
hamburger here.
    Mr. Beard. Well, but Five Guys is different than----
    Mr. Ruppersberger. It is not an apples comparison.
    Mr. Beard. No. And the pricing for the House and the Senate 
is lower, both the House and the Senate pricing is lower than 
the CVC. Now, it is not as an incentive to keep staff from 
going there. I just wanted to make sure that is the case.
    Ms. Wasserman Schultz. Well, I was misinformed, then, when 
I required as to why the prices were different.

                    COMMUNICATION IN CAPITOL AND CVC

    Mr. Ruppersberger. The other thing that is important, 
because it affects Members and their ability to communicate and 
also to vote--and you alluded to it in your testimony--is 
wireless access. I feel there are some areas that really need 
to be prioritized. The area of the Capitol cafeteria or the 
Capitol--what do they call it downstairs? The Capitol----
    Mr. Beard. The Capitol Market, right downstairs?
    Mr. Ruppersberger. But there is an issue that there is no 
communication. And a lot of times, a lot of Members go there 
because you are there, you are voting, and then you don't hear 
anything. And there is no--even a system. Our staff can't 
communicate with us there if we go there. You know there is 
going to be a vote in half an hour, so you go downstairs. There 
is no communication. I think it is really a high priority to do 
something in there, or to get the staff there to notify Members 
on a regular basis every time there is a vote. We do that in 
committee hearings and whatever, but we have--I mean, I have 
missed a vote in there. It is my fault. But I just think 
communication is really important there because a lot of us use 
it.
    The other issue, those of us on the Intelligence Committee, 
when we go into our SCIF at the Capitol Visitor Center, you 
know, we can't take BlackBerrys and we can't take cell phones, 
so we have to keep them outside. Now, we have had--and I have 
asked the NSA to go in and make sure that we can have access in 
the hallway so when we come out of the SCIF, we can get to our 
BlackBerrys, look at it and go back in again, because of the 
communication with our staff.
    If you could focus on--I don't know, Mr. Livingood, if you 
are working the issue together--and see what we can do in that 
hallway area. You have Admirals, you have CIA, NSA, they are 
all in there, and they can't take any of their equipment. That 
hallway is very important for us to be able to communicate, 
come out, go back in with our staff.
    Let me ask you this. You talk about Rayburn cafeteria is 
another issue for Members. Mainly for the issue of votes, more 
than anything, trying to make that a priority. And I see in 
your testimony that that is going to be the next priority on 
access.
    How are we doing on the tunnel, when we walk through the 
tunnel from Rayburn over to the Capitol? Have we improved that 
pretty well?
    Mr. Beard. We have, as far as I know. That portion, 
addressing it, has been resolved.
    And Mr. Livingood and I, with the help of the Chair, we now 
have an agreed-upon, step-by-step approach to improve 
BlackBerry access in the CVC, particularly the caucus rooms 
that are above the SCIFs. But it wouldn't be a problem at all 
to add the hallway there.
    Mr. Ruppersberger. And I know it has to be certified by the 
NSA.
    Mr. Livingood. Yes, we will have to look at that with the 
intelligence community----
    Ms. Wasserman Schultz. I guess I also wanted to tell you 
that, because of the sensitive nature of the issues that they 
are addressing, we are going to have a closed-door briefing for 
the subcommittee on the plans and when that process will be 
implemented.
    Mr. Ruppersberger. Can you make that Capitol cafeteria, 
whatever you call it, a high priority? Because people----
    Mr. Beard. Sure.
    Mr. Ruppersberger. Thank you. I have to go to another 
hearing.
    [Clerk's note.--A further explanation by the House CAO 
follows:]

    The Office of the CAO is addressing this high priority initiative 
for wireless coverage and the following plan outlines these efforts.
    CVC House expansion space meeting rooms design
    <bullet> The National Security Agency (NSA) has provided a redacted 
radio frequency (RF) survey document to the House Sergeant-at-Arms 
(SAA). The House SAA provided a copy to CAO and the Wireless Consortium 
representative (Verizon).
    <bullet> Verizon, House SAA and CAO are now working out specific 
design details and antenna placement issues. Draft design completion 
target is the end of April 2010.
    Approval and licensing modification
    <bullet> Draft design will then be reviewed and approved by CAO and 
House SAA.
    -- Verizon estimates the project will take 3 to 4 months from this 
step.
    <bullet> The CAO and Wireless Consortium modify the current In-
Building Cellular License to add the CVC House space. The approved 
design is an exhibit for the license modification.
    Installation and initial testing
    <bullet> The Wireless Consortium procures and installs the 
antennas, cabling and cellular support equipment. The CVC cell system 
is then placed into initial service.
    -- The Wireless Consortium funds the entire project to this point.
    <bullet> House SAA coordinates a security review of the installed 
system and wireless coverage.
    <bullet> Verizon is directed to modify the installation as 
necessary to meet security and coverage requirements.
    -- CAO may help address modifications with Verizon.
    Capitol Market, Rayburn tunnel, other areas and hallway outside 
SCIF room
    <bullet> CAO/Wireless Consortium will start Capitol design 
discussions after the CVC House side is completed.
    <bullet> At the request of the CAO, Verizon is looking into 
providing near-term, In-Building Cell/BlackBerry (BB) service in:
    -- The Capitol Market
    -- RHOB tunnel near the Capitol entrance
    <bullet> Other areas:
    -- The CAO is working with the AOC's Capitol Superintendent to 
build out the Capitol/CVC In-Building Cellular ``head end'' room HVC-
126. The head end is the nexus point for cabling and cellular control 
equipment. AOC has completed the design and has the construction 
funding. This effort is expected to take two months (concurrent). The 
CAO is reaching out to the AOC to see when this can start.
    -- An additional request to provide cell/BB service in the hallway 
outside of House Permanent Select committee on Intelligence (HPSCI) 
CVC. House SAA discussions with HPSCI raised some security concerns 
regarding this request. The hallway area is problematic from a security 
point of view.

    Ms. Wasserman Schultz. Thank you.
    Mr. Aderholt.

                       NUMBER OF ROLL CALL VOTES

    Mr. Aderholt. Thank you.
    Ms. Miller, you had mentioned in your testimony about the 
number of roll call votes that had been cast this year. Now, 
what did you have the number down again for the first session 
of the 111th Congress?
    Ms. Miller. The first session of the 111th, 991 votes, roll 
call votes. 
    Mr. Ruppersberger. What did you say? How many?
    Ms. Miller. 991 roll call votes, first session.
    Mr. Aderholt. How does that compare to the first session of 
the 110th Congress? Do you know offhand?
    Ms. Miller. I believe it is a little lower.
    Mr. Aderholt. Okay. Because I knew I had heard at one time 
that some of the votes historically have been cast and that----
    Ms. Miller. Yes.
    Mr. Aderholt. Okay. So when you said those numbers, it 
reminded me.

                             HOUSE LIBRARY

    You mentioned about the modernization of the House Library. 
Could you give us an update on that, what the progress being 
made on that is?
    Ms. Miller. Sure. Well, for a number of years, the 
subcommittee has been very generous in helping us support 
trying to do a library. And what we were wanting to do is to 
make our library digital and focus solely on the House. We are 
not trying to duplicate anything that the Library of Congress 
does.
    For instance, we are working with the Archives legislative 
center that houses all of our records. I will give you a quick 
example. During the health care debate, there was a staffer 
from the Ways and Means Committee who was looking for an old 
piece of legislation back in 1938 that had to do with health 
care. Well, subsequently he had to fill out a form, we went to 
the Legislative Resource Center over at the Archives to get it. 
We found it out in the College Park center. Took them a couple 
of days to get it to him.
    What we are trying to do, though, is have new finding 
techniques that we could have found that much easier, make that 
information available not only to committees but to all House 
staff in a much easier, simpler format. And we think the 
library would be the portal.
    And one of the arguments against that is, well, why don't 
we just make that available at every laptop for every staff 
person? Licenses are involved. That would be cost-prohibitive. 
We wouldn't want to put that kind of expense. So we have 
purchased the licenses and we are about to do that, so that we 
can make that accessible. We would be the portal, the House 
Library would be the portal, and it would be available and 
accessible there.
    So we are moving. We have, over the last couple years, 
gathered a lot of Web sites and a lot of things, finding tools, 
that will help the library be the kind of digital place. We are 
not talking about a large place, but just enough to house all 
of this.

                  HISTORICAL SERVICES--MEMBERS' PAPERS

    Mr. Aderholt. One of the other things that was mentioned in 
your remarks was the historical services and how you worked 
with the archives in trying to make sure that Members' offices 
keep proper records. What currently do you have in place for 
offices? With the amount of information and the amount of paper 
that comes through Members' offices, as someone who values 
history quite a bit, I think it is important that we do try to 
archive as much as possible.
    Of course you can't save every piece of paper that comes 
through a congressional office. But I think better training 
staff on which things to keep, which things to throw away would 
be very helpful.
    Ms. Miller. Right.
    Mr. Aderholt. Because a lot of times, we are so limited on 
space in our offices, the goal is just to throw it away and get 
it discarded. And I think sometimes there is a lot of valuable 
information and stuff that future generations could look back 
at and would find very intriguing when they are studying the 
operations of the House.
    And so I just wonder what process right now do you have to 
move forward in trying to train or try to give advice to staff 
on how to sort through this stuff for historical purposes?
    Ms. Miller. We have in the Office of History and 
Preservation an archivist for the House. We recently hired 
another assistant archivist to help her.
    And what we do now, if there is a new Member coming 
aboard--we really focus on the new Members--we have 44 Members 
that have indicated that they will be leaving the Congress. So 
we have already sent them letters and offered archival 
services. Any Member, if they want it, we have kind of a 
guideline, a listing of things they should be looking for to 
preserve and things that they could discard. That is available 
to any Member now.
    But we are making the visits. So far, I think Robin Reeder, 
the House Archivist, has visited this year, well, 2009, about 
130 offices just to say, ``This is what you ought to keep.'' 
Especially if a Member dies, retires, or for some reason leaves 
the House, we offer our archival services to them from the 
beginning.
    So, with that and with the new Members coming in--and then 
we have targeted some Members who have been here quite a while, 
who have voluminous records. We have just proactively contacted 
their offices and gone in to talk with them. We have even had 
the opportunity to meet with the chiefs of staff to just give 
them an overview of what they should be looking for as Members 
try to figure out what they are going to do with their records.
    So we have a package that is available for any Member's 
office, and we are trying to proactively get that out.
    Mr. Aderholt. You mentioned that you focus in on a lot of 
the new Members that come in to try to give them information.
    Ms. Miller. Yes.
    Mr. Aderholt. One thing that you may want to consider doing 
that I think might be helpful is to reach out to older Members. 
I came in the 105th Congress, and I have actually talked to the 
archivist and had them come over, but I think most Members 
don't even know this exists.
    Ms. Miller. The new--our archivist in our office?
    Mr. Aderholt. People that have been here for several years 
like myself. People that maybe have not been here 30 or 40 
years that have all of these records that you are talking 
about, but people that have been here for, say, 8 years, 10 
years, 15 years, and to notify their staff and inform their 
staff of what is available out there.
    So, again, the new Members, I understand, are getting this 
information. But I don't think, when we came in, we were ever 
informed of what we need to do. And so if you could try to 
focus on some of the mid-Members that have been here for, you 
know, say, over--whenever this program was implemented, going 
back a few years, I think it would be very helpful.
    Because, as I say, a lot of this information--you say when 
a Member retires or announces they are going to retire, you 
talk to them--but a lot of information has already been thrown 
out and it is already gone and it is in the garbage heaps and 
it has been deleted from the computers. And so, there needs to 
be something ongoing so the Members who are not ready to 
retire, but who on a day-to-day basis--and, again, it is not a 
criticism; I am just saying it is something I think we need to 
look at because I think there is a lot of information that 
would be very valuable for future generations and for 
historical purposes that we would like to preserve.
    Ms. Miller. I agree with you.
    Mr. Aderholt. But with the amount of space that we have and 
what all goes on, I think a lot of it is thrown away that maybe 
could be preserved. And so----
    Ms. Miller. I agree with you, and that is one of the 
reasons we are working with House Administration. They have 
been very helpful in trying to incorporate some of these 
archival materials in the orientation for not only just new 
Members but for rank and file. And then, as we go to electronic 
records, that is why we are so interested in the Members trying 
to--the committees, in particular, submitting their records to 
us electronically, but the same kind of archival requirements 
are involved in that, too. So we hear you.
    Mr. Aderholt. Okay. Thank you.

                RESPONSIBILITIES OF CURATOR & HISTORIAN

    Ms. Wasserman Schultz. Thank you.
    Just on the heels of Mr. Aderholt's question, I wanted to 
just raise with you the issue we talked about in my office 
about the overlapping of the curator's and historian's 
responsibilities. It seems like there are a few different 
offices who have some responsibility for keeping historical 
records and artifacts.
    Can you describe the steps that are in the works or the 
discussions that are in the works about possibly combining 
those offices?
    Ms. Miller. Well, we try to work closely together. That is 
not only House and Senate--because Farar Elliott, who is our 
curator, works very closely with the Senate curator and the 
Architect of the Capitol. And we try to do this with the 
History and Preservation Office so we don't duplicate efforts. 
And it is difficult.
    But I understand there is an effort afoot to try to 
restructure the Office of the Historian and to merge some of 
our efforts so we don't duplicate. And so we really make a 
concerted effort not to duplicate, so that means we have to 
communicate a good bit together. So that is under way. And I 
think that you will probably hear some announcement from the 
leadership about it.
    Ms. Wasserman Schultz. Just keep us informed as we go 
forward----
    Ms. Miller. Yes. Sure.
    Ms. Wasserman Schultz [continuing]. Because we are 
obviously trying to be as efficient as possible.
    Ms. Miller. Absolutely.

                     STUDENT LOAN REPAYMENT PROGRAM

    Ms. Wasserman Schultz. Mr. Beard, I wanted to ask you a few 
other questions.
    The student loan repayment program, you have requested an 
increase of $2 million for that program. And I appreciate your 
advocacy for benefits for the staff, but is that increase to 
expand the benefits or expand the number of people that 
qualify?
    Mr. Beard. Expand the number of people. We have the 
guidance now from the Committee on House Administration to 
provide up to $10,000 a year in the way of benefits. And we did 
take a reduction in that last year when the committee was 
looking for savings, and we would like to restore those funds 
so that we can make the benefit available to as many employees 
as possible.

                    HEARING ROOM EQUIPMENT UPGRADES

    Ms. Wasserman Schultz. Okay. For the standing committee 
hearing room equipment upgrade requests, in the past you said 
the press has paid for the types of audiovisual upgrades that 
are being requested that at least cover their press coverage 
needs. Does your hearing room upgrade request reflect any 
anticipated contributions from the press consortium since it is 
directly related to meetings?
    Mr. Beard. The press consortium has only contributed 
money--or contributed and assisted in the House Radio/TV 
Gallery.
    Ms. Wasserman Schultz. Uh-huh. But these upgrades are to 
connect them to the House Recording Studio, aren't they?
    Mr. Beard. Yes, they are. But they have not in the past. 
And we have not received any funds from the press consortium or 
from the members of the radio and TV galleries, is what it 
would be.
    Ms. Wasserman Schultz. Is that something you could consider 
exploring?
    Mr. Beard. We would be more than happy to work with the 
gallery staff and the committee that oversees the radio and TV 
gallery to see about the possible contribution of costs.
    [Clerk's note.--A further explanation by the House CAO 
follows:]

    A House resolution authorizing the acceptance of a gift from the 
Consortium would be needed to allow for the Consortium to pay for 
Committee Broadcast Audio Visual equipment or services in House 
buildings. If the Committee rooms are located in the Capitol, the U.S. 
Capitol Preservation Commission can accept a gift of funds.
    It is necessary to renovate the balance of the main hearing rooms 
to provide the latest audio/video technology with equipment commonality 
across all main hearing rooms. The remaining Committee hearing rooms 
are considered "hybrid systems" and do not meet the House adopted 
audio/video standards approved in 2004. These standards ensure a 
compatible infrastructure: equipment that can readily be supported by 
the CAO, and connected to the House Media Center, Rayburn B313, where 
the hearing room cameras can be remotely operated for broadcasting. 
These Committee systems are starting to fail during hearings and will 
progressively worsen until such time as an interim repair will no 
longer suffice. Renovated Committee hearing rooms will provide state-
of-the-art audio and video technology that will give the Committee 
Chairpersons different options to broadcast their hearings.
    Remaining main Committee hearing rooms to be renovated include 
Oversight and Government Reform (2154 Rayburn), Budget (210 Capitol), 
Education and Labor (2175 Rayburn), Financial Services (2128 Rayburn), 
and Energy and Commerce (2123 Rayburn).

    Ms. Wasserman Schultz. The other issue on the upgrades is, 
how many hearing room upgrades have been completed and how many 
are left?
    Mr. Beard. Fifteen have been completed. Five are left.
    Ms. Wasserman Schultz. So this is beyond just the media? I 
know that the----
    Mr. Beard. These are the actual committee rooms.
    Ms. Wasserman Schultz. The committee rooms themselves. So 
there are five left?
    Mr. Beard. There are five left. And it is an ongoing 
process, because the first committee rooms that we did, we are 
going to have to go back pretty soon and upgrade that because 
of new developments in technology, to improve the technology.
    Ms. Wasserman Schultz. All of the upgrades, in general, 
whether you are going back to the ones you first started or the 
ones that are remaining, would you call those necessities? Or 
if this were a tighter year and we needed to slow them down or 
halt them for a year, would the world come to an end?
    Mr. Beard. The world wouldn't come to an end. I think you 
would have to deal with five----
    Ms. Wasserman Schultz. Grouchy chairmen?
    Mr. Beard [continuing]. Grouchy chairmen.
    We do have alternatives. This program was zero-funded in 
2010 when we were looking for savings because we had carryover 
from 2009. So we had essentially zero in last year's budget.
    Ms. Wasserman Schultz. Well, that is because you didn't 
need it.
    Mr. Beard. We didn't need it, yes. But we want to finish 
the five rooms----
    Ms. Wasserman Schultz. We are not in the habit of giving 
you money you don't need.
    Mr. Beard. The directive I received from the leadership was 
finish at least one room for every committee as soon as 
possible. So that is why we have been moving on the agenda that 
we have.
    But if we did not fund those, we would then have to use 
what we call crash carts, which are the carts out in the 
hallways that you see during the hearing, and there is somebody 
in there, you know, working it. We can use crash carts.
    Do we purchase crash carts?
    Yes, we purchased an additional two in FY09 to add to the 
three we already have. And we would have to purchase crash 
carts, and then there is a higher labor cost associated with 
using crash carts. We use temporary employees.
    Ms. Wasserman Schultz. Staff corrected. You got a million 
dollars for upgrades last year.
    Mr. Beard. Did we?
    Ms. Wasserman Schultz. Yeah.
    Mr. Beard. Okay.
    Ms. Wasserman Schultz. So, obviously, crash carts are not 
the preference. We want to eventually work towards making sure 
we upgrade all the hearings rooms because, obviously, the 
access to the public is better and the information that the 
Members can get is better. But I am just, you know--we are 
going to be hunting for savings.
    Mr. Beard. Right.

              OFFICE OF CONGRESSIONAL ETHICS LEASED SPACE

    Ms. Wasserman Schultz. The Office of Congressional Ethics, 
we had--I just signed a reprogramming request to cover their 
expenses for their move to leased space. And I am confused 
because there is also $400,000 in the budget that you have 
requested to move them to leased space. So should that money be 
transferred to the Architect?
    Mr. Beard. I guess I am going to have to get back to you--
--
    Ms. Perdue. Yes, we asked for it in our budget, but----
    Ms. Wasserman Schultz. Okay, so we are not going to need to 
do both. It will be just one or the other.
    Ms. Perdue. Correct.
    Ms. Wasserman Schultz. Okay.
    Mr. Beard. And I wanted to introduce, this is Kathy Perdue, 
my chief financial officer.
    [Clerk's note.--A further explanation by the House CAO 
follows:]

    AOC confirms that realignment of the OCE FY11 lease request from 
the House budget to the AOC budget is anticipated during markup. The 
projected cost of the FY11 lease is $268K.

    Ms. Wasserman Schultz. Great. Thank you very much.
    I just am going to clear up--if you don't mind, I am going 
to clear up my CAO questions, and then I will turn it back over 
to you.
    Mr. Aderholt. Sure.

                          CELL PHONE COVERAGE

    Ms. Wasserman Schultz. We went over the BlackBerry cell 
phone coverage issue, and we are going to have a closed-door 
briefing so you can bring us up to speed on that. But nearly 
every single day, Members complain to us about the fact that 
you go into a black hole when you are in the CVC expansion 
space and you are unable to be reached.
    Obviously, because we are holding more meetings in that 
room now that HC-5 is not available for several months, it is 
incredibly, incredibly difficult to be in no man's land when 
you are in the expansion space. So we look forward to hearing 
from you on the plans for that. And I know we don't really want 
to go into a lot of detail on that at this point.

                           WEB SITE SECURITY

    The last one I wanted to cover with you was Web site 
security, to go back to the issue that Mr. Honda raised. You 
mentioned in your testimony that you have an enhanced 
information technology security program that was launched by 
your office. And you said that that program validates that each 
computer, server, and printer is compliant with House security 
policy and technical standards.
    And the concern that we have is that only 85 percent of 
Member offices are participating in that program. Is the 
program voluntary, or is it just that you haven't gotten to all 
the offices yet?
    Mr. Beard. The program is both. The program is voluntary. 
We have----
    Ms. Wasserman Schultz. How can a security program be 
voluntary?
    Mr. Beard. We have adopted in the House the approach that 
we try to encourage Members to participate in our programs to 
the maximum extent possible. We have avoided, if you will, the 
directives that you must comply.
    Ms. Wasserman Schultz. But we did require them to--we 
passworded everybody's BlackBerry as a requirement.
    Mr. Beard. We did.
    Ms. Wasserman Schultz. So how are we choosing which 
security is voluntary and which isn't?
    Mr. Beard. The decision as to whether or not to participate 
in the program is made in consultation with the Committee on 
House Administration and with the leadership.
    But, in this particular case, the 85 percent I think is--
participation by Members is approximately 95 percent. We chose 
to work with Members first. Some of the servers in the CAO 
haven't been moved over yet.
    Ms. Wasserman Schultz. But a security system is only as 
strong as the weakest link.
    Mr. Beard. That is correct.
    Ms. Wasserman Schultz. So with 15 percent of Members' 
offices not participating, it is, you know, a very big opening 
that leaves us vulnerable. So I would appreciate, as I always 
underscore, that you remember that this is one of your 
oversight committees as well, and that in working with House 
Administration that you also work with us, so that we can 
coordinate the decision-making on that since we have to fund 
it.
    Mr. Beard. Okay.
    Ms. Wasserman Schultz. That would be great. And can you 
follow up with us on that?
    Mr. Beard. Yes.
    Ms. Wasserman Schultz. Thank you.
    [Clerk's note.--A further explanation by the House CAO 
follows:]

    The CAO has a certification and accreditation program that requires 
adherence to security policy for Member, Committee and Leadership 
offices. Part of the program employs Secure Configuration Management as 
a central service to maintain compliance with policy. Secure 
Configuration Management is a program that allows the CAO to 
proactively ensure Member office, Committee and Leadership IT assets 
are in compliance with House Security publications and policies. The 
technical controls within the program provide a continuous audit of IT 
assets. Some Member, Committee and Leadership offices have deployed an 
independent system specifically to meet security policy. We are 
expanding the central Security Configuration Management service as we 
progress through policy driven the two-year audit cycle.

                          THIRD-PARTY VENDORS

    And then the third-party vendors, the issue of third-party 
vendors hosting Members' Web sites. The security failures that 
we had, at least one of them, through a Member's Web site was 
from a private vendor, correct?
    Mr. Beard. That is correct.
    Ms. Wasserman Schultz. So what are the rules for Members to 
select vendors? And are there security features that are 
required for vendors to provide when a Member goes outside the 
House backbone?
    And I know you can't go into specifics about security 
information, but obviously that is another weak link. If 
Members are continuing to be able to use private companies to 
host their Web sites, do they all have the same very secure 
protocol that we have in a House-sponsored Web site?
    Mr. Beard. I think the best way to describe the current 
situation is that we are in a catch-up mode. The questions that 
you asked me were addressed to me in a letter from the Speaker 
and the Republican leader February 1st. I have sent them our 
recommendations. They are currently evaluating those, but I 
have been told they will have an answer as to what they want to 
do in the next few days. We have scheduled with the 
subcommittee a briefing next week to discuss that internally.
    I think the short answer to your question is any Member can 
pick any Web site designer that they want to. They then come in 
here and bring in the design work and so forth, and then we 
have to work with them at that point. There aren't any 
standards that Members have to achieve. In many cases, Members 
wanted to use a local----
    Ms. Wasserman Schultz. There are no security standards?
    Mr. Beard. There are none. Once they get here, we then tell 
them what they have to do to live to our standards. But in 
terms of, have we--and that is one of the corrective actions 
that we want to take in this area so we will be able to go 
through with this.
    Ms. Wasserman Schultz. Okay. Well, I will look forward to 
hearing more about it in the briefing next week. Thank you.
    [Clerk's note.-- A further explanation by the House CAO 
follows:]

    At this time, Members may select any vendor they wish. However, 
security policies are in place and apply to all web vendors. These 
policies include a requirement that all vendor servers be located in a 
House data center. In order to install a server in a House data center 
and operate a Member site, the server, web tools and code are subject 
to complete audit and must be in compliance with all applicable 
security policy and regulations.
    The phased plan to protect House public websites includes hosting 
of vendor websites on House-provided servers and providing a site 
development environment for vendors to use to design and build new 
sites. Because the existing security review process is a barrier to 
entry for many companies that cannot afford the effort necessary to 
pass the audit, providing a hosted environment increases the number of 
vendors available to Members, and the cost and time to complete new web 
sites will be significantly reduced. At the same time, the industry 
standard hosted environment improves security over Member websites and 
provides for greater control over the vendor websites for CAO 
Information Security staff if an issue does occur.
    The plan also calls for the development of procurement guidance for 
Member offices in the selection of web vendors, including recommended 
contract language. Clear guidelines for working in the House 
environments will be available for prospective vendors.
    Proposed Four-Phase Plan for Protecting Member and House Public 
Websites
    <bullet> Phase I--All web vendors will be required to accept 
enhanced security procedures. CAO Information Security monitors for 
suspicious activity.
    <bullet> Phase II--Initiate hosting of existing vendor websites 
onto House servers. Develop procurement guidelines for Web vendors.
    -- Establishes a secure industry-standard operating environment 
with recovery protections for Members
    -- Provides additional controls over server administration and 
compliance with security policy
    <bullet> Phase III--Develop House-wide web standards for public 
websites to include the operating environment, database, content 
management system, and development tools. Provide vendors with a site 
development platform.
    -- Improves security posture by focusing hardening efforts on an 
industry standard set of tools, and associated maintenance and update 
procedures
    -- Improves recovery time for websites
    -- As the standards will include open-source tools, this will allow 
a greater number of vendors to participate, reducing costs to Members 
and making it easier for Members to switch vendors as they choose
    -- Significantly reduce the time to develop, undergo security 
reviews and publish websites
    -- Improve the scalability of the website to accommodate large 
volumes of web traffic
    <bullet> Phase IV--Migrate existing House websites to the new 
environment
    -- Includes House.gov and Member and Committee sites currently run 
by the CAO
    -- Will be completed over time, on a schedule that works for each 
affected House Office

    Mr. Aderholt.
    Thank you very much.

                            HOUSE ID SYSTEM

    Mr. Aderholt. Mr. Livingood, last year this committee 
funded a new House ID system. And I just wanted to ask you 
about the status of that and that conversion that is taking 
place and how that is going.
    Mr. Livingood. The system that you are talking about, the 
new ID badging system----
    Mr. Aderholt. Right.
    Mr. Livingood [continuing]. Is currently, as of today, 
being installed and configured. We expect the new system to be 
on line at the end of next month, end of April.
    Phase two of the project will include an online request for 
offices. And that means from your office you can input to the 
House ID Office requests for a badge and all the information of 
that individual that you would like a badge issued to. The date 
for the implementation of that phase is the end of August, this 
year.
    We have looked at--just for information, we have looked at 
the Government Printing Office to assist us in mass production, 
like the AOC, of their IDs. And the way we would have to do 
that is to have a CD filled out with all their information, 
which is very feasible, and send it to them. And they can mass 
produce the badges the same way we are doing, the same system, 
and have it back in 2 days. So we are looking at that.
    The problem with doing all of the badges is taking the 
pictures, and it would take a little more time--most of the 
staff need a badge fairly quickly when they come.
    Mr. Aderholt. Will all this conversion and new House ID 
system be ready for the 112th Congress?
    Mr. Livingood. Yes, sir.
    Mr. Aderholt. And at what point do you expect that to be in 
operation? Will it be right up to the point of the next 
Congress?
    Mr. Livingood. We start in early summer with staff offices 
and get the pictures up to date. That saves us quite a bit of 
time. And the current information, addresses and whatever. We 
then start producing some of those badges right then. Then we 
start AOC early, people like that that we know aren't going to 
change much.
    With the Member offices, as I said, we start some of those 
early. But then again, right after the elections, we are in 
full force. And it takes us 3 or 4 months to complete. We have 
been trying each year to make that--and we have been very 
successful, meaning a month or 2 at a time, we have been able 
to increase the time frame when they would be finished. And we 
are going to continue to do that.
    And this new badge system will help with that. Plus, it has 
an ability to print smart cards, if the day ever comes when we 
are going to need smart cards. There are some offices, district 
offices, that are in Federal office buildings and will probably 
need us to print their cards in a smart card format because 
that is what they are accepting at those GSA buildings. And 
someday we may. We have the ability to do that.
    Mr. Aderholt. This new ID system, what is one of the things 
that will make it better than the old system? What do you see 
as the----
    Mr. Livingood. It is a better, clearer, more distinct 
picture, which can be done quicker. And it has this conversion 
ability so we don't have to start from scratch again, which we 
are going to probably need someday and we will need in certain 
cases, for certain offices.
    Mr. Aderholt. All right. Thank you.

                              STAFF ACCESS

    Ms. Wasserman Schultz. Thanks.
    I just have a couple questions for you, Mr. Livingood, and 
then I will be finished.
    I am struggling, as one Member, to figure out what is the 
consistent policy for staff access when walking with a Member 
to the Capitol because, depending on the door and depending on 
the time, depending on the entrance, it is different, every day 
of the week, every hour of the day. I mean, I have experienced 
different direction at the east door than I have at different 
times during the day when I am racing to a vote and walking 
with one of my staff and going through the Cannon tunnel.
    I completely understand that we need to have more 
restrictive access to the Capitol. But we don't have consistent 
enforcement of that. And when you are bobbing along, trying to 
get through your day, and you are clotheslined at a door that 
some days you have access with staff and some days you don't--
well, that is what it is like--and some days you don't, it is 
frustrating and it impedes the progress of your day.
    I understand we have to be focused on security, but we also 
have to focus on consistency so that Members and staff and 
visitors don't constantly have to readjust to different 
people's directions.
    So can you explain the policy, number one? And, number two, 
can you--and I will follow up with Chief Morse on this, as 
well--follow up on making sure that the policies are 
consistently enforced?
    And, thirdly, particularly when it comes to Cannon tunnel, 
if are going to now have a policy going forward of staff has to 
go through the magnetometer in every instance, then the second 
magnetometer, particularly as we enter the spring break season, 
has to get opened up. And we need to move one of those officers 
from the front door of the CVC to that spot, like we did last 
season, so that they can get things moving.
    Mr. Livingood. First of all, I am very aware that there are 
inconsistencies because I hear it from Members and staff in the 
security screening process.
    The policy is that all staff entering the Capitol are 
required to go through the mags whether or not they are with a 
Member of Congress. I have reviewed this with the Capitol 
Police officials, Chief Morse, and reiterated that there is no 
change in the current policy. But there are inconsistencies, as 
you said.
    Our officials have started reminding already as of about 3 
or 4 weeks ago, Capitol Police Officers regarding the screening 
process and it may not have gotten everywhere because I am 
aware you have to do it more than once, but they started 
addressing the officers at roll-call. And we are going to 
continue that.
    Ms. Wasserman Schultz. But can we also, while we do that, 
make sure--there needs to be another informational outreach to 
the Members. Because Members don't know, and neither does 
staff.
    Mr. Livingood. And we have also--to answer that question, 
in the near future the screening policy will be sent to all 
offices and Members. In addition, we have asked the officers to 
be more proactive, and that is to pull people--if they are 
staff and we only have one mag, to move them up to the front.
    The second thing is to, if there is a second mag, start 
manning that, as we did last year. We robbed Peter to pay Paul, 
as you know. But that is----
    Ms. Wasserman Schultz. Why would you want to describe it 
that way? Because you have eight mags outside the CVC entrance, 
when it isn't really most of the time necessary to have eight 
mags open at the CVC and one at the Cannon tunnel. I mean, we 
still have staff-led tours that come through there. That really 
lengthens the lines. So, between those two issues, it is going 
to be very important.
    Mr. Livingood. We are aware of it, and we are going to take 
action. We will let you see the policy when we are going to 
send it out.

                    CAPITOL POLICE BUDGET SHORTFALL

    Ms. Wasserman Schultz. That would be great. Thank you.
    And my last question deals with the really disturbing 
Capitol Police budget shortfall. You know, when I became Chair 
of this subcommittee, Chief Morse had just become the chief a 
few months before that in October. I took over the subcommittee 
in February, and he came on board in October. So I felt like he 
deserved a considerable grace period to get things in order, to 
get the fiscal house in order of the Capitol Police.
    The grace period is over. I mean, I am done. It is 
inexcusable that we are still experiencing the ridiculous 
fiscal mismanagement that occurs in the Capitol Police.
    At least partially in their defense, they are not budget 
policy wonks; they are police officers. And that is their 
primary--protecting us, keeping the Capitol secure is their 
primary mission.
    Is it time to just take the budget function away from the 
Capitol Police, not have it continue to be handled internally, 
and give it back to a legislative branch agency so that we can 
make sure that we have people who have that expertise and who 
aren't distracted by other issues who are supervising their 
budget?
    Mr. Livingood. If I could just give you sort of a----
    Ms. Wasserman Schultz. And I am going to take this up 
during their hearing also.
    Mr. Livingood. Yes, ma'am. I will tell you where we are 
today.
    I agree with you 100 percent, and so does the Capitol 
Police Board and the department, the chief, that we all realize 
the gravity of the continuing financial management issues 
within the department.
    Upon learning of the problem at a quarterly review period, 
Chief Morse, to his credit, took immediate action, got access 
to the issue, coordinated with the board, got a hold of them 
immediately, and developed a plan to address the problem, the 
current problem, and reviewed the underlying reasons behind the 
miscalculations----
    Ms. Wasserman Schultz. But I have to find another $9 
million now for their 2011 request because----
    Mr. Livingood. I know. Because of that.
    Ms. Wasserman Schultz. Yes. And that is not going to be 
easy in this budget, the smallest budget of all of them.
    Mr. Livingood. The big thing we want is to make sure this 
is not going to be repeated. And what we did, the board 
provided the Capitol Police their members with their financial 
and technical teams to review the budgets and came up with 
recommendations. And after an initial review of the situation, 
it appears the calculation errors resulted from human error. 
And you have to call it like it is.
    Ms. Wasserman Schultz. Well, that is just inexcusable.
    Mr. Livingood. I know. I agree.
    Ms. Wasserman Schultz. Human error is unacceptable.
    Mr. Livingood. And maybe some lack of direct oversight.
    Ms. Wasserman Schultz. Human error, one time. You know, 
human error by a different person, okay.
    Mr. Livingood. I am with you. I understand you.
    Ms. Wasserman Schultz. Repeated human error tells me that 
there is a systemic problem in that organization that seems to 
me to indicate that it is not something that they can continue 
to be able to be responsible for and still for me to consider 
that we are being good stewards of the taxpayers' dollars.
    Mr. Livingood. And the chief has asked the inspector 
general to review the entire process, formulation, the 
execution for the 2 years that we are having problems----
    Ms. Wasserman Schultz. Have you formulated an opinion yet 
on whether or not the Capitol Police should continue to be 
responsible for their own budget?
    Mr. Livingood. I have some ideas. I think we need to look 
at potential costs, servicing opportunities with other leg 
branch entities or with even qualified consultants who are 
familiar with Federal budgeting. And----
    Ms. Wasserman Schultz. I am at the point where the 
legislative branch bill will be removing the responsibility 
from the Capitol Police.
    Mr. Livingood. But what I would like to ask for, I would 
like us to wait until the IG finishes, which will be quick, and 
let us come to you with various options available. Because we 
feel your pain, quite honestly, too.
    Ms. Wasserman Schultz. I am happy to review options. But 
just so you know where I am, I am at a point where I would have 
to be convinced that some other way, other than to keep the 
folks that I know, so I don't have to wring my hands worrying 
about whether the budget is going to have a deficit or not, are 
going to handle this budget going forward. I am a show-me kind 
of person.
    Mr. Livingood. I think all of us are in agreement with you. 
We, the board and the chief and the department, have one object 
in mind, and that is to have the best budget formulation, and 
correct, and input from the Capitol Police. We will have to 
keep--no matter what we do, we have to make sure the police 
input is in there----
    Ms. Wasserman Schultz. Of course.
    Mr. Livingood [continuing]. Heavily, whether it goes 
outside or not.
    Ms. Wasserman Schultz. Whatever process is established.
    Mr. Livingood. And we started that when we put that one 
deputy chief in the CAO office. That is the reason we asked for 
that position, which you were so--everybody was very, very kind 
to give. And that is going to help. It is not the complete 
answer at all, but it is going to help.
    Ms. Wasserman Schultz. Okay.
    Mr. Livingood. But we are committed, everyone, so that we 
don't have this situation occur.
    Ms. Wasserman Schultz. Okay. Well, I look forward to 
working with you to correct the really serious problems that 
are continuing there.
    Mr. Livingood. Yes, ma'am.
    Ms. Wasserman Schultz. Mr. Aderholt, do you have anything 
else?

                         USCP IG INVESTIGATION

    Mr. Aderholt. On the IG investigation, you mentioned it 
would be quick. What time frame are we looking at on that?
    Mr. Livingood. I don't know. I can't answer because I don't 
know.
    Mr. Aderholt. Will it be expedited so that all the facts 
are available to this committee before the markup?
    Mr. Livingood. I think we will have a lot more information 
before maybe even the Capitol Police hearing.
    Ms. Wasserman Schultz. Okay. We need it before the markup. 
Before the Capitol Police hearing is essential; absolutely 
before our markup.
    Mr. Livingood. Okay.

                           SCREENING PROCESS

    Mr. Aderholt. One last thing on the security issues. A lot 
of times I have school groups that come into the Capitol 
Building. Is there a new screening process for visitors coming 
in, like if a Member brings groups into the Capitol, that is 
beyond what it normally has been? Is there any new process?
    The reason I ask that is I had a school group a couple of 
weeks ago that came through the door, I guess it was at the 
south door. And they had mentioned something about it was 
taking a really long time to get about 80 students through the 
security. Usually they walk through the magnetometers and they 
check that, but they were doing some kind of check where they 
take a swab of every student. And I didn't know if that is a 
new policy that has been implemented.
    Mr. Livingood. That has been a continuing policy.
    Mr. Aderholt. So that has always been the case?
    Mr. Livingood. Yes, sir. And that is why we particularly 
request that they come through the south door. Some of the 
groups are large. I have 300, as you know, 50----
    Mr. Aderholt. Yeah. The reason I asked that is it took 
about three times as long as it normally takes last week.
    Mr. Livingood. The main thing is to let us know ahead of 
time, if you can, and let us know how many.
    Mr. Aderholt. Yeah. Okay. Well, I didn't know if there had 
been a heightened security that I hadn't seen in the past. 
Because, usually they walk through the----
    Mr. Livingood. And occasionally there is. I mean, there is 
a little noise. A lot more doing a few more things if there is 
some additional security information. And I don't know when the 
period was. And it could be.
    Mr. Aderholt. Yeah. Okay. We just, like I said--and I am 
like the Chair, the security we know is important. We are not 
trying to----
    Mr. Livingood. I understand.
    Mr. Aderholt. But if there are new security provisions that 
are implemented or something, it would be helpful for us to 
know so we can let our constituents know, especially those 
large groups, that there is going to be an extra security 
precaution.
    Mr. Livingood. So they can come a little bit earlier or 
something.
    Mr. Aderholt. Exactly. So if----
    Mr. Livingood. And we really do try to accommodate every 
one of them, even on weekends.
    Mr. Aderholt. Yeah. I just had not remembered or seen every 
8th grade student that went through, that was swabbed and 
checked through that security in the past. And I----
    Mr. Livingood. I just don't want to talk about that 
particular one, but I can talk to you off line.
    Mr. Aderholt. Okay. Thank you.
    Ms. Wasserman Schultz. Okay, I don't have any additional 
questions at this time.
    Mr. Aderholt. That is all I have.

                  ADDITIONAL ASSIGNMENT FROM THE CHAIR

    Ms. Wasserman Schultz. I just have homework.
    Mr. Beard, your office is responsible for business 
continuity and the disaster response office, and Mr. 
Livingood's office is now responsible over the whole umbrella 
of the Office of Emergency Management, which used to be the 
Office of Emergency Planning, Preparedness, and Operations, 
which was in the Speaker's office until just recently.
    The Congress, particularly after Katrina, really fought 
hard to make sure that disaster preparedness and response were 
all housed in the same agency, FEMA, because we thought that 
made sense and was the best way to coordinate the effort of 
preparedness and response. So I want to make sure that we have 
the right format here in the House of Representatives.
    So if you could provide a report to the subcommittee on 
what both offices do in general terms. Both of you, if you 
could coordinate on that report together. Include in the report 
any overlap that exists between the two offices. And also in 
the report I would like to know if and when these offices work 
together and how you coordinate your activities. Okay?
    Mr. Beard. Okay.
    Ms. Wasserman Schultz. Thank you very much.
    [Clerk's note.--In response to the Chair's Homework 
Question, the CAO and SAA provided a general overview of their 
offices. The response does not detail how these offices 
coordinate or do not, as requested. The Committee will publish 
a complete response once submitted by the House SAA and CAO.]

    The Office of the CAO is responsible for the effective and 
continuous delivery of almost every administrative and operational 
service to Members, Committees, and staff during and after any 
disruptive event. We have prioritized these services into Essential 
Support Services in order to give the Office of the CAO the ability to 
provide needed services regardless of the situation. Our Business 
Continuity and Disaster Recovery function (BC/DR) manages a portfolio 
program that allows my office to make the right decisions and manage 
limited resources under what is sure to be a difficult operating 
environment--all geared solely toward maintaining essential services to 
the House.
    In 2001, the CAO developed and implemented the portfolio based 
program we call the Continuity Assurance Program (CAP)--a comprehensive 
program to ensure we can provide the right resources, when, and how 
they are needed to support House Leadership, Members, Committees, and 
staff under any operating conditions, no matter the disruptive event. 
We have previously briefed the Leadership, other House Officers, the 
Subcommittee, and the Committee on House Administration on this 
program.
    In this BC/DR capacity, we are responsible for all operational and 
Information Technology Infrastructure for House-wide response 
capabilities to serve the Alternate Chamber, alternate House Office 
buildings, and the Member Briefing Center--as well as all direct 
services to Members and staff in Washington, DC and District offices 
(payroll, procurement, food service, etc.). Additionally, since the CAO 
is responsible for the House Emergency Communications Center, we 
provide those alert and notification messages needed to activate the 
teams responsible for setting up and activating these House-wide 
capabilities. Per a recent direction from the Committee on House 
Administration, my office is also the lead office for the coordination 
of House-wide exercises for these House-wide capabilities (e.g., 
Alternate Chambers, Alternate House Office Buildings, etc.).
    Because of the daily services my office provides to the Members and 
Staff in District offices, we also maintain daily and constant 
situational awareness of the threats and hazards to the operational 
stability of every District office. We assist District offices in 
preparing for major disruptive events (e.g., hurricanes, floods, 
tornadoes) and assist with the operational recovery following events 
that damage their infrastructure (providing office equipment, computer 
equipment, and loaner communications resources), and we do this every 
day of the year. When the aforementioned services must be augmented, 
our BC/DR operations are available to deploy on the ground to provide 
in-person support to Members and staff with dedicated capabilities, 
including our mobile communications resources.
    The role of the Office of Emergency Management vis-a-vis the CAO 
and Clerk's Office has yet to be finalized. The office is in 
transition, and the exact nature of their duties will be worked out in 
meetings among House Officers and Joint Leadership. The goal in all 
these consultations will be to eliminate any possible duplication, and 
to insure that all essential services are being provided by the 
appropriate organization. Each of the three House Officers is 
accountable for unique responsibilities in support of the Members, 
Committees, and staff, and we regularly coordinate on day-to-day 
issues. The recent transition of OEPPO to the HSAA OEM does not present 
a difficult challenge and should be finalized quickly.
    Over the years, my office has matured the Continuity Assurance 
Program and has successfully utilized our portfolio of resources to 
support recovery after disruptions. Our responsibility to ensure House 
recovery is something that is understood by every employee throughout 
my organization. I am committed to continuing my responsibilities, as 
assigned by House Leadership and this and other committees, to ensure 
the continuation of House Essential Support Services, whether on 
campus, at alternate facilities, or within District offices.

    With that, this subcommittee stands adjourned. And we will 
reconvene next week for the next hearing. Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                         Wednesday, March 17, 2010.

     FY 2011 BUDGETS OF THE GOVERNMENT ACCOUNTABILITY OFFICE, THE 
        CONGRESSIONAL BUDGET OFFICE AND THE OFFICE OF COMPLIANCE

                               WITNESSES

GENE DODARO, ACTING COMPTROLLER GENERAL OF THE UNITED STATES
DOUGLAS ELMENDORF, DIRECTOR, CONGRESSIONAL BUDGET OFFICE
TAMARA CHRISLER, EXECUTIVE DIRECTOR, OFFICE OF COMPLIANCE

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Good morning. Today we will hear 
from three of our legislative branch agencies: the 
Congressional Budget Office, the Government Accountability 
Office and the Office of--the OOC. I know them by their 
acronyms now, and before I never used to know their acronyms. 
So Office of Compliance is the third agency we are hearing from 
today.
    We will start with CBO. We are joined by Douglas Elmendorf, 
the Director of the Congressional Budget Office. We are also 
going to spend some time with the other two agencies going over 
their budget requests.
    CBO's proposed budget for fiscal year 2011 totaled $47.3 
million, which is a 4.7 increase above the fiscal year 2010 
level. I want to remind the subcommittee members that the CBO 
was also a recipient of $2 million in supplemental funds in 
fiscal year 2009 that the agency is using into the current year 
to support staff hires. We balanced that out once that happened 
in their budget in 2010.
    Dr. Elmendorf, we will have a number of questions for you, 
but your full statement will be entered into the record. After 
Mr. Aderholt, you will be able to proceed with your 5-minute 
statement, the summary of your statement.

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. Thank you, Madam Chair.
    I just want to welcome all of our guests here this morning 
to the committee and look forward to hearing from them 
regarding the fiscal year 2011 budget request. I think I have 
met with everybody before, but it is good to hear from 
everybody again this morning, and I look forward to your 
testimony.

                     Opening Remarks--Dr. Elmendorf

    Mr. Elmendorf. Thank you, Madam Chair and Ranking Member 
Aderholt. I appreciate the opportunity to testify today about 
CBO's budget request for fiscal year 2011.
    CBO is celebrating the 35th anniversary of its founding 
this year. Since 1975, our mission has been to provide the 
Members of Congress and their staffs with information that you 
need to make effective budget and economic policy. In 
fulfilling this mission, CBO's most important asset has always 
been its staff. We are about 250 people, mostly with Ph.D.s in 
economics or master's degrees in public policy.
    When I was an analyst at CBO 15 years ago, I was very 
impressed by the tremendous knowledge and deep commitment of 
public service of people at CBO. In the year and a quarter 
since I have been back at CBO as the Director, I have become 
even more impressed. This has been, as you know, a very 
challenging year for us, and we have produced hundreds of 
written cost estimates and reports, and had uncounted 
conversations with congressional staff about the analysis we 
are doing of proposed legislation and the analysis that we are 
doing of a large number of budget and economic challenges 
facing the country. In particular, as you know, we devoted a 
vast amount of time and energy to analyzing proposals for 
reforming the Nation's health care and health insurance 
systems.
    In all of that work, the people who are the Congressional 
Budget Office have maintained and enhanced CBO's reputation as 
a provider of analysis that is objective, insightful, timely 
and clearly explained.
    Fiscal year 2011, we are requesting appropriation of $47.3 
million, as the Chair said. I brought along some pictures to 
put that request in the context of the past few years' 
appropriations. For fiscal year 2009, you appropriated $44.1 
million to CBO. That is the left-hand bar. Last year I came 
before you and requested $46.4 million. While that request was 
working its way through the appropriations process, the Senate 
proposed a supplemental appropriations for CBO of $2 million. 
This was not our idea nor, I recognize, yours. It was intended 
to bolster, I think, our ability to complete health estimates 
more rapidly. Because that amount came late in the fiscal year, 
we spent just $300,000 in fiscal year 2009 and are spending the 
remaining $1.7 million in fiscal year 2010. That is the middle 
set of bars.
    With this supplemental money on the table, our regular 
appropriation was cut back to $45.2 million. We entirely 
understand that the supplemental should not be a mechanism for 
CBO to have a permanently higher level of appropriations; 
however, we are concerned that if this year's appropriations 
process begins from last year's regular appropriations amount, 
which was reduced in light of the supplemental, then we might 
end up with a permanently lower level of appropriations. So in 
order to remove the distorting effect of the supplemental, our 
own perspective on this year's request was to begin with our 
request to you last year. Relative to that request, the $46.4 
million, this year's request of $47.3 million represents an 
increase of $900,000, or about 2 percent.
    Apart from the complications introduced by the 
supplemental, we view this year's request as the culmination of 
a multiyear plan presented to you 2 years ago by my predecessor 
to increase the size of the agency by roughly 10 percent. The 
goal as he described it to you was to enable CBO to better meet 
the needs of the Congress for information and analyses related 
to health care, the financial system and a broad range of other 
policy areas. Indeed, the increase in staffing has been 
critical to our ability to provide sufficient analyses of 
health reform proposals, financial issues, and other topics in 
the past couple of years.
    Our aim now in completing this plan is to increase our FTEs 
from 254 to 258, roughly in line with the 259 my predecessor 
suggested to you 2 years ago.
    The following pages in the packet summarize the changes in 
our staffing during the past decade and since our founding, but 
I will not discuss those pictures specifically unless you have 
questions about them.
    [Clerk's note.--Dr. Elmendorf presented the following 
slides during the hearing:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    One might wonder why we are not reducing our staff if 
essential rationale for the increase was the demand of analysis 
of health proposals. And the current cycle of health reform 
efforts seems to be drawing to a close one way or the other. 
One reason we are not doing that is that we think congressional 
interest in this subject will surely persist. If legislation is 
enacted, CBO will need to make regular budget projections for 
the new programs and will need to estimate the budget costs and 
other consequences of contemplated changes in those programs. 
If legislation is not enacted, and even if it is, CBO will 
surely need to respond to congressional interest and other 
possible changes to the health system.
    The other reason that our need for help staff is not 
declining is that our current staff level is simply not 
sufficient to maintain the quantity and quality of analysis 
that we have provided in the past year. The extraordinary 
pressure and 7-day-a-week almost round-the-clock workload over 
the past year will soon drive good people away and diminish the 
effectiveness of those who stay.
    In closing, I would like to thank the Chair and the Ranking 
Member and other members of the subcommittee for your strong 
support for CBO's work in the past. Your support of our budget 
request for next year would help us to continue to meet our 
responsibilities to the Congress to the high standards that you 
and we expect. Our colleagues and I are happy to answer your 
questions.
    Ms. Wasserman Schultz. Thank you very much, Mr. Elmendorf.
    [Dr. Elmendorf's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                          REVISIONS TO SCORES

    Ms. Wasserman Schultz. I actually want to start with a 
difficult question right off the bat. Recently one of our 
subcommittees obtained a score for legislation from CBO, and 
then 2 days later CBO changed the score. That is obviously of 
deep concern to the committee because we are supposed to have 
the utmost confidence in your scores. CBO is widely quoted as 
being the neutral arbiter and the most reliable, bipartisan--
recognized in a bipartisan way. Can you be sure in the future 
that that is not going to happen again?
    Mr. Elmendorf. I wish, I wish we could be sure of that. I 
am aware of some of the details, not all of them.
    Ms. Wasserman Schultz. Well, at least if you can identify 
what the problems were with that particular episode, and why it 
happened, and what we can do to almost always ensure that that 
won't happen again.
    Mr. Elmendorf. So I think the issue in this particular case 
is that there was a complicated piece of legislation. We had an 
analyst who made an initial assessment of it and then reported 
that assessment to the subcommittee staff.
    Ms. Wasserman Schultz. Did they report it as an initial 
assessment?
    Mr. Elmendorf. I think it was an e-mail message. I have not 
seen the text of it myself. I talked to the analyst briefly 
yesterday, and I think her view is that she could have and 
should have made that clearer, that it was an initial 
assessment. In her mind it was initial; she was proceeding with 
further phone calls to other parts of the government as we 
often do to get more information. I think the first e-mail was 
on a Friday. I think then on Monday she had obtained her 
information and realized the initial assessment had not been 
correct.
    Is hard for us, so on one hand we try to provide 
information as soon as we can and not wait to check every 
possible thing. On the other hand, if we have made a mistake, 
we don't want to just pretend it away forever. So I think we do 
try very hard and I think mostly have a very high percentage of 
getting initially the estimate that will be the final estimate. 
That doesn't always work, and I wish I could guarantee it.
    Ms. Wasserman Schultz. I can appreciate that, and I know 
that there is tremendous pressure on CBO to get us scores as 
quickly as possible, especially when there is legislation that 
Members really want to act on. But I really believe that having 
confidence in your numbers is more important than speed, and in 
order for you to preserve the integrity of your organization, 
and your organization's numbers, and the Members, and the 
country's belief in their integrity, speed should be 
deemphasized. Especially if you have to change a score, and it 
changes slightly, that is one thing, but this was a dramatic 
change.
    Mr. Elmendorf. It was a large percentage of the number 
involved.
    Ms. Wasserman Schultz. Yes, it was. That is not an anomaly 
that happens that we can chalk up, well, that happens every 
once in a while. That should be avoided at all costs.
    Mr. Elmendorf. I couldn't agree more. We do try when we 
can, and we need to make sure we do this all the time, to be 
clear when things were preliminary analyses, which we do 
sometimes communicate in the interest of the policy process, 
and how that is different from things that we call final 
estimates.

                            DIVERSITY AT CBO

    Ms. Wasserman Schultz. Thank you.
    Just a couple more on diversity, and that is something that 
I have asked you and your predecessor each time you have come 
before us, diversity both in terms of racial and ethnic 
diversity, but also in terms of gender. We have discussed it in 
my office.
    What efforts are you making to ensure diversity on your 
staff, and, of particular interest to me, of ensuring that we 
are able to hire more women in positions of importance at CBO?
    Mr. Elmendorf. Congresswoman, as I have said to you before, 
we at CBO think and have thought for a long time that achieving 
a diverse workforce was an important objective of our 
recruiting efforts. Also, as you know, achieving that diversity 
is challenging because of the academic qualifications that we 
require for much of our work and the demographic composition of 
the people obtaining the demographic qualifications. So, for 
example, for people getting Ph.D.s in economics, which is a 
very significant set of our staff, our recent survey showed 
that about 30 percent are women, newly minted Ph.D. Economists, 
and well less than 10 percent for identifying women within 
minority groups.
    What we do and have done----
    Ms. Wasserman Schultz. Thirty percent women?
    Mr. Elmendorf. About 30 percent women. Well less than 10 
percent members of minority groups.
    What we do, and I have done for some time under the 
leadership of our Human Resources Director Stephanie Ruiz, is 
to reach out in a grassroots way wherever we can. We visit--
``we'' meaning she and her staff--visit a large number of 
colleges around the country, including Historically Black 
Colleges and universities and Hispanically-serving 
institutions. The Associate Director of Economic Analysis went 
to the American Economic Association's minority program in the 
summer in California to talk with the students there about what 
they could do at CBO and other government agencies. I gave a 
talk at Spelman College a couple months ago again to try to 
make connections and have people become more interested in 
working for us.
    We also do work to some extent for people at younger stages 
in their careers which can be very important. Our Deputy 
Director serves on an advisory board of a group which is trying 
to develop high school curricula around budget and economic 
policy.
    I think we can do more. In the discussions with you, we 
have talked about trying to collaborate with some of the other 
congressional agencies in a speakers program perhaps. My 
daughters are in high school. They are learning about the 
Congress, and they are learning about public policy. That class 
will get me--my daughter has volunteered me--but there is no 
reason it should be just that class. I think together our 
agencies can reach out and do more of that.
    We talked with you a bit about what is on our Web site. A 
number of government agencies in Washington have pieces of 
their Web site that are either accessible to kids or designed 
for teachers to use in getting students interested. We don't 
have that now, but CBO has actually hired a new Web editor with 
a view of improving our communication principally with the 
Congress through the Internet, but also with the public. I 
think we can deploy that in this way as well.
    Ms. Wasserman Schultz. Like we talked about in my office, I 
appreciate your efforts and the efforts of your agency, but you 
wait until high school, and we are so far past a kid's decision 
on whether they think math and science are sexy or cool. You 
have to reach down much further into the elementary school 
grades. I have a 10-year-old and a 6-year-old daughter. I told 
you the story about how I had spent the whole year making sure 
my daughter understood, yes, she is good at math. It is not 
just my daughter. Girls end up being discouraged from being 
good at math, told that math is icky, that it is not cool, and 
it is not feminine.
    I understand that you are all about scores and economics, 
but I think it would be incredibly helpful; and, I would like 
to publicly talk to you, as we did in my office, about finding 
a way for CBO to take a leadership role in reaching down 
further into our schools to help girls and minority kids and 
grab them and get them interested in science and math, math in 
particular in your case, and economics as early as we can.
    Mr. Elmendorf. We look forward to working with you on that.
    Ms. Wasserman Schultz. Mr. Aderholt.

                       OFFICE SPACE AND CAPACITY

    Mr. Aderholt. Thank you.
    Again, thanks for being with us this morning.
    I'd like to start with an issue from las year--office space 
and accommodating more staff members. Could you give an update 
on the situation there and what has been done to try to resolve 
the space problem?
    Mr. Elmendorf. Yes. Certainly. CBO occupies all of the 
fourth floor of the Ford House Office Building. We have done 
that for a little while now. We did not have offices to the 
extent of the number of people that is in this plan to hire. We 
have now over a period of a couple of years systematically 
worked our way around trying to make more space in the 
footprint that we have, taking space that is not being as well 
utilized as it could, and with extra walls and a little help 
from the Architect of the Capitol, we have been able to create 
more offices in the space that we have.
    We also have had conversations with general House 
representative management about obtaining more space elsewhere. 
We were received politely, but space is tight everywhere, and 
we were given no illusion that our request would be acted upon.
    We do think we have been able to, in the space we have, 
identify additional space that we are turning into offices that 
will be sufficient for the number of people in this plan. And 
this is the number that we plan with your support to go to and 
to hold that. So I think we have been able to solve that 
problem ourselves through a little ingenuity on the part of our 
staff.
    Mr. Aderholt. And accommodate those that are reflected in 
those numbers.
    Mr. Elmendorf. The 258 people, we have identified space for 
all of them if we are allowed to hire them.

         CBO'S RESPONSIVENESS TO MAJORITY AND MINORITY REQUESTS

    Mr. Aderholt. The Chair mentioned in her remarks or her 
first question about the fact that CBO is nonpartisan, and the 
credibility of your office. And, of course, I think you would 
agree, and I think everyone would agree, that both the Majority 
and the Minority parties in Congress want to have an answer 
when they are submitting questions to CBO. How do you go about 
ensuring that there is a fair allocation between the Minority 
and Majority parties with your resources?
    Mr. Elmendorf. So it is a challenge, but a challenge we 
take extremely seriously, because there is more demand for our 
work than we can produce. Part of what we do is to stay in very 
close touch with the Majority and Minority staff directors on 
the crucial committees that we serve, the Budget Committee, 
Ways and Means, the Finance Committee and the Appropriations 
Committees. And systematically I talk just as often to Austin 
Smythe, who is the Staff Director for Congressman Ryan, to Tom 
Kahn, who is the Staff Director to Chairman Spratt.
    The second thing that we do when we are making longer-
reaching plans, we are now doing strategic planning in all the 
main topic areas that CBO covers, and we are reaching out 
systematically to both sides of the aisle. We prepare tentative 
plans that we circulate again equally to Minority and Majority. 
And then when a particular topic is moving quickly, we sit down 
very explicitly and balance our efforts across the parties on 
the course of the health reform work of the past year. We meet 
in my office once every day or every other day to review tasks 
and literally with a spreadsheet, with a column that was House 
Democrats, House Republicans, Senate Democrats, Senate 
Republicans. And we made sure as we were planning our work for 
the day and week that we were addressing requests from each of 
those groups.
    So we take very, very seriously our role as nonpartisan and 
our responsibility to serve everyone in the Congress the best 
that we can.

         LENGTH OF TIME FOR HEALTH REFORM LEGISLATION ESTIMATES

    Mr. Aderholt. I was given a letter recently that both the 
House and Senate Appropriations Committee Ranking Members had 
written to you back in January requesting that an estimate for 
the discretionary authorization is being made in the House and 
Senate health care bills. I understand it wasn't until this 
week that the committee received any sort of formal estimates 
on those calls. Of course, I noticed in CongressDaily this 
morning there was a mention of that as well.
    Given the importance of these authorizations, and, of 
course, this is, as you know, the issue that has sort of taken 
the attention of the entire country, what would you say or how 
could you tell the committee that one has been sort of a lower 
priority in getting those numbers out? And why has it taken so 
long, especially after we tried to provide you with the 
additional staffing that you needed?
    Mr. Elmendorf. That is a fair question, Congressman. In our 
estimates of health reform legislation, we have focused on the 
mandatory or direct spending and the revenue effects, together 
with our colleagues of the Joint Tax Committee. Those are the 
aspects of legislation that we traditionally at CBO focus on 
first. Those are the aspects of legislation that are, for 
example, subject to PAYGO rules and statutory PAYGO and so on. 
But we do try very hard whenever we can in cost estimates to 
also provide information about the discretionary appropriations 
that would be necessary to achieve the purposes of the bill. 
And in rating the cost estimate, we want to be able to talk 
about the mandatory spending and revenues, but we also say if 
the following amounts were appropriated, it would cost X 
million dollars, in our estimate, to achieve these goals.
    We are sorry that we did not get to do that part of the 
health bills until we did. The only answer I have is that we do 
think that the biggest flow of the money in the bills that have 
been moving through the legislative process have been on the 
mandatory spending side and the revenue side. The 
appropriations are openly subject to the Appropriations 
Committee's decisions anyway. And given the pace of work even 
with the additional staff that the Congress has provided to us, 
the pace of the work is simply overwhelming. I have people who 
are working 100 hours a week. Our computer people hardly have 
time to fix the computer things because there is always 
somebody on line doing something.
    It just seems to us more important not just for the 
Majority party, but for the Minority party, to have us doing 
good estimates of the largest piece of legislation that has 
been moving, which has been really an establishment or 
expansion of entitlements and the changes in tax revenue. But 
we are sorry we did not get to that sooner.

                  ESTIMATE FOR HEALTH CARE LEGISLATION

    Mr. Aderholt. Of course, as you know, we may vote on the 
legislation in the latter part of this week, and I know there 
will be billions in discretionary authorizations included. Can 
you provide the committee an estimate, including for the 
outyears, the cost of these authorizations at this time, for 
the discretionary authorizations part of the bill?
    Mr. Elmendorf. Well, the information we provided is part of 
the discretionary appropriations that were called for under the 
Senate-passed version that we did. And we focused on that not 
because we personally favor the Senate nor the House, but that 
seems like the bill that is most likely to be a vehicle for 
further congressional action.
    What we have done in that letter is to talk about some of 
the costs that would follow of necessity to the IRS and HHS and 
other people. We talked about the other specified 
authorizations. We still have not come through on all of them; 
there are other places where the legislation says, authorizes 
such sums as would be necessary. Each of those is an estimating 
challenge we haven't gotten to yet. We would like to get to it, 
but I--as you understand, I don't control the pace or influence 
the pace.
    Again, if there is a reconciliation bill that was released 
that changes the entitlements or revenue features of the 
Senate-passed health bill, I think that most Members of the 
Congress, from both parties, would like to understand the 
effects of that mandatory spending and revenues before we would 
go back and try to----
    Mr. Aderholt. But considering the massive scale of this 
legislation, you would agree that it would be very important?
    Mr. Elmendorf. I think it is very important.
    Ms. Wasserman Schultz. Thank you.

                          SECURITY CLEARANCES

    Mr. Ruppersberger. Just one thing. I met with your office 
last week, or whenever it was, about the issue of some of your 
people who have clearance in working with the Intelligence 
Community helping with the workload, being more involved. I 
understand there is a pushback. Do you know where we are on 
that issue and where we need to go? We talked about issues 
involving cybersecurity and some other areas that we really 
probably need more help. Where is that now?
    Mr. Elmendorf. I don't think it was me that you----
    Mr. Ruppersberger. It was Gene.
    Ms. Wasserman Schultz. This is CBO.
    Mr. Elmendorf. Gene is coming.

                          CUTS TO COAST GUARD

    Mr. Ruppersberger. Well, this probably is not relevant, but 
I just came from a Homeland Security Appropriations Committee 
about the major cuts in the Coast Guard, and we would like to 
talk to you about that. I don't want to do it here because it 
is not relevant to this hearing.
    Mr. Elmendorf. I am happy to talk to you, Congressman. I 
can come up and will bring people who are knowledgeable about 
that issue.
    Mr. Ruppersberger. All right. We really want to deal with 
that soon.

                         COORDINATION WITH GAO

    Ms. Wasserman Schultz. I have just a couple of quick other 
questions, and then that will conclude my questions for you.
    CBO produces the budget and economic outlook, which 
examines the pressures facing the Federal budget over the 
coming decades by presenting the 8-year projections for Federal 
spending through, I guess, all the way to 2080. The GAO--and I 
will ask Mr. Dodaro the same question--produces the Federal 
Government's long-term fiscal outlook. And it is really our 
job--and I have been asking a lot of different agencies about 
duplication of effort and overlap. How are those analyses 
different, and is it the best use of limited resources to have 
two legislative branch agencies doing at least what appears to 
be similar, if not the same, type of analysis?
    Mr. Elmendorf. Well, I don't want to speak for Gene.
    Ms. Wasserman Schultz. Right, no. I am going to ask him.
    Mr. Elmendorf. From my perspective and the CBO's 
perspective, this is such a crucial policy issue, the pressures 
that the budget faces, or the country faces, over the long 
term. There is an aging population, and with rising health care 
spending, my own view is that doing some partly overlapping 
work at CBO and GAO on that topic is probably in the Congress' 
and in the country's interest.
    We have slightly different modeling approaches. In the work 
that the GAO does, I think, they follow our sort of 
assumptions. They also examine the assumptions used by the 
Social Security and Medicare trustees. And there are 
differences, and we naturally think that we are picking 
assumptions that are in the middle of distribution of possible 
outcomes. But I think it is probably very useful for you to 
have GAO looking at that set of things and doing that sort of 
comparison.
    We present the information in somewhat different ways. I 
think that can be--again, like the way we present ours, I have 
no illusion that we have cornered the market on the way to 
present that or the way to do those calculations. Again, given 
the importance, I think that is of value, and you are seeing it 
from different perspectives.
    Ms. Wasserman Schultz. I just wanted to hear your 
perspective, because it is a very similar report.

                      REQUEST FOR ADDITIONAL FTES

    Obviously, I would like to focus a little bit on your 
staffing. If your budget request is approved, you are asking 
for three additional FTEs for health care analysis. How many 
staff at that point would you have dedicated to health care 
issues?
    Mr. Elmendorf. Over the past year I tell people we have had 
around 50 people working on health issues. Some of them are in 
particular areas. Some people work on veterans health. So there 
are different groups, smaller groups and also a very large pool 
of people who have been involved in analysis of the broad 
reform effort over the past year.
    I think our view of what we would do with these extra 
people depends on whether this legislation passes the Congress 
or not. If it does, then it will be an ongoing flow of work as 
there is for the Medicaid program and Medicare and CHIP and so 
on. If it doesn't, then we anticipate ongoing efforts to craft 
more comprehensive legislation. So we use the people in--and if 
legislation passes, it could be more budget analysts and 
projectors, otherwise more people with different skills.

            OPTIMAL SIZE OF CBO, RECRUITMENT, AND RETENTION

    Ms. Wasserman Schultz. I realize that any director of any 
agency never thinks they have enough staff, but what is the 
ideal size of CBO? As of March 10th, you have 19 job openings 
listed on your Web site. Are you having trouble filling the 
slots that we already allocated to you?
    And in terms of retention, I really get the sense that this 
is possibly the hardest-working agency in possibly the 
government, but certainly the Congress, right up there with 
GAO, although they have gotten relief in recent years. So is 
retention and issue for CBO?
    Mr. Elmendorf. I think so far we are doing okay. I think 
for a number of years now we lost about two people a month, 
that is about two dozen a year, about 10 percent of our 
workforce in a year. Not all the pressure is bad. Many people 
want new challenges, and sometimes people are able to leave CBO 
and go on do other things.
    Ms. Wasserman Schultz. What about the filling of the 
positions, though?
    Mr. Elmendorf. The filling, I think, goes fairly well. 
Partly what you see by looking at spring is economists and many 
other people graduating from degree programs, they tend to look 
for jobs at this time of year. So in a sense there is a natural 
cycle in which we post jobs, we look to fill them, and the 
summer or the fall we hope to have them on board, the seasonal 
peak.
    I think there are particular areas where do have issues. 
One recent problem we have is that the Congress changed the 
rules in December. We are no longer able to hire foreign 
nationals. And in some particular areas we need to hire, in 
finance and macroeconomics, that is a real restriction. So we 
cancelled a third of the interviews that we had scheduled for 
this annual economic meeting to interview people. So I worry 
about that.
    I worry about burn-out on our whole staff. I think at the 
moment the momentum and the path from their bed to their desk 
and back is well-worn, and they keep doing it, but I think 
eventually they will realize that they miss their families and 
want other jobs.
    I think pay is an issue. My salary, as you know, was set by 
law to be some increment below yours. We don't pay anybody at 
CBO more than Members of Congress are paid. But meanwhile 
people finishing school with advanced degrees and many years of 
education can often get significantly higher salaries other 
places, including other places in Washington. We had a very 
talented young woman who was just--now she is going to the IMF, 
the International Monetary Fund. They are paying her 50 percent 
more than what we are paying her.
    I have imaginary solutions I am not putting forward for 
solving that problem, but I do think that is an issue, that we 
have a lot of salary--we have to try to lure them in. We have 
to pay a certain amount. There is a lot of salary compression, 
and I think most people can find other outside offers.
    Now, I think we are, despite the work, a pretty happy 
group. We understand that we are doing important work for the 
Congress, and that is a very important motivator. And we are 
doing fascinating work, and that is an important motivator. We 
participated in a survey of government agencies. We finished as 
the third best place to work among small agencies. That was 
before health reform efforts. Check again.
    I think we have a variety of advantages in hiring, but 
eventually if you can get 50 percent more to go across town and 
do economic analysis, that is going to be a hard thing for us 
to fight with.
    Ms. Wasserman Schultz. Thank you.

                      HIRING OF FOREIGN NATIONALS

    Mr. Aderholt. We talked about a little bit when you stopped 
in my office about the Consolidated Appropriation Act of 2010, 
about the hiring of foreign nationals, which contains the 
governmentwide provision which now prohibits the ability to 
hire foreign nationals. Just for the record, talk a little bit 
about the impact that the language would have on you and your 
agency.
    Mr. Elmendorf. Most of the people that we hire, most of the 
people in pools that we look at, are U.S. citizens, but in 
parts of the job market that we are looking in and skills that 
we need to hire, there are a very large number of foreign 
nationals. Overall in economics Ph.D. programs in this country, 
more than half of the degree recipients are foreign nationals.
    Again, the topics that we look at like health care, say, 
that tends to look at graduate schools to be mostly U.S. 
citizens. But other areas, particularly in macroeconomics and 
finance, people who are trying to figure out the cost of the 
government's involvement in the TARP or Fannie Mae and Freddie 
Mac, people trying to understand the effects of different 
fiscal policies over time, the budget balance and economic 
growth in this country, two very important topics from our 
perspective, and those areas, a significant share of our staff 
are foreign nationals. They are grandfathered under this rule 
so they themselves won't have to leave. But we are looking to 
hire more people in those areas. Some of the open slots are in 
those areas. And if we really can't on an ongoing basis look at 
this broader class of people, that is a real problem for us.
    This law was passed just before the annual meeting of the 
American Economics Association, while we were interviewing. We 
canceled I think it was a third of the interviews we had 
scheduled. It was about 4 days' notice. We said, we are sorry, 
we just can't talk with you. That does hinder our ability to 
fill those slots.
    Mr. Aderholt. Thank you.
    Ms. Wasserman Schultz. Thank you very much. We appreciate 
it and look forward to working with you on a whole lot of 
things.
    The subcommittee is going to stand in recess. We have three 
votes on. So we will stand in recess until the end of the vote, 
and we will come right back out.
    [Recess.]
    [Questions for the record follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. I will call the hearing back to 
order of the Legislative Branch Appropriations Subcommittee.
    We are going to hear from Gene Dodaro, the Acting 
Comptroller General for the Government Accountability Office. 
The fiscal year 2011 request would support 3,270 full-time 
equivalents, in addition to 144 FTEs focusing specifically on 
the Recovery Act work. So the increase is only for Recovery 
Act-focused employees.
    The budget request is $601 million. I know you know it is 
going to be hard to manage in this fiscal environment. We are 
going to have to talk to you about how you can manage 
increasing your workload with a funding that is short of what 
you requested, because we are going to--essentially for sure 
not going to be able to do what you have asked.
    In our public witness hearing a few weeks ago, I was really 
glad to hear from the GAO representative that things are going 
well in terms of dealing with the disparity in performance 
ratings experienced by African American employees, and I know 
you are developing a diversity training program which is good 
for staff, but I am very concerned about the lack of progress 
on merit-based pay raises. I understand that there wasn't any 
more progress in your conversations on Monday, so we would like 
an update on both of those issues today.
    After Mr. Aderholt makes his opening remarks, you can 
proceed with a 5 minute summary of your statement. Your full 
statement will be entered into the record.

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. Thank you, Madam Chair.
    Just welcome to the committee. I look forward to hearing 
your testimony.

                      Opening Remarks--Mr. Dodaro

    Mr. Dodaro. Thank you very much.
    Madam Chair, Ranking Member Aderholt, good morning. I would 
like to start by thanking you for your support for GAO over the 
past 2 years. When I came to you in 2008, GAO was at its lowest 
staffing level in its history. You have responded very well, 
and I want to thank this subcommittee and your leadership for 
providing that support.
    Now, with that support we have been able to replenish the 
number of people working at GAO and add to the ranks, which has 
helped us provide better service to the Congress in addressing 
a number of difficult issues. As you pointed out, Madam Chair, 
our budget request is to maintain that staffing level in order 
to make sure that we can meet the needs across the Congress for 
all the committees in addressing a number of homeland security, 
national security, financial, economic and social issues 
confronting the Nation and the Congress, and in helping the 
Congress make the best-informed decisions they can based on our 
analysis and support, while also taking on new responsibilities 
that we have been given by the Congress. For example, we are 
now required by law to provide an annual report on the extent 
of duplication across the Federal Government.
    We have also been entrusted with a number of other new 
responsibilities by the Congress dealing with some of the 
economic conditions facing the country. The Economic 
Stabilization Act requires us to review the Troubled Asset 
Relief Program and authorizes cost reimbursement from the 
Treasury Department to ensure we have the ability to monitor 
the situation with AIG, General Motors and Chrysler in the 
coming years.
    However, on the American Recovery and Reinvestment Act, for 
which we have a number of recurring mandates the funding 
provided to GAO expires at the end of this year. A large amount 
of Recovery Act money remains to be allocated at the State and 
local level, including $110 billion this year, and in fiscal 
year 2011 and beyond, there is another $120 billion. GAO's 
mandate to do bimonthly reviews of the State and local use of 
these funds will continue.
    I am concerned that in the coming years, a lot of new 
programs will be coming on line, and a number of these programs 
will involve increased amounts of money and risks. It is very 
important for GAO to be able to provide the appropriate level 
of congressional oversight that is warranted by the expenditure 
of large amounts of money.
    I know that you will give careful consideration to our 
request. I know it is a difficult period of time, but GAO is 
trying to do its best. I am very proud of our workforce for 
what we have been able to do to help the Congress, and we want 
to be able to maintain that going forward.
    So thank you very much, and I would be happy to answer any 
questions that you may have.
    Ms. Wasserman Schultz. Thank you.
    [Mr. Dodaro's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
       GAO'S REQUEST TO MAINTAIN CURRENT RECOVERY ACT STAFF LEVEL

    Ms. Wasserman Schultz. Your largest increase, Mr. Dodaro, 
is 144 FTEs that will work on the Recovery Act programs, and 
given that that is a finite program, how long will GAO's 
Recovery Act work continue?
    And to me it seems like the 144 FTEs are for work that is 
temporary, and you are adding a whole lot of FTEs that at some 
point in the future you are not going to be able to sustain 
because you are not going to have the work that they need. And 
again, like many a good agencies head, you can never have 
enough employees, but it puts pressure on our budget and your 
request when you are only asking for employees that we view as 
temporary.
    Mr. Dodaro. Right. Well, from the beginning we also viewed 
this FTE level as temporary. I would point out that the way we 
staffed the Recovery Act oversight is by bringig back a number 
of reemployed annuitants who are temporary; used term employees 
who are temporary; and only brought on board, people that we 
can absorb through attrition going forward.
    We have approached this staffing carefully from the very 
beginning to ensure we did not put ourselves or the committee 
in the position to say that we now have these people, and we 
are asking you to support them. Our proposal going forward is 
to continue to maintain this staffing level to support the 
Recovery Act, only as long as the Recovery Act expenditures 
continue.
    Ms. Wasserman Schultz. For how long do think that work will 
continue?
    Mr. Dodaro. Of the $120 billion which remains to be 
allocated to State and local governments, $63 billion will be 
allocated in fiscal year 2011, and the remaining funds will be 
allocated between fiscal year 2012 through to 2019, when it 
begins to phase out. We would phase out our work and staffing 
levels along the lines in which the money would phase out. We 
may need some kind of transition assistance, but our goal would 
be to phase out over time the number of FTEs we need.
    We are not trying to add this staffing level into the base. 
We are trying to be responsive to the mandates in the law where 
the most significant outlays will occur in this fiscal year and 
next fiscal year. We would develop a plan to reduce the scope 
of work and the FTEs over time consistent with the planned 
spending levels.
    Ms. Wasserman Schultz. And then eventually phase the 
employees out?
    Mr. Dodaro. Yes.

                 GAO MANAGEMENT AND UNION NEGOTIATIONS

    Ms. Wasserman Schultz. We had an opportunity during the 
public witness hearing to hear from Ron La Due Lake, who is the 
union representative for GAO, and I really would like you to 
talk about the impasse that you appear to be at when it comes 
to merit pay raises. I know that you were able to set merit pay 
raises for nonmanagement, for nonbargaining unit employees, so 
where are we on that? And let me just tell you that I come from 
the standpoint of strongly encouraging you to move off the dime 
and get this done.
    Mr. Dodaro. We have reached agreement on the pay for 
developmental staff, and are using an interest-based collective 
bargaining process. I am very pleased we are able to do that. 
We have begun the mediation process, as you mentioned in your 
opening statement, and set an aggressive schedule for the 
remainder of the month, if necessary, to be able to complete 
it. We are going into it with optimism that we can strike an 
accord, and can do it in a way that won't compromise our 
ability down the road to meet some of our workload demands.

                  GAO'S ROLE IN TECHNOLOGY ASSESSMENTS

    Ms. Wasserman Schultz. Okay. I want to ask you about the 
technology assessments. We have over the last several fiscal 
years appropriated $2\1/2\ million to fund technology 
assessment studies. Tell me about how you have used those 
funds, what studies have been produced.
    The reason that I am asking is that the concern grows each 
year because more and more Members and more and more 
organizations are continuing to press for the reestablishment 
of the Office of Technology Assessment, and while GAO's work is 
highly regarded, the feeling is that it is not an appropriate 
substitute for the work that OTA used to do.
    Mr. Dodaro. I would like to take the opportunity to 
introduce Tim Persons, the Chief Scientist at GAO. We have 
recently hired Tim who comes from the Intel Community and has 
Ph.Ds in physical sciences and biomedical engineering.
    We have hired five additional staff with the funds that 
have been provided who have nuclear, chemical, electrical and 
industrial engineering backgrounds needed to do technology 
assessments. Also, as I have pointed out in past budget 
submissions, more and more of the work we are being asked to do 
at the GAO has a science and technology component. So this 
team--and other people we have already had on board help 
support our work in scientific issues, the nuclear area, and 
other areas--which accounts for about 10 or 15 percent of our 
total workload.
    Ms. Wasserman Schultz. That is different than technology 
assessment. The 2\1/2\ million is not to augment your workload.
    Mr. Dodaro. I understand. But I want to fully use the 
talents that we have.
    On technology assessments, we have been doing one looking 
at explosive detection technology for passenger rail. That 
report will be issued in May. We started one on the technology 
for geoengineering, which is dealing with technologies that 
remove carbon dioxide from the environment and also with the 
reflection of solar rays, hich helps cool the Earth.
    Ms. Wasserman Schultz. Are those assessments being done at 
a request of a Member or a committee Chair?
    Mr. Dodaro. A committee Chair. But we are trying, as we had 
talked before about getting broad-based support. On the first 
one, as you requested, I met with Congressman Holt, and he 
agreed on that. We have a list of other areas we are going to 
start. The geoengineering ones are at the request of the House 
Committee on Science. And so we are going to involve other 
people and share that information with them. That should be 
done this fall.
    We are going to start another one this June, and I am 
focused on looking at technologies to help in the detection of 
nuclear, biological and chemical threats; in other words, 
sensors and things of that nature that protect the homeland and 
protect people.
    Ms. Wasserman Schultz. That request is from when?
    Mr. Dodaro. That is one we are going to be talking with a 
number of people about. We don't have a request yet.
    Ms. Wasserman Schultz. That is generating an area that----
    Mr. Dodaro. There are a number of people in Congress who 
are interested in this area and we have talked to all of them 
to try to get consensus on what would be a good area for us to 
start in. As we have discussed before, while some believe we 
don't have the full ability to replicate OTA, I think that it 
is a matter of resource constraints, not because we don't have 
the capability to be able to do it. I remain open to increasing 
GAO's capabilities in consultation with you to try to provide 
Congress with the right type of information that is needed.
    We are going to need to expand our capabilities if we are 
going to help the Congress deal with increasing sophistication 
in satellite systems, weapon systems, homeland security, 
detection capabilities, and climate change. All of these areas 
require the application of science and technology, and we need 
to have the capabilities to provide that type of support.
    As I mentioned before, we also have a standing contract 
with the National Academy of Sciences to augment our skills, 
and for which we are using some of the money when we need to to 
have panels of experts from that community help us. So this is 
a really important area.
    Ms. Wasserman Schultz. I think it is just something we are 
still struggling to decide, whether or not it is appropriate 
for you to continue to do it, or for us to reestablish OTA and 
have a dedicated office whose focus is science.

            GAO'S EFFORTS IN IRAQ, AFGHANISTAN, AND PAKISTAN

    Mr. Aderholt.
    Mr. Aderholt. Thank you.
    Of course, GAO is in the process of reviewing U.S. efforts 
related to Afghanistan, Iraq and Pakistan, including reviewing 
the efforts of drawing down resources in Iraq. Providing more 
resources to Afghanistan and the retooling of operations in 
Pakistan, would you expand to the committee a little bit on the 
efforts that GAO is undertaking in this region and how you are 
staffing this effort?
    Mr. Dodaro. Certainly, that is a very good question. So far 
we have done about 150 reports on the Iraq situation since the 
war began, as well as in the Afghanistan area. I have testified 
on our work in Iraq, and on our recommendations that the U.S. 
needs to develop more integrated strategic plans. We have 
provided the testimony on Pakistan as well, in terms of what 
the U.S. strategy was before.
    What we are currently looking at and have issued reports on 
is the plans at DOD to downsize in Iraq. During the first 
Persian Gulf War back in the early 1990s, it took about 15 
months to move all the equipment out. That was far less 
involved in terms of equipment, personnel, et cetera. There are 
complications in bringing the contractors out. You have to make 
arrangements with other countries to move the material through 
those countries. So we are looking at DOD's plans.
    We are also looking at, Congressman Aderholt, the efforts 
to train the Afghanistan Police Force, and their army to stand 
up the institutions that are necessary for that government to 
function. We have done the same thing in Iraq. We have looked 
at the controls over the funding that is provided to Pakistan 
and made some recommendations to DOD to better track the money 
and the weapons provided to the Afghan Security Forces. So we 
are looking at those types of assistance in providing a lot of 
support to the Congress.
    There are a lot of logistical challenges that are different 
in Afghanistan, such as moving equipment around within the 
country.
    Our people have been there. We have had three people in 
Baghdad on 6-month rotation assignments for a while now. We are 
thinking about how to establish a presence in that area. We 
provide constant briefings to the committees on this, both in a 
classified sense and nonclassified sense. Our people really, 
have done a very good job understanding the situation, 
ferreting out the complexities, and making practical 
recommendations. I would expect that to continue through the 
completion of those efforts.

                             GAO ATTRITION

    Mr. Aderholt. You mentioned attrition a little bit earlier, 
and I think over 300 full-time employees' attrition; is that 
correct?
    Mr. Dodaro. On average over the last decade, we attrit 
about 300 staff annually--about 10 percent of the GAO 
workforce. About half of the attritions retire and half move on 
for other reasons. And given the marketability and the highly 
trained and skilled workforce we have, we think that is a 
pretty good retention rate.
    But the last year and so far this year, attrition is down 
to about 6 percent. We have had less than 200 people leave the 
agency this year. Obviously some people are deferring 
retirement, given the economic situation. Other jobs aren't as 
available as they usually are. So attrition is lower than it 
has been in the past.
    Mr. Aderholt. What do you anticipate again for the coming 
year?
    Mr. Dodaro. I think we are still at about 6 percent.
    Mr. Aderholt. And probably to the economy is probably what 
you are attributing that to, the overall economic stability.
    Mr. Dodaro. Right. But we also work hard to attract and 
retain our people.
    Mr. Aderholt. I know you are ranked one of the top in the 
Federal Government, so that is certainly something you should 
be proud of.
    That is all I have. Thank you.

            GAO'S INVOLVEMENT WITH THE CAPITOL POLICE BUDGET

    Ms. Wasserman Schultz. I want to talk to you about the 
Capitol Police budget, which is something the GAO has been 
involved in reviewing, given their fiscal challenges and 
trouble getting it right in recent years. You know, we have now 
discovered that the police budget fiscal year 2011 request was 
built on quicksand at best and has to be amended by about $9 
million. Can you talk to the committee about why GAO didn't 
catch the request? I know they caught it earlier than the point 
at which you were involved, but can you enlighten us on that? 
And then I would really like your perspective, because you have 
been with GAO for so long, on what can be done to address the 
serious fiscal mismanagement in the Capitol Police.
    Mr. Dodaro. First, as you point out, we were required, 
within 30 days after the budget submission, to review the 
Capitol Police's budget and look at some of the assumptions and 
validate the information. We received that on January 19th. We 
started to review the information, focusing first on the 
overtime area, because that was a big concern in the past, and 
then we turned our attention to the salary and benefit 
assumptions.
    We started raising questions in early February about this 
and asked the police for additional information. We received 
spreadsheets and other information from them that differed from 
what was in the budget submission, and so we flagged this area 
and had some concerns. We were in the process of trying to ask 
them for more information and weren't getting a lot of complete 
information. We were asking questions along the same lines, and 
then the shortfall became----
    Ms. Wasserman Schultz. And then they announced it.
    Mr. Dodaro. It became public.
    So now, what can be done? I think this is an area where we 
can make a very valuable contribution. We need to talk to their 
financial auditors. Past financial audits there have noted some 
weaknesses in the payroll processing. We need to go in and do a 
lot more in-depth analysis to find out what the root cause is 
of the situation, much more than we can do in a 30-day period 
of time, and really identify why this happened, what can be 
done to fix it, and to make sure that it doesn't happen again 
in terms of procedures, controls and having the proper people.
    Ms. Wasserman Schultz. The Capitol Police previously was 
not responsible for their budget, and I am not confident that 
they should continue to be responsible for their budget, given 
the repeated errors. We are waiting for the IG report, but what 
are your thoughts? The GAO used to handle the budget for the 
Capitol Police, correct?
    Mr. Dodaro. There were parts--not totally, not----
    Ms. Wasserman Schultz. You were far more involved than you 
have been recently.
    Mr. Dodaro. Well, there were a lot of problems in the 
administrative area historically, and we were mandated to do a 
number of reviews in financial management, and IT.
    Ms. Wasserman Schultz. You were never exclusively 
responsible for the Capitol Police budget?
    Mr. Dodaro. Not that I recall. We were providing some 
assistance in the payroll area, but I am not sure exactly. This 
was maybe 10 years ago, so there hasn't been anything in recent 
times. Obviously it compromises our independence to be able to 
go in and audit if we are carrying out an administrative role. 
We don't typically do those type of things, so we can be 
independent and give advice. But I will commit to you that we 
can get deeply involved here and try to help figure out what 
the situation is to correct it, assuming the police would 
maintain the responsibilities, and then there are other options 
that you could consider.
    Ms. Wasserman Schultz. Another option might be to have some 
other entity maintain responsibility, and you still have 
oversight, and just have some tangential connection.
    Mr. Dodaro. One of the difficult challenges, though, is the 
managers, in this case the chief of police, is responsible for 
staffing and protecting the Congress, and the accounting 
function is really going to be less----
    Ms. Wasserman Schultz. That is my point.
    Mr. Dodaro. They are just going to keep having to basically 
account for decisions that are already made by management. 
There has to be an interrelationship, and accountability has to 
be with the head of agency.
    Ms. Wasserman Schultz. You wouldn't have a coal miner run a 
restaurant; it just doesn't fit. It is too disparate a skill 
set. So thank you.
    Mr. Dodaro. If you would like, with your consultation, we 
will proceed and try to do some additional----
    Ms. Wasserman Schultz. I would like to continue to consult 
with you on how we may address the concerns.
    Mr. Dodaro. Sure.
    Ms. Wasserman Schultz. My time is expired. Do you have 
anything else?
    Mr. Aderholt. I am fine.
    Ms. Wasserman Schultz. I just have one more, and then I am 
done.

                     INTELLIGENCE AUDIT CHALLENGES

    On the intelligence programs, I know you have had some 
issues auditing the intelligence programs. The intelligence 
authorization bills for the House and Senate passed. I thought 
we dealt with this issue; we made it clear that GAO should be 
able to audit certain programs. Are you lacking in authority to 
audit intelligence programs if we required you to do so? Is 
there any additional language that you need? Are there 
obstacles being put in your path? Help us with the challenges 
that you are facing.
    Mr. Dodaro. Sure. This has been an historical----
    Ms. Wasserman Schultz. I will tell you this is a real issue 
for me. I have started to explore the so-called black budgets, 
and there has been precious little oversight, and it is really 
disturbing.
    Mr. Dodaro. Well, we believe we have the authority. The 
language in the bills that you mentioned, the reauthorization 
bills, was to reaffirm the authority that we believe we have. 
Historically, there is a 1988 opinion by the Justice Department 
that disagrees with that. The administration's position over 
the years has been that Congress has set up their own 
committees to oversee the Intelligence Community, and they 
disagree that GAO has the authority.
    We have countered that. We don't believe that is true. We 
believe that we have the authority, we have the people with the 
clearances, we have the people with the skills, we can help. 
What we are lacking is cooperation from the Intelligence 
Community and the support of the Congress and the Intelligence 
Committees to get involved. And we think we can do that, but we 
haven't had----
    Ms. Wasserman Schultz. Is it the view of the Intelligence 
Community and the administration that there isn't the right for 
Congress to review their spending and their practices?
    Mr. Dodaro. Well, they take issue with GAO's authority.
    Ms. Wasserman Schultz. Well, who do they think has the 
authority, anybody?
    Mr. Dodaro. I believe their position is the Congress 
through the Intelligence Committees.
    Ms. Wasserman Schultz. Because we delegate you.
    Mr. Dodaro. Right. You will find no disagreement with me, 
Madam Chair, on this issue. We think it is clear even without 
the additional support.
    Ms. Wasserman Schultz. There is a different type of 
accountability that you engage in than the committees do. Of 
course, we hold the Intelligence Community accountable, and we 
hold hearings, and they have an appropriation subcommittee that 
handles that now. What else do you need?
    Mr. Dodaro. We just need the clear language.
    Ms. Wasserman Schultz. More clear language.
    Mr. Dodaro. More clear language. Either one of the things 
will do it, but we need the Congress to provide support to get 
the information we need from the Intelligence Community going 
forward. It has been an historic problem, and I think we can 
help the committees. This is along the lines of Congressman 
Ruppersberger's question before as well. I had the same 
conversation with him.
    Ms. Wasserman Schultz. I am going to work with the 
Intelligence Committee and the relevant appropriations 
subcommittee here, the select committee, to try to get this 
resolved.
    Mr. Dodaro. Very good.

                 APPRECIATION OF GAO AND CBO EMPLOYEES

    Ms. Wasserman Schultz. So thank you very much. Thank you 
for your work. We appreciate it.
    Mr. Dodaro. Thank you very much.
    Ms. Wasserman Schultz. Please thank the employees of GAO, 
and actually if anyone is here left from CBO as well, how much 
we appreciate all your work. We know you put in a ton of hours, 
and on behalf of the American people, we appreciate it.
    Mr. Dodaro. Thank you very much. I know they appreciated 
your sentiment last year at the hearing. I communicated that to 
them, and I will do so this year.
    Ms. Wasserman Schultz. It can never be said too much.
    Mr. Dodaro. I agree. Thank you very much.
    [Questions for the record follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Ms. Chrisler, you are up. Good 
afternoon. This is the part of the hearing for the smallest 
agency for the smallest appropriations bill. That is why the 
room is now essentially clear.
    So this is our opportunity to talk to Ms. Chrisler, the 
Executive Director of the Office of Compliance, about the 
budget request. This year OOC is requesting $4.8 million for 
fiscal year 2011, which is an 11 percent increase over last 
year's level.
    I realize you have a small budget relative to other 
agencies, but an important role to make sure that we can 
continue to provide a safe, and productive, and hospitable 
working environment for our employees and our visitors.
    I would really like to hear about your ongoing work with 
the Architect of the Capitol--they are going to be testifying 
this afternoon, more like in a couple of hours--and how you 
prioritize life safety issues based on our unique aging Capitol 
complex needs. And I would like to, as we usually want to, hear 
from you on your outreach to Members and committee staff. At 
the end of the day, I need to know what the ``got to haves'' 
versus the ``like to haves'' are.
    I look forward to hearing from you. Your full statement 
will be entered into the record, and after Mr. Aderholt, you 
may proceed for 5 minutes.

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. Congratulations on your 15th year.
    Ms. Chrisler. Thank you.
    Mr. Aderholt. As someone who just celebrated my 14th year 
on the Hill, I congratulate you on that.
    You state in your testimony that there is an estimate of 
6,000 hazards in the present Congress, which is a drop from 
previous Congresses is my understanding. What type of hazards 
are most prevalent that you find?
    Ms. Chrisler. I will be happy to answer that after I give 
my opening remarks.
    Ms. Wasserman Schultz. She has to give her opening remarks.
    Mr. Aderholt. I look forward to hearing your testimony.

                    Opening Statement--Ms. Chrisler

    Ms. Chrisler. Thank you. I thank you both. It is a pleasure 
for me to be here and represent the Office of Compliance.
    I would like to make a correction for the record, if I 
could. The budget request that we have presented is a 6.82 
percent increase over fiscal year 2010, about $4.68 million.
    Ms. Wasserman Schultz. Okay. You will have to take that up 
with my staff because they have a different number.
    Ms. Chrisler. Thank you. We will make sure that we do that, 
because certainly one of the aspects of our request and one of 
the largest considerations of our request for fiscal year 2011 
was to be mindful of the economic situation that we are all 
facing, and that increase is certainly not reflective of the 
efforts that our agency has made to keep in mind the fiscal 
constraints that everyone is operating under. So I do want to 
emphasize that we have made many strides in not only 
acknowledging the current economic situation, but making the 
necessary adjustments within our budget request to ensure that 
is reflected in the work that we do.
    So commenting on your comment, Mr. Aderholt, with respect 
to our 15th anniversary, it is not just the 15th anniversary of 
the Office of Compliance, it is the 15th anniversary of the 
Congressional Accountability Act. And we do work for you, and 
we are here to thank you for the support of our agency and 
thank you for allowing us to do the good work for Congress. And 
because of the support of this Subcommittee, we have been able 
to raise awareness of safety and health on the Hill resulting 
in an increase of four times the Safe Office Awards during the 
111th Congress than the 110th Congress. I would like to 
congratulate you, Madam Chair, and you, Mr. Aderholt, for 
leading by example, because both of your offices were 
recipients of our award this year. So thank you for that 
leadership.
    Again, the Subcommittee's dedication to safety issues in 
the Capitol power plant utility tunnels and the abatement of 
those hazards allowed our office to prioritize properly 
monitoring that process, and we appreciate your assistance 
there.
    In addition, we have increased our services to sister 
agencies, providing educational workshops and training sessions 
at the suggestion of this Subcommittee.
    So I highlight these areas not just to show the progress 
that has been made within these 15 years under the 
Congressional Accountability Act, but to thank you for your 
continued support, and to emphasize that we will be carrying 
out these programs and other programs without asking for 
additional resources except where absolutely essential.
    There are three areas wherein the OOC has requested 
additional funding, and that is safety and health, to develop a 
risk assessment approach to inspections; IT infrastructure, to 
update and enhance our IT security; and human capital, to 
provide mandatory salary increases and minimal merit increases.
    The technical guidance that we provide in the area of 
safety and health is well received and results in cost savings, 
and we want to continue this type of service and increase the 
cost savings in the legislative branch. And from the language 
in the fiscal year 2010 legislative branch appropriations 
conference committee report, you want us to continue that 
service, too.
    In line with that report, we anticipate developing a 
cooperative and cost-efficient approach to the identification 
and correction of safety and health hazards. The approach will 
be risk-based and, as the report indicated, focused on those 
areas which would yield the most reduction of risk to human 
health and safety. And as we see it, those areas involve 
workplaces and work activities that pose the biggest risk to 
safety. We work very closely with employing offices as we 
develop this approach.
    As my written statement indicates, our communications and 
IT systems are antiquated and do not provide a cost-effective 
way of securing information. Our current system of two 
computers per employees is an administrative burden on our 
staff and not cost-efficient, and it is cumbersome. So the 
funding we seek will allow us to migrate the two networks into 
a single system, while maintaining security for confidentiality 
purposes.
    The balance of our request is for mandatory cost-of-living 
increases, minimal staff increases and associate benefits.
    As I mentioned earlier, we understand the fiscal 
constraints of our environment, and in the spirit of 
cooperation, we have presented a budget request with minimal 
increases, only those necessary to allow us to continue to 
serve you in the areas of safety and health, and ensuring 
confidentiality in the information that we maintain, and to 
retain the talented workforce that we have.
    Though we have a need for additional resources to assist 
with our inspections of over 17 million square feet of space in 
the D.C. metro area alone, with an additional 1 million 
expected in fiscal year 2012 and 2013, we are not seeking those 
additional resources this year. We are working with OSHA to 
secure nonreimbursable detailees to fill the need. We are 
hopeful that a mutual exchange of services would be of benefit 
to both agencies at no cost to the government.
    So again, on behalf of the Board of Directors and the 
Office of Compliance, I thank you for your support of agency, 
and I am happy to answer the questions that you have.
    Ms. Wasserman Schultz. Thank you very much, Ms. Chrisler.
    [Ms. Chrisler's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
               WITHIN-GRADE PAY INCREASES AND PROMOTIONS

    Ms. Wasserman Schultz. I only have a few questions. One is 
just on the record that you were attempting to correct. The 11 
percent increase is based on--we have to use the request 
submitted through the Executive Office of the President, so 
that is an 11 percent increase based over last year. If you are 
amending your budget request, it will reflect the difference, 
but the actual request is an 11 percent increase.
    Ms. Chrisler. And we have made that amendment.
    Ms. Wasserman Schultz. That will certainly help.
    The issue of pay step increases for permanent staff, that 
is your most significant increase in your budget request, and 
most agencies absorb those increases, so I am wondering why you 
are not doing that.
    Ms. Chrisler. With respect to the merit promotion?
    Ms. Wasserman Schultz. The pay step.
    Ms. Chrisler. The mandatory?
    Ms. Wasserman Schultz. The pay step increases that you have 
in your budget request. Most of the other agencies absorb those 
increases; they are not part of the budget request.
    Ms. Chrisler. And routinely we have. This is an item that 
we included to ensure that we have the funding, and the proper 
funding, for those increases.
    Ms. Wasserman Schultz. Do you anticipate not being able to 
absorb the increase this year like you have in other years?
    Ms. Chrisler. Depending on the level of funding that we are 
given from the Appropriations Committee.
    Ms. Wasserman Schultz. Well, assuming that we are going to 
require you to absorb it like we normally do, what is it that 
you wouldn't be able to do in that event?
    Ms. Chrisler. May I have a moment?
    Ms. Wasserman Schultz. Yes.
    [Discussion off the record.]
    Ms. Chrisler. Thank you.
    We are able to absorb the mandatory pay increase, which 
some know as cost of living.
    Ms. Wasserman Schultz. There is no such thing as a 
mandatory increase. There is nothing requiring an increase. We 
have increases as part of the year-to-year budgetary process, 
but mandatory isn't there.
    Ms. Chrisler. What I am referring to is the increase that 
is directed by the Congress, directed by the President to 
provide to employees. That is an increase that we have absorbed 
and can absorb. We have included that in our budget request 
because it is difficult for us to absorb that increase. It is a 
very small agency with a very small budget.
    Ms. Wasserman Schultz. Noted.

                OFFICE SPACE AND INFORMATION TECHNOLOGY

    Can you talk about your ongoing challenge with office space 
and information technology? You touched on information 
technology and the problem that growth has caused you in your 
current space.
    Ms. Chrisler. Thank you for the question. I appreciate 
being able to address it on the record.
    We have, since the inception of the agency, which is 1996, 
have been in the same location, which is a very good location 
for the work that we do. It is equidistant for staff in the 
House office buildings and the Senate office buildings to visit 
our office. And the work that we do is, as I stated, 
confidential, so staff come to us in an effort to maintain that 
confidence, and sometimes during their lunch hour, during the 
day. So it is important that they be able to access us during 
the day. It is important that they be able to access us and 
continue to maintain the confidence of our programs. So the 
very anonymous location that we have as far as the confidence 
in the Adams Building is helpful for staff to come and visit 
us.
    That being said, the space that we have has outgrown 
operations. We have a staff of 22 FTEs, we have permanent daily 
contractors, we have other contractors. We have a Board of 
Directors of five. We have interns. We would like to have more 
detailees. We are trying to get more detailees for our safety 
and health program. The challenge that we have now is where to 
put them. This subcommittee has been our champion for attaining 
space in the past, and we continue to work with you and your 
staff on that issue.
    Where we are now is at an impasse with respect to 
additional space in the Library. The Library has graciously 
offered an assessment of the space that we have, and they have 
determined that we currently are housed in about 5,800 square 
feet, and for the number of employees, and the number of 
contractors, and the number of total staff that we have, we 
need about 9,800 square feet of space.
    There are plans, of course, for the distant future for the 
FOB 8 building. Of course, that will incur costs, because right 
now being maintained within the Library of Congress building, 
there are a lot of services and resources that we receive from 
the Library through an interagency agreement and otherwise that 
would be shifted, and there are certain costs that are 
otherwise not seen now that would be seen later, especially 
with our infrastructure and our IT services.
    That being said, the Library has also began discussions of 
temporary space, of rooms that we might make use of for our 
overflow of our staff. There is space that the Library has 
dedicated, a suite space just north of our office, that, as I 
understand it, has been vacant for at least 4 years, but that 
has recently been occupied by Library staff. That space is 
space that I have been very vocal----
    Ms. Wasserman Schultz. Coveting.
    Ms. Chrisler. Yes. And I will continue to do so because it 
is ideal, and I believe that it would be a cost-efficient way 
to meet the needs that this agency has.
    Ms. Wasserman Schultz. But my understanding of the problem 
is that that is swing space that the Library wishes to preserve 
as swing space for the Library.
    Ms. Chrisler. That is my understanding as well, and it is 
my understanding also that it has not been used.
    Ms. Wasserman Schultz. Thank you.

                      TYPES OF HAZARDS IDENTIFIED

    Mr. Aderholt. Now on to my question. The estimated 6,000 
hazards that were noted, which is a drop from previous 
Congresses, what type of hazard does seem to be most prevalent 
in this area?
    Ms. Chrisler. We see a lot of electrical hazards. We see a 
lot of what we call daisy chains, which is an electric cord 
plugged into an electric cord, plugged into an electric cord, 
which is a fire hazard. So there are fire hazards, and there 
are electrical hazards and trip-and-fall hazards.
    And I will check with my general counsel on this, most of 
the hazards that we see are not the most serious, what we rank 
as RAC 1 and RAC 2. We have a risk assessment code where we 
rank the severity of hazards and the potential dangers that the 
hazards present. Most of 6,000 that we see are not of the RAC 1 
and RAC 2 nature.
    So we are looking at a relatively large number in 
comparison to what we see, a small number. Within the last 
three Congresses, we have seen a reduction of over 50 percent 
in the hazards that we have identified. It is in large part due 
to the education efforts of our inspections team, but an even 
larger part due to the cooperation that we have received from 
Senate Employment Counsel, House Employment Counsel, the Chief 
Administrative Officer of the House and Member offices. So it 
is wonderful progress. We are really, really happy to see it. 
So the majority of those hazards are not life-threatening.
    Mr. Aderholt. Do you anticipate further decline?
    Ms. Chrisler. Absolutely. As the Committee has directed and 
suggested to us, because we will continue to conduct our 
inspections, and continue to educate, and continue to provide 
the technical guidance that we do, we are hopeful that our 
efforts can focus on those areas where the most serious hazards 
have the potential of exposure, those being workplaces and work 
activities where hazards could be common. And we want to work 
closely with the employing offices as we work through the 
program to have the risk assessment-based approach to our 
inspections.

                     IMPACT OF A ZERO GROWTH BUDGET

    Mr. Aderholt. What would be the impact of the zero growth 
to your budget?
    Ms. Chrisler. Well, as I mentioned, we have really focused 
our efforts to minimize our request and really look at the 
``need to haves'' and not the ``nice to haves,'' if I can 
borrow a phrase from Madam Chair.
    So we have got the risk-based assessment inspection program 
that we are requesting additional funding for, because that is 
an extremely important program. We will try to limp along as 
best we can to develop and implement that program. I can't say 
how far, how much program we would have with that, but we 
certainly would not abandon that program. That is our major 
priority.
    The second would be our IT infrastructure, because it is 
necessary for us to maintain the security of the confidential 
information that we do hold. Again, we would have to slow that 
project down. I don't know to what point. We would have to 
crunch the numbers and see what it was we could do.
    Mr. Aderholt. All right. Thank you.

         LIFE SAFETY CITATIONS AND INFRASTRUCTURE DEFICIENCIES

    Ms. Wasserman Schultz. Thank you.
    I just have a follow-up question from Mr. Aderholt's, and 
that is, first of all, let me commend you on your very 
proactive work with the AOC. Our hearing with them is this 
afternoon, and life safety and security issues are something 
that I prioritize as the Chair of the subcommittee, and we have 
seen the progress, and I think that is in large part due to the 
work you are doing with them.
    Can you detail the most pressing life safety citations or 
major infrastructure deficiencies in the Capitol complex that 
you know of right now?
    Ms. Chrisler. Sure. They would have to be the fire safety 
citations that are open right now. And we have had some very, 
very productive conversations with the AOC on this issue. We 
have sat down and spent time with the AOC to collaborate on a 
prioritized order of abating the hazards within these 
citations.
    Ms. Wasserman Schultz. Is that reflected in their budget 
request?
    Ms. Chrisler. Yes, it is. Yes, it is.
    Ms. Wasserman Schultz. Okay.
    Ms. Chrisler. So that exercise has resulted in a good 
understanding of what citations remain. Some are funded; the 
open citations, there are nine of them, three of them have 
already been funded, six remain unfunded, and the AOC, I am 
sure, will be talking to you about that this afternoon.
    But what we have been able to do is take a look at what 
remains unfunded and ranked them in order of--what we have done 
is, just to give you a little background, taken the standards 
that we both have agreed to be acceptable in this area and 
apply those standards to give a numerical ranking to the 
hazards that exist in the open citations. And as they are 
ranked, the Capitol is first, and the Russell and Senate----
    Ms. Wasserman Schultz. That is coordinated with the AOC? 
They have a ranking system as well.
    Ms. Chrisler. Yes. Well, with respect to the joint effort 
that we have undertaken to address the fire safety citations, 
we are in agreement with respect to that.
    Ms. Wasserman Schultz. Great.
    I don't have any additional questions.
    Mr. Aderholt. I do not either.

                  ADDITIONAL ASSIGNMENT FROM THE CHAIR

    Ms. Wasserman Schultz. I do have homework, though, related 
to your workload and your staffing. If you could provide a 
summary of OOC's actual and estimated workload in terms such as 
numbers of inspections or open cases, that will help the 
subcommittee understand how OOC's actual anticipated staffing 
requirements have changed since 2008. What business process 
reforms have you explored to improve productivity of your staff 
and your contractors?
    Ms. Chrisler. Wonderful.
    Ms. Wasserman Schultz. If you could get us this 
information, that would be great. And for all of the agencies, 
and that includes the agencies that we have reviewed here today 
as well as all the legislative branch agencies, we are going to 
ask for a summary of the impacts that a flat fiscal year 2011 
budget would have on you, for the record. And particularly we 
are interested in knowing if staff will have to be furloughed 
and how that would impact your mission. That is for OOC as well 
as all the agencies.
    [Clerk's note:--Agencies' response to homework is included 
in questions for the record.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Wasserman Schultz. With that, the subcommittee stands 
in recess until 2 p.m. When we will take up the Architect of 
the Capitol's budget for 2011 fiscal year.
                                         Wednesday, March 17, 2010.

FY 2011 BUDGET OF THE ARCHITECT OF THE CAPITOL AND INFRASTRUCTURE NEEDS 


                                WITNESS

STEPHEN T. AYERS, ACTING ARCHITECT OF THE CAPITOL

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. I call the meeting to order of the 
Legislative Branch Appropriations Subcommittee.
    This is the budget hearing for the Architect of the 
Capitol's 2011 fiscal year budget submission. We are in a 
challenging year yet again.
    But first I want to congratulate you on your nomination by 
the President of the United States and tell you how confident 
we are in your ability and commend you for the tremendous 
progress that you have made with the agency and really making 
it a model agency for not just the legislative branch, but I 
would say for the entire government. And it is good to know 
that we are going to be able to have a chance--as long as we 
can knock some sense into the Senate to make sure that they 
confirm you--a chance to work with you going forward for a long 
time. So, congratulations.
    Mr. Ayers. Thank you very much.
    Ms. Wasserman Schultz. You are welcome.

                         FY 2011 BUDGET REQUEST

    The AOC is requesting a total of $755 million, which is a 
25.5 percent increase above the 2010 enacted budget. It 
includes a 6.7 percent increase to the operating budget and a 
total of $262 million in projects, compared to $136 million in 
last year's bill. But I am certainly not suggesting that what 
you are requesting isn't needed. We are just going to have to 
figure out what is really, really needed versus what can wait.
    And I know that it is always nice to have--there are 
``gotta haves'' in every budget, but we have a huge backlog of 
deferred maintenance and life and safety and security issues 
and, obviously, capital renewal projects. I think we made that 
easier last year by establishing the House Historic Buildings 
Revitalization Trust Fund. And I am glad to see that that was 
in the budget submission.
    The key thing here, I believe, is making sure that we don't 
cut off our nose to spite our face. Because we have near-term 
pressures with your budget, and uniquely with your budget, that 
we always have to deal with, but the more that we tighten our 
belt here, it is not like the pressure goes away. We are just 
kicking the can down the road and causing ourselves probably a 
more expensive problem later on.
    So I, as you know, have always been for trying to figure 
out what is the most necessary to get done and fund those 
projects. So I look forward to working with you as we claw 
through your budget.
    And after Mr. Aderholt makes remarks, you can proceed with 
a 5-minute statement of your summary, and your full statement 
will be entered into the record.
    Mr. Aderholt. Thank you.

                     Opening Remarks--Mr. Aderholt

    I again want to, like the Chair, congratulate your 
nomination, and I look forward to your confirmation on the 
Senate side. I look forward to hearing your testimony today, 
and thank you for being here.
    Mr. Ayers. Thank you.

                    Opening Statement--Stephen Ayers

    Madam Chair, Congressman Aderholt, and members of the 
Subcommittee, thank you for the opportunity to testify today 
regarding our FY 2011 budget request.
    I would first like to express my thanks to the Subcommittee 
and, of course, to the Congress for its support for the AOC 
over the past year, as we have worked to maintain and preserve 
the Capitol complex.
    For 24 hours a day, 7 days a week, 365 days a year, the AOC 
serves as proud stewards of the most iconic buildings and 
grounds in the world. Nothing demonstrated our commitment more 
than our team's remarkable response to ``Snowmageddon'' last 
month. AOC crews logged in more than 35,000 hours to remove 
more than 11,000 tons of snow to be sure that the Congress 
could continue to conduct its business.
    The AOC has had a really successful 2009, a year that began 
with a historic Presidential inaugural and ended with the first 
of three blizzards that hit Washington D.C. this winter. In 
between these major events, we have welcomed more than 2.3 
million visitors to the Capitol Visitor Center during its first 
year in operation and we have carried out numerous projects to 
save energy and preserve these historic buildings.

                        CRITICAL NEED PRIORITIES

    In that regard, our 2011 budget request focuses on 
priorities that are necessary to attend to the critical needs 
of the Capitol complex. Specifically, this entails addressing a 
significant backlog of deferred maintenance and capital renewal 
projects, as well as security, and life-safety and 
accessibility requirements.
    As the Chair noted, we are requesting $755 million for 
Fiscal Year 2011. This project portion of our budget request is 
devoted to addressing critical issues needing urgent attention. 
Although every project that we have listed in our budget is 
necessary and will ultimately need to be done, we realize not 
all can be funded in these fiscally challenging times. However, 
we do take our responsibility to identify, quantify, and report 
to the Congress the state of facilities and the extent of 
deferred maintenance backlog very, very seriously.
    Most importantly, our project prioritization tools, we 
believe, provide the Congress with concrete and practical 
assessments of our infrastructure, enabling good decision-
making about future investments. Over the last year, this 
process has matured, including a year Capital Improvements plan 
which examines phasing opportunities and sequencing and other 
factors to better facilitate the timing of major projects.

                       ENERGY SAVING INITIATIVES

    The AOC is committed to making the right choices by doing 
our part to save energy on Capitol Hill, as well. In 2009, the 
Congress met its energy reduction goals for the fourth year in 
a row and reduced energy consumption by 15.3 percent across the 
Capitol complex.
    To help meet future energy reduction requirements, last 
summer we entered into the first Energy Savings Performance 
Contract to implement energy savings projects here in the House 
buildings. In December, we entered into Energy Savings 
performance contracts for the Senate and the Capitol Building, 
as well. These public-private partnerships would help us 
achieve very significant energy reductions over the next 
several years.

                             AOC OPERATIONS

    On the operations side, we have been successful in our 
endeavors due to the professional men and women who make up 
this AOC team. Their commitment to excellence allows us to 
provide exceptional service to the Congress and the visiting 
public every day. In that regard, our annual operating budget 
request for $443 million supports the critical activities 
necessary to support the Congress and other Legislative Branch 
agencies.
    With regard to accommodating Members' and visitors' needs, 
the Capitol Visitor Center is top in its class. Now in our 
second year of operation, we continue to make improvements to 
our policies and tour procedures, including modifying the 
advanced reservation system to give Congressional offices more 
flexibility to modify, cancel, and reschedule reservations.
    We have also added a Congressional staff line at the south 
information desk; increased the number of operators to ensure 
prompt response to phone calls; and are placing staff at 
strategic locations to help facilitate visitor flow. In 
addition, we continue to hold monthly listening sessions with 
Congressional staff to receive feedback, answer questions, and 
exchange information. To date, over 5,200 staff members have 
attended our training program.
    Madam Chair, the AOC is ready to do what is necessary to 
keep the Capitol complex open and operating every day of the 
year under any circumstance, and I am honored and privileged to 
work alongside this great team.
    Again, thank you for the opportunity to testify, and I 
would be happy to answer questions.
    [Mr. Ayer's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                       CVC SHUTTLE ACCOMMODATIONS

    Ms. Wasserman Schultz. Thank you very much, Mr. Ayers.
    I want to start out with some CVC-related questions. First, 
on the shuttles, you may have heard about the testimony we had 
at the public witness hearing. You know, we again had concerns 
expressed from the Guild of Professional Tour Guides. I 
understand their concern was very clear. I believe the question 
of drop-off at the east front is settled and they are going to 
just need to get over that and move on, because we have 
explored that repeatedly. We have sat down with the Capitol 
Police, discussed it at our hearings, and the Congress agrees 
that security is too much of a concern to make that an option.

                     PHYSICALLY CHALLENGED TOURISTS

    That having been said, we do still have the issue of the 
frail, elderly, the disabled, and transporting them from the 
west front up that hill over to the CVC entrance. And we have 
been dealing with that in an ongoing way. The most recent way 
we are attempting to deal with it is through the purchase of 
those six shuttles.
    So, can you give us an update on how those shuttles are 
working in transporting visitors from tour buses to the CVC? 
Have there been circumstances where you haven't had enough 
shuttles? And, also, what is the time frame for getting a large 
group with a lot of people who need that shuttle service all 
the way up to the entrance so that you are not separating their 
group and messing up their scheduled tour?
    Mr. Ayers. You are absolutely correct that we did purchase 
six shuttles and put them into operation in August of 2009. And 
we laid out a process by which we would do a pilot 
implementation for a year and come back and reevaluate. So we 
are a few months into that, but I think we do have some good 
statistics thus far.
    Of course, the first year, 2.3 million people came to the 
Capitol Visitor Center, and only 1 percent of them requested or 
used shuttle service.

                       TOUR GROUP ACCOMMODATIONS

    Ms. Wasserman Schultz. Now, is that in part because they 
just didn't know? In last year's hearing I remember Terrie 
repeatedly said, ``If they would just call us and let us know 
and give us a heads-up in advance, then we can work with 
them.'' And we have repeatedly told that to the tour groups.
    And has that improved compared to the way it was before?
    Mr. Ayers. It has improved. We have two shuttles parked 
there at Garfield Circle every day, and we have a third shuttle 
at the other circle, in standby mode in case we need more than 
two at any given time.
    There have also been, since August until today, 10 
occasions where we have received calls in advance that say, 
``We are going to need all six shuttles.'' We have had all six 
shuttles there and accommodated those groups up the Hill.
    Ms. Wasserman Schultz. So you have not had a problem where 
you have had not enough shuttles available for a group----
    Mr. Ayers. No.
    Ms. Wasserman Schultz [continuing]. Or separating a group 
for too long a period of time?
    Mr. Ayers. No, absolutely not.
    Ms. Wasserman Schultz. Okay. So why are they complaining?
    Mr. Ayers. There are a couple of important issues. One, we 
have to develop a better relationship with the tour companies. 
We are really working on that.
    Ms. Wasserman Schultz. I would encourage you to do that.
    Mr. Ayers. We went out last week and met with tour company 
representatives and gave a presentation to their guild members. 
We encouraged them to call. It is really important, that they 
call, so that we can get the cell phone number of the person 
who is working with the group and stay in contact as things 
progress.

                  ADDRESSING TOUR COMPANIES' CONCERNS

    Ms. Wasserman Schultz. Right. And we stressed that to them, 
as well, in the public witness hearing. I mean, I have been 
sympathetic to their concerns, but, you know, we are at the 
point now where I feel like we have taken some pretty 
constructive, positive steps to address the issue. It is a 
legitimate issue. I represent a lot of senior citizens; a lot 
of Members do. And, you know, I have trudged up that hill with 
my kids, and, you know, it can be winding if you are not--you 
can get winded if you are not a robust person.
    Do you anticipate a change as the tourist season and spring 
break season kicks in? I mean, do you think it is going to 
start to--while you haven't identified a problem now, do you 
anticipate there being a problem?
    Mr. Ayers. We don't anticipate that.
    Ms. Wasserman Schultz. Okay. All right.
    And then the other quick question I have related to the CVC 
is on the staffing. Actually, this question is not as quick, so 
I will save it.
    Mr. Aderholt. Okay.

                      DEFERRED MAINTENANCE BACKLOG

    You mentioned in your testimony about the large backlog of 
deferred maintenance, and that is across the Capitol complex. 
How do you put a priority on which ones that you need to move 
forward with more quickly and which ones that you--of all of 
these, the backlog that you currently have?
    Mr. Ayers. That is a great question.
    We have developed a robust project prioritization process 
that we have been working on for a number of years. We have 
developed and matured based on feedback from this Committee.
    Every single project of the 47 on our recommended list 
there is, I don't know, 30 or 40 totaling over $200 million 
goes through a prioritization process, and that list is in 
priority order.
    So that process includes first, defining a project's 
category, whether it is deferred maintenance, meaning something 
that is broken and needs to be fixed; or capital renewal; 
capital improvement; or capital construction, meaning new 
construction. The reason we do that is, a deferred maintenance 
project in our prioritization process will move up higher on 
the list versus new construction. You want to take care of what 
you have before you build new.

                         PROJECT PRIORITIZATION

    Also, every project gets a numeric score from 1 to 100 on 
six criteria: mission, economics, energy, efficiency and 
environmental quality security, historic preservation, and 
life-safety. We look at all six of those attributes of a 
project and score it from 1 to 100 on some predetermined 
evaluation criteria.
    In the end, all of this data comes together in an algorithm 
and produces a priority list top to bottom that is the most 
important tool for the Congress to use to fund the things that 
are on the top of the list and, when we are in a difficult 
environment, to not fund the projects that are on the bottom of 
the list.
    Mr. Aderholt. What projects or programs are the Architect's 
Office exploring that will help Congress meet its goals under 
the Energy Independence and Security Act and other energy 
reduction goals?
    Mr. Ayers. In the House, we are working under two primary 
goals. First is the Energy Independence and Security Act, which 
requires a 3 percent reduction in energy intensity per year for 
10 years. The Green the Capitol initiative requires a 5 percent 
energy reduction per year for 10 years.
    In addition to doing a wide variety of what we call demand 
side or behavioral changes, such as getting people to turn out 
their lights and being much better about their computer use and 
HVAC use, we are implementing Energy Savings Performance 
Contracts. We have signed the one for the House. I mentioned 
the Senate and the Capitol.
    Those contracts are going to save us, just here in the 
House, nearly 30 percent of our energy use. I think that using 
private dollars initially to make that investment and paying 
them back with the energy savings is a great model for us, 
especially in these difficult times.

                      SMALL BUSINESS PARTICIPATION

    Mr. Aderholt. Regarding participation with small 
businesses, what efforts are you undertaking to increase small 
business participation with your office?
    Mr. Ayers. The Executive Branch has the Small Business 
Administration, and they have implemented mandatory small 
business programs across the Executive Branch. Those 
requirements don't apply to the legislative branch, but a year 
or so ago we made a decision to implement the small business 
program--the first in the legislative branch.
    We have entered into Memorandum of Agreement with the Small 
Business Administration to develop a program that has three 
tiers. The first is that we set aside all of our procurements 
between $5,000 and $100,000 and drive all of those to small 
businesses as direct set-asides, where sufficient competition 
exists. Then, on construction contracts that are over a million 
dollars, we require vendors to subcontract with small business 
vendors, and we track that as well.
    Thirdly, we have developed an important outreach program 
where we are holding small business seminars. We recently held 
one last month in the Capitol Visitor Center. We are holding 
and participating in small business seminars that bring in 
small businesses and educate them about how to do business with 
us and what kind of business we do.
    So we are excited about that. I think we are leading the 
Legislative branch in that endeavor, and I think it is the 
right thing to do. It is also a sustainable thing to do.
    Ms. Wasserman Schultz. Ms. McCollum.
    Ms. McCollum. Thank you.
    And you get gold stars. You have the right to brag about 
snow now. You did a good job.
    Mr. Ayers. Thank you.
    Ms. McCollum. We will talk about the way you used salt 
later on.

               ENERGY AUDITS/UTILITY IMPROVEMENT PROGRAM

    I have two questions. One, in here you talk about moving 
forward and doing your energy audits. And I want to make this 
very clear, Madam Chair, I am not asking for anything to happen 
in my office. But if this problem is happening in my office, it 
is happening in others.
    I have a wooden window that doesn't fit tight. You can't 
close it. You know, the wind howls. So, I know that is typical 
of all of ours. And as you are going through and as you are 
ranking things, where are we on window replacement? Because, as 
we know and as most families know, that is probably one of the 
best ways to become energy-efficient.
    And then, secondly, I would like to request and I will 
continue to request an update about what is going on with the 
employees and their exposure to asbestos and their families' 
possible exposure to asbestos as their clothing came home.
    Ms. Wasserman Schultz. From the tunnels you mean?
    Ms. McCollum. From the tunnels. I am going to continue to 
be persistent about it.
    But if you could maybe just talk about your energy upgrades 
in general.
    Mr. Ayers. I would be happy to do that.
    The first window project we undertook was in the Ford House 
Office Building. We did replace every window in that building, 
and we have achieved some very significant energy savings 
because of that. So you are absolutely right; changing windows, 
caulking, and weather-stripping really does save money as well 
as energy.
    As we move forward to undertake the top-to-bottom Cannon 
Building renovation, a window replacement and a complete rework 
of windows and doors in that building will be part of that 
scope.
    Ms. McCollum. Well, when do you anticipate getting maybe 
into Longworth to shore up its windows? When do you think you 
will be done with the windows in Cannon? What is your ETA?
    Mr. Ayers. I think Cannon renewal is probably scheduled to 
begin in 2016 or 2017. Then it is probably 5 years for 
construction.
    Ms. McCollum. Madam Chair, there is an old adage, ``Don't 
ask a question you don't know the answer to.'' And I knew the 
answer was going to be out that far.
    That is really unacceptable, because we are literally 
pouring fuel out the window. And it is a national security 
issue. We have asked Americans to do something about it. I 
think we need to figure out a way to do a better job of leading 
by example.
    And in the tunnel, I do realize because it is a personnel 
issue it can't be discussed about here so much in the open. But 
this remains a priority for me to find out where we are with 
our workers.
    Ms. Wasserman Schultz. We can provide you with an update.
    Ms. McCollum. Thank you.
    Ms. Wasserman Schultz. Thank you, Ms. McCollum.
    Mr. Cole.
    Mr. Cole. Thank you, Madam Chairwoman.

                  U.S. CAPITOL STRUCTUAL OBSERVATIONS

    I have three quirky questions. But first, just thank you 
for the great job you do. It always amazes me, frankly, how 
well this building holds up, in particular, given the foot 
traffic and the age, and it is just amazing. So, thanks.
    And so any question I have is certainly not--I now find 
myself spending a lot of time along the balcony of the east 
facade simply because that is where you can smoke a cigar. It 
is the last refuge left. And I worry about my leader 
occasionally as he comes out there, because he is out there 
more than occasionally.
    If you look at the window--what would the appropriate term 
be; it is the facade around the windows--the corners are mostly 
gone, you know, where clearly there has been stone damage. And 
I am sure there is no immediate danger, but I was just curious 
about long-term plans. Definitely, if it is there, it must be 
around other places. If you look up, there it is. It must have 
fallen at some point.
    Mr. Ayers. Absolutely. One would be surprised how, if you 
look up close at the Capitol Building, how many pieces of stone 
are broken or cracked or missing from the Capitol Building. We 
have done a complete survey of that stonework, and it really 
does need some work.
    In our budget request this year, I think, just looking 
down, we have $11 million scheduled for the first of four 
phases to repair the stone damage on the Capitol Building 
itself. So we are aware of those issues. We just had a piece of 
stone, as well as a piece of metal, fall off the dome.
    Ms. Wasserman Schultz. Always just before the times when 
you are here.
    Mr. Ayers. I don't know how that happens.
    Ms. Wasserman Schultz. Yeah. Every year.
    Mr. Ayers. But we are aware, and we do have a project on 
the list to begin to take care of those stone issues on the 
Capitol Building.

                 DIVERSITY DEPICTED WITHIN THE CAPITOL

    Mr. Cole. Great. I would never put congressmen ahead of 
anybody else, but you have a lot of Members at risk out there, 
particularly when the weather is nice.
    The second question, this is actually just a personal 
question. You know, as I go around the Capitol, we all enjoy 
the art. It just is such an amazing depiction of American 
history. And there are a lot of parts of it that not all of us 
know very much about. We called a few years ago, frankly, and 
we found out about the use of slave labor in the Capitol and 
how important and meaningful that was to a lot of people.
    I go around--my background was from Native Americans. And 
there are depictions of Native Americans here. Some are pretty 
good. Some, obviously, sort of reflect the racism of the time 
when they were put up there.
    I was curious. Is there just a list for convenience of 
where Native Americans are depicted in the Capitol of the 
United States that you guys can direct me to?
    Mr. Ayers. Our Curator's Office has that. We would be happy 
to provide that.
    Mr. Cole. I would really--I get a lot of foot traffic, 
particularly from my district, and that is actually, for them, 
a very important question. So anything you could do to direct 
me in the right place, I would appreciate it.
    Mr. Ayers. Sure.

                 CVC OPERATIONS--LOGISTICAL DIRECTIVES

    Mr. Cole. And, finally, if someday somebody can teach me 
how to actually get around the Capitol Visitor Center. I see 
more lost congressmen in the Visitor Center than anyplace else, 
because we are all the classic, ``Look, I don't need a map,'' 
and then I am gone.
    So, anyway, any help you could--I think I may call on you 
for just a tour of the Visitor Center. I saw it a couple of 
times during construction, but I really don't have, you know, 
in my own mind a very convenient map of the place, so to speak.
    Mr. Ayers. I would be happy to do that.
    And, of course, we just installed, a month or two ago, the 
temporary signs. They are on paper, and they are up on the 
walls. And the purpose for putting them up there is really to 
get some feedback.
    Ms. Wasserman Schultz. Maps?
    Mr. Ayers. They are maps, and they are locators. They say 
``SCIF this way'' or ``restaurant that way'' to help get people 
around. They have been up for a month or two, and we have 
gotten some good feedback. But if you haven't noticed them, 
then maybe we are not quite there yet.

                            MEMBER CONCERNS

    Mr. Cole. I mean, this is a true confession, as to me. I 
figured out exactly how to get to where the Republican 
conference is occasionally located. But, boy, if I am off that 
path, I am in big trouble.
    I literally--we will have groups up. I am sure other 
Members have this. They are doing receptions, and they are up 
from the district. And I stumble around that place for 20 or 30 
minutes sometimes, not able to find where I am supposed to go. 
And I am not blaming that on anybody. I just have to get a 
better feel for that space, and I am going to need some help to 
do that.
    Mr. Ayers. Happy to do that.
    Ms. Wasserman Schultz. If I can piggyback on what the 
gentleman said--we seem to always think the same way on issues 
like this.
    I am, kind of, the central clearinghouse for complaints, as 
you might imagine, when it comes to concerns that Members have 
about the complex. CVC is the one that I hear about most often. 
As recently as yesterday, this exact complaint. A Member found 
me on the floor and said, ``What is going on with the 
signage?'' I told him that the signage had begun to be 
improved.
    But they were very specific about there needing to be maps 
showing people where they are, 3-D maps because of the weird 
nature of the floors. When you are on the main floor, you are 
really on the second floor. And then you go down, and you are 
on the third floor. It is counterintuitive.

                                SIGNAGE

    Another example the same Member used was, you are going 
down to go back to the Cannon tunnel, and it says ``Cannon 
tunnel this way,'' and then you never see another sign until 
you are parallel to the door that you are really supposed to 
turn right on, and that you would have to be sideways to see 
the sign, to know where you turn next.
    So the signage still, clearly, has some challenges. And 
better mapping--Members tell me every day that they need to 
drop breadcrumbs from the place they left to the place they are 
going so that they can find their way back.
    Mr. Ayers. Okay.
    Ms. McCollum. Madam Chair?
    Ms. Wasserman Schultz. Yes?

                               CVC ALARMS

    Ms. McCollum. On that point, I went to leave out through 
the Visitor Center yesterday, and when you go out as a visitor 
would, out, it says, ``Alarm will go off in 15 seconds when you 
push this door.'' So there you are, you are at an exit, and you 
are reading across all these doors, ``Alarm will go off.''
    And I watched this group of people, there were 20 people, 
totally paralyzed. I said, ``This really is the exit.'' ``Oh, 
no, alarms are going to go off.'' And I said, ``Well, I will 
set them off.'' So, you know, I pushed--and there were people 
on the other side, kind of, going, ``Come on, you can do it, 
you can come through.'' Crazy. And, you know, we need to do 
something about that, like, now.
    Ms. Wasserman Schultz. Yeah, as quickly as possible.
    So, sorry to go off the back and forth, but you were so 
very timely.
    Okay, so now we go to Mr. Honda.
    Mr. Honda. Thank you.
    And congratulations.
    Mr. Ayers. Thank you, Mr. Honda.

                     BUILDING RENOVATION SCHEDULES

    Mr. Honda. Well, you have been doing it for 3 years. And 
you have gone through a lot of the hard parts, too, so you 
might as well stay and enjoy the rest of it.
    We had a meeting on emergency procedures and evacuation. Is 
there a calendar of events of the modernizations that will be 
taking place in each building, is there someplace that it is 
laid out there?
    And do we have a deferred maintenance program, where we are 
trying to achieve 100 percent maintenance so that we don't have 
to go through the expense of trying to fix things as they break 
down? It seems to me, a study was done where it showed that 
fixing something, rather than preventing it and keeping it in 
good working condition, saved, like, 60 percent or more, the 
cost of just keeping it up. I was just wondering whether there 
is a program that you are looking at to put in place or is one 
in place already that will address that.
    Mr. Ayers. I believe you have asked two questions. The 
answer to the first in terms of is there a calendar or schedule 
of major building renovations, the answer to that is yes. 
Certainly, that is laid out in our 20-year master plan. And I 
am happy to share that with you or with the emergency 
preparedness group, whatever is appropriate.
    Secondly, you are absolutely right that, in terms of 
deferred maintenance, deferred maintenance being defined as 
something that is already broken and needs to be fixed. Any 
Facility Manager wants to minimize deferred maintenance. I 
don't think anyone could ever get to zero deferred maintenance.

                       CAPITAL RENEWAL INITIATIVE

    We would want to minimize that and focus our money and 
attention on Capital renewal, which is fixing something right 
before it breaks. That is where you get the best bang for your 
money. So you fully utilize a piece of equipment for the full 
extent of its useful life, and you replace it just before it 
breaks so that you don't suffer any failure consequences of it 
breaking.
    That is the best model, and that is what we are working to 
achieve. Our prioritization process helps us do that and helps 
the Congress make those decisions, because it pushes deferred 
maintenance projects towards the top of our list.
    Last year was a great example. The Congress funded many of 
those deferred maintenance projects. Our deferred maintenance 
number last year was well over $600 million backlog, and it is 
down to $570 million of deferred maintenance. So we are 
obviously doing the right thing and heading in the right 
direction.
    Mr. Honda. So we have a program where we want to achieve 
full maintenance and not have----
    Mr. Ayers. Yes.
    Mr. Honda [continuing]. Maintenance that has to be deferred 
because we don't have money or anything else like that?
    Mr. Ayers. Correct.
    Mr. Honda. Or are you defining deferred maintenance as a 
plan for continuous maintenance? I guess I need those----
    Mr. Ayers. No, deferred maintenance is a piece of equipment 
that is broken or a building system that is broken already and 
needs to be fixed.

                   TUNNEL WORKERS AND HEALTH CONCERNS

    Mr. Honda. Let me just add my sense of urgency with 
Congresswoman McCollum in talking about some, sort of, staff 
being exposed to the asbestos in the tunnels, and that we do 
have a procedure where, you know, we take care of our workers 
so that they are working in safe conditions and a safe 
situation.
    Ms. Wasserman Schultz. Mr. Honda, we can provide the entire 
Subcommittee with an update--not a public update, but an update 
on the status of the tunnel workers and the health situation 
and the current conditions and how the Architect has addressed 
those.
    Mr. Honda. Thank you.
    Ms. Wasserman Schultz. Thank you.
    Mr. Aderholt.

            U.S. CAPITOL POLICE RADIO MODERNIZATION PROJECT

    Mr. Aderholt. I understand the design engineering work for 
the indoor coverage component of the new Capitol Police radio 
system is complete. Is that correct?
    Mr. Ayers. The indoor space is not 100 percent complete. It 
is complete, I believe, in the Capitol and in the Senate 
buildings. And I believe the House buildings are nearing 
completion, but we are not 100 percent design complete in the 
House.
    Mr. Aderholt. Okay. Do you have an estimate of how long it 
will take to complete the entire project?
    Mr. Ayers. The radio modernization project schedule says it 
is March of 2011.
    Mr. Aderholt. Just briefly, could you just give us an 
overview of exactly what is involved with the actual 
construction up to this point?
    Mr. Ayers. From the Architect's perspective, we have three 
things that we need to do to support the Capitol Police on 
their project. The first is to design and construct the primary 
site where the radio communications center will be, in 
Manassas. We have designed that, and we have awarded a 
contract. We are going through the pre-work submittal process 
now. So we expect to be finished with that work in December of 
2010, well in advance of the March 2011 equipment installation 
by the Capitol police and NAVAIR.
    So, first is the construction of the primary site. The 
second thing we need to do to support them is the construction 
of the mirror site or the backup site, which is here just off 
Capitol Hill. We are negotiating today with the lessor of that 
building on both the lease agreement and the construction 
agreement. Those negotiations are under way, and we don't 
anticipate having any problems in meeting the March 2011 date.
    Thirdly, we need to support the Capitol Police and the 
installation of their wiring and conduit and antenna system 
throughout all the buildings. The police contractor is 
designing that system now, and we are prepared to get to work 
on that right away as soon as that design work is complete 
across the campus. We don't see any problem meeting the 
completion date for that project.

                             BARTHOLDI PARK

    Mr. Aderholt. Bartholdi Park, what is the status of the 
repair of the fountain in the park there? And when do you 
anticipate that completion?
    Mr. Ayers. The fountain is, of course, at a metal 
refinishing company. We have gone down to the company numerous 
times to check their progress. I have seen photographs of that 
work, and it really looks magnificent. When it comes back to 
the Hill a year from now, I think it is really going to look 
great. So I think the completion date of that is 14 or 15 
months out.
    What we are doing now is working on the basin of the 
statue, where the water is, as well as around the perimeter. 
There are some lights that need to go in there. We are redoing 
the pumping systems for the fountain and redoing the electrical 
distribution system. That work is ongoing now, but that statue 
I think will be back later this year, and after commissioning 
is complete the fountain will be running again in December or 
March 2011.
    Mr. Aderholt. Okay. Thank you very much.

                          CVC STAFFING REQUEST

    Ms. Wasserman Schultz. Thank you.
    I wanted to ask you some questions about your staffing 
request for the CVC. I guess it is really a request by Ms. 
Rouse's office. The budget request includes four additional 
FTEs, two of which are for responding to Members' offices. Are 
the two that you have now that are dedicated to responding to 
Members of Congress, are they over burdened? How many staff 
would be dedicated to Member services if we add these two 
positions?
    And, beyond that, I would like to know what the status is 
of hiring a deputy for the CVC. That seems to be taking an 
extraordinarily long time. And now, on top of that, Ms. Rouse 
is asking for a special assistant. What are the duties of a 
special assistant versus a deputy? Why is it necessary for her 
to have a special assistant? I am confused.
    Mr. Ayers. For the big picture on the four positions for 
the Capitol Visitor Center, there is a good bifurcation. The 
first is, the two congressional liaisons are mandatory and 
must-have. And then I think there is a gap in between--the 
bottom two are more of a process improvement for the Visitor 
Center. The top two are really important.
    Ms. Wasserman Schultz. The two that you have on board?
    Mr. Ayers. Yes. But the key is, those two are temporary 
employees. They are not permanent employees.
    Ms. Wasserman Schultz. Oh, I see.
    Mr. Ayers. Yes. We really think that they have been 
tremendously successful----
    Ms. Wasserman Schultz. So are you asking to make the two 
positions permanent, or to take it to four?
    Mr. Ayers. To convert the two temporary employees to 
permanent.
    Ms. Wasserman Schultz. I see. Okay. So it is not four 
additional staff. It is just the two that you have now and make 
those permanent.
    Mr. Ayers. Correct.

             DEPUTY VS. SPECIAL ASSISTANT POSITION REQUESTS

    Ms. Wasserman Schultz. Gotcha. And what is going on with 
the hiring of a deputy to replace the one that is no longer 
there? And what is the purpose of a special assistant?
    Mr. Ayers. We have advertised for the deputy, and conducted 
interviews. We have not found a candidate that we believe is 
suitable. So we are going to go back out and re-advertise again 
and reinitiate our search and continue that process until we do 
find someone who is suitable.
    Ms. Wasserman Schultz. Okay. And the special assistant is 
for what?
    Mr. Ayers. We think one of the problems with the deputy is 
that we are really looking for someone who has great managerial 
experience, great Hill experience, and experience in the 
visitor services arena. We are really having trouble finding 
someone that has all of that mixed together. So we thought we 
can take some of that experience out, hire a lower-level 
special assistant who can focus on some of the visitor services 
duties that require that kind of experience, and really focus 
the deputy search on a manager who has Hill experience and can 
effectively navigate in this environment.
    Ms. Wasserman Schultz. Okay. And why is that a must-have 
item?
    Mr. Ayers. Well, there is a difference between the two. I 
would consider the congressional liaisons must-haves.
    There is a line between them. The special assistant and the 
Curator, are more of a process improvement. So I would not term 
them must-haves.

                          INTEPRETIVE CURATOR

    Ms. Wasserman Schultz. Okay. That is what I wanted to know.
    You are also asking for an interpretive curator. Why is 
that a position that is independently required of the rest of 
the curatorial staff? That doesn't seem like a must-have item 
either, and we are really in must-have mode here.
    Mr. Ayers. No, I don't believe that is a must-have.
    Ms. Wasserman Schultz. Okay. But why is it even necessary?
    Mr. Ayers. With all of the exhibits that are in the 
Exhibition Hall, we think a Curator really would add value to 
that, in terms of finding the appropriate materials to bring in 
to the exhibit, as they do rotate every six months.
    Ms. Wasserman Schultz. Your curatorial staff can't handle 
that now? Don't you have a curatorial staff? I thought that is 
what they do.
    Mr. Ayers. The Architect's office does have a curatorial 
staff. They have not yet been involved in any of that, other 
than fact-checking.
    Ms. Wasserman Schultz. So there isn't a separate or 
dedicated curatorial staff focused on the CVC at all?
    Mr. Ayers. We do have a group of four or five employees 
that focus on the Exhibition Hall and those kinds of things. We 
do think a curator would add value.
    Ms. Wasserman Schultz. Because, when I went through the CVC 
on one occasion, it was accompanied by a curator. So who was 
that?
    Mr. Ayers. I am not sure who it was.
    Ms. Wasserman Schultz. Ms. Rouse seems to be wanting to 
answer the question.
    Mr. Ayers. Terrie, go ahead, if you know.
    Ms. Rouse. That was Rob Lukens, who is our Exhibits and 
Education Director.
    Ms. Wasserman Schultz. Okay.
    Ms. Rouse. We have educators, and we don't have a curator. 
A curator is an overarching scholar. But we have educators and 
exhibits people, so that is the difference.
    Ms. Wasserman Schultz. But an interpretive curator seems to 
be somebody who could be researching and labeling the exhibits.
    Ms. Rouse. In the way we are doing museum work these days, 
we have someone who does interpretive work. Their job is to 
speak outwards, to speak to children, to the families, to K 
through 12. What they do is interpret what the House and Senate 
curators do for an external public and, hopefully, for 
Congressional offices to use with their constituents. That was 
the goal.
    Ms. Wasserman Schultz. Let's get the signage and the 
mapping right first, and then we can move on to things like 
that.
    Okay. My time has expired. Mr. Cole.
    Mr. Cole. I am out of questions.
    Ms. Wasserman Schultz. Okay.
    Mr. Honda.
    Mr. Honda. Just a quick question.
    Ms. Wasserman Schultz. Or, no--Mr. Aderholt, do you want 
to----
    Mr. Aderholt. No, I am good.
    Ms. Wasserman Schultz. Okay.

                        TOUR GUIDES AND TRAINING

    Mr. Honda. Just a quick follow-up. Mr. Cole had mentioned 
details around the--what do you call the--we have all the 
frescoes and the artwork, and it does reflect the art of the 
era.
    Are the folks who take the folks through, the guides, as 
they tell them the story, are they also telling the story of 
how the Capitol was built, some of that history, where we can't 
depict it on the wall but we can, sort of, explain why we have 
it today and what it means then and today and, you know, the 
different groups of people in this country, because I guess it 
is the history of the establishment of this country that it is 
supposed to depict. I think that there are probably 
opportunities for us to do some good education, you know, with 
people walking away saying, ``I didn't know that.''
    Mr. Ayers. Yes.
    Mr. Honda. Is that something that is being thought of or 
that is being done right now to, sort of, offset that lack of 
information?
    Mr. Ayers. I think you are speaking of the Frieze of 
American History that was started by Constantino Brumidi and 
then undertaken by Filippo Costaggini and then finished by 
Allyn Cox. And that Frieze of American History does tell the 
story from the landing of the pilgrims through the Wright 
Brothers. So it is a great story of American history and a 
great story of diversity, as well.
    We have spent the last year really training our guides and 
visitor assistants and Congressional staff, the 5,200 staff 
that have been through our training program, on how to 
interpret and tell those stories. You know, in cherry blossom 
season, our visitor counts are nearly 20,000 people a day. 
There are other times of the year where our visitor counts are 
3,000 people a day. So during those low visitor times, we have 
really focused on training, training, training.
    Ms. Rouse has really done a fantastic job of making that a 
priority and bringing in the curators, bringing in the 
scholars, and bringing in the right people can train 
Congressional staff and our guides so that we do enliven those 
stories and tell those stories.

                    HISTORICAL DETAILED STORYTELLING

    Mr. Honda. You know, what I was driving at was a little bit 
more--not only telling the story of who did it and the epic, 
but in today's context, when we look at that, we should be able 
to say that, you know, the attitudes are different today in how 
we perceive, say, native folks, indigenous people, people of 
color, the building out of this place and how we have received 
that show that, you know, contractors were using slave labor to 
build things. It is just bringing everything up to date so that 
the context is explained, but also the content of the time and 
how we see it today in 2011.
    I think it would be fair to all our visiting public 
because, if this is the Nation's Capitol, this is the place to 
tell the story. It is like we say Columbus discovered America, 
but we know that there were other people here prior to that. 
And so the issue is, who wrote the book will tell you how the 
history is going to be told.
    So we have an opportunity to tell the history again, but 
in--and it is not to rewrite history. It is to bring it up to 
date and be a little more precise, so that folks walk away 
having a better sense that contributions were made, although it 
be under different circumstances.
    Mr. Ayers. I really do believe our guides do that kind of 
storytelling and interpret what they see. You bring up the 
slave labor in the construction of the Capitol. That is part of 
the explanation on tours, as well.

                        CVC TRAINING CURRICULUM

    Mr. Honda. So there is a curriculum that is established 
that people follow so that is consistent and----
    Mr. Ayers. Yes. Over the last year, that curriculum has 
been enhanced and further developed by outside experts and 
scholars who have helped to interpret the story.
    Mr. Honda. And this is true both with different statues and 
everything else like that?
    Mr. Ayers. Yes.
    Mr. Honda. Okay.

                           RECYCLING PROGRAM

    Ms. Wasserman Schultz. Thank you.
    Do either of you have any more questions?
    Okay. I am going to go through a number of them, then. I 
have my own reasonably quirky question, as well.
    I know that you have been working on improving the 
recycling program, the complex-wide recycling program. But we 
still hear a lot of confusion among Members and staff who 
report seeing facilities maintenance employees putting 
presorted recyclable materials into the same collection 
receptacles.
    And, you know, people are really struggling here to do the 
right thing. We are all trying to do every type of recycling 
imaginable. We all have about a thousand canisters that we have 
to separate things into, and we are committed to doing it, but 
it does take extra time. So it is distressing when you see all 
of what you sorted going into the same bin. And then you lack 
the confidence that it is actually being recycled.
    So what is the best way for us to support your recycling 
efforts? And can you explain how it works once we have 
separated it and it is taken over by your folks?
    Mr. Ayers. Well the most important thing that the Congress 
can do is to keep recycling and keep doing what they are doing. 
We have certainly heard about and I have heard about this issue 
before, and we have done a number of things to help prevent, 
the promulgation of that perception.
    I recall, 2 years ago, we brought in a contractor to do an 
independent review to really tell us, are our people really 
putting these things together in the trash, and it is 
ultimately going to the landfill? What the contractor told us 
is, no, that is really not happening.
    We did see some people co-mingle together into a trash 
truck; but when they got to the dock, they separated it back 
out as they should, and have recycled the recycling portion and 
put in the trash the trash portion.

                          RECYCLING PERCEPTION

    Ms. Wasserman Schultz. Do you have a single-stream facility 
that all of the separating we do all goes together and then 
they sort it back out?
    Mr. Ayers. No, it doesn't work that way.
    Ms. Wasserman Schultz. Okay.
    Mr. Ayers. In the House, you will see that we have three 
different recycling products, and we are using now three 
different colored bags to help change the perception. There is 
a pink bag, a green bag, and a white plastic bag to help 
prevent a perception that everyone is going in one place. If 
you take the pink bag and the white bag, it is okay if you put 
it in the same container. In the end, when they get to the 
dock, those things are put in the appropriate places.
    Ms. Wasserman Schultz. Okay.
    Mr. Ayers. So that is helping the perception a little bit. 
We have also--we have a full-time recycling manager in the 
House who was working day shift, and we took that manager and 
moved his shift to work the same shift that the recycling folks 
are working so that we can watch this full-time. We have heard 
these kinds of complaints, and those perceptions are really, 
detrimental to the success of the program.
    The program is, from a statistic point of view, improving. 
Last year, we recycled about 2,000 tons out of the House, and 
this year it is 2,700 tons out of the House. So we are doing 
the right things, but I do think we have a public perception 
problem that we still have to work on.
    Ms. Wasserman Schultz. Okay. Great. Thank you.

                         CANNON RENEWAL PROJECT

    I want to ask you about the Cannon renewal and get an 
update on the planning and the design work. GAO testified to 
House Administration in May last year that the AOC planned to 
request $37 million in 2011 for design work on Cannon renewal. 
Your 2011 submission asks for $43 million under deferred 
projects, which are going to be requested in future years.
    So what is the status of the planning and design 
activities? What is the result of the delay? And what 
activities are you anticipating on the Cannon renewal project 
for this year and next year?
    I want to piggyback a question about FOB-8 on that also, 
because you have asked for funds for FOB-8 this year, but you 
are still in the full planning phase of Cannon. So are they in 
line? Why do you need to outfit FOB-8 when you are still only 
in the planning phase of Cannon, if the first thing we are 
doing with FOB-8 is swing space for the Cannon renewal project?
    Mr. Ayers. Today, we are working on the Program of 
Requirements for the Cannon Building renewal. So that will take 
us fiscal year 2010; it will take us much of fiscal year 2011 
to complete. We expect to be able to start the design work for 
Cannon in 2012.
    It has taken us some time to get started and to get the 
appropriate decisions as to what Cannon is going to look like 
in the future. We have that now, so we are proceeding with 
that.
    For FOB-8, we don't believe that GSA will be ready for us 
to occupy until sometime in 2013. Let's say it is mid-2013. So 
we would then begin moving people to FOB-8. That process could 
at least take a year or two to move the appropriate people to 
FOB-8 to free up enough space in Rayburn, Longworth and Cannon 
so that we can vacate a wing of Cannon.
    That is a really big effort, to cherry-pick pieces out of 
Rayburn, cherry-pick pieces out of Longworth and others, 
ultimately get them moved and renovate that space, so that we 
can then move Members out of Cannon into those renovated 
spaces.
    Ms. Wasserman Schultz. But is your timing of outfitting--
needing the funds to outfit FOB-8, and when you would need to 
move people there, are they running in tandem?
    Mr. Ayers. Yes. Yes.
    Ms. Wasserman Schultz. Okay. How? Because if you are only 
in the planning for Cannon renewal and you are asking for funds 
to outfit FOB-8 and you won't need to occupy FOB-8 until, the 
earliest, 2013, you can't start moving the--your process would 
start in 2013 or would start in 2011?
    Mr. Ayers. Start in 2013.
    Ms. Wasserman Schultz. Okay. So why do you need to outfit 
it in 2011?
    Mr. Ayers. That construction process will take a year and a 
half to do, to outfit it.
    Ms. Wasserman Schultz. So you need to start it now or in 
the coming year----
    Mr. Ayers. In 2011.
    Ms. Wasserman Schultz [continuing]. So that it is ready by 
2013?
    Mr. Ayers. Correct.
    Ms. Wasserman Schultz. Okay. That is what I wanted to know. 
Thank you.

                       STAFF POSITION CONVERSIONS

    Your SES legislative proposal--GAO has an agreement with 
OPM where that gives them the opportunity for transferability 
between GAO and executive branch agencies. Is that something 
that you considered in terms of a similar arrangement for your 
employees?
    You are wanting to convert four existing staff to SES. I 
don't get the sense that your exit interview, to the degree 
that you do one, gathers enough information to know whether or 
not the concern you are trying to address is a real one.
    Mr. Ayers. Well, I think there are a couple of points to be 
made for that.
    Our desire and our objective is to be the best. We believe 
firmly that to be the best, we have to be able to recruit and 
retain the best people. So, obviously, that makes sense.
    Ms. Wasserman Schultz. No argument.
    Mr. Ayers. So, if we are working to recruit an executive 
from the executive branch, certainly the pay and benefits 
package that we are able to offer them today is not comparable 
to the pay and benefits package they have in the executive 
branch. It is not comparable. Anyone can show that. We have the 
data, GAO has the data, and GAO has even stated that in their 
review.
    So a great example of that is someone in the SES cadre in 
the executive branch can carry over 720 hours of annual leave a 
year, and an executive in the AOC can only carry over 240 hours 
of annual leave. So an executive there would have to forfeit 
that----
    Ms. Wasserman Schultz. No, and I understand that. But do 
you----

                            EXIT INTERVIEWS

    Ms. Wasserman Schultz. As people depart employment with the 
AOC for other jobs elsewhere, do you consistently do an exit 
interview with all of those people to determine whether or not 
this is an issue that is related to their departure?
    Mr. Ayers. We do exit interviews. I can't say they are 
consistent. They are not 100 percent. But we certainly do them.
    Ms. Wasserman Schultz. Because it would be easier for me to 
be supportive of your request if you had consistent data that 
you have been gathering over a period of time that demonstrated 
that this was a problem. But other than anecdotal information, 
unless you can show me that it is not just anecdotal, I would 
want to see more evidence of this really being a problem.
    Mr. Ayers. Certainly, just looking at the package, the pay 
and benefits package of the Executive Branch and the pay and 
benefits package of AOC Executives, they are not equal. So you 
can't analyze and predict what you don't know. We can't predict 
who is out there looking as well as making a decision not to 
apply.
    Ms. Wasserman Schultz. But you can ask them when they 
depart whether or not that was a factor in their departure.
    Mr. Ayers. Yes. In the last 2 years, we have had one SES 
depart clearly for that reason. We have had eight GS-14 and -15 
employees depart from our feeder pool to the executive branch--
--
    Ms. Wasserman Schultz. Like I said, I am not taking issue--
--
    Mr. Ayers [continuing]. We think for some of those reasons.
    Ms. Wasserman Schultz. I just think that you need more than 
anecdotal information before it justifies the request that you 
have made. I mean, because this is--you know, we are in--I have 
to look for places in everybody's budget to tighten, and, you 
know, having that backup is important.

                  ENERGY SAVING PERFORMANCE CONTRACTS

    I want to follow up on Mr. Aderholt's energy savings 
performance contracts question. They continue to cause me great 
concern. What is the status and estimated value of current and 
anticipated ESPCs? And how do the current and anticipated ESPCs 
fit into your overall energy reduction goals?
    Mr. Ayers. Well, there is no question, the three ESPCs that 
we have awarded are key to our strategy to meeting the goals. 
We won't meet the goal without ESPC contracts. And I noted we 
have awarded one in the House, we have awarded one in the 
Senate and we have awarded one in the Capitol. *****
    In the House, I think the vendor is investing $34 million. 
Ultimately, we will pay out $67 million over the course of the 
life of that project. We will get about 23 percent energy 
reduction out of that and, I think, $3 million or $3.5 million 
a year in financial savings out of that which will ultimately 
go to repaying the vendors for their investment until the term 
of that loan expires, and then we retain the savings after 
that.

                     ESPCS LONG TERM COSTS/SAVINGS

    Ms. Wasserman Schultz. Uh-huh. So why is there so much 
criticism of the Energy Savings Performance Contracts? I mean, 
my understanding is that they are completely out of balance for 
what they cost us in the long term versus what they save.
    Mr. Ayers. Well, there is no question that Energy Savings 
Performance Contracts cost more than direct appropriations. I 
have seen figures from 5 percent up to 60 percent. The latest 
figures I saw from the House IG quote 60 percent. I have seen 
GAO quote in the range of 5 to 57 percent. So there is no 
question they do cost more, because it is just like a mortgage; 
you are getting a private vendor to loan you money to make 
these investments. That is the criticism from a purely 
financial perspective.
    From my take on it, with what is on my plate, a big pile of 
deferred maintenance and renewal work, Office of Compliance 
citations--if we were to take appropriated dollars and do those 
investments--there is only so much bandwidth, as you know. We 
would not be doing citation work or deferred maintenance work, 
and instead we would be investing that money in energy projects 
to meet the statutory goal.
    I think this is a great alternative, though in the end it 
costs us more. But it is a great alternative to help balance 
that entire program.
    Ms. Wasserman Schultz. It is something that we are going to 
be examining, as to whether or not it makes sense to continue 
to go in that direction or to devote resources specifically 
through direct appropriations and get more direct bang for what 
we spend. I am very concerned about how much we are paying out 
to, you know, reap benefits that are not equivalent to what we 
are paying. So, you know, time sensitivity versus how much we 
are spending, I think it is a real concern.
    Mr. Ayers. There is a great alternative--we can strike a 
balance sometimes. These contracts allow you to buy down if you 
wanted to do that. We could invest half and finance half 
through these companies. So there are a variety of things we 
could do if we wanted to change the terms, and they are very, 
very flexible mechanisms.
    Ms. Wasserman Schultz. Okay, good. Well, if we could spend 
some time talking about that, that would be great.
    Mr. Ayers. Sure.
    Ms. Wasserman Schultz. Okay. That completes my questions. 
If any other Members----
    Mr. Aderholt. Yes, one last thing.
    Ms. Wasserman Schultz. Sure.

                     EAST HOUSE UNDERGROUND GARAGE

    Mr. Aderholt. On the East House Underground Garage, what is 
the status of that project?
    Mr. Ayers. On the East House Underground Garage, we took 
the first several months of this fiscal year to update the 
design of that project to incorporate energy-saving measures in 
there. It was designed many years ago and the design didn't 
incorporate any energy-conservation measures.
    So we thought, before implementing the construction, which 
this Subcommittee funded last year, we would tune up the design 
to incorporate some energy-saving features like installing 
carbon monoxide detectors so that, instead of exhaust fans 
running 24 hours a day, 7 days a week, we put in carbon 
monoxide detectors that, when carbon monoxide gets to a certain 
level, the fans turn on. So that is a great new technology for 
parking garages, and we thought it would really be a good 
investment for us to make some energy-conservation measures in 
there.
    So we are on tap to finish that this spring, and then we 
will move to award that contract. It will probably be this fall 
before it is actually awarded and probably next winter or early 
spring before it is in construction.
    There is another good story about that. We requested and 
the Subcommittee appropriated $6 million for alternative 
parking schemes, and we have determined that we are no longer 
going to need to do that. In fact, House Parking is going to be 
able to accommodate all of the parking that comes out of that 
garage. So that money is available for us to reprogram to 
things that are on the list of higher priorities.
    Ms. Wasserman Schultz. Great. Excellent.
    What about the chunk of the ceiling that fell out of the 
Cannon tunnel the other day?
    Mr. Ayers. There was a piece of plaster that fell----
    Ms. Wasserman Schultz. Which, again, always seems to happen 
right before your hearing.
    Mr. Ayers. That pesky House superintendent. I don't know 
how he does these things, but he is very good at it.
    We did have a piece of plaster fall, and it was just some 
water incursion that did that. We tested all of the plaster 
around it, and we are not concerned that it is a bigger 
problem. It is just an isolated incident.
    Ms. Wasserman Schultz. Okay, great.

                 FACILITY RENEWAL SCHEDULE/COST UPDATES

    Seeing no other questions, the homework that I wanted to 
ask you for is if you could provide a timeline including 
currently estimated schedules and costs for planning, design, 
and construction on all major facility renewals through 2020. 
We are just trying to get a handle on, given that we have the 
Revitalization Trust Fund, what is coming down the pike and the 
priority order.
    Mr. Ayers. Yes. Very good. Thank you, Madam Chair.
    [Clerk's note.--AOC response to homework is included in 
questions for the record.]
    Ms. Wasserman Schultz. Okay. Thank you very much.
    With that, the Subcommittee stands adjourned until next 
Tuesday at 10:15, where we will hear from yet another 
legislative branch agency--the Capitol Police. Thank you.
    The Subcommittee stands adjourned.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                                         Wednesday, March 24, 2010.

               U.S. CAPITOL POLICE FY 2011 BUDGET REQUEST

                               WITNESSES

PHILLIP D. MORSE, SR., CHIEF OF POLICE, U.S. CAPITOL POLICE
GLORIA JARMON, CHIEF ADMINISTRATIVE OFFICER, U.S. CAPITOL POLICE
    Ms. Wasserman Schultz. Good morning. I am going to call the 
Legislative Branch Subcommittee of the House Committee on 
Appropriations hearing to order.
    Today, we have our hearing on the Capitol Police's 2011 
budget request. We have Chief Phillip Morse, the chief of the 
Capitol Police, and Gloria Jarmon, the Capitol Police's chief 
administrative officer, with us this morning.
    We have a lot to cover, to say the least. And we absolutely 
appreciate--``appreciate'' isn't even a strong enough word--the 
work and dedication and devotion and commitment of the officers 
and their leadership that protect us every day.
    And I want to particularly thank them--I mean, there is 
always something to thank them for, but particularly ask you to 
thank them for their efforts over the last several days. 
Because, clearly, since the inauguration, this last few days 
was the most trying and difficult time that the Capitol Police 
had, in ensuring that the Members were protected and also in 
crowd control and keeping temperatures simmered to a degree 
that they didn't get out of control. And there were some 
incidents; the Capitol Police addressed those incidents.
    But it is really important to emphasize--and, you know, we, 
as Members, are inside the Capitol and certainly aren't privy 
to all the conflict that went on. But, as a result of the 
health care reform debate, it was very obvious that that was a 
pressure-cooker situation outside that could have easily 
spiraled out of control and that, thanks to the good work of 
the Capitol Police, did not. And the Members were protected, 
and the public that was there that was in opposition to most of 
that crowd was protected as well. So, thank you.
    I want to go over, at least to some degree, the idea of 
officer morale, because that is always an issue. It is an issue 
that we should make sure that we pay attention to. I know it is 
an important issue to you. It is one that you are a big 
defender of and promoter of. But the demand on these people, 
which is--we have to remember that they are each individuals in 
a high-pressure situation, and we have to make sure that they 
feel that they have all the support that they need, not just 
from you, which I know you try to provide them with that every 
day, but also from us as Members who represent the public.
    But that is one of the reasons that I am incredibly 
disappointed--it would be hard to overstate my disappointment--
in the fact that the Capitol Police has not been able to get a 
handle on fiscal management and has not been able to 
responsibly and properly handle your budget. Even after 
dramatic changes, even after bringing in accountability 
measures, even after bringing in individuals who were supposed 
to be responsible for cleaning up the mess, the mess isn't 
clean. And we have to do something.
    And I know you and I have talked about it. I know that you 
are committed to taking the steps that need to be taken. But I 
am going to have several questions for you that I think we need 
to talk about publicly so that we can get to a point where we 
can feel confident that the budget, going forward, is going to 
be one that we can rely on. I mean, that is the most important 
thing that we do in the Appropriations Committee.
    So, with that, I look forward to hearing your testimony. We 
are also going to be reviewing the reports on the budget from 
the Inspector General, which I hope is going to be forthcoming 
sooner rather than later.
    But just to provide the details, the amended budget is $9 
million more than the original request. The police are now 
requesting $385.5 million, which is 17 percent more than the 
fiscal year 2010 level. Within that total, you are requesting 
52 new sworn officers, 12 new civilians, and $29 million in 
overtime. That, it should be noted, is almost $4 million than 
the current year's budget for overtime.
    I look forward to your statement. And your full statement 
will be entered into the record. And, after Mr. Aderholt, you 
can proceed with a 5-minute summary.
    Mr. Aderholt. Thank you.
    Thank you, Chief, for being here. Thank you for your 
service. I also want to welcome the Chief Administrative 
Officer today to join us, as well, for the hearing.
    Thank you for coming to the office last week. We had a 
chance to visit and discuss a little bit about the financial 
problems that you have been confronted with. I, too, like the 
Chair, share concerns about the seriousness of the 
mismanagement and am glad to see that you are on top of that, 
that you are working diligently on that; also, the decision for 
the Inspector General to audit the occurrences. And hopefully 
his recommendations will help us clarify the mistakes that have 
occurred and what needs to be done to ensure that they are not 
repeated.
    As the Madam Chair says, I would be remiss if I didn't 
mention the work of the Capitol Police force, all that they do 
on a daily basis and all that they do to not only protect those 
of us who work here in the Capitol but also our visitors, which 
are literally millions each year. So we thank you for their 
tireless efforts.
    So, thank you both for being here. Look forward to your 
testimony. And we will probably have some questions in a few 
minutes. Thank you.
    Ms. Wasserman Schultz. Thank you.
    Chief.
    Chief Morse. Good morning, Madam Chair and members of the 
committee, Mr. Aderholt. It is a pleasure to be here. It is my 
honor to be here and to testify before you for the fiscal year 
2011 budget.
    First, I would like to thank the committee for its 
sustained and unwavering support of the men and women of the 
United States Capitol Police. You and your staffs have 
continuously and very generously supported both the mission and 
our personnel, and not just in a monetary way but also in a 
private and public recognition to our operational 
accomplishments.
    Over the last year, the men and women of the United States 
Capitol Police have, with your support, successfully performed 
their law enforcement and security roles with expertise, poise, 
and integrity. From a historic inauguration through colossal 
snowstorms--and, yes, they all came to work--and, most 
recently, through some of the groundbreaking legislation where 
we had late nights, weekend sessions, demonstrations, all these 
men and women balanced security of the campus with the 
facilitation of the legislative process.
    Additionally, the department implemented the Library of 
Congress Police merger. We are transitioning our primary fleet 
to a leasing program through the General Services 
Administration. We have replaced our ballistic vests for our 
officers. And we have proceeded with the migration of a 
financial management system to the Library of Congress for 
cross-servicing.
    However, the past year has not been without setbacks, 
primarily within our financial management areas. And, as you 
note, the department recently discovered that we made a 
salaries miscalculation error in our fiscal year 2010 budget 
request, and that resulted in projected salary shortfalls. This 
miscalculation also resulted in the department submitting a 
budget amendment for the 2011 budget request, which is now 
before you for your consideration.
    Once I learned of this problem, I did take immediate action 
to assess the issue, to coordinate with the Capitol Police 
Board, and to notify you, our oversight committees, and to 
immediately develop a plan to address the problem. And I took 
full responsibility for this issue. As the Chief of Police, 
that is what I am supposed to do. And it is now my duty to make 
sure that it does not happen again and that the impact to our 
agency is minimal.
    In doing so, we conducted an internal review of funding for 
potential reprogramming to address the shortfall, with a 
primary focus on maintaining our security and law enforcement 
mission and also mitigating possible impacts to our workforce.
    And to find out why our budget process failed, I have asked 
the Inspector General of the United States Capitol Police to 
conduct an audit of our fiscal year 2010 and 2011 budget 
formulation processes, to provide me with a report as soon as 
possible so that I can take immediate corrective action.
    In closing, I am well aware and I understand the economic 
climate that affects our country, the legislative branch, and 
the entire Federal Government. And I want to assure, Mr. 
Aderholt, Madam Chair, that we will adapt to the resources that 
you provide us, and we will continue to safeguard the 
congressional community.
    So, again, I just appreciate all your good comments, great 
comments to our agency. It is our duty to be here, and we take 
a great privilege in protecting this institution. So, thank you 
very much.
    [Chief Morse's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
          RESPONSIBILITY FOR BUDGET FORMULATION AND EXECUTION

    Ms. Wasserman Schultz. Thank you. Thank you so much, Chief 
Morse. And, again, thank you for your service and the service 
of your officers.
    The thing that I have emphasized, that we have emphasized 
the most as a subcommittee since the subcommittee was 
reconstituted is fiscal responsibility and responsible fiscal 
management. And that is applicable whether it was the CVC or 
the Capitol Police or GPO or any other problems that have come 
up.
    In the case of the Capitol Police, the comparison that came 
to mind for me with you--not you, personally, but with the 
police management--continuing to be responsible for developing 
and executing your budget, it is like asking a coal miner to 
run a restaurant. I couldn't think of a better analogy than 
that because those are two things that are so completely 
separate in terms of responsibility and skill, quite frankly, 
and time management.
    I mean, we discussed in my office that I fully appreciate 
all the responsibility--actually, there is no way I fully 
appreciate all the responsibility that you have, but I 
appreciate that it is significant. And it is significant and 
unrelated to administrative responsibilities. Ideally, you are 
able to hire people who you can surround yourself with to 
handle responsibly that budget development and execution. But 
that hasn't happened. And it is not just you; it has been 
ongoing for a long time.
    Previously, the Capitol Police was not responsible for 
development and execution of your budget. So, given that we 
don't want coal miners running restaurants because we want to 
make sure that coal miners can do their job and that the food 
we eat, you know, comes out better than a coal miner might 
prepare it, why shouldn't we just simply turn the budget 
development responsibilities over to the legislative branch 
agencies, as it was done in previous years, leaving the Capitol 
Police Board obviously in place for review and oversight, so 
that you can focus on your mission?
    And I realize that you have some concerns about that, but I 
would like to know what they are.
    Chief Morse. Sure.
    With respect to this budget issue, you are right, it is 
very disappointing. It impacts the police department in so many 
ways. And the disappointment, for me, is the successes that we 
had in this area over the past couple of years and at the 
direction of this committee. You know, we obtained clean 
financial statements. So that means that we made tremendous 
progress in correcting material weaknesses, that we were able 
to fill vacancies and stop chaos and move forward. And, in 
doing so, we were able to prepare and formulate a budget 
submission in 2009 that was correct and that represented the 
needs of the agency as well as the needs of the Committee.
    So, what happened? And the question is, why does it 
continue to happen? With this particular issue, with what 
happened, you know, specifically, the Inspector General's audit 
will hopefully give us that answer.
    But when it comes to taking the budget away from the 
Capitol Police, my first response to that is, no, we can't do 
that in totality. Because the budget does support the mission, 
and the mission is so critical. So we have to have input into 
that.
    Is it something to look at possible----
    Ms. Wasserman Schultz. I am not even suggesting--let's not 
go too far. I am not suggesting that you would have no input. I 
am just suggesting that, administratively, a way would be 
developed to ensure that you weren't primarily responsible for 
developing and executing the budget plan; that you would do it 
in conjunction with people who had, perhaps, more expertise, 
more time, and more controls in place than you have been able 
to establish.
    Chief Morse. Yeah, I think there are options that other 
agencies use, not just because of this issue, but with helping 
take away some of the more tedious tasks in budgeting--budget 
formulation, the preparation of financial statements, and 
things like that.
    I think that we can look at ways to focus our attention on 
making it right and having options for some of those tasks, to 
take away some of the workload that is there that may be 
distracting.
    But I think that the Inspector General's audit is going to 
really help us and tell us where we need to go with those types 
of options, to help us get to where the Committee would like us 
to be.
    Ms. Wasserman Schultz. And I agree. And I hope that is 
forthcoming sooner rather than later.
    We had the acting Comptroller General here, Gene Dodaro, 
and we asked him the same questions. And we required them to do 
a 30-day review, which had begun but was not the reason that 
this mistake was discovered. He indicated that they could be 
significantly more involved than that 30-day review, without 
the responsibility being completely removed from the Capitol 
Police, but that they could help put controls in place, and 
also without compromising their independence, because, 
obviously, their independence and accountability role is 
important. So as part of your process, from soup to nuts, it 
would compromise that.
    How would you feel about involving GAO, going forward, in a 
much more significant way to avoid this happening again?
    Chief Morse. Well, first, I would like to say, you know, 
what you always read may not always be the truth. We have a 
very good working relationship with GAO. It is one that I 
worked very hard to establish when I became Chief, because the 
relationship there was essential for us to move our agency 
forward. We had many recommendations in many different areas 
other than just the budget. So it was important for us to 
establish a relationship, one that was cooperative and working 
together in making the agency better.
    So, we do that. We are actively doing that. And I do not 
see that as any obstacle to our success, but more of a 
component of our success. So having them assist us again and 
make recommendations to us to make this better is certainly 
something that I do welcome. And, like I said, the relationship 
is good, so we understand how the operation works now.
    Ms. Wasserman Schultz. My time is expired, but I am talking 
about more involvement than just them giving you 
recommendations. I mean, I don't mean this disrespectfully, but 
I have lost confidence in the Capitol Police's ability, going 
forward, to handle this without assistance and without more 
backup. And, like I said, not disrespectfully, simply because I 
think you have a mission, you have expertise, and you could 
benefit from the expertise that is unrelated to your mission.
    My time has expired. Mr. Aderholt.
    Mr. Aderholt. The current way that the budget operates 
now--and this is my first Congress to be on this subcommittee, 
so I have not in past Congresses been involved with it--but has 
this current way that you operate currently with the budget, 
how long has that system been in place? Do you know offhand?
    Chief Morse. Since about 2003.
    Mr. Aderholt. And what was the system before 2003?
    Chief Morse. The system prior to this was, the Capitol 
Police were on two different payrolls, and there was the House 
and Senate disbursing offices. And then I believe, 
respectively, they assisted in the formulation of the budget. 
And then the Capitol Police, actual officers at the time, as we 
transitioned to civilianization, would actually work on the 
budget. I mean, I remember that from my days as an officer and 
growing up in the agency, that Capitol Police officers, 
officials, used to execute the budget and make budget 
submittals.
    So, I don't know if Gloria can give more detail on what 
they actually did and how they formulated the budget, but that 
is what I recall.
    Mr. Aderholt. Do you have anything you want to add to that?
    Ms. Jarmon. No, that sounds similar to what I understand. I 
have only been with the Capitol Police for 2 years, but it is 
my understanding that that is the way it was in 2003.
    Mr. Aderholt. And you said it was 2003 was when some of the 
changes were made under the current system we are today of how 
the budget is set up.
    Chief Morse. I believe that is an accurate date, yes.
    Mr. Aderholt. And what was the situation back in 2002 or 
2003 when they did the switchover? Do you have any information 
about that?

                        GROWTH OF CAPITOL POLICE

    Chief Morse. Tremendous growth of the agency, both from the 
standpoint of monetary as well as people. And, in order to 
support people, you need a larger administrative staff to do 
that. So the agency was in very rapid growth. It was right 
after 9/11, anthrax, ricin. And so, therefore, there were 
current and emerging threats. The agency was growing. There 
were concerns about security and so forth, with terrorism. So 
there was a huge growth of the agency. And so, it was a matter 
of trying to catch up with that.
    And I think, when you are dealing with those types of 
issues, and you are trying to deal with the administrative 
functions, sometimes you can't catch up. And the 
recommendations build, and, the ability to correct that and 
overcome that sometimes is lagging.
    Mr. Aderholt. What was the expansion between September 11th 
and, like, say, 2 years later? Do you have offhand a percentage 
of how many officers were added?
    Chief Morse. The exact figures I don't know, but I would 
say several hundred officers increased in the agency. And then 
it continued, obviously, to grow subsequently in years after 
that in order for us to meet the missions that we are, 
assigned. So it was rapid growth and very large.
    Mr. Aderholt. Thank you.
    Is my time up?
    Ms. Wasserman Schultz. No.

           RESPONSIBILITY OF THE CHIEF ADMINISTRATIVE OFFICER

    Mr. Aderholt. Let me just ask the Chief Administrative 
Officer: Over the--your budget justification states that one of 
the accomplishments of the Chief Administrative Officer was to 
implement the budget formulation execution system. And, of 
course, we have seen the problems with that, as has already 
been alluded to today.
    What particular or specific controls were put in place to 
try to deal with this, and how did you ensure that these 
controls were complied with?
    Ms. Jarmon. What I tried to do when I came in, budget 
formulation was--one of the statutory responsibilities of the 
Chief Administrative Officer was to bring in people who I 
thought had the expertise in the budget area. And the process 
that was supposed to be followed was to review how it was done 
in 2009 and try to enhance the process and to make sure that 
all the components that were in our budget formulation in 2009 
were also there in 2010.
    And I relied on experts and people in senior executive 
positions who I brought in to help me in that area. I didn't go 
behind the numbers and get as involved in the details of what 
they had done because of their level of expertise.

                        FY 2010 BUDGET SHORTFALL

    Mr. Aderholt. So were you able to identify the particular 
problem that--you know, like you said, you had delegated that 
out. But have you been able to identify the problem that 
allowed this new problem to grow to the extent that it did?
    Ms. Jarmon. Well, from my review, what we have found 
happened was that some of the differentials--like, officers are 
paid extra for working Sundays and nights and holidays. So the 
differential, the increased salary they receive for that was 
not properly calculated and included in the budget estimates 
for 2010.
    Also, the average salary that was used for 2010 was lower 
than it should have been. It didn't include the pay raises that 
it should have included. And, also, promotions for our new 
officers, for recruits, was not properly included. And terminal 
lump-sum payments--when officers leave the Department and 
retire and we pay them lump sums for their annual leave--had 
not been properly calculated.
    Seems like, from our preliminary review--and like the Chief 
said, the Inspector General will also be doing an audit to see 
if there were other issues that were found--but it appears that 
those four areas were not properly included.
    Mr. Aderholt. When were you personally made aware of the 
shortfall?
    Ms. Jarmon. I was made aware of the extent of the shortfall 
in mid-February. We had had some meetings related to our review 
of the first-quarter budget execution in January and had heard 
that there may be some differences, but we weren't told that it 
was, you know, as much as it was until mid-February.
    Earlier, when we were told there could be some problems, we 
had provided a lot of additional questions, and the people who 
were doing the budget formulation, they were following up on 
those things. That was in January. And we weren't satisfied 
with the answers we were receiving.
    Mr. Aderholt. So mid-February is when it really came to----
    Ms. Jarmon. When we realized the extent of it.
    Mr. Aderholt [continuing]. To the extent of it.
    Ms. Jarmon. Right.
    Mr. Aderholt. And who brought it to your attention at that 
time?
    Ms. Jarmon. It was based on the reviews that we were 
performing. And it was the director of the Office of Financial 
Management and the budget officer. And the people in the budget 
shop were the ones who brought it to our attention, but it was 
part of our review of the first-quarter budget execution.
    Mr. Aderholt. Thank you.
    Ms. Wasserman Schultz. Ms. McCollum.

                       CAPITOL POLICE PERFORMANCE

    Ms. McCollum. Thank you, Madam Chair.
    First off, I also want to offer my thanks for what you do 
here. But I want to also thank you for the cooperation that you 
gave the St. Paul Police Department, for the help that you gave 
my district office. And I think that that is something that is, 
kind of, becoming newer and newer to your job, probably 
consuming different job descriptions and everything like that. 
But the coordination, this summer and even last week, between 
Capitol Police, St. Paul Fire Department, St. Paul Police 
Department--and I know you are talking to the FBI and 
everything. Thank you so much.
    I also want to point out that I know that you are always 
evaluating and adjusting things on the ground. On Saturday, 
there wasn't any presence inside the office buildings; on 
Sunday, there was presence there. My staff thanks you, because 
they key in and out, and so people knew that they were staff 
because they were using keys.
    Just knowing that there were officers on other floors in 
the building made my staff feel more secure and, I know, 
changed behavior. I am on the same floor as both Chairman Van 
Hollen and Mr. Hoyer, so people were--I will even use my 
phrase--fired up and ready to go. So, thank you so much for 
that.

                              STAFF ACCESS

    I want to touch on one other policy thing that has been 
recently in the paper, and that is how to handle staff coming 
in and out of the building. I have my own internal rules. And 
the first time staff comes in the building, they go through a 
metal detector. Then, if they leave the building with me, they 
go with me the whole time, as Irene has, then there is a big, 
long line, then, you know, we go through. Never asked for that 
going through the Capitol. The Capitol I treat as something 
totally different.
    But it is confusing, and I watch other Members do other 
things. And, quite often, because I am on the State and Foreign 
Operations Subcommittee, I will have parliamentarians with me 
from other countries, especially Middle East countries. They 
have gone through; they come with their own security detail, 
and then we are bringing them over to the Capitol.
    I would like to maybe, you know, try to see the rules of 
the road here, kind of, formalized or informalized.
    But I want to make clear one thing: I do bring my staff 
through metal detectors, at this point in time. My Chief of 
Staff today, I met him outside. He had a briefcase; he went 
through. Now, if he goes over to the Capitol and back again and 
there is a long line, I really appreciate the courtesy that is 
extended; he won't have a briefcase with him and other things 
like that. But if he had driven into the Rayburn Building, he 
would have gone through nothing. So there is an inconsistency 
just with that, and then with Members at times, you know, like, 
not bringing a staff member through.
    So I am not asking you to solve the problem today. I think 
we need to be part of the solution. I think your officers 
deserve to have consistency. So this is something that we need 
to talk about, and you can work things out with the Chair and 
we will figure it out.
    And, yes, Madam Chair, I am very much aware of that. Thank 
you. So we need to--that is why I am not asking for anything 
today.
    We need to figure this out. Because it is not fair to the 
officers. It is not fair to the officers, because they do see 
Members abuse it. They do. So I want to be consistent.

                          POLICE BUDGET MODELS

    Let me just go back to, kind of, the point of the 
discussion today. There are models, Madam Chair, that I think 
we can look at. There are models that are used by police 
departments all across this country and sheriff's departments 
and State highway patrols in the way that they perform and do 
their budgets. So I don't know if you have had discussions, so 
that you still have your input, your autonomy that you need in 
doing that, because there needs to be a bit of a separation 
here.
    So, Madam Chair, I don't know if, when we get our report 
from the Inspector General, if the inspector general will have 
looked at, like, what the League of Minnesota Cities has 
recommended for doing a report on the----
    Ms. Wasserman Schultz. Why don't we ask him? He is here.
    Ms. McCollum. So I would be interested--because I think 
there are models out here that we could look at for actually--
--
    Ms. Wasserman Schultz. Why don't you come to the table?
    Mr. Hoecker. Ma'am, that was not part of our initial----
    Ms. Wasserman Schultz. If you could state your name for the 
record.
    Mr. Hoecker. Carl Hoecker. I am the Inspector General for 
the United States Capitol Police. I think you have my card.
    That is not part of our initial scope, to do best practices 
or good practices comparison. Our scope is to look at what the 
controls were, were they adequate for budget formulation; and, 
if they were, then why this happened.
    That study may be useful, but that certainly wouldn't fit 
in the timeline that I have described.
    Ms. McCollum. Madam Chair, I would just suggest, because I 
don't think we have to have a study to study the studies. I 
think we have bright enough and smart enough minds around here 
to maybe look at some best practices. And then this committee, 
working with our colleagues in the Senate and working with 
like-minded places, can come up with, not reinventing the 
wheel, but putting in something that allows to you be 100 
percent focused on your work but know what your parameters are 
for your budget and how to advocate for them, either up or 
down, depending upon what is there.

                           SIGNAGE IN THE CVC

    Madam Chair, with that, I will conclude, except to say I 
exited the Visitor Center the other day. And I had my stealth 
staff check it out today. It is still not signed that you can 
exit without the buzzer going off in 15 seconds. But, oddly 
enough, I have had elves at my window. I think I asked for the 
reverse.
    Could you please fix the signage so I don't have to keep--
--
    Ms. Wasserman Schultz. Is that because the doors still say 
that they alarm when they open and they don't?
    Ms. McCollum. Fifteen seconds. This Saturday and Sunday 
when I walked through, there were people once again trapped in 
there. Yeah, because who wants to set the metal--you know, any 
detector off in this building, right? And who wants your--you 
know, your folks want people to leave, so they are on the other 
side of the window going, ``Leave, leave,'' and people are 
going, ``No, the alarm.''
    So, thank you, Madam Chair.
    Ms. Wasserman Schultz. Thank you.
    Mr. Aderholt.

     INSPECTOR GENERAL AUDIT OF THE CAPITOL POLICE BUDGET SHORTFALL

    Mr. Aderholt. I had a question for the Inspector General. 
Thank you for being here, as well.
    Can you, sort of, just run us through briefly just a little 
bit of the process that you are undertaking in doing this audit 
of this current situation?
    Mr. Hoecker. Yes, sir.
    Well, I have already mentioned the objective, sir. And the 
way we are carrying that out is we are doing interviews of all 
parties, all knowledgeable people. That looks like right now it 
is going to be somewhere between 15 and 20 interviews. We are 
under way with those.
    We have e-mails, we have a couple of computers that we have 
down in my office that we are going to analyze. We have other 
documents that we will be looking at. We will analyze the 
documents, analyze the information from the interviews. We may 
have to go back and reinterview, based on clarifications, 
discrepancies found in the supporting documents versus the 
interviews.
    And, you know, we will try to get an overarching picture of 
what happened so that you can make the decisions from the 
Committee's standpoint and the Chief can make his decisions.
    Mr. Aderholt. When do we expect a final report or 
recommendations that would be available?
    Mr. Hoecker. Last week I would have told you May 31st, but 
my auditor working this has experienced a death in the family, 
and that will push it a couple of days. So it will be early 
June.
    And I will give briefings up and to that point, sir. It 
wouldn't be just like, ``Here is the report.'' We will have 
discussions, periodic discussions, perhaps halfway and maybe 30 
percent of the way through, updating the Committee on what is 
going on.
    Mr. Aderholt. Okay.

           CAPITOL POLICE RADIO MODERNIZATION BUDGET REQUEST

    With the $16 million--and, Chief, let me direct this to 
you--being requested in the fiscal year 2011 request, the total 
budget for the radio modernization program will be $97.6 
million.
    How confident are you that this cost estimate will be met 
and that there will be no significant overruns?
    Chief Morse. I am confident that it will meet the requested 
appropriation funds, and there is a number of reasons for that. 
One is, so many experts have reviewed it, and we also have our 
partners with GAO who have monitored this and given us advice 
throughout the process.
    We also have an executive sponsor, a single point of 
contact within our agency, who is now reporting to myself, the 
assistant chief, and the CAO, weekly progress reports on how we 
are doing. We scrubbed all of our obligation plans to make sure 
that they are on time, on budget, that there are no issues with 
that. So, with that type of oversight, we feel confident that 
we will stay on time and within budget.
    We do have a contingency fund that is associated with this 
project, where it is typical that in a project of this size 
that sometimes you will find various challenges that you must 
overcome. And working in the environment that we do, in the 
historic buildings, and some of the work that the architect has 
already been doing with respect to the buildings and the work, 
we would expect we will run into things, but we think that our 
contingency fund will certainly cover that.
    So, right now, we are on track and within budget to 
complete the project in the spring of 2012.
    Mr. Aderholt. I think there was about $6.5 million in the 
contingency fund for this particular project, is my 
understanding. Do you anticipate dipping into that contingency 
fund?
    Chief Morse. We certainly anticipate that we will run into 
challenges that may be necessary to do that.
    At this point, Gloria, have we run into this contingency 
fund requests?
    Ms. Jarmon. No, not yet. And, like you mentioned, we were 
going to make sure we contact the committee and let the 
committee know about the use of the contingency fund.
    Chief Morse. The one thing that I recently did--and this 
was, like, last week when I reviewed it--is to ensure that the 
contingency funds are in one pot and that, whenever we have a 
request for that, that it is justified, verified, and that it 
becomes an obligation plan. In other words, we come to the 
committee and say, ``We need this contingency money to be 
obligated to mitigate this situation.'' That was not something 
that was in place prior to last week. But it is something that, 
when I reviewed the last obligation plan, that I found to be 
not solid enough to be transparent to our oversight committees 
on what we were doing with the money. So I immediately 
corrected that last week.
    So, the obligation plan that I just signed recently to come 
forward does not include contingency money, because what it 
says is, ``This is the work that needs to be done. This is the 
money that it takes to do it.'' If something comes and 
interferes with that or there is a challenge, then the people 
responsible for that need to tell me why they need the 
contingency fund, we have to verify that, and then we can 
approve it and then ask the committee, ``Can we obligate this 
money to that effort?'' So that enables us to track the money 
for the project appropriately and, separately, track 
appropriately the contingency fund.
    Mr. Aderholt. And you said that, unless you run into 
problems--so what would you envision that might be a problem 
that would dip into the contingency fund?
    Chief Morse. Well, we may have an issue--and I am trying to 
think of them. We may have, for instance, an aesthetics issue, 
a location of an antenna. We could have an abatement issue. We 
could, where we have our plans to put fiber or antennas maybe 
in close proximity, for instance, to a secure area that we need 
to mitigate.
    So we may find things out like that as we go--or we may 
not--that may require additional work that was not planned or 
could not be anticipated. So these are not things that we 
didn't anticipate; they are things that sort of pop up with the 
historic nature of the building or, perhaps, new construction 
that has occurred since the design plan was made.
    Mr. Aderholt. Okay. I think my time is up.
    Ms. Wasserman Schultz. Your time has expired. Thank you 
very much.

                   CAPITOL POLICE MATERIAL WEAKNESSES

    Mr. Hoecker, since you are here, I want to ask you some 
additional questions.
    In the fiscal year 2008 examination of the effectiveness of 
the internal controls of the Capitol Police, there were three 
material weaknesses that were found. Those were in payroll 
processing, financial management, and information systems. Two, 
if not all three, of those weaknesses could have led to the 
problems that resulted in the budget issues that we have right 
now.
    Have those material weaknesses been fixed by the police up 
to this point?
    Mr. Hoecker. They are still material weaknesses. We have 
not----
    Ms. Wasserman Schultz. All three?
    Mr. Hoecker. Yes, ma'am.
    But what we do is we test those--we only clear those and 
close those at the financial statement audit. So when we 
complete the fiscal year 2009 financial statement audit, the 
auditors will find if there is sufficient progress made on 
those.
    But, just overall, I think there has been some progress 
made, but they are still open. And to the extent that some of 
them are open, that will be part of my review in terms of what 
happened----
    Ms. Wasserman Schultz. Okay.
    Ms. Jarmon, this is really all your responsibility. I mean, 
all of this is under your jurisdiction. So, since you have come 
onboard, why haven't these material weaknesses been addressed?
    Ms. Jarmon. We have been trying to address the material 
weaknesses. There are a lot of issues at the Capitol Police, 
going back many years, that I have been trying to address, and 
the material weaknesses have been my focus. Some of the 
problems are long-standing problems that are just taking longer 
to fix than I had really anticipated.
    Ms. Wasserman Schultz. Okay. Well, what is the time frame 
for getting them addressed? Because we cannot go through 
another fiscal year where they are not addressed and these 
problems are prone to happening. Can you give me assurance that 
they will be addressed within the next 6 months?
    Ms. Jarmon. Of the 28--we have 28 remaining----
    Ms. Wasserman Schultz. I am talking about the three 
materials weaknesses.
    Ms. Jarmon. The three material weaknesses, I can give you 
assurance that we will make significant progress in the next 6 
months. We expect to have closed 17 of the 28 that were open 
from----
    Ms. Wasserman Schultz. But, see, lots of times, people 
focus on the easy ones, because people like to cross things 
off, and they spend an extraordinary amount of time doing the 
easy things, and they leave the hard things for last. The hard 
things are what is causing your problems.
    So, are you devoting a significant enough amount of 
attention to addressing those material weaknesses?
    I mean, I would rather see you deal with the less important 
things later so that you can make sure that you can provide us 
with budget estimates and budget proposals that we can count on 
and that I don't have to worry about the other shoe dropping 
every time I get a Capitol Police budget proposal.
    Ms. Jarmon. Right. I will commit to you that I will do all 
I can to close the material weaknesses in the next 6 months----
    Ms. Wasserman Schultz. Okay. Well, I have to tell you----
    Ms. Jarmon. I can't say they will all be----
    Ms. Wasserman Schultz [continuing]. That response leaves me 
less than confident.
    [Clerk's note.--A further explanation by the Capitol Police 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            BUDGET PROCESSES

    Ms. Wasserman Schultz. Let me just continue with you. Like 
I said, this is your responsibility; you are responsible for 
budget and human resource functions.
    I want to get a specific analysis from you on how this 
process broke down. I am not someone who dwells a lot on, you 
know, how did we get here, and I am not interested in beating 
anyone up over this. But when it comes to a budgeting problem, 
the look-back is important, because you need to know how it 
happened so that you can prevent it from happening again. If 
you don't address the weaknesses that cause the problems, then 
you are not going to be able to prevent them.
    So I just have some specific questions. Are you getting, 
for example, the information that you need from the operational 
side to effectively manage the budget? A specific example is, 
when a decision is made to move officers to nights or Sundays, 
that affects pay. Is the administrative side notified about 
that so that the whole budget picture is established? Is that 
something that occurs now?
    Ms. Jarmon. It occurs. It could occur more effectively. 
That is something I will focus on also.
    Ms. Wasserman Schultz. Okay. Is that something that you 
were already working on?
    Ms. Jarmon. Yes, it is something I am already working on.
    Ms. Wasserman Schultz. Okay. What about, where does the 
budget office get actual data on officer usage?
    Ms. Jarmon. The budget office gets actual data on officer 
usage from the Chief Operating Officer's office, in terms of 
their monitors----
    Ms. Wasserman Schultz. Is that one of the people that was 
responsible for this error, the individual in question?
    Ms. Jarmon. We don't know--that is probably one of the 
people that will be talked to by the Inspector General.
    Ms. Wasserman Schultz. How does the Capitol Police ensure 
that its budget staff are informed of new hires?
    Ms. Jarmon. The budget staff are informed by the Office of 
Human Resources of new hires.
    Ms. Wasserman Schultz. Okay. Are there sufficient processes 
and controls in place to make sure that that happens in a 
timely and specific fashion?
    Ms. Jarmon. That is part of the controls that we will be 
looking at as part of the audit.

                                OVERTIME

    Ms. Wasserman Schultz. Okay. All right.
    Chief, I wanted to talk to you about overtime and staffing. 
And I am going to ask this question in a simplistic way. I know 
overtime and staffing is not as simple as I am going to ask you 
this question.
    But you are asking for $29 million in overtime, and you are 
asking for 52 additional officers. So, I mean, one of the major 
frustrations of the Capitol Police's budget is the increase of 
use of overtime. Why wouldn't we just take the $29 million that 
you are asking for in overtime and give it to you instead to 
hire additional officers so you can handle the workload with 
more officers rather than adding to the overtime of the 
officers you have?
    Especially now in light of the concerns over the retirement 
system and the pensions, which, depending on who is right, 
overtime isn't going into the officers' retirement benefits 
package. So, it would seem to me to make more sense to broaden 
the number of officers you have so that you are not 
exacerbating and inflating the retirement issue, which is a 
separate question.
    Chief Morse. Okay. The easiest way to explain overtime and 
staffing is, we have a mission; and what that means is, a door 
is a mission. And there is an assignment of personnel to that 
door and a number of hours. Our current staffing does not meet 
that mission, so the gap in between is overtime.
    The current overtime request with our staffing still does 
not get us to our mission. So, in other words, with $29 
million--although, in the $29 million, the increase is from the 
COLA and stuff from this year, and then there are some 
specialty projects with the AOC that we are doing that will 
require overtime. So that is where the increase is.
    So, every time you add officers, you get closer to covering 
all those missions. The closer you get to covering all those 
missions, the lower overtime gets.
    Ms. Wasserman Schultz. Right.
    Chief Morse. The less officers you have and the more 
missions that come in--the threat changes or we have 
unpredictable sessions or we have demonstrations that occur--
then the mission keeps spreading and the overtime keeps getting 
higher.
    So when we request additional officers, we have restraints 
on how many we can ask for. I could ask you for 350, which 
would get us all the way to the end, but I could never recruit 
that many, I can't train that many, there are general expenses 
associated with that, and salaries. You would still have 
overtime, though, because you still have things you can't 
predict.
    Ms. Wasserman Schultz. Oh, yeah. I mean, I am not 
suggesting that we could eliminate overtime.
    Chief Morse. Yeah, I am trying to give a very simple answer 
to a complex question. So we----
    Ms. Wasserman Schultz. If we added 52--I am sorry to 
interrupt you.
    Chief Morse. Sure.
    Ms. Wasserman Schultz. If we gave you the 52 officers--and 
I assume you are asking for 52 officers, which is, sort of, the 
maximum that you think you could absorb now and train and fund.
    Chief Morse. Along with attrition.
    Ms. Wasserman Schultz. Along with attrition. Then would the 
$29 million go down if you have 52?
    Would you need $29 million if we gave you 52 officers?
    Chief Morse. Yes. The reason why is because you don't hire 
all those 52 at the beginning of the fiscal year. They are 
hired throughout the year. And then there is approximately--
once they are finished training, FTO programs, et cetera, you 
are looking at about 30 weeks. So you don't reap the benefits 
of a full year of 52 additional officers until your following 
year. So you would get some benefit from that as they came on, 
but you wouldn't get the full benefit of those 52 until the 
following year.
    But you have to also remember that, whenever a request to 
increase the mission--in other words, unfunded mission--comes 
in, that absorbs that and can, sort of, counter that.
    So, that is my simplest explanation of it, is, mission is 
here; overtime gets us as close to that mission as we can 
without hiring more people.
    Ms. Wasserman Schultz. Okay.
    I am over time. Mr. Aderholt, I wanted to finish this last 
piece of my question. It is only you and me here anyway.
    What is the number of officers that we could give you--
which I assume we could not really give you all in 1 year; or, 
depending on the allocation, I guess we could--that would allow 
us to put our finger in the dike of increasing overtime, let 
you over a few years ramp up to the amount of officers on the 
force that you need, you know, barring unforeseen security 
issues, so that we have a more predictable and reasonable 
overtime budget that we can count on?
    Chief Morse. With the existing.
    Ms. Wasserman Schultz. Yes, under existing mission 
requirements.
    Chief Morse. Under the existing mission requirements, with 
the exception of any unexpecteds, because I can't predict what 
may or may not happen, we could give you a number of officers 
we would need that would give you sort of a correlated 
overtime. So, as an example, I could say, if you give me 150, 
the overtime would be this. If I gave you 200, the overtime 
would be this.
    But let me just add this, there are things we can do, and 
there are things that we are doing and continue to do to 
generate more officers through things that we are already 
doing. One example is we just completed--or at least I was told 
it is completed and with the Assistant Chief now--an assessment 
of the Library of Congress because we completed our merger. So 
we did an assessment of that division. What our assessment 
tells us, without diminishing security at the Library of 
Congress, without diminishing that, is that we will be able to 
put 20 officers back into the field other than that division.
    Ms. Wasserman Schultz. Okay.
    Chief Morse. But there is a process that we have to take 
yet, and I have to speak to my board. We have to speak to our 
union, and we have to make sure that it is absolutely correct, 
but it looks like it would yield that. We are looking at 
technologies, obviously, that input more officers, so we still 
have a little bit of work to do on that, and we are doing it 
and have done it.
    The other thing is the consideration of changing sort of 
the hours of operations of doors, et cetera, so we are working 
on proposals for, for instance, our lowest access doors at 
certain hours, and could we, for instance, close those because 
of the access level, pedestrian access level, and move those 
officers toward the more busy hours and the higher threat 
hours? So we have a proposal that we are working on with that, 
too, that we are going to submit.
    So I think that we need to really flush those things out 
first and make sure that we are utilizing our people the best. 
And with the help of the oversight committees, hopefully, 
maybe, we can change some of the environmental things that we 
have been dealing with for many, many years. I mean, the hours 
of operation of the doors, in many cases, have been the same 
since I was an officer in 1985, so perhaps we need to look at 
that and see if it should change. That is what we are doing.
    Ms. Wasserman Schultz. I would just like to work with you, 
to the degree that we have a role in this since we provide the 
budget for it, to more effectively help you adapt and to have 
us have more predictability so that we are not--I mean, I just 
think that using overtime over the long term to solve our 
mission gap problems is not responsible.
    Chief Morse. The other piece here is, as we grow--you know, 
we have grown out of facilities space. So there is a master 
plan. I have worked with the Architect of the Capitol and their 
planners in developing plans for a new headquarters building, a 
model for that, should the need exist for the expansion. 
Certainly, you know, we feel like we need it now, but we also 
understand the way times are now. So we are very respectful of 
that and are very humble with what we have.
    So, if we expand with officers, it does have a facilities 
requirement attachment to it as well, but we have this 
information, and we would definitely be able to answer any of 
your questions and would be able to provide you with any 
details that you would need to make decisions.
    Ms. Wasserman Schultz. Great.
    I have long since past gone over my time. I am so sorry.

                             POLICE MERGER

    Mr. Aderholt. It has been roughly 6 months since the merger 
of the Capitol Police and the Library of Congress Police.
    Can you bring us up to date on how things are going with 
the merger?
    Chief Morse. I mentioned one just a second ago.
    We completed our assessment, our manpower assessment. We 
are reviewing that now, and that is from the sworn perspective 
and the mission, without diminishing it; the transition was 
smooth. We have some continued work to do with the 
communications piece of this and a similar assessment with 
communications. We are working and have been to transition the 
command center and to become unified in that. So we are on 
track with and are taking measures to sort of complete the 
operational transition of this. There have been no other 
issues.
    We had, when you talk about a seamless transition of 
security, we had one of our officers the other day who, in 
doing his screening process, observed an individual enter the 
building, and he was involved in a bank robbery just a few days 
before. So the transition has occurred. They are proud to be 
U.S. Capitol Police Officers. We are proud to have them, and 
they are doing a wonderful job. So we continue to work on the 
transition of mission.

                   OFF-SITE DELIVERY SCREENING STUDY

    Mr. Aderholt. I know the Architect of the Capitol is 
requesting $1.7 million to further study and develop a program 
of requirements for an off-site delivery screening center.
    What are the current problems that exist, as it is today, 
that would facilitate the need for this new screening center?
    Chief Morse. Well, the model that we are looking at is with 
regard to security and enhancing our security capability to 
screen items, both perishable and otherwise, that come to the 
campus before it gets here and to be able to do that very 
expeditiously and very safely and, you know, to continue to 
facilitate the services that you see now without any 
interruption. But the concept is about the safety and security 
of the campus and doing the screening at an off-site facility 
at a higher level and being able to get it here without some of 
the gaps that we face now. So it is an enhancement of the 
security process.
    Mr. Aderholt. So the gap seems to be that there are 
problems with the current system.
    Chief Morse. Right. We have filled those gaps, but those 
are temporary in nature and not sustainable. So, therefore, we 
need a more robust capability with respect to off-site 
screening and so forth. I believe the study that is requested 
is specific to, you know, the building size, the type of 
operation that needs to take place and how that takes place in 
order for it to be a very efficient process so that we don't 
see any impact here with the services that are provided by 
vendors and such.
    Mr. Aderholt. Has that been studied in the past, or is this 
a study that you are undergoing right now?
    Chief Morse. As I recall--and it has been some time ago, 
maybe 4 to 5 years ago, and before I was chief, I did read 
studies that were more about the concept of, what type of model 
do you need? Do you need a complete transfer model where 
government trucks bring things in after they are screened? Do 
you need a hybrid method, meaning some things are and some 
things are not? And then sort of assessing the various current 
and emerging threats.
    This particular request came from a task force looking at 
how the operations of this off-site would actually occur. So 
the actual physical operations and demands of an off-site like 
that and how to most effectively and efficiently run it.

              DESIGN FOR NEW CAPITOL POLICE RADIO PROJECT

    Mr. Aderholt. We talked about the radio modernization 
program just a minute ago. Have they now completed a detailed 
engineering design for the radio system?
    Chief Morse. They have.
    Ms. Jarmon. Yes, they have completed the detailed design 
engineering for the radios.
    Mr. Aderholt. So that has been completed?
    Ms. Jarmon. Yes.
    Mr. Aderholt. When will the procurement for the radio 
equipment begin?
    Chief Morse. In fiscal year 2011, we are going to see a 
significant increase in obligation plans. That is where a 
significant bulk of the money will be spent. Up until now, we 
have had obligation plans that have included, obviously, the 
concepts to operations, the build-outs of the mirror sites and 
the main facility in Manassas. We are now seeing obligation 
plans begin to affect the construction of the project itself, 
as in the recent obligation plan that was submitted, but in 
fiscal year 2011, we will see a large bulk of the money begin 
to actually build out the project.
    Mr. Aderholt. Has my time expired? You are being a little 
lenient.
    Ms. Wasserman Schultz. I went for a little more than my 
time.
    Mr. Aderholt. Okay.

       THE ARCHITECT OF THE CAPITOL AND THE POLICE RADIO PROJECT

    The Capitol Police, the Architect and, of course, now the 
mayor all have been critical in putting this radio system 
modernization program into place.
    Has that worked? Has the relationship between those three 
entities there gone well? How would you characterize that?
    Chief Morse. I think they have a good working relationship, 
and I think that--I haven't been told of any differences, but 
as you know, we work with the Architect of the Capitol all the 
time, and they are great partners in everything that we do. I 
don't just say that because Mr. Ayers is in the room.
    Mr. Aderholt. I am sure you would say that even if he were 
not here.
    Chief Morse. Yes, I tell him that all the time, and I tell 
his people that.
    We have a good working relationship. We have a good liaison 
with each other, and we work very closely with each other. Now, 
there is obviously someone who has been working on other 
projects here who we have a good rapport with. So, if there are 
any difficulties that are currently existing, then I don't know 
about them. I would have to turn to Ms. Jarmon to ask her, you 
know, specifically if there is anything that I am unaware of.
    Ms. Jarmon. We work hard there in AOC to make sure we 
address any issues or concerns, so I feel like all of the 
issues or concerns that have happened are ones that we have 
been working on with them and are trying to resolve, so there 
are none that, I think, are unresolved or that can't be 
resolved.
    Mr. Aderholt. Are there some things that you can do, Chief, 
in your role, to make sure that this is put into place in a 
timely fashion?
    Chief Morse. Yes.
    One thing I recently did--and I am talking last week--is I 
talked to Ms. Jarmon about this, and we felt it was the best 
course of action so that we could focus more on the 
administrative responsibilities. This is regarding the 
executive sponsor of this program, meaning the single point of 
contact as to where the buck stops. Unless they are, you know, 
communicating to me, it is now the responsibility of our CIO, 
who was a part of this project in the first place.
    I feel that the CAO, in being executive sponsor of such a 
large project and with all the other issues that we need to 
deal with in administration, is not good for the project or for 
the administrative side of the House. So I changed the 
executive sponsor, and have the person reporting to me and my 
executive staff directly on a weekly basis to ensure that every 
aspect of the project is covered, and that it is what I want it 
to be and what the committees want it to be--on time and within 
budget. So I think that my involvement in it is more direct 
now, and the executive team's involvement will be on a weekly 
basis with progress reports.
    Mr. Aderholt. All right.
    Thank you, Madam Chair.
    Ms. Wasserman Schultz. You are welcome.
    Chief, continuing to focus on the radio project, you have 
asked for just about $16 million for the common phase of it. 
Most of the bulk of this project, $71.6 million, was funded in 
2009, which are the infrastructure changes that are necessary 
to support the new radio system.
    Are those funds going to be transferred to the Architect 
because that is really for indoor infrastructure work?
    Chief Morse. Yes, ma'am.
    That money is critical in fiscal year 2011 because, in 
fiscal year 2012, there is only about $1.7 million left to 
complete the project. In other words, that is when it is 
supposed to be completed. That is what we expect. So, once we 
get to the point where the $16 million will be used, it would 
be inclusive, you know, of an obligation plan directly related 
to the work that NAVAIR is doing.
    Ms. Wasserman Schultz. And the schedule of that phase of 
the project is through 2011?
    Chief Morse. Yes.
    Ms. Wasserman Schultz. Then it would be just the last 
little bit that would be in 2012?
    Chief Morse. Right.
    Ms. Jarmon. Some of the indoor coverage work may actually 
start sooner than later. It could actually start in the 
beginning of 2011 rather than toward the end.

                       CAPITOL POLICE RETIREMENT

    Ms. Wasserman Schultz. Okay.
    I just have two more questions. I do want to address the 
police retirement issue with you.
    Year in and year out, we have heard concerns and complaints 
about the failures of the current retirement system that is 
used by the Capitol Police. There was a troubling article in 
the newspaper today. We, obviously, are concerned when there 
are officers who are leaving the force who have trouble making 
ends meet. Now, that is the case with a lot of people in this 
country today, so it is at least, in part, understandable. But 
your spokeswoman made it clear in the same article that the 
Capitol Police retirement plan is exactly on par with other law 
enforcement plans, with other Federal law enforcement plans, 
which would logically lead me to ask you, are all of the 
Federal retirement plans subpar compared to other police 
agencies or, quite frankly, compared to government retirement 
plans in general?
    I mean, I understand you have an officer who doesn't have 
his or her overtime counted, and you have a requirement to 
retire at 57. So there is, you know, an artificial depressed 
period of time. They lose those 10 years that non-sworn 
officers who are Federal employees have to add to their 
retirement years, which are productive years. So they don't get 
that. They get an extra boost because of the nature of their 
work, but they lose 10 years of that boost because they have to 
retire at 57, which is 10 years or so.
    So is there a problem here?
    I recognize also that there are plenty of people, whether 
they are police officers or not, who simply do not plan for 
retirement, ignore it, like people who are young and healthy, 
who feel they are invincible and will never get sick, so they 
don't have health insurance. There are people who are young, 
who are not thinking about the fact that they may one day 
retire and may need to actually have money to survive.
    So what is really going on here?
    Chief Morse. Yes.
    First of all, I was extremely disappointed in the article 
this morning because that is not my position, so I don't know 
where they got that.
    Ms. Wasserman Schultz. From your spokesperson, you mean?
    Chief Morse. No. My spokesperson's responses really come 
from the OPM and the GAO report.
    Now, do I know exactly what other Federal law enforcement 
agencies get? No, not unless I read the report.
    But let me say this, so that the article is correct the 
next time: I support anything that is good for my police 
officers, okay. I have been here 25 years. I know how difficult 
it is, and I know what they experience when they leave here. So 
it is very important to me that, if there is something out 
there that is good for them, it is good for me, but I think 
there is a lot of work to do.
    What I said is that I have worked with the chairman of the 
union to provide them and support them with information that is 
needed for them to put together or to even examine what might 
be able to be done, if anything, to improve the system or 
understand the system better. I think that is where we are, and 
that is inclusive of the two reports we cited.
    But of course I support our officers and their needs, and 
the story this morning was certainly something that we do see 
across the Nation, and it is concerning.
    So by putting it into perspective with respect to the 
questions that you are asking, those are the types of things 
that would have to be fleshed out, is, you know, what we have 
versus someone else and those types of things. What I do know 
is that we have made tremendous strides, especially since I was 
an officer, but our Federal law enforcement status was not 
something that we had before, and that is a compatibility. It 
may not be in money or percentage, but it is a compatibility.
    The other thing is, we try to make sure, through entry 
level and in training and then through retirement seminars, to 
inform the officers of what their retirement is. Whether it is 
good or bad is irrelevant. What is it? What does it provide for 
you? How do you go about making the best decisions throughout 
your career? That is our responsibility. I think we do a very 
good job of that.
    Ms. Wasserman Schultz. There was an officer in the article 
who said that he probably could have planned better for 
retirement than he did. I mean, that is the case with a lot of 
people, but you know, if you end up with $38,000 a year in this 
environment and if you have a financial burden of children and 
a home and a spouse who doesn't have a job, all the awareness 
in the world of what you are facing upon retirement isn't going 
to change the $38,000, and it isn't going to get you through 
your retirement years.
    Chief Morse. Right.
    If I am not mistaken, I think the officer who was mentioned 
may have served this country in two different capacities, both 
in the military and here. You know, it is an inherently 
dangerous job. We know we have to work long hours. We know it 
is dangerous. I mean, that is what we do and who we are, but 
there are futures, you know, of these people, which are of 
concern, and I think that, you know, it requires close 
attention.
    Did I say that I am adamantly opposed? No, I did not. To 
say that I am interested in having something to make a decision 
on, if any, is reasonable.
    Ms. Wasserman Schultz. Are there any reports which you 
think need to be done, any formal examinations of the current 
retirement system for the Capitol Police, which would be 
helpful so that you could, for example, compare and contrast 
and also use that information so that, in going forward, if 
there are changes which are necessary on the authorizing side 
and then as well on the appropriations side, we can act on 
those?
    Chief Morse. Well, I think that we--I guess we first need 
to understand some of the questions that you asked: What are 
the answers to those questions? I mean, what are the 
comparisons? Who are we comparing ourselves to? What are those 
comparisons? Are they different? How are they different?
    Ms. Wasserman Schultz. When is the last time anything like 
that was done?
    Chief Morse. The only two--well, the two reports that I 
have seen, I believe--and I am not sure of the names of them, 
but I believe there is an OPM and a GAO report on the 
retirement systems.
    Ms. Wasserman Schultz. Do you know when those were done?
    Chief Morse. I thought I had it with me, but I don't.
    Ms. Wasserman Schultz. The law changed in 1990, right? The 
last time there was a specific modification to the retirement 
plan in law was in 1990; is that right?
    Chief Morse. Well, I know that the retirement changed two 
classes prior to me in 1985 because my assistant chief is a 
CSRS and I am FERS, so we are different. So I know that that 
piece of it has changed. The Federal law enforcement status----
    Ms. Wasserman Schultz. I will bet he hangs that over your 
head all the time.
    Chief Morse. He does. What is really impressive is he could 
have left 2 years ago, but he is still here, so that shows his 
true commitment.
    Ms. Wasserman Schultz. It does.
    Chief Morse. I am not sure of the exact date of the change, 
but it was in the 1990s.
    Ms. Wasserman Schultz. Okay. Would you give me answers to 
those questions for the committee, for the record?
    Chief Morse. Absolutely.
    Ms. Wasserman Schultz. I don't want to hastily put together 
a homework assignment on this, but I would like to work with 
you to figure out what does need to be examined on the 
retirement system and since there are disputes over the content 
and over the facts in the article, notwithstanding that the 
police union raised this issue with us. It does seem to be of 
concern. We should make sure we are on top of it, because I am 
not someone who likes to let something fester for a bunch of 
years while we argue over whether it is or isn't true. Let's 
just take a look at it so we can see if there are any 
modifications that we can make to improve the retirement of the 
Capitol Police Officer.
    I only have one more question.
    [Clerk's note.--A further explanation by the Capitol Police 
follows:]

    (1) When did OPM and GAO report on the retirement system come out?
    OPM--Federal Law Enforcement Pay and Benefits (Report to Congress) 
July 2004
    This report responds to section 2(b) of the Federal Law Enforcement 
Pay and Benefits Parity Act of 2003, Public Law 108-196, which calls 
for OPM to submit a report to Congress providing a comparison of 
classification, pay, and benefits among Federal law enforcement 
personnel throughout the Government and to make recommendations to 
correct any unwarranted differences.
    GAO--Federal Law Enforcement Retirement (Information on Enhanced 
Retirement Benefits for Law Enforcement Personnel) July 2009
    This report addresses (1) the processes used to grant enhanced 
retirement benefits to federal law enforcement personnel, (2) the 
rationales and potential costs for extending benefits to additional 
occupations, and (3) the extent to which federal agencies used human 
capital tools to retain law enforcement and other related personnel. 
GAO reviewed relevant laws, regulations, and other documentation, such 
as agency reports describing the processes used to grant enhanced 
benefits.
    (2) When was the law changed?
    The Capitol Police Retirement Act (Public Law 101-428, October 15, 
1990) added Capitol Police to the retirement statutes as a new group 
subject to special retirement provisions equivalent to those applicable 
to LEOs.
    Public Law 101-428 did not include Capitol Police in the CSRS or 
FERS definition of ``law enforcement officer'' set out at 5 U.S.C. 
8331(20) and 8411(17). Instead, Capitol Police were added to the 
retirement provisions as a distinct group, separate from law 
enforcement officers. Capitol Police are entitled to early retirement, 
an enhanced annuity computation (at the same accrual rate as other 
LEOs), and maximum entry age and mandatory retirement provisions that 
are similar to the LEO provisions. A member of the Capitol Police may 
retire at age 50 with 20 years of LEO service or, under FERS, at any 
age with 25 years of LEO service. A Capitol Police officer is subject 
to mandatory retirement when the officer reaches age 57 and has at 
least 20 years of LEO service. If the Capitol Police Board finds that 
it would be in the public interest, the Board may exempt a member of 
the Capitol Police from mandatory retirement until age 60.

    Mr. Aderholt. I don't have anything else.

                   GOVERNMENT PRINTING OFFICE POLICE

    Ms. Wasserman Schultz. Okay. Thank you.
    The last question I have is related to the GPO and their 
police force.
    We had the GPO police union in front of the committee in 
February. We have them every year. They have the same 
complaints and concerns every year, and it doesn't seem to 
improve. When I asked them if they were open to the idea of 
merging with the Capitol Police, in which we have a success 
model that we have been through with the Library's police 
force, the chairman of the police union was very responsive. I 
know there were some old reports that looked at that as an 
option. I think they are really old, and I think it was just 
GAO that looked at it. I know you and I talked about it.
    Are you willing to do an examination or some kind of 
internal study on whether that would be feasible, from your 
standpoint, from the Capitol Police's standpoint? Because we 
are going to be asking the GAO to refresh their study and to 
look at it again.
    You know, I am skeptical as to whether it makes sense to 
continue to have a separate police force. Even though they are, 
you know, not part of the direct campus of the Capitol complex, 
we are still really sort of all within the legislative branch.
    Do you still store vehicles in there?
    So there is a connection that you have to their facilities.
    Quite frankly, you know, in the first year that I chaired 
this subcommittee, it was really alarming--and we had to take a 
step statutorily to correct it--that they were leaving the 
passport facility guarded by security guards and not sworn 
officers. And had we not had a public witness hearing in which 
that concern was expressed by the union, that would have 
continued. We all know that, following 9/11, that is obviously 
a very significant issue, the security of passports. In fact, I 
am still concerned that there are not sworn officers guarding 
the facility in Mississippi, but that was not something we 
could get the Senate to agree to.
    So, anyway, is that something that you think you could 
internally review and could report back to the committee on as 
to the feasibility?
    Chief Morse. We have the capability of looking at it from a 
physical securities perspective and jurisdictional perspective, 
from a staffing perspective and mission requirements. That is a 
piece that we can offer should you request us to do so.
    Ms. Wasserman Schultz. That would be great. Consider it 
requested.
    Chief Morse. Okay.
    Ms. Wasserman Schultz. We will write up, you know, a formal 
set of questions that we would like you to review.
    So, great, I don't have any additional questions.
    Mr. Aderholt. There may be some questions I might submit 
for the record but not other than that.
    Ms. Wasserman Schultz. Okay. Great.
    Again, please give our huge thanks and appreciation to the 
entire police force, to the management, to the sworn and non-
sworn staff. We just can't thank you enough for your effort and 
for your hard work.
    I hope the Capitol Police force feels that the Members have 
their backs. As cranky as some may get when they are asked to 
walk through a magnetometer, you know, which is annoying and 
frustrating, at the end of the day, we should all know that 
that is what keeps us all safe.
    We really appreciate how you go above and beyond the call 
of duty. So thank you.
    With that, the subcommittee stands adjourned until the next 
committee hearing.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                         Wednesday, April 21, 2010.

                          LIBRARY OF CONGRESS

                               WITNESSES

JAMES H. BILLINGTON, LIBRARIAN OF CONGRESS
JO ANN C. JENKINS, CHIEF OPERATING OFFICER, LIBRARY OF CONGRESS

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. I am pleased to call to order this 
hearing of the Legislative Branch Subcommittee of the House 
Committee on Appropriations.
    This afternoon, we are going to hear from Dr. Billington, 
the distinguished Librarian of Congress about the Library of 
Congress's proposed 2011 budget for the fiscal year. We will 
also hear the budget presentation from Open World as well. 
Last, but not least, from Bob Tapella, the Public Printer, 
about the Government Printing Office's fiscal year 2011 budget.
    Before we go forward, though, I do, Dr. Billington, want to 
take a point of personal privilege and celebrate the 
retirement, the progress, the moving forward, of Jo Ann 
Jenkins, the very, very capable Chief Operating Officer of the 
Library of Congress. She has been a true professional and an 
incredible person to work with, someone I really enjoyed 
getting to know, and look forward to working with in your new 
capacity at the AARP Foundation.
    So thank you very much. I bet you are not sorry that this 
is your last hearing before the Legislative Branch 
Appropriation Subcommittee. You don't have to respond to that.
    Just to review what we are considering here today with the 
Library of Congress, the Library is requesting $674.8 million, 
which is a 4.9 percent increase. Now, and I know Dr. Billington 
believes that that was a small increase that recognizes the 
tight fiscal year that we are in, and we appreciate that, and I 
know it does represent a belt-tightening process that was 
difficult for everyone. That being said, it is a very difficult 
fiscal year, and we are going to have to make some really tough 
decisions. We are normally in a situation where we have to 
decide between nice-to-haves and got-to-haves, and this year is 
no exception to that. But we are even going to have to probably 
go beyond the just cutting nice-to-haves and even cutting some 
things that we know we would need to have, but maybe we don't 
need them right now. So it is with that in mind that we will go 
through this process this morning.
    A major focus of the Library budget was increased staffing 
and information technology upgrades for the Congressional 
Research Service. The CRS portion of the Library's request is 
$119.9 million, which is $7.4 million or 6.6 percent above the 
current fiscal year. Staffing is going to be very difficult. 
All the agencies, virtually all the agencies, have asked for 
additional FTEs. That is going to be very tough for us to 
accomplish in this budget this year.
    I am glad to see that a telework agreement was finally 
reached with the employees of CRS. I think it took longer than 
it should have, but I am glad that it is there. It is not a 
perfect plan, but there is plenty of room for improvement. I am 
just glad that our subcommittee was able to help be the 
catalyst to ensuring that the employees of CRS have a telework 
opportunity.
    Before I conclude, I really want to commend you, Dr. 
Billington, for introducing children to the Library of 
Congress. America's children, I know, have always been 
incredibly important to you. The opportunity to host the First 
Lady at the Library of Congress recently, where she read to 
children, was incredibly special. I know it was incredibly 
special for you. She read Dr. Seuss, which is neat.
    Mr. Aderholt and I had a chance to be there for the opening 
of the Young Readers Room in October of last year. So thank you 
so much for really opening the Library and all its treasures of 
every definition and every stripe to the next generation of 
Americans so that we can all continue to be passionate 
supporters of reading and of literature and of preserving the 
treasures that you have been protecting for so many years.
    So, with that, I welcome Mr. Aderholt to make any remarks.

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. Thank you, Madam Chair.
    It is good to be here today and have you before our 
committee, Dr. Billington and Ms. Jenkins.
    Dr. Billington, of course, your service and dedication to 
the Library of Congress is well known, and we do appreciate 
your service. I know we say that, but we can all say it because 
we mean it. We do thank you for your service, and your 
reputation is well known.
    Of course, again, Jo Ann, congratulations on your new 
position at the AARP Foundation. We look forward to seeing you 
around. Hopefully, you won't be going far away, but we are glad 
you were able to get this position. And so we congratulate you 
for that. You have done a tremendous job in your, what, 15 
years of service at the Library of Congress.
    Ms. Jenkins. Yes.
    Mr. Aderholt. We appreciate the service that you have 
rendered over the last 15 years. We look forward to working 
with you maybe in a different capacity.
    Again, thank you all both for being here. We look forward 
to your testimony and working with you on this FY 11 budget.
    Ms. Wasserman Schultz. With that, Dr. Billington, you can 
proceed with a 5-minute summary of your statement, and your 
full statement will be entered into the record.
    Dr. Billington. Thank you, Madam Chair.

               Opening Remarks--The Librarian of Congress

    Madam Chair, Mr. Aderholt, members of the subcommittee, it 
is really an honor to be here to present the fiscal year 2011 
budget request for the Library just 3 days before the 210th 
anniversary of its birth as America's oldest Federal cultural 
institution later this month.
    This will be, as you noted, the last time I will be 
accompanied by our esteemed Chief Operating Officer. And I just 
add my words of appreciation and admiration as she moves 
forward after 15 years of really outstanding service to the 
Library and to the Nation.
    Among those who are here today that you will not have seen 
before, I call attention to Roberta Shaffer, the new Law 
Librarian of the Library of Congress. And I will also mention 
two others who are not here but have provided exceptional 
service to the Library for 20 years and whom I just named 
yesterday to assume in June new responsibilities and membership 
on the Executive Committee: Robert Dizard, who will become 
Chief of Staff, and Lucy Suddreth, who has worked with our 
esteemed Chief Operating Officer but who will become the Chief 
of Support Operations.
    So we have a good team for the transition, but we are 
noting with sadness the departure of our esteemed colleague 
here, Dr. Jo Ann Jenkins. I call her doctor because she had 
some medical procedures with her eyes, but she came back to be 
here.
    Anyway, recognizing the difficult budget environment, we 
are presenting a relatively lean funding request, I think. We 
compute it as a 4.6 percent increase over fiscal year 2010; 58 
percent of it is for mandatory pay raises for our excellent 
staff; 16 percent is for addressing urgent congressional needs 
in our CRS; and the smaller remaining requests are largely to 
strengthen staff management capabilities and to support clear 
Library-wide priorities and ongoing, already existing 
activities. These latter requests are mostly for people 
urgently needed by an institution doing many times more work 
with 1,076 less employees than before we began our massive 
digital activities in 1992.
    Madam Chair, the Congress of the United States has been, 
quite simply, the greatest patron of a library in human 
history. It has created, and thanks to this committee and your 
leadership, sustained the largest and most inclusive and best 
preserved record in one place both of the world's knowledge, in 
multiple languages and formats, and of America's private-sector 
creativity. In many ways, the Library contains our Nation's 
strategic information reserve, preserves the cultural patrimony 
of free and diverse people, and is something of a lighthouse to 
the world for our open society and knowledge-based democracy.
    We are now nearing completion of a focused effort that I 
initiated 10 months ago collaboratively to address Library-wide 
management requirements. We will shortly have a mid-course 
revision of our strategic plan extending to 2016. Strengthening 
our governance and investment processes in information 
technology has been a high priority in this review in order to 
meet the objectives of the funding that you, the committee, 
have generously provided for us. Earlier this year, I also 
initiated an effort more fully to integrate the Library's Web 
presence and activities into the central core of the Library's 
work and management structure and across the entire Library.
    For the last 20 years, we have been superimposing in effect 
a new digital library on top of our traditional artifactual 
one. We have created a National Digital Library of 16 million 
additional original documents of American history, and, just a 
year ago today, unveiled in Paris, to what I am told is the 
largest international media audience ever seen at UNESCO 
headquarters, a World Digital Library with UNESCO including 
some material from all 193 U.N. countries, with clear, expert 
commentary in seven languages.
    The Library of Congress now has enormous digital content 
holdings and works with 170 partner institutions in our 
congressionally mandated roles to develop a national program to 
archive important online materials. But in the past 10 years, 
global book publishing has also increased by 40 percent. Much 
of that increase is in the less developed part of the world 
that is emerging with many problems and without nearly as much 
awareness in the outside world as is necessary. Digital 
information, of course, will never replace our heritage assets, 
the unique, original physical records that are often one-of-a-
kind artifactual collections.

                          FORT MEADE MODULE 5

    Our most critical material need and highest mission 
priority this year is for Fort Meade Module 5, as requested in 
the Architect of the Capitol's fiscal year 2011 budget. We are 
already 8 years behind in the storage schedule for Fort Meade 
that we established with Congress in 1997. The already 
functioning modules are efficiently compacted. They are 
magnificently controlled for preservation. And they have 
provided, so far, prompt, 100 percent delivery to our Capitol 
Hill reading rooms of all materials requested. This fifth 
module is essential if we are to sustain our core mission of 
preserving and making accessible the collections needed both 
for present and for future generations.
    The Library of Congress is the only institution in the 
world capable of sustaining collections on the scale we do. Our 
key role for America in the information age could be 
compromised, perhaps irretrievably, if the original written and 
published materials in our collections, which often provide the 
only permanent and tamper-free records of human creativity, 
continue to be stored on the floor of existing buildings and 
effectively removed from either inventory or access.
    We do not keep everything, I will assure you, and we are 
currently reexamining our acquisitions policy. Thanks to this 
committee's wonderful support, we already have not only some 
preservation storage modules at Fort Meade but also in 
Culpeper, the world's biggest and best facility for audio-
visual conservation. But we must continue to grow and house our 
artifactual collections if they are to remain usable for 
Congress and the Nation, and we will continue to need space to 
store them.
    Madam Chair, members of the subcommittee, thank you, again, 
for your support for the Library and for your consideration of 
our fiscal year 2011 budget. I will be happy to answer any 
questions.
    [Dr. Billington's and the Library's other prepared 
statements follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Wasserman Schultz. Thank you very much, Dr. Billington.

                    CRS REQUEST FOR ADDITIONAL STAFF

    I have a series of questions. The first one is related to 
CRS's budget request. They are asking for an additional 17 FTEs 
this year; 17 FTEs for next year as well. Certainly, we all 
could be more efficient and productive if we had more staff. I 
know I would love to have some more staff. I know my staff 
would love to have more staff. But this is a difficult fiscal 
environment.
    Do you have Member requests, does the CRS have Member 
requests that go unanswered? Under the current staffing model, 
what are they not able to do that these 17 FTEs will allow them 
to do? And was there a survey done in the issue areas, in the 
subject matter areas, that you have requested the increased 
staffing, because the increased staffing was asked for in 
science and technology; health; financial, economics and 
accounting; and labor and immigration? Who decided those were 
the areas that were necessary?
    Dr. Billington. Let me briefly answer, then perhaps 
Director Dan Mulhollan of CRS can answer in more detail. 
Fundamentally, this is our response, the Library's and CRS's in 
particular, to your requests. By ``you'' I mean the plural of 
Congress's requests, which come in daily and are evaluated on a 
running basis by the staff. So it is our response to what is 
most requested and for which we most need added help. The only 
other thing I would point out is that in this staff decline of 
more than a thousand that has occurred, there has been an 
enormous increase in requests from Congress. Half of this 
request is for upgrading the digital, essentially the delivery 
of information, and the other half is for personnel. CRS, next 
to Library Services, has accepted a fairly sharp decline in 
personnel while at the same time seeing an increase in 
Congressional requests, particularly in science and technology 
and things that require large statistical analysis and 
projections, and the integration of that kind of material with 
the broader cultural and historical material that lies at the 
background.
    Ms. Wasserman Schultz. Was there any outreach to Members of 
Congress, specifically, to ask them about, for input on what 
areas were lacking?
    Dr. Billington. Yes. I think maybe if Mr. Mulhollan will 
step forward.
    Mr. Mulhollan. The answer is yes and yes.
    Ms. Wasserman Schultz. Can you state your name for the 
record?
    Mr. Mulhollan. Dan Mulhollan, Director of CRS.
    First, to your point, you are exactly right: What do we 
need now and in the immediate future? That is what we are 
asking for. We have not asked for positions for the last 
several fiscal years, so we established a group of our mid-
level managers to recommend, in consultation with staff, the 
appropriate staffing not just in the next fiscal year but also 
the years to come.
    We considered the kind of questions we have received across 
a large number of areas, from security to energy to health.
    In health care reform and financial reform haven't had a 2-
day weekend for a year. Much of the major health care reform 
implementation will not be effective until 2014 but a lot of 
complex questions are being raised, and regulations will have 
to be developed. Financial reform support calls for 
sophisticated accounting capacity. We are asking for expertise 
in disciplines that we do not have now but that we have 
determined we will need in the future, as well as expertise in 
certain areas, such as energy and information security, that we 
will need for the future.
    We have done this knowing full well the seriousness of the 
fiscal situation. But I believe the seriousness of the 
questions Congress faces, we can help. And your point with 
regard to staff of each Member, we, as shared staff, are cost-
effective: we serve both majority and minority; we serve every 
committee and every Member. For example, a physicist in CRS can 
help the House Science Committee as well as Energy and 
Commerce.
    Ms. Wasserman Schultz. My time is just about to expire, and 
I know Mr. LaTourette will ask you about the survey. So I won't 
steal his thunder.
    Mr. Aderholt.

            IMPACT OF DIGITAL TECHNOLOGY ON LIBRARY MISSION

    Mr. Aderholt. One thing that I did want to ask about was 
the digital technology and the growth of digital technology and 
digital content and how that has really changed the mission of 
the Library and how that has made some direct impact on the way 
the Library of Congress has operated today as opposed to the 
way it operated say 50 years ago. So could you talk a little 
bit about that?
    Dr. Billington. Yes, gladly. The advent of the real digital 
revolution in the generation and communication and storage of 
knowledge has added a new dimension, but it has not changed the 
fundamental nature of the mission of the Library of Congress. 
The leadership role that we have exercised in the government, 
in getting out in front incorporating the virtual and digital 
world into the information storage and the sharing of Library 
of Congress materials with the general public and with Congress 
has strengthened our performance of the mission without 
basically changing it.
    The essential mission is to acquire, preserve, and make 
accessible the world's knowledge and America's creativity. Now 
what that means, so much of it is now digital, that it 
supplements but does not supplant the traditional artifactual 
culture.
    We had another revolution really in the 20th century, the 
audio-visual. We incorporated that. The early records of the 
Library of Congress were almost entirely written and published 
material, verbal material. We added the audio-visual dimension 
in the early and mid-20th century. At the end of the 20th 
century, beginning of the 21st, we are adding the digital 
dimension. But it is still, basically, a form of knowledge and 
so forth. And it is very subject to tampering and change in the 
way that the artifactual items are not. So preserving the 
original artifactual items is extremely important, even as we 
move into the digital world.
    The congressionally created National Digital Information 
Infrastructure and Preservation Program, which we are mandated 
to coordinate, now has 170 partners. We have an enormous 
storage of born-digital material. That is material that is only 
available in digital format. We have, as I say, 170 partners in 
44 States that are cooperating with us in storing this 
material. We are even adding some of the new media material 
beyond the traditional Internet.

          DIGITAL CONTENT SUPPLEMENTS ARTIFACTUAL COLLECTIONS

    But that is America, as a country, which in terms of its 
compilation and in terms of the ideas, it adds without 
subtracting. That is very unique in world history. It adds 
without subtracting. We supplement rather than supplant. And 
that is true of the history of technology, generally, in all 
kinds of revolutions. When movies came in, people said nobody 
would be interested in plays. When television came in, they 
said nobody would be interested in radio. You add without 
subtracting. There are still plays that have found new 
dimensions and radios have new kinds of audiences for people in 
traffic jams who have the radio on. So that is the distinctive 
thing about America, that we are a place that adds without 
subtracting.
    My predecessor had a wonderful phrase, the great American 
historian, Daniel Boorstin. He said, you can get all the 
information you want--or he foresaw this as happening--from a 
computer, but only from the older book culture will you be able 
to frame the unimagined question and accept the unwelcoming 
answer. That is almost a definition of a dynamic, self-
improving, constantly developing society.
    In incorporating that, now what we have done is brought 
forth old materials that have been half forgotten. We call them 
the American Memory, where we put these 60 million things, 
because the news media talk a lot about memory of the machines. 
But we are talking about the memory of ordinary people, from 
the national collection of the Library of Congress to great 
Presidential papers, in which we have only one-of-a-kind items. 
These aren't primarily books.
    We are taking the primary documents out to people, and that 
has a way of stimulating curiosity, questioning, and sustaining 
the values of the book culture, which are interactive, 
thinking, asking questions, seeing new vehicles of imagination 
and the history of our innovation. With memory, you don't know 
what is new until you know what there has been before. So we 
are in effect adding. That is why this module is so important.
    Mr. Aderholt. Number five?
    Dr. Billington. Module 5 at Fort Meade. Because, for 
instance, when we digitize things, we digitize a great many of 
the most interesting things. And even the World Digital Library 
in many languages is always accompanied by dependable 
commentary by experts and curators. This has a terrific kind of 
impact in getting people to think and sustaining the values of 
the book culture.
    Henry Steele Commager, the great American historian, once 
said America is the only world civilization whose institutions 
were entirely framed and conceived in the age of print. And the 
dialogic way in which the Founding Fathers debated in the 
Federalist papers you look at the rough draft of the 
Declaration of Independence with corrections by Adams and 
Franklin, and you realize you are dealing with something that 
was put together by debate and discussion and is ongoing, not 
that it is perfect, but it can always be improved. It is 
essential that you preserve that, even as you at the same time 
try to sustain those values in the new media and incorporate 
it, so that ultimately it can be one-stop shopping for the 
Congress, both from the virtual world and from the artifactual 
world.
    Ms. Wasserman Schultz. Thank you.
    Your time has expired.
    Mr. Aderholt. We will go another round.
    Dr. Billington. Sorry.
    Ms. Wasserman Schultz. Your passion is evident.
    Ms. McCollum.

             IMPORTANCE OF NEW STORAGE SPACE AT FORT MEADE

    Ms. McCollum. Thank you. Well, you were talking modules. I 
am a former teacher. Show and tell. It is late in the 
afternoon. You have all gone through your sugar rush from 
lunch.
    So, Madam Chair, I know we have got some tough choices here 
to make, but I am here to plead a case when we are making those 
tough choices.
    This is, in the Library of Congress, books lined up on the 
floor. These yellow slips indicate that they are ready to go to 
Module 5. This is the before, what is happening in the Library 
of Congress right now, and this is what the storage is out at 
Fort Meade. We are slowly, with the best of intentions, trying 
to keep the books as safe as they can at the Library of 
Congress, but it is hard on the spines. It is hard on the 
pages, and we are going to get to the point where they know 
where everything is. This is not chaos that is organized. This 
is organized organized. This is librarian-organized. But we are 
going to get to a point where even retrieval over at the 
Library of Congress is going to become very cumbersome and, in 
my opinion, going to become a work safety hazard just trying to 
get through the shelves.
    I went out and looked at the facility. And I know we are 
making some tough decisions. But it is pretty much cookie 
cutter. Once you have one unit built, they are all built the 
same way. So there isn't a lot of planning. There isn't a lot 
of startup that has to be done. But we have gotten behind in 
the implementation. And I know we are behind on a lot of 
deferred maintenance here, as well, even in the Library of 
Congress. Even with the remodeling, there are more things that 
could have been done. But if we don't take care of these 
treasures and they become damaged, they are irreplaceable.
    So I am going to plead for a case and work with you, Madam 
Chair. I am being very public with what my top priority is 
going to be.
    Dr. Billington, if you could maybe just talk about just for 
a minute, because I will give you a little bit of my time, you 
can just talk about, if you have the numbers, how many books 
you have ready to go to Fort Meade right now.
    Dr. Billington. Well, it is several hundred thousand. I 
will get you an exact figure. The important additional point 
here, briefly, is that what tends to go on the floor, of 
necessity, when you already have packed shelves, is the most 
recent thing. If you lose inventory and easy access control to 
the most recent things, say you have a periodical that has been 
going on for a 100 years, and you can't deliver the last 2 
years; that doesn't make it just 1-50th useful. It makes it 
about half as useful because the questions Congress wants a 
rapid answer to are dependent on having the latest information.
    We have different categories. We get 20,000 items a day at 
the Library, and to sort it down to 8,000 or 10,000, we have 
different categories; if you just have to pile it up on the 
floor and if you aren't up-to-date, you rapidly become much 
more archaic and useless, and people will go elsewhere if we 
are not able to provide. Then you slowly ease into becoming a 
museum of a book rather than a fast deliverer of information. 
So I think that is the most important thing.
    I will get you the exact number, but I know 5 million items 
are inventoried and ready to move to Fort Meade. All those 5 
million are not piled up on the stacks, but they are all ready 
to be moved. So they will not only take things off the stacks, 
but open up material on the stacks so the new stuff can be 
processed fast and inventoried and accessed. By the way, we had 
Amazon look----
    Ms. McCollum. Dr. Billington, you are going to get me in 
trouble.
    Madam Chair, also, in full disclosure, my mother was a 
librarian.
    Ms. Wasserman Schultz. Thank you.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Madam Chair.
    Dr. Billington, welcome. I don't have any questions for 
you.

                         CRS RESEARCH PRODUCTS

    But if you would ask Mr. Mulhollan to come back, I do have 
a couple of CRS questions, if I could.
    Mr. Mulhollan. Yes, sir.
    Mr. LaTourette. At last year's hearing, a couple of us, I 
think Ms. McCollum and others, expressed a desire to perhaps 
put together a more side-by-side analysis, and I did notice 
that in the recent health care discussion, you did produce a 
product that had a side-by-side. I have found that to be very 
helpful. I assume you did. And the question is, on major pieces 
of legislation, is that now the standard operating procedure?
    Mr. Mulhollan. It has always been when we were requested. 
As I tried to explain before and didn't do a good job, we 
prefer to do an analysis where we point out what the reason is 
and the impact of the language, but if the Member wants a 
comparison strict, just of the language, then we do that.
    We have a tool to assist in comparing bills called the Text 
Analysis Program (TAP) that is used by our staff in the Bill 
Digest section. They provide bill summaries for 18,000 bills 
every Congress. In fact, with regard to the health care reform, 
a columnist in the New York Times commended our bill summary 
that is available on Thomas. The summary explaining P.L. 111-
148 is also available in the Legislative Information System 
(LIS).
    TAP is a tool that, over time, we are trying to improve on, 
it is pretty labor-intensive right now, but it still reduces 
our workload. At some point, I believe by the end of the year, 
we hope to share this tool with House Legislative Counsel. Over 
time the goal would be to make it more useful for congressional 
staff as a whole, because it uses the information in LIS and 
compares the bills.

                          CRS HIRING PRACTICES

    Mr. LaTourette. The other thing, just to clean up from last 
year, you had talked about bringing in these section chiefs or 
managers, I guess. One of the concerns that I had, just 
chatting with folks at the Service, was a number had been 
brought in not from the ranks up but brought in from the 
outside. I noticed in the Washington Post on Sunday in the 
business section--I wasn't looking for another job, but I do 
read the classifieds--that you are in fact advertising for 
more.
    Mr. Mulhollan. Yes. We have had a transition from one who 
was an internal person who decided to step down and go into 
research. And so we are advertising for one.
    Mr. LaTourette. I think when your vendor was in on the 
survey, they had collected statistics and indicated that half 
come from inside and half from out. So it is just one post you 
are filling at the moment?
    Mr. Mulhollan. Well, we filled one approximately 2 months 
ago, because the head of that section became an assistant 
director.

                           CRS CLIENT SURVEY

    Mr. LaTourette. And then I want to talk a little bit about 
the survey. I want to thank you for doing that. That came out 
of last year's hearing and the chairwoman's leadership as a 
result of her meeting with the vendor. I know that the 
chairwoman and Mr. Aderholt sort of spurred our colleagues to 
answer them. A lot of offices have policies that they won't 
answer surveys when they come in from an outside vendor. I 
think it was 3,600 they sent out. We had about 1,200 back in; 
Hoped for 1,800. So, hopefully, the work of the chairwoman and 
the ranking member will help you get there.
    Just a two-part question, the timing of the completion of 
the survey, and what are the chances of the subcommittee 
receiving the raw, unadulterated report from the vendor, 
because what may be important to you may differ----
    Mr. Mulhollan. First of all, we will share with the 
subcommittee any information you want.
    Secondly, I want to express my gratitude to the leadership 
of the committee for personally going out to Members and 
explaining to them the survey. We did send out under my name 
3,700 e-mails saying this was coming from a private vendor and 
that CRS was trying to clear the way for them. We also sent out 
about 450 e-mails to chiefs of staff to follow up and encourage 
participation. Right now, they say the margin of error on the 
response, because it is a random sample, will be under 3 
percent.
    Mr. LaTourette. Madam Chairwoman, I think my request would 
simply be when LMI is finished, that whatever they produce come 
directly to the subcommittee.
    Ms. Wasserman Schultz. Yes. We can share the results.

          LAWSUIT REGARDING DISMISSAL OF PROBATIONARY EMPLOYEE

    Mr. LaTourette. Then, last, there was a lawsuit in the news 
that you and I talked about, somebody who had been a chief 
prosecutor out at Guantanamo Bay was employed by the Service, 
and there was--could you just give us whatever you are able to 
tell us about the status of that lawsuit?
    Mr. Mulhollan. That lawsuit is being pursued by the ACLU on 
free speech grounds. The gentleman was in the probationary 
period, and he was removed during the probationary period for 
his judgment and discretion. He sent out, as the record in the 
court points out, caustic e-mails about other colleagues in CRS 
that caused me concern. And then he wrote public editorials 
using political statements like ``fear-mongering like Dick 
Cheney.'' And you can't expect someone to be a leader for a 
whole division if they come out and make political statements 
like that. It is just not acceptable for CRS.
    Mr. LaTourette. And that lawsuit is pending?
    Mr. Mulhollan. That is correct.
    Ms. Wasserman Schultz. Thank you very much, Mr. Mulhollan.

             DEMAND FOR COLLECTION MATERIALS AT FORT MEADE

    I can appreciate all of the Members' priorities; $16 
million, which is the cost of the module, is a significant 
chunk of this budget. So it is just, we are in a world of 
competing priorities. We are going to take a close look at all 
of those, but my question specifically on the module is, How 
many requests do you get for material that is out in the places 
that you plan to move to the modules?
    Dr. Billington. I can't give you precise----
    Ms. Wasserman Schultz. If you could answer that for the 
record, that would be very helpful.
    Dr. Billington. We will answer that for the record.
    Ms. McCollum. Madam Chair, I was out there watching a pull 
request. I was actually intrigued and rather surprised by the 
requests that were coming out there. They actually have good 
use of the major portion of the facility, so that if 
researchers and that are going out there, they don't have to 
transport everything out. It would be a great field trip.
    Ms. Wasserman Schultz. We can certainly plan that. But my 
understanding is that it is historically very low, the amount 
of requests. I think we also need to keep in mind, and correct 
me if I am wrong, but I believe that you are seeking 13 
modules.
    Dr. Billington. That was the original schedule.
    Ms. Wasserman Schultz. Last year, we went from $15 million 
to now $16.9 million. So the cost increases every year. We have 
got a lot of balls in the air in the Legislative Branch 
Subcommittee.
    Dr. Billington. I am informed that there were 200,000 
requests since Module 1 opened. The low number of requests is 
likely to increase because the first books that went out there 
were the ones least used. We weren't sure we would get that 
kind of return. Because it is automated, because it is 
compacted stacks and you can do it in a different way than you 
can with fixed stacks, it is much more efficient in many 
respects, particularly as it grows.
    Ms. Wasserman Schultz. I can appreciate that.

    STAFFING OF OFFICE OF OPPORTUNITY, INCLUSIVENESS AND COMPLIANCE

    Just shifting gears, we held the public witness hearing at 
the beginning of the hearing season this time so that we could 
be able to incorporate their concerns and comments into our 
budgetary decisions. I was glad to hear that the union 
representation at the Library is pleased with the Office of 
Opportunity, Inclusiveness and Compliance, that they are 
feeling like, compared to last year, OIC is on the right track, 
but they do still feel the office is understaffed.
    I wanted you to talk about, you have 12 FTEs that you 
received funding for. Where are we in terms of getting that 
office fully staffed?
    Dr. Billington. I might pass that to our distinguished 
Chief Operating Officer because that is an area in which, 
actually, the first private money ever raised was to begin the 
program of leadership and development that would expand 
opportunity, but aggressive implementation and imaginative 
Library-wide activities have been run by Jo Ann Jenkins.
    Ms. Jenkins. Originally, the office had 19 FTEs. We had the 
IG do an audit, a management audit, of the office. We also went 
across the Federal Government to look at like agencies. What we 
found is that our office was about five or six FTEs more, 
funded at a higher level than all of the rest of the Federal 
Government agencies, and the right number they recommended was 
12. We have funded the office at 12 level. There are still 
several vacancies to be filled in the office, but as part of 
the right sizing effort.
    Ms. Wasserman Schultz. What is your timetable for reaching 
the 12?
    Ms. Jenkins. This year.
    Ms. Wasserman Schultz. This fiscal year or this year?
    Ms. Jenkins. This fiscal year. The Director has the 
positions and the money, and the positions are in the process 
of being posted right now.
    Ms. Wasserman Schultz. Thank you.
    Good work for improving the concerns that they definitely 
had last year.

                 REQUEST FOR SUPERVISORY STAFF SUPPORT

    There was concern expressed also in that same public 
witness hearing about the FTEs that were requested for 
supervisory staff support at the Library. And I will quote the 
Guild by telling you that they said they were skeptical about 
the request for more positions on the sixth floor of the 
Madison Building which moved paper from here to there. 
Typically, you have direct supervisory positions where this is 
not direct. This is indirect. So what is the purpose of those 
two FTEs, and what are they going to be doing?
    Ms. Jenkins. The purpose of the two FTEs is to support a 
development program for Library supervisory positions. 
Mandatory training for supervisors includes courses about union 
contracts, about life and safety issues, about sexual 
harassment. Service units don't have the money in their budgets 
to cover that. These two FTEs are to support curriculum 
development for mandatory and Library-wide training and to 
staff this.
    Ms. Wasserman Schultz. So it is more broad.
    Ms. Jenkins. It is for the entire Library.
    Ms. Wasserman Schultz. Great. Thank you very much.

                            OVERSEAS OFFICES

    I will just ask, I am going to have a couple of questions 
about just what is going on with the overseas offices. I had an 
opportunity to visit the overseas office in Cairo in January.
    And I know, Dr. Billington, in the past you expressed 
concern about the ``head tax,'' so to speak, with the Capital 
Security Cost-Sharing Program. Where are you now on that? You 
have got a $15 million overseas budget, and $5 million of that 
is to cover the cost of that. So I can understand why you would 
be concerned, but has your opinion changed of that program?
    Dr. Billington. Not really.
    Ms. Jenkins. No. I was going to say that we really believe 
that we get more than our money's worth out of those overseas 
offices, but we have not received the exemption for us not to 
pay the rent.
    Ms. Wasserman Schultz. Do any other agencies get exemption?
    Ms. Jenkins. Not to my knowledge.

             OVERSEAS OFFICE SYSTEM REPLACEMENT REQUIREMENT

    Dr. Billington. The main thing we are concerned about this 
year in this regard is the upgrade of the information systems, 
because it is now 20-year-old technology. You never know when 
it is going to break down. These systems must be replaced. They 
can't be upgraded and changed because they are completely out 
of sync with other technologies in use. And they are 
extraordinarily important in being able to catalog overseas 
acquisitions, not just for ourself but for all other research 
libraries and repositories in America.
    Ms. Wasserman Schultz. We should also note, you have a 
small budget. You have small offices.
    Ms. Jenkins. That is one of our larger offices.
    Dr. Billington. What they do is they don't just collect----
    Dr. Billington. The importance of these offices is that 
they are only in areas where there is no developed book trade 
that you can deal with in a rational manner. For instance, the 
recovery in our normal collection process of, say, the 
operation of Osama bin Laden's autobiography, it was a 
mimeographed copy that was picked up by one of the local 
employees sweeping through. They don't just collect in one 
country.
    This is really, very important for the Nation, and it is 
important that we not have a breakdown in the ability to 
process this material, because it is catalogued in exotic 
languages by native speakers who are there.
    Ms. Wasserman Schultz. I met your very enthusiastic 
director in Cairo.
    Dr. Billington. Sorry.
    Ms. Wasserman Schultz. No, don't apologize. He was great. 
We got to see a lot of cool stuff. It was very good.
    Mr. Aderholt.

          FUNDING REQUEST FOR TRAINING AND DEVELOPMENT PROGRAM

    Mr. Aderholt. I understand the Library is requesting $2.7 
million for five full-time employees for a Library-wide 
centralized training and development program. Could you just 
talk a little bit about that and what this would be focused on 
and what this would go toward?
    Ms. Jenkins. Well, the training and development program, 
the Supervisory Training and Development Program, is what 
Congressman Wasserman Schultz referred to earlier, which was 
the two FTEs to do mandatory supervisory training. The staff 
development program, which is the three FTEs, the large portion 
of that is to develop core competencies. You heard Dr. 
Billington talk a little earlier about the new digital 
competencies we were going to have to train staff across the 
agencies to learn. A large component of that request is for 
student loan repayment. I think well over half of that is to 
try to come up to standards of what the House itself is 
implementing for their employees around student loan repayment 
options.

                       MERGER WITH CAPITOL POLICE

    Mr. Aderholt. Six months ago, the Library Police merged 
with the Capitol Police, of course. In your opinion, how has 
the merger gone, and what role does the Library's Office of 
Security and Emergency Preparedness play in all this?
    Ms. Jenkins. We believe that the merger has worked very 
well. We have been working very closely with the Capitol Police 
to address all of the Capitol Complex security concerns. The 
Office of Security now is focused on our emergency preparedness 
as we go through all of the emergency fire safety drills, 
weather-related security issues, as well as with collection 
security. But I think most would say that the police merger, 
once we got everything on the table, has worked fairly well.

                  DIGITAL TALKING BOOK PROGRAM STATUS

    Mr. Aderholt. Just quickly, the Digital Talking Book 
System, is it on track for completion for 2013, as I think it 
was estimated?
    Dr. Billington. Yes, I believe we are on track toward 
completion. There was a slight manufacturer delay. It was 
partly handled with no year funds. Most of it is handled with 
year-by-year appropriation on the schedule that was agreed to. 
No year funds were important to give it the necessary 
flexibility. There was a manufacturer's glitch that delayed it 
slightly, but by January 2010, all the funds were obligated. So 
we are fully on track. Kurt Cylke is the long-term manager of 
this. He may want to add something on this.
    Mr. Cylke. We are absolutely on target. What Dr. Billington 
is referring to is the use of the no year money. The purpose of 
no year money is to be able to spend it not in one fiscal year 
but----
    Ms. Wasserman Schultz. Could you state your name for the 
record?
    Mr. Cylke. I am sorry. Kurt Cylke.
    We are manufacturing machines at the rate of 20,000 a 
month. They are getting a distribution rate from the libraries 
of higher than 95 percent. Books are going out. And we are on 
target and appreciate the money that was given. The community 
is very pleased. Of course, we are pleased as well.
    Mr. Aderholt. That has been resolved, the glitches?
    Mr. Cylke. There were no glitches.
    Dr. Billington. The manufacturing delays.
    Mr. Cylke. In the manufacturing process, there is always a 
startup phase, as operations become standardized. We had a few 
issues to addresses. I don't call them glitches. I just call 
them the natural process. We are in the manufacturing business. 
It took us 6 months.
    Mr. Aderholt. Your bumps.
    Mr. Cylke. You can call them bumps, if you would like. That 
is all taken care of. The money is a hundred percent obligated.
    Mr. Aderholt. Okay.
    Thank you, Madam Chair.

                    AQUISITIONS OF OVERSEAS OFFICES

    Ms. Wasserman Schultz. All right. According to GAO, Dr. 
Billington, the Library's Washington, D.C., experts frequently 
responded, when they were surveyed by them that less than 50 
percent of the acquisitions from a particular country were 
acquired by an overseas office. I am speaking as a supporter of 
the fact that you need overseas offices, but what is going on? 
Is there a disconnect between the Library in D.C. and the field 
offices?
    Dr. Billington. Fifty percent of what?
    Ms. Wasserman Schultz. In other words, let's say Egypt. You 
have gotten, Africa and the Middle East, less than 50 percent--
and I don't know whether Egypt is the case, but less than 50 
percent of the collection from Egypt comes from the overseas 
offices.
    Dr. Billington. Well, it depends what you are talking 
about. Take the law. One of the most important responsibilities 
we have is for the Law Library of Congress, which handles 
international law requests. Something like 97 percent of the 
material acquired about indigenous laws and material of this 
kind from the Library come from the overseas offices. Most of 
what they get would be unobtainable by other means because the 
book trade is not sufficiently developed, sufficiently speedy, 
or sufficiently discriminatory in terms of what Americans would 
want to know and need to know to do it. So, really, it isn't as 
if there is an alternative way of getting most of these books.
    Ms. Wasserman Schultz. You don't need to make a case to me 
about the need for overseas offices. I just don't understand 
why the majority of a collection from a particular country 
would not be coming from the overseas office that covers that 
country; that you would be getting it from somewhere else.
    Dr. Billington. Most foreign acquisitions are acquired by 
direct dealings either of exchange or purchase from book 
dealers. Our overseas offices are all in regions where there 
isn't a fully developed commercial book trade that you can deal 
with, and where exchanges are not adequate or sufficient to 
assure us of getting all the things we need. So while, in 
certain instances this material might be obtainable in other 
ways, purchasing through dealers, when possible, is faster. In 
the important area of law, the field offices are not covering 
only the six countries where the offices are located. Each one 
has responsibility for different regions. They do sweeps 
through all of East Africa, Sub-Saharan and East Africa. The 
Cairo office for the Arab world; Islamabad covers much of 
Central Asia, Afghanistan. By the way, we have a unique Afghan 
exhibit up right now in the Library of Congress.
    Ms. Wasserman Schultz. I would like maybe a more clear 
answer just as to why. I mean, I understand the purpose of the 
overseas offices, but it would seem to me--I mean, if you asked 
me logically whether the majority of the collection from a 
particular country came from an overseas office or somewhere 
else, I mean, that would be part of the justification I think 
you would be making for having an overseas office. It is hard 
to understand why the majority of the collection isn't----
    Dr. Billington. Maybe you could----
    Ms. Marcum. Deanna Marcum. I think the survey you referred 
to looks at all the international collections. We have only six 
overseas offices. So we are getting materials from all parts of 
the world, some through regular means and these very special 
circumstances in our overseas offices. The exchange programs 
for the overseas offices are also very important. We get a lot 
of material directly through government agencies from exchange 
programs that wouldn't be included in the overseas offices. But 
I will be happy to give you--we are working on a report right 
now looking at alternatives to the overseas offices, and I will 
be happy to share that information.
    Ms. Wasserman Schultz. Thank you. That would be great.

                      COPYRIGHT PROCESSING BACKLOG

    On the copyright backlog, which I know is the bane of your 
existence--it is close to the bane of mine, so I can only 
imagine what it is for you--there has been somewhat of a drop 
from last year, but there is a dispute, apparently, over what 
the actual backlog is. The Library of Congress shows the 
backlog at just about 400,000, and Library's Professional Guild 
has the backlog at about 500,000. I understand the discrepancy 
is apparently in the way in which you are now counting the 
backlog. You are not counting things that are in the pipeline 
that you are waiting to receive information from.
    Dr. Billington. It is a different means of computation. It 
is not necessarily a conflict. We do not include those things 
which we have already taken action on and that are in process; 
in other words, we are already in correspondence with or 
processing what has been submitted. Sometimes we need a second 
copy. Sometimes we need more information. Sometimes funding 
wasn't correctly done. But if it is being in the process of 
being done, we don't count that as part of the backlog. I think 
the Guild did.
    Ms. Wasserman Schultz. It is a 100,000-case difference.
    Dr. Billington. Well, we can itemize it if you want.
    Ms. Wasserman Schultz. I would just like your analysis.
    Mr. Billington. I got very concerned late in the year that 
we weren't making progress, and therefore I took the authority 
which this committee has very kindly, generously, extended to 
divert to other parts of the Library--we have created a task 
force of 50 people who worked intensively for a period of time. 
We negotiated and made sure it was understood and coordinated 
with the Guild and so forth. That has been very successful.
    Ms. Wasserman Schultz. Is that still ongoing?
    Dr. Billington. We foresee this whole thing being clear to 
what we call normal level, perhaps 150,000, by the end of 2011.
    Ms. Wasserman Schultz. Good. That is great.

                       MANDATORY PAY REQUIREMENTS

    My last question for the Library of Congress, you cited in 
your remarks a reference to $5 million as mandatory pay. 
Mandatory is in the eyes of the beholder. So is all of that 
funding actually mandatory? There is no law that says you have 
to provide with in-grade increases and pay increases in fiscal 
year 2011, correct?
    Dr. Billington. I suppose technically there is no direct 
law that says that, but it is the considered opinion of our 
general counsel that this is a requirement.
    Ms. Wasserman Schultz. Whose requirement?
    Dr. Billington. Well, it is a requirement on us to do this.
    Ms. Wasserman Schultz. It might be a responsibility. It 
isn't a requirement, per se. It doesn't meet the strict 
definition of mandatory. I know that is the phrase that is used 
by the agencies. But it technically does not meet the 
dictionary definition of mandatory.
    Dr. Billington. Okay.
    Ms. Wasserman Schultz. But it doesn't mean that I don't 
think it is necessary; it just means that it is not mandatory.
    Dr. Billington. Well, I think we almost invariably have put 
sustaining the recompense to our staff as a top priority.
    Ms. Wasserman Schultz. It is a top priority. But I just 
want to make sure that you understand where the policymaking 
ends.
    Dr. Billington. We will prioritize that. We will get a full 
response including citations from our legal staff.
    [Additional information on mandatory pay follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Wasserman Schultz. Great. Okay. Thank you.

                           ACQUISITION COSTS

    And before we conclude, I have some homework for the 
Library. I know you are reviewing your acquisitions policy. 
Some of the largest requests like Storage Module 5 are to deal 
with your space issues. Central to dealing with the Library 
space problem is the direct relationships with the amount of 
material that you acquire. I would like you to provide the 
subcommittee with data on the amount of acquisitions for the 
past 5 years, the types of information required, the goal of 
the acquisition policy, the types of information required, the 
goal of the acquisition policy review and the expected 
completion date of the review.
    [Clerk's note.--The Library provided additional information 
as follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Wasserman Schultz. Thank you very much, Dr. Billington. 
And we can turn to Open World.
    Dr. Billington. Thank you very much. And let me thank you 
again, Ranking Member Aderholt, for your not only backing, but 
embodying----
    Mr. Aderholt. Well, everybody at the Library has----
    Dr. Billington. It is being expanded upon, so--even as we 
speak----
    Ms. Wasserman Schultz. That is exciting.
    Mr. Aderholt. So, it has been successful then?
    Dr. Billington. Also we have lowered the age limit.
    Ms. Wasserman Schultz. Good.
    Dr. Billington. So our consciousness has been raised.
    Ms. Wasserman Schultz. Fantastic. You have your own 
personal lobbying team.
    The subcommittee stands in recess, and we will begin to 
resume after the vote. We will stand in recess until the end of 
this series of votes.
    [Recess.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                         Wednesday, April 21, 2010.

                     OPEN WORLD LEADERSHIP CENTER 

                                WITNESS 

JOHN O'KEEFE, EXECUTIVE DIRECTOR, OPEN WORLD LEADERSHIP CENTER
    Ms. Wasserman Schultz. I call the committee back to order.
    The next agency is Open World, and we have your 2011 budget 
request, which is $2 million more than the fiscal year 2010 
budget. That is a huge increase, particularly given the fiscal 
constraints we are operating under. Our subcommittee's stated 
goal has been that we would begin to wean you off your reliance 
on legislative branch funding, so it is somewhat difficult for 
me to understand why you have asked for $2 million more in 
funding. But I am not sure, Dr. Billington, are you going to 
make----
    Dr. Billington. I may have something brief at the end.
    Ms. Wasserman Schultz. Okay. Amb. O'Keefe, we are here to 
listen to your budget request presentation, and I am sure we 
will have a couple of questions.
    Mr. Aderholt.
    Mr. Aderholt. I just want to say welcome to the Ambassador, 
and we look forward to your comments this afternoon.
    Ms. Wasserman Schultz. You can proceed, Ambassador, with 5 
minutes for your statement, and your full statement will be 
entered into the record.

                  Statement of Ambassador John O'Keefe

    Amb. O'Keefe. Thank you, Madam Chairwoman and Mr. Aderholt. 
And thank you for the opportunity to testify on the Open World 
Leadership Center's fiscal year 2011 budget request. As a 
unique congressional center and resource, Open World is the 
dynamic catalyst for hundreds of international projects and 
partnerships that constituents have developed with emerging 
leaders from the countries of Eurasia.

                      CONSTITUENT DRIVEN PROGRAMS

    More than 6,000 volunteer American families in all 50 
States have hosted 15,500 young professionals. Seventy-five 
percent of Open World's fiscal year 2009 appropriated funds 
were expended on U.S.-based goods and services. Our U.S. hosts 
immersed these professionals in American life and values, 
contributing an estimated $1.9 million in cost shares in 2009. 
American volunteer hosts have stepped forward keeping the 
demand for the 2010 visitors at nearly triple the supply.

             DOUBLING THE NUMBER OF CONGRESSIONAL MEETINGS

    Thanks to the committee's guidance, in 2010 we have 
significantly changed our work with Members of Congress. We 
have more than doubled the number of Open World delegates' 
meetings with Congress, involving half of our program 
participants now.

         DRAFTING A MORE LEGISLATIVELY-ORIENTED STRATEGIC PLAN

    The Open World Board of Trustees has directed the center to 
draft a new strategic plan with goals that will engage Members 
of Congress and their constituents even more. We bring people 
from all 83 regions of Russia, all parts of Ukraine, from the 
Caucasus and Central Asia. They now constitute 10 percent of 
the Russian Duma, one-third of the Council of Judges, and are 
engines for change in fields from education to medicine. One 
example in the security field, a Georgian delegate who, drawing 
on his Open World experience, drafted a bill on cybersecurity, 
was then promoted to be his country's first cybersecurity czar. 
He is now in contact with experts he met on Open World at the 
Department of Homeland Security to craft a strategy to thwart 
cyberattacks on his country.

                   EFFICIENCY AND COST EFFECTIVENESS

    Open World offers an extraordinary bang for the buck in 
terms of efficiency, cost-effectiveness and value. The center 
boasts an overhead rate of about 7 percent, and every grant 
contains cost-shared elements. Unfortunately, to keep costs 
down, I have had to let go one of our nine staff here in 
Washington.
    Funding at the level requested by the Board will enable the 
Center to resume its important nonproliferation program, 
bringing nuclear experts to enhance working relationships not 
covered by other programs. We will expand to Armenia, 
Uzbekistan and Belarus, and will fund a full-time development 
expert. With your support, Americans in hundreds of 
congressional districts throughout the United States will 
engage a promising new generation of political and civic 
leaders, parliamentarians, mayors, environmentalists, anti-
human trafficking activists in a dialogue that has doubled the 
number, for example, of Rotary Clubs throughout the region, and 
created 20 sister courts.
    This unprecedented congressional program has proven to be 
an exciting vehicle to linking grassroots professionals and 
emerging leaders. It furthers the effort to create more 
transparent and accountable governments and expands cooperative 
arrangements between America and Eurasia.
    I would also like to mention my staff is here, some of 
them: Jane Sargus, our financial management officer; Chang Suh, 
Congressional Liaison, and from Russia, stranded here in 
Washington now, Alex Khilkov.
    Thank you, Madam Chair and Mr. Aderholt.
    Ms. Wasserman Schultz. Thank you very much, Ambassador.
    [Mr. O'Keefe's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Wasserman Schultz. We are in a very difficult fiscal 
year, as you know, more difficult than most. We have asked each 
agency to give us a flat budget proposal and how that would 
leave them. How much of your requested increase is required to 
maintain the program at the current level, and how much is the 
new, expanded efforts?

                          FLAT BUDGET SCENARIO

    Amb. O'Keefe. We can do the program at this year's funding 
level with a reduction of about 4 percent of participants. The 
reduction is because of increased airfare and higher contract 
costs, just to get them from here to there.
    Ms. Wasserman Schultz. So all of your----
    Amb. O'Keefe. The 2 million is to do those things that I 
said, the development person, the expansion to strategically 
important countries to the United States, and to reinstate the 
program bringing these nuclear experts over.
    Ms. Wasserman Schultz. To reinstate a program----
    Amb. O'Keefe. We brought individuals from Russian nuclear 
labs and facilities that store plutonium and highly enriched 
uranium. And last year we had a breakthrough. Rosatom, which 
controls all of these facilities, would not participate in any 
embassy programs, but they decided to join our program. 
Unfortunately, we can't do it this year because it is very 
expensive. It is almost twice the cost of our other programs. 
So we had to cut.
    Ms. Wasserman Schultz. Your budget materials indicate a 
reduction in FTEs from 11 to 10 FTEs, but you don't indicate a 
reason or the projected savings from that reduction. Can you 
explain the change?

                           REDUCTION IN FTES

    Amb. O'Keefe. The reduction from 11 to 10 happened this 
year, and we had a 14 percent decrease in our budget from the 
previous year. And so we entered the year with that number of 
FTE, but in March I had to eliminate a person to make it 
through. So for next year we are going to have one less than we 
started with.
    Ms. Wasserman Schultz. Okay. We have worked with you over 
the last several fiscal years to try to push you to begin to 
find resources in other places. Can you tell us what 
commitments Open World has received this year for funding from 
nonlegislative branch sources, public or private?

                          GIFTS AND DONATIONS

    Amb. O'Keefe. Yes, ma'am. Just to frame the answer, last 
year we received gifts of $413,000. This year we are projecting 
$620,000. So we have upped it somewhat. Our projections for 
2011, to be very frank, are $325,000 right now. We are hoping 
the person we have working with us on our development strategy 
will create successes on our grant proposals. In addition to 
which, this year we did get $100,000 from the National 
Endowment for the Arts for cultural programs, which I do not 
believe we will have next year.
    Ms. Wasserman Schultz. Why is your projection for funding 
$300,000 less for this fiscal year?
    Amb. O'Keefe. It is funds that have already been committed. 
In other words, it is donors who are giving over a 3-year 
period. And this is either the second or the third tranche.
    Ms. Wasserman Schultz. This past fall you informed us that 
the Board was examining a new plan for diverse funding. Is that 
a plan that has been approved by the Board? And if it has, can 
you provide us with an update?

                      PLAN FOR DIVERSIFIED FUNDING

    Amb. O'Keefe. Yes, ma'am. The outline of the plan has been 
given to the Board, and it involves three rubrics. The first 
would be foundations, and part of that plan is to submit grant 
proposals. We have put in three so far, with separate 
organizations.
    The second part is to seek funds from corporate donors. I 
am a little new to this process, but the development of a 
relation to a corporation is one that is in stages. I think 
first they have to see what it means to their bottom line, why 
would I want to give to this organization, how does it help my 
corporation, and what is it doing in a region in Russia or the 
Caspian. And then we need to do a small program so that their 
confidence is built, and then we can move to a bigger program. 
So that is a process.
    And then the third is individual givers, and that is 
individuals who are excited about Open World and introduce 
their friends to it, and we hope they get excited, too.
    So those are the three areas we are working on.
    Ms. Wasserman Schultz. And you have hired the development 
consultant, as you just mentioned?
    Amb. O'Keefe. For 6 months.
    Ms. Wasserman Schultz. And that person is working with you 
currently?
    Amb. O'Keefe. At this very moment.
    Ms. Wasserman Schultz. And have they yielded any resources?
    Amb. O'Keefe. Not yet.
    Ms. Wasserman Schultz. Do they have a plan that they are 
working off of?
    Amb. O'Keefe. The development person wrote up the grant 
proposals. She is with an individual visiting from Russia right 
now, going to various corporations in and around here and in 
Maryland, kind of working on who we can approach.
    Ms. Wasserman Schultz. Is this a full-time staff member?
    Amb. O'Keefe. Four days a week. And it is a contractor. So 
we contracted for so many hours and so much delivered.
    Ms. Wasserman Schultz. Generally a development officer or 
development staffer would work off of a plan, an overall goal, 
a budget. Do you have something that she is working off of that 
helps you know what your goal is and how she is getting there?
    Amb. O'Keefe. I can provide you the contract that we had 
for her and the deliverables.
    Ms. Wasserman Schultz. Yes, if you could provide that for 
the record, that would be helpful.
    Amb. O'Keefe. I will do that.
    [Clerk's note.--Additional information provided by Open 
World follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Wasserman Schultz. But continue.
    Amb. O'Keefe. Okay. The main thing we need is for us to 
have our own capacity to do this. And so part of what she has 
to do is train us. She also has to flesh out our general plan 
into, just as you say, a development plan that has stages, has 
goals, has work that we have to get done.
    Ms. Wasserman Schultz. Is part of her contract to write 
such a plan?
    Amb. O'Keefe. Yes, ma'am.
    Ms. Wasserman Schultz. Okay. I don't have any other 
questions.
    Mr. Aderholt.
    Mr. Aderholt. Of course, I know we have talked about in the 
past about the Open World Leadership program is different from 
a lot of other programs, the exchange program that is out 
there. Just briefly just remind the committee, the 
subcommittee, how it is different here as opposed to other 
programs that may be already in place in other facets of the 
Federal Government.

                     HOW OPEN WORLD SERVES CONGRESS

    Amb. O'Keefe. Yes, sir. I think the first factor is the 
fact that we are here in the legislative branch serving 
Congress. And one of the things that the chair last year 
mentioned was the number of exchange programs. I checked on 
these programs, not simply ones for Russia, but all over, and 
how many agencies had them. There are over 200 exchange 
programs associated with various government agencies. Congress 
has such tremendous oversight responsibilities. We at least 
provide what every other agency with much less responsibility 
has. So, for example, if a Member of Congress had a particular 
interest in a region, we are bringing people who can fill in 
the gaps as it were.
    I think the second part is that we are, as you know, very 
oriented towards constituents, very oriented towards civic 
organizations. And as you know very well, civic organizations 
build communities, and through our grantmaking process we keep 
these viable. And that is, I think, particularly helpful.
    The third thing is that because we do the home stays, 
because we are very oriented towards these civic groups, 
because we bring professionals to link with other 
professionals, we are not giving an agenda. People who go 
through this program come back with a much more positive view 
of the United States because they are with people who have the 
same issues, the same problems. It is a powerful tool from that 
standpoint.
    And I think lastly, as I mentioned before, we are very 
cost-efficient. And part of it is that we are modest in size, 
and we will stay that way.
    Mr. Aderholt. You mentioned the home stays. Is that 
different from most other programs? Or how does that compare to 
other programs?
    Amb. O'Keefe. For most other programs, there are no home 
stays. There is one program called Community Connections that 
does have some home stays associated with it.
    Mr. Aderholt. But by and large, they are usually not?
    Amb. O'Keefe. No, sir. No other ones that I know of.
    Mr. Aderholt. I noticed in your testimony where you had 
talked about the strategic plan to expand to Armenia, 
Uzbekistan and Belarus. Tell us a little bit about that, what 
the Board envisions in trying to expand in that region.

                        IMPORTANCE OF THE REGION

    Amb. O'Keefe. Uzbekistan is fairly critical. And we just 
looked at the events in Kyrgyzstan in the last 2 weeks. There 
is an airbase there that is very critical to our operations in 
Afghanistan, and there used to be one in Uzbekistan, but it was 
closed in 2005. These countries are ruled by individuals who 
have been in power for many years. They are in their seventies. 
There will be a transition. And by moving into a place like 
Uzbekistan, which is the most populous country in Central Asia, 
traditionally the leader--although Kazakhstan has taken that 
over somewhat--I believe that we can--and the Board believes 
that it is important to start bringing this next generation 
here to expose them to the United States, because there really 
hasn't been very much of that exchange lately. Even though the 
executive branch might have some problems with exchanges 
because we are, as I mentioned, part of the leg branch, we can 
operate more easily in these kinds of environment.
    Mr. Aderholt. And was I correct in saying those were the 
three countries that you are looking at, Armenia, Uzbekistan 
and Belarus?
    Amb. O'Keefe. Yes, sir. Again, the strategic plan called 
for going to all countries of the former Soviet Union. Belarus 
lies between Russia and Poland, just south of Lithuania. It has 
been closed to Western influence by and large. And in talking 
with people at the embassy, they are frankly desperate for a 
program. I did tell them that if we started it, they would have 
to pay for half of it, mindful of the chair's desire to spread 
out our funding.
    Mr. Aderholt. You said Belarus? Is that what you said?
    Amb. O'Keefe. Yes, sir.
    Mr. Aderholt. Do we have an ambassador over there at this 
time?
    Amb. O'Keefe. No, we only have a charge. The ambassador and 
almost all the staff were tossed out about 3 years ago.
    Mr. Aderholt. That is what I was thinking. That is still 
the current situation.
    Amb. O'Keefe. They only have 5 U.S. staff there right now.
    Mr. Aderholt. All right. That is all I have now.
    Ms. Wasserman Schultz. Thank you. Thank you very much.
    Amb. O'Keefe. Thank you, ma'am.

          Observations of Board Chairman Dr. James Billington

    Dr. Billington. Let me just add maybe a couple of words, 
Madam Chair, just briefly. First of all, I think that the Board 
is very mindful of your concerns and the committee's concerns, 
and that we will, of course, honor and respect whatever your 
decisions are. And I think the Board fully recognizes that. 
They did, however, feel obligated to report, and persuaded that 
I should deliver to you what they actually recommended on the 
basis of the rather remarkable things they have done.
    And I would add to that my personal judgment, having been 
involved both as an administrator and as a participant. I was 
chairman of the board of the Fulbright program for a number of 
years when we introduced American studies for the first time 
into Russia. And I think from the long-term perspective--Open 
World has been as effective as any exchange program, 
international exchange program, that I have been involved in or 
know about over more than half a century now. And I do think 
that it has been rather distinctive in having an already 
measurable long-term effect on the development of an 
accountable and participatory government and a more open and 
transparent society than any other exchange program that I have 
known, as evidenced by the celebrations all over Russia by the 
alumni of this program.
    And there are other statistics that we could get into, 
numbers in Duma, numbers on the two top Supreme Courts. 
Therefore something is happening from the bottom up. So I think 
it is an extremely important thing.
    And on the fundraising issue, I have been involved in that 
myself, and so have other members of the Board. The difficulty 
has been that the business community has not seen--have not 
had--how shall we say--advanced our ventures in the Russian 
area. I think that is beginning to change a little bit. I think 
relations have improved. I think this is particularly good 
orchestration for--and people in the administration who are--
who see, who have--this is a good background for expanded 
understanding of our country.
    The most interesting thing about this in terms of all other 
exchange programs in the Soviet Union and Russia and all other 
countries that form the Soviet Union, everyone has gone back. 
These are young people who are going back and doing something 
in society and beginning to move from the regions that they 
came from into the central Duma, the central courts and so 
forth. So it is a very unique and interesting phenomenon.
    I think I met recently with the head of the American 
Chamber of Commerce in Moscow, and I think they were closer to 
seeing better prospects. So we have dialogue going with quite a 
number of possible sources, and I hope personally that we will 
be able to bring you a better scoreboard for the private 
sector.
    And I also note that in light of the Forbes list, the 
number of Russian oligarchs with substantial funds has 
noticeably increased and have been involved in discussions. In 
fact, when I spoke at the dedication of the new library system, 
which I am advising, I am sort of designated by our respective 
Presidents to expand the dialogue that we have had with this 
new Presidential leverage system, and President Medvedev said 
to me since I spoke after him--it was a dedication in St. 
Petersburg, which is a good sign--the more things you give up, 
just centralization in Moscow, and connecting electronics, and 
they have studied very closely a lot of things we do, and he 
said that he embraced this program with both arms.
    And what is interesting about it is that it is really a new 
generation of people who are very, very different; 50 percent 
of them are women--a little more than 50 percent. And that 
reflects the totally different complexion of the post-Soviet, 
post-Communist generation. That has never before happened in 
Russian history.
    So I hope we can give you better results, and I am sure I 
speak for the Board in saying that, but I did feel we should 
report to you what they had said. We appreciate everything you 
do and have done and may need to do. But I just wanted to----
    Ms. Wasserman Schultz. I can appreciate and I know that 
this is a program that you are very supportive of, but this 
fiscal year is an example of the reasons why the last few years 
I have been urging you to begin to find other resources, 
because of the things that we have to fund in the legislative 
branch. This is not in the job description of the legislative 
branch. This is the only program we fund, the only one, and it 
is an expensive one relative to our overall budget. So had you 
been more aggressive about weaning yourself off of your 
dependence on the legislative branch funding, you would not be 
facing as difficult a time in getting the resources that you 
need in this fiscal year.
    So we are going to do the best we can. That is all I can 
commit to you. So thank you very much.
    Amb. O'Keefe. Thank you, Madam Chair.
    Ms. Wasserman Schultz. Thank you.
                                         Wednesday, April 21, 2010.

                    U.S. GOVERNMENT PRINTING OFFICE

                                WITNESS

ROBERT C. TAPELLA, PUBLIC PRINTER OF THE UNITED STATES

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Okay. We now move on to the 
Government Printing Office. Mr. Tapella, welcome back.
    The Government Printing Office is requesting $167 million 
in fiscal year 2011. That is a 13 percent increase over last 
year's enacted level. Again, we are going to face a tough 
budget year, and we are sorting through the ``got to haves'' 
versus the ``nice to haves.'' I know that you have challenges 
with your technological and workforce change, and I want to 
make sure you have the resources that you need to manage those 
transitions. We would love to hear in your remarks about how 
you are modernizing your business processes and adapting your 
workforce to keep up with the changing requirements. And if you 
can also give us an update, which we have talked about before, 
on how you are addressing discrimination, police personnel and 
facilities maintenance issues. Your full written statement will 
be entered into the record. And after Mr. Aderholt speaks, you 
can proceed for 5 minutes.

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. Thank you. And welcome back to the 
subcommittee. I was pleased we got to speak last week. Again, 
thank you for your service. I know you have served, I guess, 
around 5 years now?
    Mr. Tapella. No. Three years as Public Printer.
    Mr. Aderholt. Three years. And then, of course, I know over 
a decade as a professional House staffer. Even when I came 
here, you were a young professional staff member in the House 
of Representatives. So I commend you for your work that you 
have done on the Federal level, and especially in the Federal 
Digital System. So a lot of things have taken place under your 
reins over at the Government Printing Office.
    So anyway, I look forward to hearing your testimony and the 
progress that GPO has made in the past year.

                Opening Remarks--Public Printer Tapella

    Mr. Tapella. Thank you. Madam Chair, Mr. Aderholt, thank 
you for inviting me here today to discuss GPO's appropriations 
request for fiscal year 2011. I have submitted my prepared 
statement for the record, and I will just make a few brief 
remarks to allow plenty of time for questions.
    First off, on behalf of GPO's 2,300 employees, I want to 
begin by thanking the Subcommittee for supporting our 
appropriations request for fiscal year 2010. It was a great 
help to us.
    For fiscal year 2011, we are requesting a modest increase 
of 3 percent for our Congressional Printing and Binding funds 
to cover projected volume requirements for a first session 
year.
    For our Superintendent of Documents programs, we need to 
fund mandatory wage and price level requirements, ongoing 
projects supporting depository libraries, and operating 
expenses for the Federal Digital System that are attributable 
to this program. For this account we have about $1.5 million 
available in prior year unspent funds that could be transferred 
forward with your approval. The transfer would reduce our 
requirement for new funds to an increase of only 4 percent.
    For our revolving fund, we are seeking an addition to 
working capital that would cover a range of investments in IT, 
continuity of operations, facility repair, and workforce 
retraining projects.
    In view of the state of the economy and the constraints on 
the Federal budget, we fully understand there are limitations 
on what the Subcommittee can recommend for us. While not 
specified as such in our original submission, I consider it a 
top priority among our two projects to complete the work on a 
full-system failover capability for FDsys, a need that was 
accurately pointed out by Mary Alice Baish during the public 
hearings before this Subcommittee in February.

                    REMARKS ON GPO SECURITY SERVICES

    I would like to conclude by briefly discussing security 
services of the Government Printing Office, the other topic of 
the public hearing in February. I made a commitment to 
professionalize security services at the Government Printing 
Office, and during my tenure as the Public Printer, we did 
that. GPO security services have a risk management approach 
that links threats and vulnerabilities to resource 
requirements, human capital, and technology plans to meet the 
identified risks, and proper oversight and regular validation 
of our contract officer program.
    Our security services have a very different role than a 
traditional police force or even the United States Capitol 
Police. We have on average 1,000 employees in our facility at 
any given time, and we average less than 50 visitors each 
business day.
    To build a professional force, we increased the standard 
rate of pay for our sworn officers by more than 40 percent, 
putting our salary on par with other professional law 
enforcement organizations, and changed their role from security 
guard to law enforcement professional.
    We complement the sworn officers with contracted special 
police officers based on the requirements of each post. These 
contracted officers are closely managed. We conduct weekly 
exercises to test and evaluate the contract officers' ability 
to detect prohibited items. There are now performance plans for 
every sworn officer written to specific law enforcement duties 
and responsibilities. Seventeen of the thirty-nine sworn 
officers have received cash awards for outstanding performance 
based on these new responsibilities.
    During my tenure as Public Printer, funding for security 
services has risen from $5.2 million per year to $9.9 million. 
Training dollars per employee have gone from $330 to $857. We 
have modernized equipment, technologies, and resources. We have 
purchased new Glock 40s for our sworn officers to replace the 
outdated and hand-me-down SIG 9-millimeters they once carried. 
All officers now communicate through new digital Motorola 
radios and base stations staffed by professional dispatchers. 
We have new X-ray and magnetometer equipment at all access 
control points. We have new alarm and closed-circuit television 
systems monitored from a control room. We have two new police 
vehicles, new police badges, new uniforms, including an 
optional Class B utility uniform, new personal protective 
equipment, and defensive tactics gear.
    I welcome any independent qualified review of what we do 
and how we do it. We have been reviewed by the Government 
Accountability Office, the Department of State's Diplomatic 
Security Service, and GPO's own inspector general. In fact, the 
GAO, in its report to this committee last May, said GPO 
generally conforms to the key practices in Government facility 
protection. I have read hundreds, if not thousands, of GAO 
reports in my career, and that is about as good as it gets from 
the GAO.
    One final note. This is going to be another tough year for 
GPO, as it is for agencies and businesses across America. We 
are continuing to cut costs and scale back expenditures to 
ensure we live within our budget. Last year, with your 
understanding and support, we finished on a sound financial 
basis, generating a modest net income before other operating 
expenses. We are targeting similar financial performance this 
year, positive but modest.
    Madam Chair, Mr. Aderholt, this concludes my opening 
remarks, and I am happy to answer any questions you may have. 
Thank you.
    Ms. Wasserman Schultz. Thank you very much.
    [Mr. Tapella's prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                      WORKFORCE DIVERSITY AND EEO

    Ms. Wasserman Schultz. We have been discussing with you 
workforce diversity and your anti-discrimination policies. You 
didn't really touch on that in your opening remarks. Ensuring 
that you have a reduction in the amount of discrimination 
complaints that are filed is an important priority of the 
Committee. When I met with you a couple of weeks ago, you 
mentioned that you had made some progress on recruiting or 
promoting women to the nonexecutive supervisory levels of the 
white-collar workforce. What steps have you taken to address 
diversity problems? And what policies, practices or other 
actions have had the most significant impact?
    Mr. Tapella. In terms of actual practices, we just 
submitted our quarterly report to this Subcommittee on our 
actions. We now have an EEO and a discriminatory harassment 
class. I participate in the beginning of every single one of 
those, as do my other senior managers. We have conducted group 
focus meetings with employees and supervisors. We have been 
conducting semiannual reviews with every single business unit. 
We are participating in new employee orientation to brief new 
employees on the policies and procedures relative to EEO. My 
EEO Director and Assistant Director personally review all 
allegations of discrimination at the informal stage to assess 
whether there might be an opportunity for early resolution. And 
as you will see in the report we just submitted as of March 
31st, in fiscal year 2009, there were 50 complaints filed; as 
of March 31st fiscal year 2010, 25.
    Ms. Wasserman Schultz. Have you addressed this issue with 
nonsupervisory white-collar workers and executives?
    Mr. Tapella. I am sorry?
    Ms. Wasserman Schultz. Have you addressed the issue in a 
supervisory white-collar group?
    Mr. Tapella. Yes.
    Ms. Wasserman Schultz. But have you done it with 
nonsupervisory, nonwhite-collar employees?
    Mr. Tapella. Not directly, because, in fact, in most of 
those positions it is a majority minority or other protected 
classes that are in those positions.
    Ms. Wasserman Schultz. Okay.
    Mr. Tapella. I am sorry. I am trying to understand your 
question.
    Ms. Wasserman Schultz. You have white collar; not white, 
but white collar.
    Mr. Tapella. Correct.
    Ms. Wasserman Schultz. And then you have nonwhite-collar, 
nonsupervisory positions. Have you addressed diversity and this 
EEO training with that population of employees as well?
    Mr. Tapella. We have with new employees. I actually need to 
check on that because I don't know if we have mandated that for 
all employees.
    Paul, did we mandate that?
    Paul Erickson. [Deputy Public Printer]. We started with the 
management level, and we haven't taken it down to the lower 
levels yet.
    Mr. Tapella. The first phase, we started with executives. 
The next phase, we started with the white-collar supervisors, 
and then we did all supervisors. That includes the blue-collar 
supervisors. We have not brought it completely down to every 
single employee to have mandatory classroom training. That is 
the next phase.
    Ms. Wasserman Schultz. What is the timetable for that?
    Mr. Tapella. I believe that is scheduled for the next 
fiscal year.

             WORKFORCE PREPAREDNESS FOR TECHNOLOGY CHANGES

    Ms. Wasserman Schultz. Okay. Thank you.
    You have a lot of your workforce that is either eligible 
for retirement or approaching eligibility. And then you have 
changing technologies that change job requirements and staffing 
needs. How is the impending large retirement bubble in your 
agency and technological transitions that are being made going 
to coincide?
    Mr. Tapella. We are anticipating in this fiscal year 
approximately 160 employees leaving the agency, and that is 
kind of our average transition. And it has been our historic 
average other than those years when we did a buyout, dating 
back about 5 years ago.
    One of the things that we are seeing, is that with the 
change in the economy, many of our employees who we thought 
might be retiring have decided to continue working longer. As 
we look at the technology changes, last year we requested money 
for the composition system replacement, as we are this year. We 
are also asking money for the advanced printing technology 
assessment. And we are trying to bring technology into place to 
address the issue as employees start to retire so that we do 
not have to backfill positions unnecessarily. And, in fact----
    Ms. Wasserman Schultz. You are doing it by attrition?
    Mr. Tapella. We are doing it by attrition. Absolutely.
    Ms. Wasserman Schultz. And not hiring new replacements?
    Mr. Tapella. We are only hiring replacements when 
absolutely necessary. There are particular categories; for 
example, proofreaders, those we are continuing to hire. There 
are certain bookbinders that we are continuing to hire because 
they are in our security and intelligence document business. 
But a manager who loses an employee through attrition does not 
automatically get that head count back. It is being managed by 
Paul Erickson, the Deputy Public Printer. And, in fact, last 
year we only backfilled half of the slots that we lost, and 
that is part of the reason why GPO has been able to maintain 
its positive financial structure.
    Ms. Wasserman Schultz. My time has expired.

                         FEDERAL DIGITAL SYSTEM

    Mr. Aderholt. Okay. I mentioned the Federal Digital System 
in my comments earlier. Of course, it is a multimillion-dollar 
effort that you are funding and managing to modernize GPO 
information, collection process and dissemination capabilities. 
The program was deployed, I understand, in January of 2009. 
Your budget request for the Federal Digital System is 6 million 
for fiscal year 2011. Could you give the subcommittee just a 
little overview of how that is perceived?
    Mr. Tapella. Yes. We officially launched in March of 2009. 
We did a soft launch in January of 2009. To date, we have spent 
approximately a grand total of $37.5 million on the Federal 
Digital System with a projection of $41 million by the end of 
FY 2010. By that time, approximately $27 million has come from 
appropriated funds. The remainder of the money has come out of 
our revolving fund through retained earnings.
    The system is progressing. In fact, this past April 7th, I 
held a public program review where we brought in the key 
stakeholders, which includes the Library community as 
represented by the chair of my Depository Library Council, as 
well as the incoming chair of the Depository Library Council; 
the Office of the Federal Register, which plays a critical role 
on behalf of the executive branch and the work that we are 
doing for this Administration; and our own Library Services and 
Content Management Group, which is kind of one of the customers 
of the Federal Digital System. We had our folks lay out the 
good, the bad, and the ugly. And I would say that we are a 
little behind schedule from where we would like to be. A lot of 
that has to do with two critical factors. One had to do with 
the master integrator that we needed to curtail. That was one 
of the first things I did as Public Printer. The second issue 
is that with this new Administration, there was a significant 
priority on open and transparent government, and we were asked 
if we could participate in helping them work on some very 
specific initiatives related to the Federal Register. So we 
have done that.

                          GPO'S BUILDING NO. 4

    Mr. Aderholt. The passport operation, I understand there is 
a $2 million request to move it from Building 4 into the main 
GPO building complex.
    Mr. Tapella. Yes.
    Mr. Aderholt. What is involved in this effort?
    Mr. Tapella. What we are interested in doing is, as both 
you and the Chair have seen our passport operation, it sits as 
an island unto itself. When I became Public Printer, one of my 
highest priorities was seeing if we could get legislation to 
allow us to build a new factory. That got nowhere because of 
the $400 million hit on the budget score by CBO.
    And at that point we began assessing what we could do with 
our current facility, and, as such, we have now commissioned a 
complete assessment of our current facility looking at 
everything in Buildings 1, 2, 3 and 4 and seeing if there are 
ways that we can consolidate. If we could move the passport 
operation out of what we call Building 4 completely, we could 
reduce overhead by about $6 million.
    And so that is one of the things that we are absolutely 
looking at. We are also looking at what could be done with that 
building if we no longer needed it, and that deals with the 
utilities. In particular, we are running into an issue as the 
State Department has put in some new requests in terms of what 
we are doing with the passports, we don't have enough power 
going into that building to meet all of the future needs of the 
passport lines. The question then becomes do we invest in 
another power substation, which could be in the multimillions 
of dollars, or do we look at an alternative that would allow us 
to more wisely use that money? And so that is what we are 
looking at.
    Mr. Aderholt. What is the long-range plans for Building 4?
    Mr. Tapella. Until we have the study and we know exactly 
what it is, I don't think I could accurately answer that. But 
it would seem likely, based on the space available in other 
portions of our facility, that we may very well be able to move 
the passport operation into a new location, properly secured 
within the main perimeter, and could literally, I suppose, 
mothball the building or turn it over for some other uses. 
Right now at least a third of the building, if not closer to 
half of the building, is actually used by other leg branch 
agencies on an approved space-sharing basis for storage and 
some other purposes, and we would certainly be looking at that 
as an option. In fact, I have had discussions with the 
Architect of the Capitol and the Sergeant at Arms of the Senate 
to do just that.
    Mr. Aderholt. Thank you.

                           PASSPORT REVENUES

    Ms. Wasserman Schultz. Thank you.
    Just focusing on passport revenues, you received pretty 
substantial revenues from passports in the past, and there has 
been fluctuations in the revenue that you receive. How has that 
fluctuation impacted your ability to take on large program 
initiatives where you have got shared services like accounting, 
security and----
    Mr. Tapella. Well, we now have a very comprehensive 
memorandum of understanding with the Department of State. We 
had a memorandum of understanding on the electronic passports, 
but there were a few things that were a little vague, including 
when they would be placing the order, what numbers, and what 
they would have to guarantee. We now have a program where there 
are deadlines in place, and they have to make a commitment for 
the next fiscal year. And they will be doing it this summer 
well in advance of the fiscal year.
    And what happened last year, is about halfway through the 
fiscal year, they significantly reduced the number of passports 
they wanted, which put GPO in a tremendous financial bind. And 
yet we were still able to end the fiscal year with $1.234 
million in retained earnings. And I think that was just a 
tribute to the fabulous work of the men and women in the GPO, 
that halfway through the year they were literally able to 
squeeze roughly $60 million out of the operating budget, and we 
had very minimal impact on our operations.
    Moving forward, we now have a commitment in advance, and 
the State Department has given us a proposed number. We have 
given them a proposed price based on that number. They will 
come back this summer with a final number, and we will give 
them a final price for passports. So we will know well in 
advance of the fiscal year what the demand is going to be.
    In terms of the shared services, when we look at the 
Government Printing Office and the investments that we have 
asked Congress to make--and, in fact, last year Congress did 
help us fund our Oracle financial initiatives, what we are 
calling GBIS, the GPO Business Information System--as we start 
to bring on line financial systems and other back-office 
functions with technology, we can more easily handle the 
fluctuations in products and services.
    As sort of a follow-up to that, while passports are 
important, one of our other growth businesses is in the area of 
other secure IDs. We are producing the Trusted Traveler cards 
for the Department of Homeland Security's Customs and Border 
Protection. It looks like we are going to be doing some more 
work for the State Department with a different unit other than 
Consular Affairs for some credentials. We produced the 
credential for the President's inaugural. We produced a 
credential, a law enforcement credential, for IGs in 
government. We are very, very focused on trying to broaden 
revenues on things that are inherently governmental, such as 
secure Federal credentials.

                    ERRORS ON APPROPRIATIONS PRINTS

    Ms. Wasserman Schultz. Thank you.
    Just very quickly, there has been a number of notable 
errors on a number of appropriations prints from last year. And 
those led to star prints, which are reprintings that have a 
black star. Have you taken immediate steps to address that 
problem?
    Mr. Tapella. Yes, ma'am. And, in fact----
    Ms. Wasserman Schultz. And what are they so that they don't 
happen again?
    Mr. Tapella. Absolutely. Well, first of all, let me begin. 
Star prints are generally caused by human error. As we look at 
the causes of the four appropriations star prints, there is no 
common factor in any of the four star prints that were made. 
Contributing to this problem is the lack of standardization in 
Congress. Even within the appropriations process, each one of 
the 12 appropriations subcommittees uses different processes, 
proofreading marks, and technology. And what is interesting of 
the 44 star prints in the 111th Congress, a third were errors 
attributed both to GPO staff, a third actually to House staff, 
and a third to congressional staff. As relates to the four for 
the Appropriations Committee, those were all GPO staff's fault.
    We have taken some immediate actions in prepress for 
conference reports. First, the file will be broken down into 
smaller segments for----
    Ms. Wasserman Schultz. You can answer the rest of the 
question for the record. I want to move. Suffice it to say you 
have taken some steps.
    [GPO provided additional information on the ``star prints'' 
for the record:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Tapella. I am sorry. I am trying not to follow Dr. 
Billington, but I do have his chair.

                          GPO POLICE STAFFING

    Ms. Wasserman Schultz. That is okay.
    The last three questions I want to ask you do relate to the 
police staff and staffing challenges. During the public witness 
hearing, the representative from the Fraternal Order of Police 
testified that GPO management had a meeting with the union to 
raise the possibility of posting contract security aides at 
passport facilities. And our committee has been very clear on 
the statutory requirement to protect that building with sworn 
Federal officers because of security needs for passports.
    So what I would like to know is, is the passport facility 
currently protected by sworn Federal officers, or is it 
protected by contractors, and are there plans to change the 
roles and missions of each of those? What was proposed in the 
meeting in question, and would that be compatible with the 
clear statutory direction from this committee? And what factors 
do you consider when deciding whether to assign a duty station 
to a sworn officer or a contract security officer?
    Mr. Tapella. Let me begin with the meeting itself, and the 
representative of the union that spoke was not in attendance at 
the meeting. It was a meeting of the new leadership of the 
Fraternal Order of Police. And the question was asked of me by 
the new leadership, with the changes we are making at 
professionalizing the sworn officers at the Government Printing 
Office, why are they standing post at magnetometers and an X-
ray machine at Building 4 as opposed to using the contract 
security aides? And in that meeting I shared with them that 
that came under the statutory language from this Committee, and 
that any change to that would have to be approved by this 
Committee. And that is what occurred at the meeting.
    Only sworn officers are at that post. They have been at 
that post since the day you ordered it, and we have no 
intention of changing that unless this Committee changes its 
position.
    When it comes to any of the posts, we look at what are the 
needs of a particular post. The idea behind our security 
services is we would like to use the contract officers to man 
magnetometers; we would like to have them man the X-ray 
equipment. We then have sworn officers available for response, 
for patrol. We have increased our foot patrol. We have 
increased our travel patrol. We even now have a bicycle patrol.

                   HIRING ADDITIONAL POLICE OFFICERS

    Ms. Wasserman Schultz. When are you hiring the additional 
17 officers?
    Mr. Tapella. We are in the process of hiring all of the 
officers right now. Our officers, unlike the U.S. Capitol 
Police or, for that matter, any Congressional employees, are in 
the competitive service of Government. And at this moment we 
have 13 vacancies. For these 13 vacancies, we have an ongoing 
post in USAJOBS, which is how we must post competitive jobs. We 
will get a list of 15 names on it in rank order. We can only 
look at 15 candidates at a time, and then we schedule 
interviews with the candidates. And unless there is a problem, 
a significant deficiency, we will make a tentative job offer to 
the candidates and then inform them of the preemployment 
considerations. The tentative selectees must then complete 
several examinations. Do you want me to put this for the 
record?
    Ms. Wasserman Schultz. I want the abbreviated version.
    Mr. Tapella. The abbreviated version is we are moving 
absolutely as quickly as possible as the competitive service 
allows.
    Ms. Wasserman Schultz. By when will all 13 be hired?
    Mr. Tapella. Ma'am, I cannot give you a specific date 
because up to this point we have had to disqualify 66 
candidates because they have failed one of the tests. If we 
hadn't had to disqualify the 66 candidates, they would have all 
been hired with the first 15 that we looked at. And as soon as 
we lose somebody, we then go back and we have to start the 
process again. And we can only look at one candidate. And it 
is----
    Ms. Wasserman Schultz. But you don't have any different 
process for hiring a sworn officer than any other police 
agency.
    Mr. Tapella. Yes, we do.
    Ms. Wasserman Schultz. Not compared to the Capitol Police.
    Mr. Tapella. Actually, ma'am, the Capitol Police does a 
process, and they do an annual hiring for all of their officers 
all the way through. They are in the excepted service of the 
government. They are not competitive service officers. It is a 
different process.
    Ms. Wasserman Schultz. Well, we will have to spend some 
more time talking about it. I remain concerned about the level 
of staffing in the police force at GPO and would like to 
continue to work with you, as we talked about in my office, on 
trying to figure out whether or not it is appropriate for you 
to continue with your own police force, or whether the GPO 
police force should eventually become a part of the Capitol 
Police.
    I don't have any other additional questions.
    Mr. Aderholt. I am good as well.
    Ms. Wasserman Schultz. With that, thank you very much. The 
subcommittee stands adjourned.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Allina, Amy......................................................    41
Arkush, David....................................................    41
Ayers, S.T.......................................................   261
Baish, M.A.......................................................41, 47
Bankston, Kevin..................................................    41
Beard, D.P.......................................................   117
Billington, J.H..................................................   372
Brenner, B.A.....................................................    41
Brian, Danielle..................................................    41
Chester, Jeff....................................................    41
Chrisler, Tamara.................................................   189
De Mooy, Michelle................................................    41
Dixon, Pam.......................................................    41
Dodaro, Gene.....................................................   189
Elmendorf, Douglas...............................................   189
Givens, Beth.....................................................    41
Gravell, Bethany.................................................    41
Graves, Lisa.....................................................    41
Grifo, Francesca.................................................30, 41
Hardwick, Alvin..................................................    88
Hartle, Jesse....................................................    96
Heller, Hon. Dean................................................    14
Hendricks, Evan..................................................    41
Holt, Hon. Rush..................................................     3
Huta, Leda.......................................................    41
Jarmon, Gloria...................................................   307
Jenkins, J.C.....................................................   372
Johnson, S.E.....................................................    41
Katz, Ashley.....................................................    41
Konczos, James...................................................   109
Kurtz, Paul......................................................    41
La Due Lake, Ronald..............................................    18
Livingood, W.S...................................................   117
Maltby, Lewis....................................................    41
Marshall, J.A....................................................    41
McCabe, David....................................................    41
McDermott, Patrice...............................................    41
McIntosh, Bruce..................................................    41
Medaglia, M.E....................................................   113
Melberth, R.E....................................................    41
Miller, Ellen....................................................    41
Miller, L.C......................................................   117
Monforton, Celeste...............................................    41
Moore, Kristen...................................................    41
Morse, P.D., Sr..................................................   307
Murphy, L.W......................................................    41
Musil, R.K.......................................................    41
O'Keefe, John....................................................   423
Pedery, Steve....................................................    41
Pierce, Deborah..................................................    41
Plunkett, D.W....................................................    41
Richard, John....................................................    41
Roth, Dennis.....................................................    54
Saperstein, Carl.................................................    72
Saundry, Peter...................................................    41
Schniderman, Saul................................................   101
Schwartz, Ari....................................................    41
Smith, R.E.......................................................    41
Snape, William...................................................    41
Tapella, R.C.....................................................   443
Volk, Joe........................................................    41
Werntz, Dave.....................................................    41
Zuckerman, Diana.................................................    41


                               I N D E X

                              ----------                              --
--------

                   Member and Public Witness Hearing

                                                                   Page
Opening Remarks--Chair Wasserman Schultz.........................     1
Opening Remarks--Mr. Aderholt....................................     2
Congressman Rush Holt on Reestablishing the Office of Technology 
  Assessment (OTA)...............................................     3
OTA--authorization...............................................    12
OTA--basis for establishment.....................................    12
OTA--budgetary offsets...........................................    12
Congressman Dean Heller on TRIM Growth Act.......................    14
GAO Employee Organization on GAO's FY 2011 Request...............    18
    Prepared Statement--Ron La Due Lake (GAO Employee 
      Organization)..............................................    20
    Merit Pay Negotiation Impasse................................    27
    GAO Productivity and Effectiveness...........................    29
    Recruitment and Retention....................................    29
Office of Technology Assessment (OTA)............................    30
    Testimony--Francesca Grifo...................................    30
    Prepared Statement--Francesca Grifo..........................    33
    Support Letter for OTA.......................................    41
    Rationale for OTA............................................    46
American Association of Law Libraries (AALL) on GPO's FY 2011 
  Request........................................................    47
    Prepared Statement--Mary Alice Baish (AALL)..................    50
    Discussions with the Library and GPO.........................    52
    Testimony--Mary Alice Baish (AALL)...........................    52
        FDSys....................................................    52
        Need for Paper Copies....................................    53
Congressional Research Employees Association (CREA) on CRS' FY 
  2011 Request...................................................    54
    Prepared Statement--Dennis Roth (CREA).......................    56
    Additional information from CREA--CREA on Outside Writing....    61
    Additional information from CREA--Programs and Projects 
      Initiatives................................................    65
    Additional information from CREA--Presidential Documents.....    66
    Testimony--Dennis Roth (CREA)................................    54
    Telework.....................................................    70
    OIC Restructuring............................................    71
Restriction of Tour Buses on Capitol Hill........................    72
    Testimony--Carl Saperstein...................................    72
    Prepared Statement--Carl Saperstein..........................    74
    Tour Bus Access..............................................    76
    Availability of Shuttle Buses................................    76
    Advance Coordination with the CVC............................    76
    Reservation of Buses.........................................    77
    Additional information from the Guild of Professional Tour 
      Guides.....................................................    79
GPO Police Labor Committee on GPO's FY 2011 Request..............    88
    Use of Contract Security at GPO Facilities...................    93
    Funding for Additional Officers..............................    93
    Potential Merger with USCP...................................    94
    Sworn vs. Contract Officers..................................    94
    New Officers.................................................    95
    Standard for USCP and GPO Police.............................    95
    Prepared Statement--Alvin Hardwick (GPO Police Labor 
      Committee).................................................    90
    Testimony--Alvin Hardwick (GPO Police Labor Committee).......    88
National Federation of the Blind (NFB) on the Library of 
  Congress' Talking Book Program.................................    96
    Conversion of Non-NLS Material...............................   100
    Digital Talking Book.........................................   101
    Use of Audio Books...........................................   101
    Prepared Statement--Jesse Hartle (NFB).......................    98
    Testimony--Jesse Hartle (NFB)................................    96
Library of Congress Professional Guild on the Library of 
  Congress' FY 2011 Request......................................   101
    Copyright Office Backlog.....................................   107
    EEO Issues...................................................   107
    Library Entrances............................................   108
    Prepared Statement--Saul Schniderman (Library of Congress 
      Professional Guild)........................................   104
    Testimony--Saul Schniderman (Library of Congress Professional 
      Guild).....................................................   101
United States Capitol Police Labor Committee on USCP's FY 2011 
  Request........................................................   109
    Prepared Statement--James Konczos............................   110
    Testimony--James Konczos.....................................   109
    Retirement System............................................   111
    Library of Congress Police Merger............................   111
    Retirement Benefits..........................................   112
Statement submitted by the American Bar Association..............   113

                     U.S. House of Representatives

Additional Assignments from the Chair............................   175
Cell Phone Coverage..............................................   167
Web Site Security................................................   167
Third-Party Vendors..............................................   168
House ID System..................................................   169
Communication in Capitol and CVC.................................   159
Cost of Food in Cafeterias.......................................   151
Food Service Contracts...........................................   157
Staff Access.....................................................   170
Emergency Evacuation Plan........................................   156
Energy Demonstration Projects....................................   153
District Office Energy Consultations.............................   154
Passwords on Blackberrys.........................................   155
Number of Roll Call Votes........................................   161
House Library....................................................   161
Historical Services--Members' Papers.............................   162
Responsibilities of Curator and Historian........................   164
Student Loan Repayment Program...................................   164
Hearing Room Equipment Upgrades..................................   164
Office of Congressional Ethics Leased Space......................   166
House Staffing and Diversity.....................................   153
House Library....................................................   161
Capitol Police Budget Shortfall..................................   172
USCP IG Investigation............................................   174
Screening Process................................................   174
Opening Remarks--Chair Wasserman Schultz.........................   117
Opening Remarks--Mr. Aderholt....................................   117
Opening Statement--Bill Livingood, House Sergeant-at-Arms........   143
Opening Statement--Dan Beard, CAO of the House...................   130
Opening Statement--Lorraine Miller, Clerk of the House...........   118
Prepared Statement--Bill Livingood, House Sergeant-at-Arms.......   145
Prepared Statement--Dan Beard, CAO of the House..................   132
Prepared Statement--Lorraine Miller, Clerk of the House..........   121
Questions for the Record--Chair Wasserman Schultz................   178
    Continued Problems with the Payroll and Finance Offices......   178
    Student Loan Repayment Program...............................   179
    MRA..........................................................   179
    Food Services................................................   180
    Unobligated Balances.........................................   184
    Wounded Warrior..............................................   183

                      Congressional Budget Office

Opening Remarks--Chair Wasserman Schulz..........................   189
Opening Remarks--Mr. Aderholt....................................   189
Opening Statement--Mr. Elmendorf.................................   189
Additional information from CBO..................................   192
Prepared Testimony--Mr. Elmendorf................................   196
Revisions to Scores..............................................   202
Diversity at CBO.................................................   203
Office Space and Capacity........................................   204
Length of Time for Health Reform Legislation Estimates...........   205
Estimate for Health Care Legislation.............................   206
Security Clearances..............................................   207
Cuts to Coast Guard..............................................   207
Coordination with GAO............................................   207
Request for Additional FTEs......................................   208
Optimal Size of CBO, Recruitment, and Retention..................   208
Hiring of Foreign Nationals......................................   209
Questions for the Record.........................................   211
    Retention....................................................   211
    Staffing.....................................................   211
    Budget.......................................................   212

                 Government Accountability Office (GAO)

Appreciation of GAO and CBO Employees............................   234
GAO Attrition....................................................   231
GAO Management and Union Negotiations............................   228
GAO's Efforts in Iraq, Afghanistan, and Pakistan.................   230
GAO's Involvement with the Capitol Police Budget.................   231
GAO's Request to Maintain Current Recovery Act Staff Level.......   228
GAO's Role in Technology Assessments.............................   229
Intelligence Audit Challenges....................................   233
Opening Remarks--Chair Wasserman Schulz..........................   214
Opening Remarks--Mr. Aderholt....................................   214
Opening Statement--Mr. Dodaro....................................   214
Prepared Statement--Mr. Dodaro...................................   216
Questions for the Record.........................................   235
    Staffing.....................................................   235
    Technology Assessments.......................................   236
    Workload.....................................................   236
    Budget.......................................................   237

                          Office of Compliance

Additional Assignment from the Chair.............................   249
Additional Assignment--OOC Workload and Staffing.................   251
Impact of Zero Growth Budget.....................................   248
Life Safety Citations and Infrastructure Deficiencies............   249
Office Space and Information Technology..........................   246
Opening Remarks--Chair Wasserman Shultz..........................   238
Opening Remarks--Mr. Aderholt....................................   238
Opening Statement--Ms. Chrisler..................................   238
Prepared Testimony--Ms. Chrisler.................................   241
Types of Hazards Identified......................................   248
Within-Grade Pay Increases and Promotions........................   246
Question for the Record..........................................   259
    Flat Budget..................................................   259
    Budget Request for Within-Grade Pay Increases and Promotions.   259

                        Architect of the Capitol

Additional Assignment from the Chair.............................   298
Addressing Tour Companies' Concerns..............................   280
AOC Operations...................................................   263
Bartholdi Park...................................................   288
Building Renovation Schedules....................................   286
Cannon Renewal Project...........................................   293
Capital Renewal Initiative.......................................   286
Critical Need Priorities.........................................   262
CVC Alarms.......................................................   285
CVC Operations--Logistical Directives............................   284
CVC Shuttle Accommodations.......................................   279
CVC Staffing Request.............................................   288
CVC Training Curriculum..........................................   291
Deferred Maintenance Backlog.....................................   280
Deputy vs. Special Assistant Position Requests...................   289
Diversity Depicted Within the Capitol............................   283
East House Underground Garage....................................   296
Energy Audits/Utility Improvement Program........................   282
Energy Saving Initiatives........................................   263
Energy Saving Performance Contracts..............................   295
ESPCS Long Term Costs/Savings....................................   295
Exit Interviews..................................................   294
Facility Renewal Schedule/Cost Updates...........................   297
FY 2011 Budget Request...........................................   261
Historical Detailed Storytelling.................................   291
Interpretive Curator.............................................   289
Member Concerns..................................................   284
Opening Remarks--Chair Wasserman Shultz..........................   261
Opening Remarks--Mr. Aderholt....................................   262
Opening Statement--Mr. Ayers.....................................   262
Physically Challenged Tourists...................................   279
Prepared Testimony--Mr. Ayers....................................   264
Project Prioritization...........................................   281
Recycling Perception.............................................   292
Recycling Program................................................   292
Signage..........................................................   285
Small Business Participation.....................................   281
Staff Position Conversions.......................................   294
Tour Group Accommodations........................................   279
Tour Guides and Training.........................................   290
Tunnel Workers and Health Concerns...............................   287
U.S. Capitol Police Radio Modernization Project..................   287
U.S. Capitol Structural Observations.............................   283
Questions for the Record.........................................   298
    Flat Budget..................................................   298
    Federal Office Building 8 Cost and Schedule..................   300
    Capital Improvements Plan and Deferred Maintenance Backlog...   301
    Capitol Power Plant Staffing.................................   303

                          U.S. Capitol Police

Budget Processes.................................................   350
Capitol Police Material Weaknesses...............................   331
Capitol Police Performance.......................................   327
Capitol Police Radio Modernization Budget Request................   330
Capitol Police Retirement........................................   356
Design for New Capitol Police Radio Project......................   354
FY 2010 Budget Shortfall.........................................   326
Government Printing Office Police................................   359
Growth of Capitol Police.........................................   325
Inspector General Audit of the Capitol Police Budget Shortfall...   329
Off-site Delivery Screening Study................................   353
Opening Remarks--Chair Wasserman Shultz..........................   307
Opening Remarks--Mr. Aderholt....................................   308
Opening Statement--Chief Morse...................................   308
Overtime.........................................................   350
Police Budget Models.............................................   328
Prepared Testimony--Chief Morse..................................   310
Responsibility for Budget Formulation and Execution..............   323
Responsibility of the Chief Administrative Officer...............   326
Signage in the CVC...............................................   329
Staff Access.....................................................   327
The Architect of the Capitol and the Police Radio Project........   355
Questions for the Record--Chair Wasserman Schultz................   361
    Staffing.....................................................   361
    Training.....................................................   363
    Civilianization..............................................   364
Additional Assignment from the Chair.............................   366
    Budget.......................................................   366
    Contracting..................................................   367
    Scope of IG Report...........................................   367
Questions for the Record--Mr. Aderholt...........................   368
    Radio Modernization Program..................................   368
    Budget Formulation and Execution System......................   369
    Recommendations Addressing Financial Weakness................   370

                          Library of Congress

Acquisition Costs................................................   414
Acquisitions of Overseas Offices.................................   405
Copyright Processing Backlog.....................................   406
CRS Client Survey................................................   400
CRS Hiring Practices.............................................   400
CRS Request for Additional Staff.................................   395
CRS Research Products............................................   399
Demand for Collection Materials at Fort Meade....................   401
Digital Content Supplements Artifactual Collections..............   397
Digital Talking Book Program Status..............................   404
Funding Request for Training and Development Program.............   403
Impact of Digital Technology on Library Mission..................   396
Importance of New Storage Space at Fort Meade....................   398
Lawsuit Regarding Dismissal of Probationary Employee.............   400
Mandatory Pay Requirements.......................................   407
Merger with Capitol Police.......................................   404
Opening Remarks--Chair Wasserman Schultz.........................   372
Opening Remarks--Mr. Aderholt....................................   373
Opening Statement of the Librarian...............................   373
Overseas Office System Replacement Requirement...................   403
Overseas Offices.................................................   403
Prepared Testimony--Daniel P. Mulhollan..........................   390
Prepared Testimony--Dr. Billington...............................   376
Prepared Testimony--Marybeth Peters..............................   383
Request for Supervisory Staff Support............................   402
Staffing of Office of Opportunity, Inclusiveness and Compliance..   401
Questions for the Record--Chair Wasserman Schultz................   418
    Office of Opportunity, Inclusiveness and Compliance..........   418
    Law Library..................................................   418
    Inventory Management.........................................   418
    Books for the Blind..........................................   419
    Overseas Offices.............................................   419
    Office of Security and Emergency Preparedness................   420
    Architectural and Engineering Design.........................   421

                      Open World Leadership Center

Flat Budget Scenario.............................................   435
Gifts and Donations..............................................   435
How Open World Serves Congress...................................   439
Importance of the Region.........................................   440
Observations of Board Chairman Dr. James Billington..............   440
Opening Remarks--Chair Wasserman Schultz.........................   423
Opening Statement of Ambassador O'Keefe..........................   423
Plan for Diversified Funding.....................................   436
Prepared Statement-- Ambassador John O'Keefe.....................   425
Reduction in FTEs................................................   435

                       Government Printing Office

Errors on Appropriations Prints..................................   457
Federal Digital System...........................................   454
GPO Police Staffing..............................................   460
GPO's Building No. 4.............................................   455
Hiring Additional Police Officers................................   460
Opening Remarks--Chair Wasserman Schultz.........................   443
Opening Remarks--Mr. Aderholt....................................   443
Opening Statement--Mr. Tapella...................................   443
Passport Revenues................................................   456
Prepared Statement--Mr. Tapella..................................   446
Remarks on GPO Security Services.................................   444
Workforce Diversity and EEO......................................   453
Workforce Preparedness for Technology Changes....................   454
Questions for the Record.........................................   462
    Workforce Diversity..........................................   462
    Fdsys Remaining Development and Operational Requirements.....   463
    Federal Digital System (Fdsys) Development Cost and Scope....   464
    Federal Digital System (Fdsys) Program Redirection...........   466
    Electronic Archiving of Federal Website Content and Historic 
      Congressional Documents....................................   467
    Determining Police Requirements..............................   469
    Merging the GPO Police with the Capitol Police...............   469
    Errors on Appropriations Prints..............................   470
    Microcomp Replacement........................................   471
    Personnel and Technological Change...........................   472
    Consolidation of Building 4..................................   473
    Continuity of Operations Alternate Distant Site..............   474
    Environmental Impact Abatement...............................   476
    EEO Complaints and Diversity.................................   480
    Flat Budget..................................................   481

                                  <all>

</pre></body></html>
